<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2008</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2008

                              ----------                              


                       WEDNESDAY, APRIL 11, 2007

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:33 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Leahy, Dorgan, Durbin, Mikulski, 
Murray, Stevens, Domenici, and Bond.

                         DEPARTMENT OF DEFENSE

                             National Guard

STATEMENT OF LIEUTENANT GENERAL H STEVEN BLUM, CHIEF

                 STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. This morning the subcommittee meets to 
receive testimony on the fiscal year 2008 budget request for 
the National Guard and Reserve components. I welcome today's 
witnesses from the National Guard, Chief of the National Guard 
Bureau, General Steven Blum; Director of the Army National 
Guard, General Clyde Vaughn; Director of the Air National 
Guard, General Craig McKinley; and from the Reserve, Chief of 
the Army Reserve, General Jack Stultz; and Chief of the Naval 
Reserve, Admiral John Cotton; Commander of the Marine Forces 
Reserve, General John Bergman; and Chief of the Air Force 
Reserve, General John Bradley.
    Gentlemen, as you know, the role of the National Guard and 
Reserve has changed dramatically over the past few years. 
Currently, we have thousands of guardsmen and reservists 
deployed to Iraq and Afghanistan, many of whom already in their 
second tours.
    I just met an airman who I believe was on his third tour, 
completed his third tour and an Army man on his fourth tour. 
The forces have been fully integrated into operations there and 
have proven to be essential to the mission. We are going to 
make certain that you have the resources you need to train and 
equip these valuable service men and women.
    We are pleased to see that recruitment has improved 
although I am concerned that the Army and Navy Reserves are 
still not fulfilling their recruiting missions. We hope to hear 
today about what you are all doing to continue to attract 
quality recruits.
    Retention levels remain strong but as guardsmen and 
reservists face multiple deployments, the strain on troops and 
their families could begin to show. We want to make certain 
that you have the resources required to return experienced 
servicemembers and provide them with support that the Guard and 
Reserve families need as they transition in and out of civilian 
life.
    Guard and Reserve equipment levels continue to be a 
concern. Significant shortages have been identified. We will 
continue to work with the services to improve equipment quality 
and quantity so that Guard and Reserve troops have the 
equipment they need for training and operations here and 
abroad.
    Gentlemen, we face significant challenges in providing for 
the personnel and equipment needs of the National Guard and 
Reserve during these demanding times. I look forward to hearing 
your recommendations for strengthening our forces and I thank 
you for your testimony this morning. Your full statements will 
be included in the record and our first witness is General Blum 
and I now call upon the vice chairman of the subcommittee.

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Thank you very much. I do subscribe to 
what the chairman has said but I want to add that this 
subcommittee hearing was part of the whole development of the 
tunnel force contact and I do believe it's worked. It's worked 
and brought us a very strong military but the difficulty is 
that it appears that it's slowly but surely becoming not just a 
total force but a permanent total force for the Guard and 
Reserve.
    I think some of the policies we're looking at now have to 
be reviewed from the point of view of funding because we need 
to be assured that these people who are citizens soldiers in 
terms of the Guard and Reserve, still have an ability to 
maintain their civilian jobs, maintain their civilian 
participation that they are not a regular military and yet 
increasingly, they seem to be treated as such.
    Well, I hope that you'll be very frank with us in terms of 
your answers concerning this process. I don't fault anybody. I 
think it really is a development of the system that the 
challenges we're now facing that aren't going to go away no 
matter what happens in Iraq and Afghanistan that they are 
worldwide, in my opinion.
    So if you're really going to help us, I think, to tell us, 
where we are going from here? Should we expand the Guard? 
Should we expand the Reserve? We are going to expand the 
regular force, very clearly. But it does seem to me that as the 
chairman's mission, the period of time between deployments is a 
disadvantage for maintaining the civilian aspect of the citizen 
soldier that is involved in your units in the Guard and 
Reserves.
    So I look forward to your testimony. I think we've got a 
lot of work to do. Thank you.
    Senator Inouye. I'll now call upon the Chief of the 
National Guard and Reserves.
    General Blum. Good morning, Chairman Inouye, Senator 
Stevens, distinguished members of this subcommittee. I'd first 
like to say thanks for the solid support that this subcommittee 
gives our citizen soldiers that serve on the land, on the sea, 
in the air, and your in-depth understanding of the unique dual 
role of the National Guard. From your statements this morning 
you have a clear understanding of some of the challenges that 
we face with the All Volunteer Force as we move from being 
strictly a strategic Reserve only to being both an operational 
force as well as the strategic Reserve for this Nation.
    I'll introduce my Director of the Army National Guard, 
Clyde Vaughn to my right and Lieutenant General Craig McKinley, 
the Director of the Air National Guard who are here today for 
response to in-depth questions on issues relating to the Army 
and the Air National Guard.
    Also with me today, very important, particularly following 
on the comments of Senator Stevens, we have our Command 
Sergeant Major for the National Guard Bureau. Sir, you may 
recognize him here as an Alaska State trooper for 20 years. He 
retired from the State troopers. He has served in the United 
States Air Force and he serves in the Army National Guard. 
Today he represents 460,000 citizen soldiers and airmen from 
the Army and Air National Guard all around the country.
    The senior enlisted command sergeant major from the Army 
National Guard, John Gipe, is here this morning and most 
important, I have two individuals that Senator Inouye has 
already alluded to. The first--I'll start with the youngest 
first.
    Daniel, if you'd please stand up. This is a staff sergeant. 
He is 23 years. At 23 years of age, he has just completed his 
third combat tour in Iraq, one in Kirkuk and two in Baghdad. He 
comes from Klamath Falls, Oregon. He is a combat air controller 
and he has been the Airman of the Year and the NCO of the year 
back in Oregon. He represents the most committed, mature, 
experienced, professional force we've had in 371 years in our 
organization.
    The sad part of it is that while we have the very best 
people, with this kind of experience and this kind of 
commitment, the equipment that Daniel, and others like him, has 
to operate back in Oregon was built in 1953. Now imagine being 
a combat controller for a critical mission like that and 
operating with unreliable, old equipment built in 1953. I think 
that says it all. So while we have the best people, we have 
some significant equipment challenges.
    Also next to him is a 40-year-old Wichita, Kansas police 
officer who is a member of the 2nd Battalion, 137th Infantry 
and he is from Charlie Company. He has just completed a tour in 
Iraq. He came back in November. Prior to that he served two 
previous combat tours with the United States Marine Corps in 
Desert Storm and also the United States Marine Corps in 
Somalia.
    This experienced infantryman, a highly decorated NCO, is a 
platoon sergeant, which is, as you well know, sir, from your 
combat experience, is where the rubber meets the road. That's 
where it happens. That's where the real leadership challenges 
are. The policy really reaches to the fox holes and the person 
that makes that happen is the platoon sergeant.
    He is married. His wife is a signal officer in the Kansas 
National Guard so it is truly a Guard family. He has two 
children--Nick, 16 and a daughter, Zoey, who is 14. He doesn't 
have a problem with old equipment, he has a problem with no 
equipment. His unit, when they came back in November, came back 
to two Humvees that were left because they were not good enough 
to go to war. That's the only equipment that he has in his unit 
today.
    If Governor Sebelius from Kansas would need the 2nd 
Battalion 137th to respond to a tornado or a winter storm or 
any other emergency, the capability of that unit is minimized; 
not because of the great people but because of a lack of 
equipment that is in that unit right now.
    Thanks, guys. Thanks for your service.
    I think I'll reduce my statement down to a bare minimum 
because of the clear understanding that this subcommittee has 
for the issues that are at hand. The two citizen soldiers and 
airmen that you just met, say more than I could read off of 
this paper.
    We have had the Army National Guard now for almost 371 
years and today, after all that time, the National Guard is 
still the Nation's best defense bargain. The Army National 
Guard makes up almost 40 percent of the United States Army 
combat, combat support and combat service support structure. It 
does this for about 11 percent of the Army's budget; a bargain 
for the American taxpayer. We represent a 365-day on call 
capability for about 11 percent of what it costs to maintain 
that capability on active duty.
    The Air National Guard similarly gets only 6 percent of the 
Air Force's budget, but produces over one-third of everything 
in the United States Air Force. It flies over one-third of the 
United States Air Force aircraft every day, whether we are at 
war or whether we are at peace. Your Army and Air National 
Guard are the only Department of Defense forces that can be 
called upon by the Governors with no notice to do what is 
necessary in the zip codes where your constituents reside.
    The National Guard today, I'm sad to say, is not a fully 
ready force. Unresourced--shortfalls still exist that approach 
$40 billion to provide the equipment and the training that I 
personally feel your Army and Air National Guard are expected 
to have to be able to respond to the citizens of the United 
States.
    Overseas, we are superbly equipped, and superbly trained. 
We want for nothing overseas because the Congress of the United 
States has ensured that we're adequately resourced in the 
Department of the Army. The Department of the Air Force, 
Department of Defense are dedicated to not sending any sons and 
daughters of this Nation into harm's way without the very best 
equipment possible. You'll find no difference between the 
National Guard and the active forces currently serving 
overseas.
    Back here at home, it's a different story. It's a much 
different story and it's not a good story. Most of the units in 
the Army and Air National Guard are underequipped for the jobs 
and the missions that they have to perform with no notice here 
at home.
    Can we do the job? Yes, we can. The lack of equipment makes 
it take longer to do that job. Lost time can translate into 
lost lives. Those lost lives are American lives. There will be 
those that say that we can't afford this kind of money to 
properly equip and train our National Guard.
    I take exception with anyone that would hold that opinion. 
I think that this Nation cannot afford the consequences of a 
non-ready Army and Air National Guard.
    In closing, I would reiterate to this subcommittee that in 
this 21st century, we face threats both here at home and 
overseas and that a strong, properly resourced National Guard, 
I think, is the best critical deterrent for any of our 
adversaries overseas that might miscalculate and think that we 
are unable to respond.
    So if we were more strongly resourced, equipped and trained 
here at home, it would have an additional benefit, in my view, 
of providing a credible deterrent to those who would wish ill 
against our Nation here at home or abroad.
    Thanks again for your historically generous support of your 
citizen-soldiers and airmen. Your past funding efforts with the 
National Guard and Reserve equipment account were able to 
deliver the capability that the American citizens expect out of 
their National Guard in minutes and hours, which truly are and 
want to remain the 21st century minute men and women for this 
Nation. With your help, we'll be able to do that.

                           PREPARED STATEMENT

    At this time, I'll turn it over to General Vaughn who will 
make some brief statement and then we'll stand ready to take 
any questions, sir--Mr. Chairman--that you might have.
    Senator Inouye. Thank you, General.
    [The statement follows:]

         Prepared Statement of Lieutenant General H Steven Blum

    Chairman Inouye and distinguished members of the subcommittee, 
thank you for the opportunity to speak to you today about the state of 
readiness in the Army and Air National Guard. The Army and Air National 
Guard are engaged with our active component Army and Air Force 
counterparts in combat operations. You can be proud that the citizen-
soldiers and airmen of your Army and Air National Guard are ready to 
answer the Nation's call to arms.
    The National Guardsmen who are mobilized and deployed overseas are 
superbly trained and equipped. Like their active duty counterparts, 
they are unquestionably the best trained and best equipped American 
fighting force in history. In the past four years, the increased 
operational tempo and, in the case of the Army National Guard, the need 
to cross-level personnel and equipment from non-deploying units to 
increase readiness of deploying units, has resulted in a decline of 
readiness for units here at home.
    The President's budget request is now before the Congress. That 
request includes an unprecedented commitment and investment by the Army 
to improve the equipment readiness of the Army National Guard. The 
President's budget also seeks the funding needed for the Air National 
Guard to continue to be fully-integrated modern total force partner for 
the Air Force. It is imperative that the National Guard receives the 
full support of Congress for every penny in that request.
    Last year, Congress provided $150 million for Army and Air National 
Guard in the National Guard and Reserve Equipment account. Millions 
more were provided in Service procurement accounts. Congress also 
provided another $500 million as part of the broader Army reset funds. 
This was extremely helpful in addressing the equipment needs of our 
citizen-soldiers. The National Guard is tremendously grateful for this 
support. I must implore this committee, in the strongest possible way, 
to remain steadfast in your dedication to addressing the persistent 
equipment shortfalls we face.
    The Secretary of Defense's decision to limit Guard and Reserve 
mobilizations to 12 months is truly historic. His new mobilization 
policy will have significant positive long-term effects on personnel 
readiness, unit cohesion, and employer, family and public support. In 
order to give our soldiers a shorter total mobilization period and 
maximize time in theater for the combatant commander, it is imperative 
that we reduce post-mobilization training time prior to deployment and 
accomplish more of it at home station prior to the mobilization to 
active duty. We need the equipment to do that training.
    In fiscal year 2008, the Air National Guard is accepting risk in 
its modernization and recapitalization programs such as Precision 
Engagement, Datalink/Combat Identification, 24-hour operations, and 
Enhanced Survivability. In addition to the Air National Guard equipment 
needs, we have identified Air Guard funding challenges in the areas of 
transformation, Total Force Integration (TFI), Base Realignment and 
Closure Implementation, new mission bed down, recruiting, retraining, 
and other program shortfalls.

                               CONCLUSION

    Mr. Chairman, your National Guard is fully up to the task of 
answering the call to duty. At the National Guard Bureau, we are 
absolutely committed to working closely with the Services to 
effectively implement fresh ideas and new approaches to meet the 
challenges we face today in such a way that our citizen-soldiers can be 
trained and ready to serve and that their service will be of a nature 
that they will continue to serve for years to come.
    I have included a copy of the 2008 National Guard Posture Statement 
for the record. We welcome your questions.

               The National Guard Posture Statement 2008

                           EXECUTIVE SUMMARY

    September 11, 2001 was an abrupt and heinous wake up call for the 
United States, the National Guard and the American military. That day 
marked the beginning of a no-notice transformation of the National 
Guard, as our nation entered a new era--an era marked by suicide 
bombers, radical terrorists and a global threat very different than 
anything seen before. For the Minutemen and women of the National 
Guard, it was a call to arms, and they have been answering that call to 
support and defend America and its freedoms and our very way of life 
every day since.
    For the National Guard, it was a ``back to the future'' moment. A 
moment where we needed to take stock of the fact that we were no longer 
a federal strategic reserve, but rather warriors on the front line of a 
global war on terrorism. We had to recognize that our demonstrated 
ability to immediately respond, deploy and employ our forces on the 
home front for 370 years needed to grow to include the same capability 
in our federal missions. September 11, 2001 marked the birth of the 
full-spectrum, global Minuteman. Full spectrum readiness means homeland 
defense in depth. The historic and traditional Guard homeland defense 
mission had taken on a global importance while remaining the very 
foundation of American freedom. The Guard had to expand its readiness, 
agility and accessibility portfolios to include operations across the 
full spectrum of engagements.
    That new reality dictated that we be trained, equipped, manned and 
resourced to operate in all mission areas, and perform them 
simultaneously. The full spectrum of operations required us to take a 
hard look at where we were and determine what resources and initiatives 
were critical to evolving as the 21st century minutemen America needed.
    In just the last five years, the Guard has conducted a staggeringly 
diverse set of missions--from traditional state missions like military 
support to civil law enforcement and supporting civil agencies in local 
crisis and consequence management, to national-level missions like 
providing regional consequence management capabilities, conducting 
counter-narcotics missions, and supporting airport, border, and 
critical infrastructure security, to air sovereignty and ballistic 
missile defense of the homeland. Beyond our borders, the Guard's 
mission-set included not just the warfight overseas, but critical 
contributions to the theater security cooperation agreements of all our 
regional combatant commanders, such as our immensely successful State 
Partnership Program.
    The Guard has performed all of these diverse missions so well that 
the Department of Defense and the Congress are examining relationships 
and missions with a view to ensuring even greater capability for the 
modern, 21st century Minuteman. The National Guard provides an 
incredible array of capabilities to both our nation's President and its 
Governors.
    Central to achieving this greater capability was our effort to 
identify the critically essential organizations, equipment and training 
that would be necessary to accomplish the full range of potential 
missions here in America. These capabilities are the ``essential 10,'' 
and they include: the right kind of joint, interagency, 
intergovernmental headquarters to manage operations and, receive, 
stage, and integrate follow-on forces; Weapons of Mass Destruction 
(WMD) detection and advisory capabilities; maintenance; engineer; 
aviation; medical; communications; transportation; security; and 
logistics capabilities. Four years after 9/11 the nation and the Guard 
were again tested with a second ``wake up'' call. The Guard's 
performance following Hurricane Katrina may go down in history as its 
finest hour, and in the process, America gained the context for better 
understanding its National Guard. Our nation's Governors--every one of 
them--reached out and willingly sent their own Guard troops to help 
their fellow Governors on the Gulf Coast through a set of existing 
compacts among the states, avoiding the delays inherent in the federal 
mission validation and mobilization process.
    The National Guard has transformed:
  --To ensure we are equal to the contemporary challenges we are asked 
        to confront across the full spectrum of operations;
  --To ensure we have the right types of trained and ready 
        capabilities, at the right levels in each of the states, to 
        respond to the calls of the Governors; and
  --To fully leverage all of our war fight capabilities in times of 
        domestic need.
    Our transformation combined with the commitment of our elected 
leaders at all levels allowed us to answer all calls to duty, meeting 
both global and domestic needs.
    The National Guard is essential to building coalition partnerships. 
The National Guard's State Partnership Program continues to grow and 
flourish as one of the most valuable theater security cooperation tools 
available to the regional combatant commanders. These partnerships are 
critically important to global peace, freedom and national security 
objectives. Just last Fall, the state of Ohio and the Republic of 
Serbia--a country we bombed less than a decade ago--sealed a historic 
State Partnership, a key component in the security cooperation plans of 
the U.S. State Department and the combatant commander in U.S. European 
Command. We now total 56 partnerships and anticipate more in the coming 
months. The Guard Partnership Program significantly empowers the 
regional combatant commanders' theater security cooperation efforts.
    The National Guard is integrated into the Homeland Security plans 
of every state and federal Homeland Defense plans. We exercise in our 
communities with the civilian emergency planners and emergency 
responders. The National Guard is a national treasure and a national 
bargain as well. It is providing real, critically needed skills and 
real capabilities--not just some PowerPoint slide promises that never 
materialize. For the National Guard, homeland security is deeds, not 
words.
    The Guard's progress and proven performance has been simply 
incredible. In five short years, the Guard has developed and delivered 
an incredible and unmatched array of critically needed homeland 
defense, homeland security and emergency response capabilities.
    Since the September 11 attacks, the National Guard has added forty-
five weapons of mass destruction--civil support teams; seventeen 
chemical, biological, radiological, nuclear and high-yield explosive 
enhanced response force packages; fifty-four computer emergency 
response teams; six critical infrastructure protection-mission 
assurance assessment detachments; fifty-four rapid reaction forces; 
fifty-four 24-hour a day joint operations centers; and numerous other 
capabilities.
    This has all occurred at the same time the Guard is fighting the 
global war on terror, conducting homeland defense operations, 
supporting Governors' Homeland Security requirements, responding to 
catastrophes and disasters, and conducting domestic missions. In every 
theater, the Guard is there. In every operation, the Guard is there. 
That's the way it should be, because when you call out the Guard, you 
call out America. Few, if any, organizations anywhere in the world 
progressed this much on so many important issues in five short years.
    The Guard is the first military responder to the Governor's calls 
for assistance in securing the homeland. Through continuous 
collaboration, the Guard is strengthening its relationship with 
NORTHCOM to ensure synchronization of our military capabilities.
    The Guard has on numerous occasions since September 11, 2001, 
secured our nation's airports at the requests of the President and the 
Governors. The Guard is providing support to U.S. Customs and Border 
Protection--including the Presidentially-directed Operation Jump 
Start--and is providing deterrent and counter-terrorism forces. In New 
York armed Guardsmen have been on duty every day throughout the state 
since 9/11. It is all about protecting and saving American lives--
anytime, anyplace--on land, at sea or in the air. It is the National 
Guard that delivers peace of mind and confidence in government.
    The National Guard continues to meet community needs through 
programs like: Counter drug support; drug Demand Reduction programs; 
family programs; innovative readiness training programs designed to 
meet community needs; rendering last honors to fallen veterans; and 
youth programs like the 30 ChalleNGe programs in 26 states.
    The National Guard has maintained its commitment to the Youth 
ChalleNGe program despite the many other demands on its time and 
resources. Helping at-risk high school dropouts regain their footing is 
an investment in America. The program has graduated some 60,000 youths, 
in the process saving many of them from either a cemetery or a jail 
cell. The National Guard is proud of its nationally recognized efforts 
to build a stronger, safer, more productive America.
    The Guard has proven its cost-effective capability across the full 
spectrum of operations. While providing more than a third of both the 
Army and Air Force's force structure, the Guard costs a fraction of 
that to maintain. And the National Guard investment goes even further 
for the American people because the Guard capabilities are immediately 
available nationwide to the Governors and the American people in time 
of need.
    Our nation's future defense challenges are daunting. The Guard's 
performance offers America options as we wrestle with the needs for 
increased military capabilities in an era of limited funding. The 
demonstrated performance of the Guard enables the Army and Air Force.
    The days of questioning whether the Guard can perform a given 
mission are long past. The only questions today are whether they want 
the Guard to perform the mission and whether they will resource the 
Guard to do so. Our Citizen-Soldiers and -Airmen want for nothing as 
far as equipment in the combat zone, and that's the way it should be. 
However, we have concern for missions here at home. Congress began 
addressing this situation in the past year, and the President's fiscal 
year 2008 Budget provides unprecedented levels of funding for the 
National Guard, particularly in ensuring that the Soldiers and Airmen 
deployed to combat are the best-equipped in the world. But it accepts 
risk in the areas of Homeland Defense, Homeland Security, and Military 
Support to Civil Authorities.
    Our priorities must remain focused on maintaining a fully manned, 
fully trained, fully equipped and fully resourced force. We must 
complete our transformation for 21st century missions, fully integrated 
with the Army and Air Force. Operationally, we must focus on full-
spectrum readiness and leveraging joint capabilities. In summary, we 
must be trained, equipped and ready for both the seen and unforeseen 
challenges that lie ahead. The Guard must continue to embrace the 
Minuteman posture--ready at a moments notice to answer the call to the 
colors. Readiness starts with our people and we must continue to 
recruit and retain the best in America. We have done that, and the 
story of that success is one of the highlights of this past year. The 
key has been to reward our own people for spreading the good word about 
the Guard to their family and friends, building our strength one 
personal relationship at a time, getting back to our roots in the early 
days of the volunteer militia.
    Defying predictions that the Guard's numbers would shrink to 
324,000 Citizen-Soldiers in 2006, the Army Guard instead had its best 
year of recruiting in 35 years. Recruiting and retention must remain an 
absolute priority. To do this, we must continue to encourage an 
environment where our troops are supported by families, employers and 
communities.
    The National Guard has the capability to conduct operations across 
the full spectrum of engagements from domestic missions and emergency 
response, through homeland security and homeland defense, to the 
federal war fight and overseas missions. The governors--the commanders 
in chief of the Guard while not in federal service--need the Guard in 
order to respond to domestic crises and natural disasters. They also 
have equities in homeland defense and homeland security contingencies 
that overlap the federal responsibilities for these missions.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In the chart above, state equities are illustrated by the gray bar, 
while federal equities are illustrated by the orange bar below it. The 
1-4-2-1 in the orange bar reflects the spectrum of federal military 
missions as defined by the National Military Strategy.
    The missions in the central gray area (written in blue) are tasks 
that combine state and federal equities, and that the Guard has 
performed in a Title 32 status--federally funded, but under state 
control. The missions in red toward the right of the spectrum are 
conducted in an entirely federal, Title 10 status. The missions written 
in orange to the far left--hundreds of them each year--are 
traditionally conducted in State Active Duty status and are entirely 
state-funded and state controlled.
    This new reality dictates that the Guard must be trained, equipped, 
manned and resourced to operate in all mission areas.
    We are working hard to ensure that every Army and Air Guard member 
knows what their organizational mission and its future looks like. The 
Guard has always been and always will remain a community-based force. 
We are focused on operational readiness to answer the calls of our 
Governors and the President, seamlessly integrate with the active 
components, and meet the needs of the combatant commanders. We remain 
engaged in the interagency and intergovernmental arenas, and local 
communities. And, finally, with the assistance of Congress, we will 
continue to transform to remain ready, reliable, essential and 
accessible. The National Guard--Always Ready, Always There
 lieutenant general clyde a. vaughn, vice chief, national guard bureau 
                   and director, army national guard
            ``serving a nation at war: at home and abroad''
                       message from the director
    What a year! The Army National Guard (ARNG) dealt with many 
challenges and changes during 2006. Units came home from overseas 
deployments as new units were called up, trained and sent to Iraq and 
Afghanistan. Operations continued in the Balkans and up to 6,000 Army 
National Guard Soldiers reported to the Southwest border to help U.S. 
Customs and Border Protection stop illegal immigrants and drug 
trafficking during Operation Jump Start. Guard Soldiers also assisted 
with emergencies created by snow, floods and landslides throughout the 
United States at the same time that the Army Guard shifted its force 
structure to a modular design. As we begin our 370th year, the ARNG 
continues to be an important element in the nation's emergency 
preparedness network with missions both at home and abroad.
    It's difficult to prioritize the numerous successes the ARNG 
achieved in 2006, but if there is one, it is in the recruiting and 
retention area. This revolutionary change and effort by the states 
really highlights the care that our Soldiers have received from the 
local communities and leadership. We're at an all-time high in terms of 
pride in the organization. Our recruiting efforts are about having 
great recruiters. The G-RAP program (the Guard Recruiting Assistance 
Program provides bonuses to Guard Soldiers for recruiting new members) 
is second to none. It has put us in great shape for the future.
    The ARNG is also adaptive to change and has gone through an 
evolutionary restructuring since the early 1990's. Since then, the ARNG 
has transformed to meet the demands of a new global environment. Along 
with the Army, we are undergoing a modular force conversion which 
converts our formations from a division-centric force (18,000 Soldiers) 
to a more flexible brigade-centric force (4,000 Soldiers). This 
transformation creates forces that are stand-alone and alike (modular) 
while enhancing their full-spectrum capabilities. The ARNG Brigade 
Combat Teams are structured and manned identically to those in the 
Active Army.
    This Posture Statement provides you with details about how the ARNG 
continues to defend our nation at home and abroad. As you read this, 
please know that the National Guard remains Always Ready, Always There.

                            HOMELAND DEFENSE

Readiness of the Army National Guard
    The Army has continued to use Army National Guard units as an 
operational reserve. Readiness of our units that have mobilized and 
deployed in support of the Global War on Terrorism (GWOT) has been 
maintained at the high levels required to successfully carry out those 
missions. With the reset of units returning from deployments or from 
transforming units, as shown in the modular force conversion section, 
manning, equipping and training levels reflect decreased readiness as 
measured against modular organizations. ARNG readiness is managed by 
prioritizing limited resources using the Army Force Generation 
(ARFORGEN) cycles in support of the National Military Strategy.
    The ARFORGEN model provides predictability to potential time-frames 
at which ARNG units might be called to active federal service. The ARNG 
has arrayed all its units into the model to account for when they can 
be reasonably expected to be in one of three force pools--Reset/Train, 
Ready, or Available. One of the important benefits of using the model 
is that it assists ARNG decision makers at all levels as they determine 
the best time to convert units to modular designs. This is a key tool 
in not only managing conversion efforts, but also to meet the NGB goal 
of having at least 50 percent of the Army and Air forces at any given 
time available to the Governors and Adjutants General.
    Fiscal year 2006 saw a continuation of heavy demands on personnel 
and declines in equipment on hand due to increased mobilizations, 
deployments, and funding. The ARNG successfully met all mission 
requirements and continued to support the Global War on Terrorism. 
Since September 11, 2001, the Army National Guard has deployed over 
258,607 personnel. As of September 30, 2006, over 35,217 Guardsmen were 
serving in Operation Iraqi Freedom (153,578 to date), over 7,121 in 
Operation Enduring Freedom (39,289 to date), and over 482 in Operation 
Noble Eagle (35,158 to date). Additionally, 5,252 personnel are 
currently serving in support of the Southwest Border Mission. Since 
July 2002, overall unit readiness has decreased by 49.25 percent while 
providing personnel and equipment to units to ensure fully manned and 
equipped National Guard forces for deployment. The following areas 
decreased during the same period: Personnel 46.95 percent, Training 
21.65 percent, Equipment-on-Hand 45.93 percent, and Equipment Readiness 
4.67 percent.
    Entering the sixth year of GWOT operations (and looking back on the 
fifth year), the Army National Guard continued to support the 
requirements of Combatant Commanders as discussed in more detail below. 
Despite significant help from Congress and the President, we continue 
to face challenges in resourcing those requirements. These are 
discussed throughout the report. Initiatives in recruiting have 
increased the end strength of the Army National Guard to authorized 
levels. Programmed funding for procurement, if executed as planned, 
will bring ARNG equipping levels to over 90 percent by not later than 
fiscal year 2013. However, in the short term, units nearing deployment 
will continue to receive the priority for equipment, which may affect 
the availability of equipment needed for modular conversions.

Modular Force Conversion
    The Army National Guard continues to support the Army's goal to 
restructure its forces to modular designs that produce stand-alone 
units capable of full-spectrum operations. This transformation effort 
impacts over 87 percent of ARNG units across the 54 states and 
territories and crosses every functional capability in the force. Using 
the Army Campaign Plan and Total Army Analysis as the roadmap, the ARNG 
finds itself in a position to complete Army Modular Force Conversion by 
the end of fiscal year 2008. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Since the release of the 2006 Quadrennial Defense Review which 
called for 28 ARNG Brigade Combat Teams, by charter of the Chief of 
Staff of the Army, the Army and ARNG created a consortium comprised of 
select Adjutants General to work through challenges presented by having 
6 fewer Brigade Combat Teams (BCT) than the thirty-four originally 
programmed and to advise him on the BCT mix. This group advises the 
Chief, National Guard Bureau and the Director, Army National Guard as 
they begin rebalancing ARNG force structure to address both Federal and 
domestic missions in light of Modular Redesign.

Equipping for the Future
    ARNG units are scheduled to complete conversion to new equipment 
designs within the Army's modular force by 2008. They are expected to 
be fully equipped for these designs in 2013.
    From an equipping perspective, the GWOT and Transformation each 
cause the ARNG different challenges. While the GWOT has reduced the 
equipment available to non-deployed ARNG units, Transformation has 
increased overall equipment requirements. The combination of these 
factors has adversely affected ARNG equipping levels to the point where 
the average non-deployed unit has only 39 percent of authorized 
equipment needed to conduct training, future deployments, and respond 
to Defense Support to Civil Authorities (DSCA) missions. Prior to 
September 11, 2001, the ARNG's priority equipment on hand was 75 
percent. Further, by subtracting unacceptable/non-deployable substitute 
items, the equipment on hand balance falls to an even lower level.
    One of the critical ARNG shortages is modern wheeled vehicles. The 
Army pledged to maintain projected ARNG distribution of the critical 
Family of Medium Tactical Vehicles (FMTV) procurement levels despite a 
recent reprogramming action that decremented the total Army FMTV 
procurement account by $200 million. The Army support for ARNG FMTV 
procurement is a true indication of the Army's commitment to re-
equipping the ARNG.

Dual Mission Operations
    The Army National Guard fulfills a vital role in the nation's 
defense at home and abroad by providing crucial combat, combat support, 
and combat service support units to the combatant commanders, the Army, 
joint/combined forces, and the states and territories. The Army 
National Guard provides ready forces capable of performing full-
spectrum operations in support of our civil and military leadership. As 
we enter the sixth year of war, the Army National Guard is well 
established as a battle hardened and respected fighting force.
    The Guard consistently proves itself capable of operating across 
the wide spectrum of missions. This includes urban combat and 
stability/support operations in Iraq, Afghanistan, and the Horn of 
Africa, peacekeeping in the Sinai and Balkans, security operations in 
Guantanamo Bay, as well as homeland defense and defense support to 
civil authorities within the United States.
    For Operation Jump Start, the Presidential initiative to support 
the Southwest border states, the Army National Guard deploys to 
California, Arizona, New Mexico, and Texas in one of three categories:
  --Forward Deployed.--Troops are deployed within the Border Patrol 
        sector, fulfilling U.S. Customs and Border Protection-assigned 
        duties in direct support of the Border Patrol. To support 
        efforts to deter and apprehend illegal aliens and drugs from 
        crossing the border, these troops fill critical border security 
        missions, including identifying and locating people attempting 
        to enter illegally, building fences, maintaining vehicles, and 
        performing administrative and support duties to help Border 
        Patrol agents return to the front lines.
  --At Joint Task Force Headquarters.--Troops perform command and 
        control functions and provide oversight for training.
  --In Training/Transition.--Troops deploy within the border states and 
        engage in preparatory training in rules for use of force, 
        cultural awareness and desert survival, and in specific 
        training to perform border security duties that are assigned by 
        U.S. Customs and Border Protection. As with any mission, 
        training is a critical component to ensure that National Guard 
        troops are fully prepared to perform their duties.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Aviation
    Fiscal year 2006 was an exceptional year for ARNG Aviation. We have 
contributed more than 60,000 flying hours to the Global War on 
Terrorism, have flown an average of 8.7 hours per month per aircrew in 
home station aviation unit training, and accomplished these missions 
with a focus on safety and high standards. This past year was also a 
transitional year which sets in place the foundation for our new 
identity in Army Aviation. The activations of the Security and Support 
Battalions and the selection of the Light Utility Helicopter, the gains 
made in the transition to new units, and the formulation of the 
ARFORGEN training resource model will all serve to define the ARNG 
Aviation program for the next generation. As aircraft were distributed 
to modernize units, aircrew qualification and proficiency training was 
accelerated to prepare for upcoming deployments.

Support the Warfight
            End-Strength, Accessions, and Attrition
    Fiscal year 2006 was a watershed year in terms of revitalizing the 
ARNG strength maintenance program and our growth in end-strength. The 
strategy is working. Focus, leadership and accountability, increased 
recruiter manning levels, and innovative programs have positioned the 
ARNG for success in fiscal year 2007 and beyond. End strength is 
rising, accessions continue to outpace previous annual records and even 
with extended deployments, our retention rates are exceeding 
expectations. The ARNG is committed to achieving the congressionally 
directed end-strength of 350,000 Soldiers for the Army National Guard. 
The ARNG end-strength at the end of fiscal year 2006 was 346,288 
Soldiers. In fiscal year 2006, the ARNG added more end strength than 
all other Army components combined. This represents a net growth in end 
strength of 13,111 Soldiers in one year. With heavy deployments, both 
at home and abroad, this was an outstanding accomplishment. Command 
emphasis was also instrumental in achieving a strong retention rate of 
118 percent.
    Much of our 2006 recruiting success was due to a revolutionary 
recruiting program called the Guard Recruiting Assistant Program (G-
RAP). This program utilizes a performance based contract vehicle for 
Soldiers to recruit for the ARNG while under a civilian contract. These 
contract employees are called Recruiting Assistants (RAs). The RA is 
paid $1,000 once a potential Soldier enlists and another $1,000 when 
the new Soldier departs for Basic Combat Training. As of September 30, 
there were 88,900 RAs and 15,106 actual enlistments. Another recruiting 
program, entitled Every Soldier a Recruiter, was introduced to all Army 
components. This program enables Soldiers, including Active Guard 
Reserve Soldiers, to recommend non-prior service individuals to join 
any Army component. Once that Soldier enlists and completes Initial 
Entry Training, the referring Soldier is paid $1,000. As of the end of 
fiscal year 2006, the ARNG had enlisted 758 new soldiers under this 
program. The ARNG is optimistic and confident that with programs like 
G-RAP and ESAR we will continue to grow the force and have manned units 
to meet all missions.
            Full-Time Support
    Events during the past year have continued to highlight the Army 
National Guard's critical role in supporting our nation's defense and 
security. While our Soldiers were deployed on critical missions around 
the world or redeploying to the United States from Iraq and 
Afghanistan, they were also supporting their communities, providing 
fire fighting support, disaster relief, community support, airport 
security, and border security. As this report goes to press, ARNG 
Soldiers are assisting other federal agencies with surveillance, 
reconnaissance, security and other support to help stem the flow of 
illegal drugs, immigrants, and possible terrorists, from entry into 
this country. No other DOD component indeed, no component of the 
federal government, can provide the broad range of operational 
capabilities that the Guard provides to the nation. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    One of the critical keystones to these capabilities is our Full-
time support force, which enables and provides the training, planning, 
and preparations for Soldiers and unit operations and readiness. This 
support force is responsible for organizing, administering, training, 
and recruiting new personnel, as well as maintaining equipment. Full-
time support personnel are key to successful transitions from peacetime 
to wartime and are critical links to the integration of the Army's 
components: Active, Guard, and Reserve.
    Even as the Army's and the nation's expectations and use of the 
Guard have increased in numbers, frequency and types of operations, 
support for our full-time force has continued at pre-9/11 levels, and 
the relatively small annual growth agreed to in 1998 is at risk. The 
National Guard is at the lowest of all Reserve Components for full time 
support. In order to ensure a C1 fully operational force, it is 
critical that we increase full time support to a minimum of 90 percent 
of total validated requirements. The shift from a strategic reserve to 
an operational reserve has further strained the current full time 
support force and has hindered critically essential improvements to 
unit readiness and support to the dual missions of Global War on 
Terrorism and Homeland Security, in addition to the Guard's state 
responsibilities for disaster relief.
            Facility Operations and Maintenance
    The ARNG operates more than 27,000 facilities, including more than 
2,900 readiness centers, in nearly 2,700 communities in 50 states, 2 
territories, the Commonwealth of Puerto Rico and the District of 
Columbia. The sustainment, restoration, and modernization program is 
key to the training, readiness, and mobilization of the ARNG. This 
program keeps ARNG facilities in good working order by funding 
preventive maintenance, emergency work orders, and repairs and 
replacements to facility components. It also funds projects required to 
extend the useful life of the facilities and for minor construction 
required to make them more efficient and adaptable to mission changes. 
Continued acceptance of risk in this program threatens to further 
decelerate this critical component of ready forces.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

            Military Construction Program
    The Army National Guard received over $1.1 billion in military 
construction funds for 91 projects in fiscal year 2006. This is about 
$717 million and 42 projects more than last year. Funding for Hurricane 
Katrina and BRAC projects were the basis for this increase. The 
breakout is as follows:

                        [In millions of dollars]
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Military Construction...................................             523
Katrina Supplemental....................................             584
BRAC....................................................              56
------------------------------------------------------------------------

    The implementation of BRAC enabled the Army National Guard to 
greatly enhance its military value to the Army. It will also improve 
the Army National Guard's homeland defense capability and improve 
training and deployment. Overall, BRAC has enabled the Army National 
Guard to obtain significant efficiencies and cost savings through the 
removal of 211 inadequate undersized Army National Guard facilities in 
32 states. Closing these facilities will be offset by the construction 
of modern facilities that are designed to support the unit and other 
local Guard and Reserve units that will be stationed there.
            Environmental Program
    The ARNG Environmental Program made great progress in fiscal year 
2006 even as compliance driven requirements increased. The program is 
responsible for maintaining compliance with all applicable federal, 
state and local environmental requirements in the 54 states and 
territories with a constrained budget of $129.5 million. Two additional 
major accomplishments this year were the successful preparation of 105 
National Environmental Policy Act documents to support $1.2 billion in 
MILCON projects in 40 states, and a second full year of compliance-
clean up program efforts as evidenced by the identification of 120 new 
sites that require clean-up actions.
            Logistics-Depot Maintenance
    Funding for the Army National Guard's depot maintenance requirement 
was increased by 6.4 percent between fiscal years 2006 and 2007. In 
2006, the ARNG Depot Maintenance Program accepted some risk when it was 
funded at $228.3 million. During fiscal year 2007, the amount of 
equipment qualifying for depot repair increased by 32.9 percent. This 
increase was due primarily to the rebuild of the Army National Guard's 
aged tactical wheeled vehicle fleet. In addition, the program continues 
to address near term equipment readiness issues with M88A1 Recovery 
Vehicles and Multiple Launch Rocket Systems (MLRS).
    During 2006 the Army National Guard depot program funded the 
overhaul of 2,443 tactical vehicles (5 ton trucks, tractors, dump 
trucks and High-Mobility Multipurpose Wheeled Vehicles (HMMWV), 30 M978 
Heavy Expanded Mobility Tactical Trucks (HEMTT), 27 M88A1 Recovery 
Vehicles, 42 MW24C Scoop Loaders, 10 Graders, 15 Scrapers, 5 MLRS 
launchers, 23 Fork Lifts, and three M109A6 Paladins.

    ----------------------------------------------------------------

    The Training and Education submission is dedicated to Mr. Thomas 
``Tommy'' Hill. Tommy served the ARNG with distinction for more than 
sixty years and is known as the father of the State Officer Candidate 
School.

    ----------------------------------------------------------------

            Training and Education
    Despite heavy demands on personnel, the Army National Guard 
continues to meet or exceed training and education requirements. 
Deploying well trained and qualified soldiers and units requires 
thorough planning and effective execution from our training teams.
    In fiscal year 2006, the ARNG distributed over $321 million in 
school funding to the states and territories for Initial Skills 
Acquisition, Professional Development, and Duty Military Occupational 
Skill Qualifications (DMOSQ). We fell short of our critical 
requirements in this area. The Total Army School System schoolhouses 
also received about $51 million.
    The ARNG worked with the Active Component to further refine 
ARFORGEN in the Army Campaign Plan. The ARNG developed training models 
that predict increasing resources and training events to coincide with 
increased readiness leading up to unit availability for deployment. The 
ARNG conducted an eXportable Training Capability (XCTC) event at Camp 
Atterbury, Indiana for a battalion of the 76th Brigade Combat Team. 
XCTC is designed as a culminating event in the ARNG ARFORGEN training 
model, an event designed to demonstrate company proficiency. XCTC will 
mitigate the shortfall of Combat Training Center events currently 
available to the ARNG.
    The ARNG assigned strength ending fiscal year 2006 was 346,301 
Soldiers, of which 76.6 percent were DMOSQ. Accurate reporting of DMOSQ 
is critical in assessing and forecasting future training requirements. 
The ARNG improved its ability to report DMOSQ percentages with support 
from the ARNG Readiness Improvement Program (ARIP). ARIP assisted in 
identifying and analyzing the individual training needs to meet or 
exceed the required readiness levels necessary to mobilize units. 
Phased mobilization is the individual and collective training that a 
Soldier receives two to four months prior to being mobilized with his/
her unit. It is a planned, phased schedule that brings the Soldiers 
together fully trained and mission ready. Priority of phase 
mobilization training is DMOSQ (RECLASS), initial military training, 
professional military training, additional skill identifier, leader 
development and new equipment training. Nationwide, the 81 ARNG 
regional training institutes maintained a 91.8 percent graduation rate 
(84,250 Soldiers). It is the goal of ARNG leadership to fill the 
institutes to their full capacity of 190,136 students.
    The Sustainable Range Program, through the Range and Training Land 
Program and the Integrated Training Area Management Program, provide 
support for the operations and maintenance of ranges and maneuver land. 
These programs funded support of operations and training on 
approximately two million acres of land, 2,500 ranges, and at more than 
115 ARNG Training Centers. As the focal point for pre-deployment 
training, the ARNG maintains 16 major training centers. In 2006, the 
ARNG also invested in fifteen major range construction projects in 
Pennsylvania, Virginia, Michigan, Vermont, Missouri, and Mississippi, 
in support of the ARNG ARFORGEN range strategy. To date, the Army 
National Guard has approximately 200 ranges that still require upgrades 
to meet Army standards.
    Utilization of the Army Distributed Learning Program increased and 
sustained readiness levels by delivering quality training to Soldiers 
when and where the training was required. Users of Distributed Learning 
training products increased to 211,000 in fiscal year 2006 from the 
98,000 in the previous year. Courseware was developed in 2006 to 
support ARNG ARFORGEN and transformation training strategies that 
included Military Occupational Specialties and Functional Area 
producing courses, as well as Professional Military Education and 
courseware for unit training.
            Army Communities of Excellence
    The mission of the Army Communities of Excellence Program (ACOE) is 
to provide a quality environment, excellent facilities, and services. 
States and installations that accept the challenge to participate in 
the ARNG Communities of Excellence Program have a proven record of 
Readiness for Soldiers and units whether at home or abroad. The ACOE 
performance is measured by using the Army Performance Improvement 
Criteria--commonly known as APIC. As a self-assessment tool, the APIC 
has proven invaluable as an approach to implementation of organization-
wide improvement. Although the ACOE Program makes annual awards, the 
goal of the ACOE program is sustained improvements in the mission 
readiness of our Soldiers and their units through continuous 
improvement in the following areas: Well-being of Soldiers and their 
families; prioritization and management of limited resources; relations 
with communities within and beyond the Installation; and sustainability 
of Installations.
    In fiscal year 2006, 22 ARNG communities participated in the ACOE 
Program competition, which focuses on the improvement in excellence 
made in states and at installations, and in the quality of life of our 
Soldiers, civilians, and their families. The Joint Force Headquarters-
Ohio was selected as the overall ARNG 2006 winner and represented the 
Army National Guard at the Department of Army ACOE Award Ceremony in 
May 2006.
            Information Technology
    The Information Technology (IT) infrastructure supports the entire 
Army National Guard. Programs include Long Haul Communications, Base 
Communications, Automation, Administrative Services, Visual Information 
and Audio Support, and IT Information Assurance.
    During fiscal year 2006, our IT organization was resourced at $222 
million and 64 percent of this funding was distributed directly to the 
54 states and territories. The remaining 36 percent was centrally 
executed in support of the Enterprise IT infrastructure. Over $88 
million of the budget (40 percent of the IT funding) was executed in 
base communications. These resources supported the processing and 
storage of over 100 software applications at each United States 
Property and Fiscal Office, state headquarters, and the Army National 
Guard Readiness Center.
    In support of the CNGBs mandate to improve interagency 
communications during domestic emergencies, the ARNG IT team 
coordinated the acquisition of Land Mobile Radios (LMRs), as well as a 
contingency stockage level, for the hurricane-prone states. The ARNG IT 
team also provided support and coordination for the Southwest border 
mission.
Transformation for the Future
            Personnel Transformation
    The Army National Guard Personnel Division is committed to 
transforming the human resources strategic and operational policies, 
programs, and procedures for all members of the Army National Guard. 
When implemented in 2008, the Defense Integrated Military Human 
Resources System will be the largest personnel and pay system in the 
world. Army National Guard Soldiers deployed all over the globe will 
have global access at any time, anywhere. This system will 
revolutionize the quality and speed of personal human resources 
support. With access to the internet, the individual ARNG Soldier can 
update changes in pay profiles (withholding amounts) to promotion board 
entries, reassignment requests and even changes for dependent family 
members. These are only a few examples of how the ARNG is transforming 
its way of taking care of Soldiers.
    The organizational structure of human resources support for the 
commander is changing as well. An ARNG personnel services initiative 
re-engineers the operational and institutional human resources 
processes for mobilized forces. The new designs will eliminate layers 
and redundancy and increase the effectiveness of personnel processes. A 
sign of the times was the conversion of paper personnel records for the 
approximately 300,000 enlisted Soldiers (more than 25.6 million images) 
in the Army National Guard into the Personnel Electronic Records 
Management System (PERMS) was completed in March 2006.
            Medical Readiness
    The large numbers of ARNG Soldiers mobilized in support of the 
Global War on Terrorism have made individual medical readiness (IMR) an 
issue that can no longer be ignored. The IMR requirements (physicals, 
immunizations, and dental screenings) have lacked standard definitions 
and have experienced other challenges in the Reserve Component. The 
Department of Defense has worked to better define medical readiness, 
however, medical readiness does not always equate to deployability. As 
of August 1, 2006 the ARNG was only 20 percent fully medically ready 
using DOD standards. Yet the ARNG has successfully deployed over 
263,000 Soldiers since 9/11 and has dramatically reduced the numbers of 
non-deployable Soldiers who report to the mobilization stations. While 
Congress has acted to increase the frequency of medical screening, 
there is no evidence that increased screening improves deployability. 
Without the authority and resources to correct deficiencies found 
during screening, the readiness status of the force will not 
substantively change.
            Post Deployment Health Reassessment
    In March 2005, the Assistant Secretary of Defense for Health 
Affairs directed the establishment of the Post Deployment Health 
Reassessment. The program is designed to identify health concerns that 
may not become evident until several months following return from 
operational deployment. This program provides a global health 
assessment, with an emphasis on mental health, three-to-six months 
after a deployment.
    As a Commander's program, the Post Deployment Health Reassessment 
is designed to assist our Soldiers to gain access to medical care and 
navigate the available health care services and benefits to which they 
are entitled as Combat Veterans. The Army National Guard's Post 
Deployment Health Reassessment Program helps to ensure that Soldiers 
have the opportunity to identify their specific health care concerns 
and speak with a health care provider.
    An integral part of the assessment is Battlemind II Training, 
developed by the Walter Reed Army Institute of Research, to alert 
Soldiers to the potential challenges of reintegration and to de-
stigmatize behavioral health issues. The Department of Veteran's 
Affairs has been an invaluable partner in providing support by 
educating Soldiers about their benefits and entitlements and providing 
both physical and mental health care treatment through Veteran's Health 
Administration Healthcare Facilities and Vet Centers in their local 
communities.
    The Army National Guard Post Deployment Health Reassessment Program 
has focused on educating Soldiers, Family Members, and Commanders on 
the health care benefits and resources available to them. A significant 
component of our strategic communication plan is the creation of an 
information portal hosted on the Army National Guard's Virtual Armory 
Website. It provides a comprehensive Commander's Toolkit which includes 
policies, procedures, and information from supporting agencies relevant 
to the Post Deployment Health Reassessment.
    The Army National Guard continues to lead the Army's effort to 
provide this valuable program to our Soldiers. In fiscal year 2006, the 
Army National Guard screened 25,793 Combat Veterans. In fiscal year 
2007 we will provide the program to over 50,000 Soldiers who will 
return from a combat deployment. This valuable program will continue to 
identify deployment related health concerns of our Soldiers and ensure 
that they have access to the care to which they are entitled, while 
remaining a part of a ready force.
            Family Assistance Centers
    In 2006, the Army National Guard continued to provide family 
assistance to deployed Guard and Reserve service members and their 
families. Services were also provided to geographically-dispersed 
Active Component family members. As the Army lead agency for the 
establishment and execution of family assistance, the Army National 
Guard operated an average of 400 Family Assistance Centers each month 
in fiscal year 2006.
    Support is available throughout all phases of deployment; 
preparation (pre-deployment), sustainment (actual deployment), and 
reunion (reintegration): and is critical to the long-term health and 
welfare of the family unit. The primary services provided by the 
centers are information, referral, outreach, and follow-up to ensure a 
satisfactory result. In fiscal year 2006, the Guard Family Management 
System was developed to track referrals and the outreach process to 
better serve our service members and their families.
    The continued operation of the Family Assistance Centers in 2007 is 
necessary to support the Global War on Terrorism as we provide support 
services to our dispersed family members for the long-term welfare of 
the family unit.

LIEUTENANT GENERAL CRAIG R. MCKINLEY, VICE CHIEF, NATIONAL GUARD BUREAU 
                    AND DIRECTOR, AIR NATIONAL GUARD
                       MESSAGE FROM THE DIRECTOR
    Today's citizen airmen epitomize the enthusiasm, adaptability and 
innovative spirit of America. Everyday they are called upon to defend 
the freedoms of this great nation and help our citizens in times of 
crisis. They are the embodiment of our militia heritage and the future 
of our Air Force.
    The Air National Guard is an invaluable resource for the Air Force 
and the Governors, transitioning seamlessly between federal and state 
roles. Overseas, our military experience (Air National Guard officers' 
average 18 years total service; our enlisted members average 14 years) 
and civilian skills have proven invaluable to prosecuting the Global 
War on Terrorism (GWOT). Since the events of September 11, 2001 our 
Expeditionary Combat and Combat Support units have filled over 140,000 
individual deployment requirements. In addition to meeting training and 
readiness requirements, Air National Guard aircraft have flown over 
176,000 sorties as part of air defense and Air Expeditionary Forces in 
support of the GWOT. That's an average of 90 sorties each day, every 
day, for more than five years! At home, the Hurricane Katrina relief 
effort brought into sharp focus our role as America's Hometown Air 
Force. We flew over 3,000 sorties, moved over 30,000 passengers, and 
hauled over 11,000 tons of desperately needed supplies into Gulf Coast 
airfields, some of which Guard personnel opened and operated. Our Air 
National Guard Special Operations troops, or Battlefield Airmen, 
rescued 1,443 people--heroically pulling stranded Americans off 
rooftops to safety. Air National Guard medical units treated over 
15,000 patients at eight sites along the Gulf Coast, combining expert 
medical care with compassion for our fellow Americans. All these 
numbers tell our story: a story of America's Hometown Air and Space 
Force--always ready when you need us.
    The role of the Air National Guard in the 21st century will be 
defined not only by where we have been but where we are going. We can 
look back on our 370 years of militia heritage with justifiable pride. 
And while the future is always uncertain, there are steps we can take 
now to ensure the Air National Guard will remain an important part of 
our nation's defense.
    Our role within the Air Force has matured and changed over the past 
decade and a half. Since 1989, the active duty Air Force has reduced 
its forces by 210,000 personnel and 2,800 aircraft and relied on the 
Air National Guard and Air Force Reserve to fill the gap. The ability 
of the Air National Guard to add a critical surge capability through 
the use of its traditional force increases the efficiency of the active 
duty Air Force.
    In addition to our combatant commanders' requirements for Air 
National Guard capabilities, our 54 states and territories have their 
local requirements, and these needs must be addressed in the Air Force 
planning and programming processes. Defense of the Homeland is the top 
priority of the National Military Strategy, and the Governors rely on 
their Air and Army National Guard to deal with everything from 
blizzards and hurricanes to pandemic flu and the possibility of a 
terrorist incident. Due to the unique nature of our state mission, the 
Air National Guard has to do a better job of explaining its 
multifaceted roles, obligations and responsibilities to its 
stakeholders and the active duty Air Force.
    One of my initial three goals after my appointment as director was 
to rebuild the trust of the Adjutants General. To further that goal, I 
asked that the strategic planning process charter be rewritten. Now a 
new team of representatives drawn from the field at the general 
officer, colonel and senior enlisted levels ensures their voices are 
heard as we work with our partners in the USAF to develop a strategic 
vision for the Air National Guard of tomorrow.
    The second of my goals was to reconnect with the U.S. Air Force. In 
an effort to reacquaint ourselves fully with our active duty partners, 
we've begun to slowly integrate parts of the Air National Guard 
Directorate and the Headquarters Air Force staffs to facilitate better 
decisions for the Air National Guard and the Air Force. As 24 percent 
of the Air Force, we look forward to both participating as a full 
partner in shaping policy, by influencing programming and planning 
decisions up front, instead of coordinating and responding at the last 
minute. America benefits the most when ANG attributes like stability, 
experience, civilian skills, and community roots are effectively 
leveraged within one Air Force.
    We are committed to serving our state's and the nation's needs by 
assisting them with training, technical assistance and effective, up-
to-date resources and tools. Emerging Air National Guard leaders must 
be able to move seamlessly between federal and state leadership 
positions, bridging the gap between state and federal missions to 
ensure the resources and tools we have are the ones we need.
    To meet the challenges of today and tomorrow, it is vital to have 
an organization that is leaner and more responsive to changing 
requirements. The third of my initial goals was ``getting the 
organization right,'' and we've gone about it in a number of ways.
    First, we examined many of our business practices using Air Force 
Smart Operations for the 21st Century, or the AFSO21 process, a 
combination of Lean, Six Sigma and other proven business process 
engineering programs. The goal is to save money by eliminating 
outdated, inefficient, duplicate or overly complex ways of doing 
business.
    We've modernized and updated our advisory councils to make them 
more open and accountable to the Adjutants General and National Guard 
Bureau leadership. We've asked former directors of the Air National 
Guard and retired senior noncommissioned and commissioned officers to 
participate in a Minuteman Heritage to Horizon group, our counterpart 
to the Air Force Chief of Staff's initiative. These ``grey beards'' 
bring a wealth of experience and wisdom to our discussions about the 
future.
    Finally we've taken a long look at our Air Directorate, how we're 
organized, who our customers are, and how to best meet customer's 
needs. The building much of the directorate staff occupies right now in 
Arlington, Virginia, is on the BRAC list and is scheduled to close in 
2010. This has given us a perfect opportunity to decide where to 
station our people for best utilization within the Air Force as well as 
meeting the day-to-day requirements of Air National Guard wings, 
multiple detachments, and personnel attached to units throughout the 
world. The newly dedicated Conaway Hall, home of the Air National Guard 
Readiness Center, will provide a ``one-stop shop'' to manage our daily 
operations, while a small staff who work with me, and the integrated 
headquarters staff at the Pentagon will focus on the strategic planning 
and programming needs of the Air National Guard and the Air Force.
    To complement the success we've had with my initial goals I have 
developed priorities for the rest of my tenure that will set us on a 
successful course through the next generation of the Air National 
Guard. To meet the challenges of tomorrow we must shape our environment 
to Develop Adaptable Airmen, who have the knowledge and training to 
react and succeed in any new mission, even one we may not even have 
thought of yet. The Air National Guard will continue to secure the 
Homefront while defending the nation. Finally, we must transform 
ourselves into a capabilities-based force, unbound by old missions and 
ideas from the last century, ready to meet the challenges of an 
information age.
    Our posture statement details how we will use these three 
priorities--Developing Adaptable Airmen, Securing the Homefront while 
defending the nation, and Transforming our Force--to remain a force 
that Guards America and Defends Freedom.

Homeland Defense
            Air Sovereignty Alert
    Since September 11, 2001, thousands of Air National Guardsmen have 
been mobilized to operate alert sites and alert support sites for 
Operation Noble Eagle in support of Homeland Defense. Our ANG has 
partnered with active duty and reserve forces to provide combat air 
patrol, random patrols, and aircraft intercept protection for large 
cities and high-valued assets in response to the increased terrorist 
threat. The ANG has assumed the responsibility of all ground alert 
sites and some irregular combat air patrol periods. This partnering 
agreement maximizes our nation's current basing locations and 
capitalizes on the high experience levels within the ANG and its 
professional history in Air Defense operations.
            Space Operations: Using the Stars to Serve the Community
    For the Air Guard, space operations provide a critical 
communications link to communities throughout the nation in the form of 
satellite support for everyday uses, television, computers, and 
wireless phones, but also serve as an important military deterrence 
from external threats. Colorado's 137th Space Warning Squadron provides 
mobile survivable and endurable missile warning capability to U.S. 
Strategic Command. Recently, Air National Guard units in Wyoming and 
California have come out of conversion to provide operational command 
and control support to Northern Command and to provide round-the-clock 
support to the Milstar satellite constellation. Alaska's 213th Space 
Warning Squadron ensures America's defense against nuclear threat by 
operating one of our nation's Solid State Phased Array Radar that 
provides missile warning and space surveillance.
    The Air Force has approved space missions for the 119th Command and 
Control Squadron in Tennessee to support the U.S. Strategic Command, 
and the 114th Range Flight in Florida is partnered with an active Air 
Force unit performing the Launch Range safety mission. There are future 
plans by the Air Force to transition additional space program missions 
and assets in Alaska and other states to Air National Guard control.
Support the Warfight
            Medical Service Transformation--Expeditionary Combat 
                    Support, Homeland Defense, and Wing Support
    The Air National Guard's Surgeon General led the Air National Guard 
Medical Service through its most revolutionary transformation in 
history by reconfiguring its medical capabilities into Expeditionary 
Medical Support systems. These systems provide highly mobile, 
integrated and multifunctional medical response capabilities. They are 
the lightest, leanest and most rapidly deployable medical platforms 
available to the ANG today. This system is capable of simultaneously 
providing Expeditionary Combat Support to the warfighter for Air and 
Space Expeditionary Force missions, Homeland Defense emergency response 
capabilities to the states and support to the Air National Guard Wings. 
The Expeditionary Medical Support capability allowed ten percent of Air 
National Guard medical unit personnel to deploy for Operation Iraqi 
Freedom, compared to only three percent in the early 1990s for 
deployments for Operations Desert Shield and Desert Storm. The U.S. 
Central Command has validated that the Expeditionary Medical Support 
system is a perfect fit for the Chief of Staff, U.S. Air Force Global 
Strike Task Force and Concept of Operations.
    The Expeditionary Medical Support system also plays a critical role 
in Homeland Defense. The ANG Medical Service plays a vital role in the 
development and implementation of the National Guard's Chemical, 
Biological, Radiological, Nuclear, and High-Yield Explosive Enhanced 
Response Force Package. This package will provide support to state and 
local emergency responders and improve Weapons of Mass Destruction 
response capabilities in support of the Civil Support Teams. The ANG 
has contributed to the 12 trained CERFP teams and will build towards 76 
Expeditionary Medical Support teams by 2011.
    At Readiness Frontiers, over 100 medical planners received Federal 
Emergency Management Agency training to enhance ANG Medical Service 
responsiveness to homeland disasters. This is the first time the 
medical service has taken on an endeavor of this magnitude and it 
allows for future training opportunities in building routine 
relationships with military, federal and civilian response personnel.
    Our medical service's new force structure provided by the 
Expeditionary Medical Support system delivers standardized and much-
improved force health protection, public health, agent detection, and 
health surveillance capabilities to better support all Air Guard Wings. 
This will enhance the protection of the wings' resources and improve 
the medical readiness of its personnel.
            Eyes and Ears in the Sky--Air National Guard Intelligence, 
                    Surveillance, and Reconnaissance Systems and 
                    Support
    The Air National Guard's Intelligence, Surveillance, and 
Reconnaissance (ISR) personnel and systems play an increasingly 
important role in the defense of our nation. Air Guard men and women 
are essential to support Global Hawk, Predator, and U-2 collection 
missions.
    Due to a significant increase in Air Force mission requirements, 
the Air Guard continues to expand its intelligence collection and 
production capability. The Air Guard has also expanded its imagery 
intelligence capability through the use of Eagle Vision, which is a 
deployable commercial imagery downlink and exploitation system. This 
system provides valuable support to aircrew mission planning and 
targeting, as well as imagery support to natural disasters and 
terrorism.
    Other developing Air Force capabilities entrusted to the ANG 
include the F-16 Theater Airborne Reconnaissance System and the C-130 
Scathe View tactical imagery collection system. The Theater Airborne 
Reconnaissance System will be improved to provide near-real-time 
support to warfighter ``kill-chain'' operations in day-night, all 
weather conditions. Scathe View provides a near-real-time imaging 
capability to support humanitarian relief and non-combatant evacuation 
operations. To support signal intelligence collection requirements, the 
Air Guard continues to aggressively upgrade the Senior Scout platform. 
Senior Scout remains the primary collection asset to support the 
nation's war on drugs and the Global War on Terrorism in the southern 
hemisphere.
            Comprehensive and Realistic Combat Training--An Asymmetric 
                    Advantage
    The National Guard Bureau has a fundamental responsibility to 
ensure that the men and women of the Air Guard are properly trained to 
meet the challenges they will face to protect and defend this country. 
This can be done through the effective development and management of 
special use airspace and ranges. To support this training requirement, 
the Air Guard is responsible for 14 air-to-ground bombing ranges, four 
Combat Readiness Training Centers, and the Air Guard Special Use 
Airspace infrastructure.
    The four Combat Readiness Training Centers provide an integrated, 
year-round, realistic training environment (airspace, ranges, systems, 
facilities, and equipment), which enables military units to enhance 
their combat capability at a deployed, combat-oriented operating base 
and provide training opportunities that cannot be effectively 
accomplished at the home station. As such, these centers are ideal 
assets for the Joint National Training Capability. The centers offer an 
effective mix of live, virtual and constructive simulation training. 
The ANG continues to pursue Joint National Training Capability 
certification for these centers and ranges.
    It is imperative to the warfighter that the Air Guard maintains its 
training superiority. As the warfighting transformation and joint 
operational requirements evolve, it is essential that the airspace and 
range infrastructure be available to support that training. There are 
challenges. To keep our Citizen-Airmen trained to the razor's edge, we 
must have the Joint Threat Emitter to simulate the various surface to 
air missile and anti-aircraft artillery threats that any future 
conflict might present.

Transformation for the Future
            Modernizing for the Future
    The Air National Guard is committed to modernization and 
recapitalization required to keep our forces ``Guarding America'' and 
``Defending Freedom'' by performing any missions tasked by the state or 
federal authorities now and in the future. With the resources entrusted 
to us, our capabilities based effort focuses on modernizing and 
recapitalizing our aircraft and equipment to protect our homeland, 
fight the GWOT, and transform for the future.
    As an equal partner with the Air Force in air and space 
expeditionary forces, we aggressively develop smaller multi-role combat 
forces that are networked, integrated, and more capable. In addition, 
Total Force integration capitalizes on our inherently high experience 
levels by giving the Air National Guard new missions such as ISR, 
Unmanned Aerial Systems operations and space operations.
    The following summarizes the Air National Guard's force posture by 
weapons system: The E-8C Joint Surveillance Target Attack Radar System 
(JSTARS) continues to be the command and control system of choice by 
all combatant commanders. JSTARS supports the war fighter by locating, 
classifying and tracking ground targets and movement, day or night, in 
all weather conditions, at ranges in excess of 150 miles. All 17 E-8C's 
are operated by the 116th Air Control Wing, at Robins AFB, GA, the 
first-ever blended wing consisting of both Air National Guard and Air 
Force personnel. Keeping the system modernized while maintaining the 
current high operations tempo in combat will be a continuing challenge. 
The most urgent modernization needs for the JSTARS include re-engining, 
installation of the Traffic Alert and Collision Avoidance System, 
integration of a self-protection suite, and avionics upgrades to ensure 
compliance with the Global Air Traffic Management agreement.
    The A-10 continues to support the Global War on Terrorism in 
Operation Enduring Freedom as the premier close air support platform. 
The Precision Engagement (PE) modification is underway. The ANG is 
leading the way with the two operational squadrons equipped with PE. 
This system will digitize the cockpit, provide the A-10 with its first 
data link, improve targeting pod integration, and add JDAM and WCMD to 
its weapons menu. As an interim solution while waiting for the PE 
modification, the remaining ANG A-10's will be modified with the ``A+'' 
package providing them with a Smart Multi-Function Color Display 
(SMFCD). Installation of the SMFCD will provide improved integration 
with targeting pods and data links. Future improvements include the 
ARC-210 radio, which provides secure line-of-sight and beyond line-of-
sight communication, thereby enabling the A-10 to link directly to the 
forces on the ground. The engine upgrade program remains a high 
priority to increase the A-10's thrust. Upgrading the engines increases 
performance and permits carriage of a larger load of munitions and 
remains an Air National Guard focus.
    Air National Guard F-16s continued to provide crucial combat 
capabilities during 2006 in Operation Iraqi Freedom, Operation Enduring 
Freedom, and Operation Noble Eagle. The Block 25/30/32 F-16 continued 
its modernization program by fielding the Commercial Central Interface 
Unit, Color Multi-Function Displays, and AIM-9X missile capability. The 
ANG is also pursuing integration of the Advanced Identification Friend 
or Foe system, Joint Helmet Mounted Cueing System (JHMCS), small 
diameter bomb, and improved data link capabilities. Block 52 F-16s 
completed the Common Configuration Implementation Program (CCIP), 
fielding Link 16, JHMCS, and AIM-9X capability. Air National Guard 
Block 42 F-16s began the CCIP modification this year and will continue 
through 2010.
    Air Guard F-15s will lead the Combat Air Forces into the next 
generation radar capability by procuring the APG-63 (V3) Active 
Electronically Scanned Array radar. Initial deliveries begin in fiscal 
year 2009. Another next generation effort is research and test of an 
advanced digital radar warning receiver for enhanced situational 
awareness, survivability, and mission effectiveness in the future SAM 
threat environment. Continued funding is required to purchase 
additional Joint Helmet Mounted Cueing Systems, which provide a quantum 
leap in air-to-air weapons employment and more complete sensor-to-pilot 
fusion.
    The HC-130 is completing installation of a Forward Looking Infrared 
system, an essential capability during combat rescue operations. The 
MC/HC-130 will continue with installation of a Large Aircraft Infrared 
Countermeasures system to provide protection from infrared missile 
attack, particularly man-portable missile systems. The ANG MC-130P are 
funded for and will begin installation of the AN/APN-241 low power 
color radar.
    The HH-60G has begun a program to install AN/ARS-6 Personnel 
Locator System ensuring accurate tracking and communication with 
personnel requiring recovery. Additionally, installation of new, more 
survivable and functional aircrew seats for flight engineers and aerial 
gunners will begin this year. Finally, a critical modification program 
will begin this year to install Smart Multi Function Color Displays on 
all ANG HH-60Gs making it capable of supporting a variety of new 
capabilities including integration of the Situational Awareness Data 
Link.
    The ANG pararescuemen and special tactics personnel continue to 
modernize with state of the art equipment necessary to give these 
operators at the tip-of-the-spear capability necessary to execute their 
critical missions.
    ANG units started full-time MQ-1 Predator unmanned aerial vehicle 
operations by assuming an orbit from Air Combat Command in August 2006, 
and will reach initial operational capability (IOC) at three units by 
the middle of fiscal year 2007. ANG continues to pursue development and 
acquisition of an integrated Predator Operations Center (POC) that 
would incorporate current and future operations equipment in an open 
architecture design. The POC will allow smooth operation and control of 
current and future transformational warfighting and homeland defense 
missions. This new POC design would integrate the multiple systems that 
currently run independently. It would allow integration of new tools 
into the cross-cued integrated system to support emerging missions. 
This system will provide significantly improved mission effectiveness 
and enhanced situational awareness. The new POC design would be 
incorporated initially into three locations, and used at two future MQ-
1 and MQ-9 units scheduled to reach IOC by early 2010.
    The Distributed Common Ground System (DCGS) remains a highly 
effective asset coveted by all combatant commanders. It provides 
theater-wide processing, exploitation, and dissemination of imagery and 
data from Predator, U-2, and Global Hawk. Keeping the system modernized 
while maintaining the current high operations tempo will be a 
continuing challenge. The most urgent modernization needs for the DCGS 
include a signals intelligence equipment suite and an alternate 
satellite downlink to provide the weapon system with a redundant 
connectivity with the intelligence community.
    Air National Guard C-130s provided more than 65 percent of the Air 
Force's tactical airlift capability and 35 percent of strategic 
airlift. Since September 11, 2001, ANG C-130s have flown over 59,805 
hours in support of Operation Enduring Freedom and over 48,307 hours in 
Operation Iraqi Freedom. Additionally, ANG C-130s played an essential 
part in operations supporting hurricane relief efforts for both 
Hurricanes Katrina and Rita. They flew 2,272 sorties carrying 20,080 
passengers and 5,855 tons of cargo. C-130 enhancements included 
participation in the multi-command Avionics Modernization Program to 
upgrade nearly 500 aircraft to a more modern, standardized, sustainable 
cockpit configuration. Furthermore, the Air National Guard continued 
acquisition of the AN/APN-241 low power color radar; purchased more 
Large Aircraft Infrared Countermeasures systems to better protect our 
crews; purchased three additional Visual Threat Recognition and 
Avoidance trainers (VTRA); led the way in finalizing the Virtual 
Electronic Combat Training System for the C-130 fleet; and continued 
development of Scathe View capabilities to include various 
technological spin-offs that have applications in a myriad of civilian 
and military projects and programs. Other Air Guard programs include 
assessment of upgraded propellers using an electronic propeller control 
system, the NP2000 eight-bladed propeller, and a second generation, 
upgraded Modular Airborne Fire Fighting System. Finally, the ANG 
initiated a program for yoke-mounted chaff and flare dispense switches, 
and partnered with the Air Force for the multi-year buy of the new C-
130J aircraft to replace the aging C-130E fleet.
    ANG KC-135s provide 80 percent of Operation Noble Eagle alert air 
refueling support to homeland defense interceptors. The KC-135 
operations tempo has increased dramatically because of the Global War 
on Terrorism, homeland defense, and the loss of forward operating 
bases. To meet the continuous demands of global power projection many 
upgrades are required to keep KC-135s viable and effective. Primarily, 
the ANG continues to upgrade Block 30 aircraft to Block 40 
configuration providing full CNS/ATM compliance. The ANG KC-135 fleet 
is in a state of flux as the KC-135E models are scheduled to retire, 
and the Air Force works to select a follow-on tanker. The current plan 
is to retire all of the KC-135E models and flow active duty KC-135R 
models to the ANG.
    The ANG modernization program process is founded on validated Air 
Force and Combatant Command requirements, vetted in an open and honest 
forum by warfighters at an annual weapon and tactics conference, and 
validated by ANG Weapon System Councils. This process culminates in a 
completely documented and updated annual Weapon System Modernization 
Requirements Book that is given the widest distribution. This process 
continues to be the cornerstone of the ANG's ability to modernize and 
recapitalize while ``Guarding America'' and ``Defending Freedom.''
            Total Force Integration
    The ANG is working with its active duty Air Force and Air Force 
Reserve partners to implement Total Force Integration (TFI). TFI 
incorporates innovative organizational constructs with a smaller, more 
capable force structure to leverage increased capability from new 
technology and capitalize on the wealth of talent inherent in all three 
components of the Total Force. Through the TFI process, the Total Force 
has identified, investigated and selected new missions in emerging 
fields and new ways of organizing its forces to meet the nation's 
military challenges. TFI provides opportunities for the ANG to 
participate in critical new missions, such as Unmanned Aerial Systems; 
Warfighting Headquarters; Command, Control, Communications, Computer, 
Intelligence, Surveillance, and Reconnaissance (C4ISR); Space 
Operations; Air and Space Operations Center; Contingency Response 
Groups; Long Range Strike; Foreign Military Training; Battlefield 
Airmen and Information Operations. Additionally, flying associations 
with the active component and the Air Force Reserves will allow the ANG 
to maintain its presence in flying missions even as the total Air Force 
inventory of aircraft decreases.
    Total Force Integration mainly supports the legislative priority of 
``Transformation for the Future.'' BRAC, the Quadrennial Defense Review 
and recapitalization of the Air Force inventory have significantly 
impacted the way the Air Force will look in the future. While flying 
will remain a vital part of the Air Force mission, roles in 
intelligence, space operations, and Unmanned Aerial Systems are gaining 
importance. ANG integration into these new mission sets establishes its 
vital role in warfighting for years to come. Additionally, initiatives 
to ``integrate'' ANG flying units with active or Reserve units will 
enable the ANG to stay engaged in relevant flying missions and provide 
opportunities to fly newer, more capable aircraft as they are 
introduced.
    When the BRAC commission divested the Air Force of its older 
aircraft, it left several ANG wings without a warfighting mission for 
the future. But it also provided an opportunity for the ANG to 
accelerate its transformation efforts. Implementing Total Force 
initiatives will provide relevant, long-term missions for those Air 
National Guard forces exposed by BRAC. These missions are vital to the 
ongoing war on terror and provide assets useful in maintaining homeland 
defense and security.
    The results of the BRAC Commission hearings have accelerated the 
TFI process. Taking inputs from the field, functional experts and the 
major commands, the TFI process has identified over 100 potential new 
missions for the Air National Guard. So far, 63 missions have been 
identified for implementation over the next several years. Some of 
these missions are already being implemented to employ forces made 
available by BRAC and the ANG continues to examine the feasibility and 
implementation of others on the list.
    The next step is to correctly implement these approved initiatives 
in order to afford a smooth transition for the affected units. As these 
initiatives are taken from concept to reality, responsibility will 
shift from the planners and programmers to those who will guide the 
units through their conversions. They will ensure that facilities are 
constructed, equipment procured and personnel trained so that the new 
mission provides combat capability and support to the state for 
homeland missions. At the same time, the ANG will continue to examine 
potential new missions to identify opportunities for further 
integration into the Total Force.
    Through the TFI process, the ANG is aggressively pursuing new 
missions to provide meaningful missions for our units, homeland defense 
and disaster support for the states and unparalleled combat capability 
for our nation.
            Force Development
    As part of the Total Force, the Personnel Directorate of the Air 
National Guard realizes it is essential that we transform into an 
effects-based, efficient provider of human combat capability for our 
warfighters and our nation. Our Vision and our Strategic Plan set the 
transformational flight-path for the personnel community in support of 
the Air Expeditionary Force, security for the homeland, our states' 
missions, and roles in the community. Furthermore, we will advance our 
continued commitment to a diverse Air National Guard, not just in 
gender and ethnicity, but in thought, creativity, education, culture, 
and problem-solving capabilities.
    A Future Total Force (FTF) plan has been developed for the decades 
beyond the Future Years Defense Program. FTF leverages the strengths of 
all three components (Active, Guard, and Reserve), as well as 
anticipated advances in technology, to create the effects needed in 
tomorrows battle space. Most importantly, it capitalizes on our most 
potent, flexible resource: the warfighting Airman. The personnel 
community is ready and willing to do what it takes to make this happen.
    As we continue to achieve the Secretary of Defense's charge to 
shift resources ``from bureaucracy to the battlefield,'' we have placed 
assets at the Air Force Personnel Center to make the Personnel Service 
Delivery Transformation a reality. This will dramatically modernize our 
processes, organizations, and technology by which we support Airmen and 
their Commanders. We are providing Airmen with web-based capabilities 
to conduct most of their routine personnel transactions on-line. All of 
this enhances our ability to acquire, train, educate, and deliver 
Airmen with the needed skills, knowledge, and experience to accomplish 
Air Force missions.
    At the present time we are establishing web based information to 
assist personnel affected by BRAC in considering new opportunities that 
could be available once emerging missions begin unfolding.
    Our new personnel Strategic Vision and Plan outline the 
transformational path we have set for the Personnel Community. At the 
core of the Personnel Strategic Plan is a new, dynamic view of the 
Personnel Life-Cycle Continuum. This dynamic view focuses on outcomes 
rather than on mere transactions, and the performance measures we are 
implementing will guide and direct our efforts to achieve the ultimate 
goal of the creation of a customer focused, mission-driven Total Force 
service-based delivery system.
            Personnel Plans and Integration
    Base Realignment and Closure, Total Force Initiatives and the 
transformational effort which drives the evolution of the ANG into an 
operational reserve from a strategic reserve, are just a few of the 
significant influences challenging this organization. While BRAC 
protective language preserved the Air National Guard overall end 
strength, the cumulative initiatives required the redistribution of 
resources from state to state. Because of the statutory association 
that a Guardmember has with their state, they may not be compelled to 
move to another state or unit. The adjutant general that gains 
reallocated resources is not obligated to receive members from the 
other state. Furthermore, in states where growth in resources is 
experienced, many Guardsmen may not qualify for a position related to 
the emerging mission for any number of reasons.
    The end result is that many non-retirement eligible Guardmembers 
may eventually be forced out of the organization with no benefits, 
entitlements or recognition for their years of gallant service in 
defense of this country. This situation is unacceptable.
            Recruiting and Retention
    As the Air National Guard continues to implement the myriad of Base 
Realignment and Closure and Total Force Initiatives, recruiting and 
retaining quality people will be paramount in achieving and maintaining 
our congressionally-mandated end strength goals. We must have the right 
number and quality of personnel needed to support our Homeland Defense 
missions, our transformation to the future, and our support of the war 
fighter. BRAC and TFI have created a level of uncertainty with respect 
to what missions and how many people are going to be assigned to many 
of our units. Now that there is greater fidelity on these missions and 
the associated manpower requirements are being identified, recruiters 
and retainers will be in a much better position to both attract and 
keep quality members in the Air National Guard.
    Parents, teachers, and counselors are now playing a larger role in 
their child's decision to join the military. In addition, security 
concerns have had an impact on the accessibility of some of our 
recruiting offices. One way we have addressed this issue is to open 
``storefront'' recruiting offices. These offices are located in the 
community and are very conducive to attracting parents and prospective 
enlistees. We have found that these offices offer a much less imposing 
sales environment than the traditional flying wing.
    While Air National Guard retention continues to remain strong, we 
must continue to focus on providing our people with the necessary tools 
and support to do their jobs both at home and abroad. As we continue to 
transform and implement our BRAC and TFI actions, we will ask some of 
our members to remain with us, but perhaps in different career fields. 
With this in mind, we will ensure we have competitive retraining and 
reenlistment bonuses that will encourage these people to stay. How well 
we take care of our people and what level of job satisfaction we can 
provide will be pivotal in determining how long they will remain a 
member of the Air National Guard.
            Information Networking for the Total Force
    The Air National Guard Enterprise Network is critical to the 
successful transmission of information within a unit, between units, 
and among the various states. We are making progress towards 
modernizing our nationwide information technology network that serves a 
vital role in homeland security and national defense. A healthy and 
robust network for reliable, available and secure information 
technology is essential to federal and state authorities in their 
ability to exercise command and control of information resources that 
potentially could impact their various constituencies. Also essential 
is the continued ability to provide rapidly, deployable, tactical 
connectivity to the enterprise network anywhere in the world. This is 
accomplished through deployable Combat Communications equipment and 
personnel which respond to major contingencies, combat, and disaster 
relief missions. ANG Combat Communications provides Defense Information 
Systems Network service extension--both secure and non-secure voice, 
message, and data communications as required. These IT systems link 
support commanders to their component headquarters and the President 
and the Secretary of Defense.
    Greater emphasis must be placed on maturing the Air National Guard 
Enterprise Network. The rapidly changing hardware and software 
requirements of our warfighting and combat support functions come with 
a significant cost to upgrade and maintain a fully capable Information 
Technology network. The Air Guard network has typically been supported 
at the same level it was during the 1990s. Modernization of the Air 
National Guard Enterprise Network will enhance interoperability with 
other federal and state agencies and is necessary if the Air National 
Guard is able to accomplish its mission.

Summary
    The Air National Guard will continue to defend the nation in the 
Global War on Terrorism across the full spectrum of operations in both 
the Expeditionary and Homeland Defense missions. We will draw upon our 
militia heritage and linkage to the community as we execute our 
multiple missions and roles. The men and women of the Air National 
Guard are serving proudly in the far corners of the globe--and here at 
home--and will continue to do so with distinction. We must ensure our 
future Air National Guard is the right size, with the right skill sets 
and is equally dedicated, professional and well trained as our Citizen 
Airmen are today--standing side by side with their active counterparts, 
standing ready and in defense of our great nation. They are your 
civilians in peace; Airmen in war--America's Hometown Air and Space 
Force--always ready when you need us.

MAJOR GENERAL TERRY L. SCHERLING, DIRECTOR OF THE JOINT STAFF, NATIONAL 
                              GUARD BUREAU
                          JOINT STAFF OVERVIEW

    The National Guard Bureau Joint Staff in 2006 has been the 
embodiment of our entire institution's motto--ready, reliable, 
essential and accessible. In our 370th year, the National Guard found 
itself simultaneously training indigenous forces and battling 
insurgents in Afghanistan and Iraq, conducting peacekeeping missions in 
the Balkans, and furthering international security cooperation. We were 
guarding enemy combatants at Guantanamo Bay, guarding the skies over 
America's cities, providing domestic infrastructure protection, and 
responding to natural disasters. We were supporting counterdrug 
operations, conducting programs for youth at risk, and we were 
exercising and planning with our civilian emergency management and 
emergency response officials. In addition to all of that in June, 2006 
we began assisting the U.S. Border Patrol in securing our 1,950-mile 
border with Mexico. The Joint Staff was ready for these challenges. 
They have demonstrated they are reliable. They are proven essential. 
They remain ever accessible.
    Our support to the Border Patrol, Operation Jump Start (OJS), while 
a new mission this year, has been one that the Guard has performed many 
times in its past, on both the Southern and Northern borders. For this 
President-directed operation we deployed up to 6,000 Citizen-Soldiers 
and -Airmen at a time to the Southern border in support of the 
Governors of Texas, Arizona, New Mexico and California. During the 
first five months of Operation Jump Start, U.S. Customs and Border 
Protection has reported that Guard support has enabled the apprehension 
of more than 21,000 illegal immigrants and the seizure of more than 
81,000 pounds of illegal drugs, greatly reducing both illegal entries 
and the flow of illegal drugs across the border. When we were called, 
we were ready.
    While OJS has been significant and highly lauded, it did not 
detract from the myriad accomplishments and continued transformation of 
the Joint Staff. In fact, during this year our joint staff approved 
concept and implementation plans for the Joint Force Headquarters--
State (JFHQ-State). JFHQ-State is the foundation for our essential 
homeland defense capabilities. We have developed, staffed and 
coordinated the first ever Joint Forces Orientation course program for 
joint intelligence personnel in all 54 states and territories. We 
completed the second iteration of our Joint Task Force Commander 
course, for Active Duty and Guard officers, taking the lead in the 
joint environment. We were active participants, across our joint staff, 
in a variety of capability exercises from the state level, through the 
National Guard Bureau to the combatant command and even interagency 
level. In each of these programs, trainings, and exercises, the joint 
staff was recognized for their reliable expertise and contributions.
    In 2006 we established and implemented a web-based application, 
Joint Information Exchange Environment that has enabled us to maintain 
a Common Operating Picture and situational awareness at both the 
National Guard Bureau and JFHQ-State Joint Operation Centers. We have 
planned and trained for Continuity of Operations. We have developed and 
deployed Joint Enabling Teams, Joint Command, Control, and 
Communication teams, and Public Affairs Rapid Response Teams that 
liaison with the states, provide critical subject matter expertise, 
afford life-saving communication capabilities, and communicate urgent 
messages to the command and the communities. Each of these teams 
remains vigilant and ever ready to deploy any time, anywhere in the 
Unite States when needed. We have established and executed planning 
processes in coordination with the Office of the Secretary of Defense, 
U.S. Northern Command and U.S. Joint Forces Command for incidents of 
national significance including hurricanes, earthquakes, WMD and 
wildfires to ensure that the National Guard is ready to execute when 
called. We have upgraded existing communications equipment, not only in 
hurricane states, but in all 54 states and territories to improve 
interoperability among all participants. These substantive enhancements 
will save lives and mitigate human suffering, and the joint staff, 
which spearheaded them, is essential to mission success.
    Above and beyond, the joint staff programs that are unique to the 
National Guard have also continued to excel this year. Our Counterdrug 
``drug demand reduction'' program touched nearly 2.6 million people in 
2006. On the interdiction side, our Counterdrug program support led to 
over 80,000 arrests and the seizure of more than 1.9 million pounds of 
illegal drugs. Our State Partnership Program, supporting international 
security cooperation goals of the United States, now has partnerships 
with 56 countries around the world, adding four more this year alone. 
The NGB Joint Staff continues to focus on mission first, people always. 
We continue to increase functions and services that enhance the quality 
of life for the men and women of the National Guard and our 
communities. Our Family Program support infrastructure now includes 
more than 350 National Guard Family Assistance Centers located 
throughout the 54 states and territories. We are providing for 
transition assistance. We are advocating enhanced survivor, medical, 
and educational benefits. This year we completed our goal of 
establishing a Sexual Assault Response program in all 54 states and 
territories. We continue to champion our citizen-soldiers and -airmen, 
their employers, and their families. In addition, our Youth ChalleNGnge 
Program since 1993 has now graduated over 68,000 young men and women. 
This program saves $175 million in juvenile correction costs, while 
lowering the percentage of youth who are on federal assistance from 24 
percent to 10 percent. Each of these programs and the joint staff who 
support them are accessible and vital to our nation.
    The National Guard and the NGB Joint Staff. Ready. Reliable. 
Essential. Accessible. Whether it is responding to the needs of today, 
or preparing for threats tomorrow, like pandemic influenza, the next 
hurricane, or the continued global war on terrorism, the National Guard 
is a trained, tested, and cohesive team, of Citizen-Soldiers and -
Airmen, stronger than they have ever been in their 370-year history. 
And the NGB Joint Staff contains a vast reservoir of experience gained 
with the sweat and blood of combat deployments, disaster relief 
operations, homeland security, and peacekeeping to support this 
incredible force. We will continue to do what is right for America. For 
now--and for the next 370 years--we must remain Always Ready, Always 
There!

Homeland Defense
            National Guard Reaction Force
    The National Guard has over 370 years of experience in responding 
to both the federal government's warfighting requirements, and the 
needs of the states to protect critical infrastructure and ensure the 
safety of our local communities. In order to improve the capability of 
states to respond to threats against the critical infrastructure within 
our borders, the Chief of the National Guard Bureau has asked the 
Adjutant General of each state, territory and the Commanding General, 
District of Columbia, to identify and develop a Quick Reaction Force 
capability. The goal is a trained and ready National Guard force 
available to the Governor that is capable of responding in support of 
the local community, state and, when required, the Department of 
Defense. NGB has been working with the states and territories to 
identify current response capabilities, and with Northern and Pacific 
Commands to ensure that National Guard capabilities are understood and 
incorporated into their emergency response plans. We continue to 
identify the additional requirements for force protection and 
interoperability with civil responders. The National Guard Reaction 
Force is not a new capability or concept. What is new is the concept of 
standardized training and mission capabilities being shared by all 
states, territories, and the District of Columbia.
            Critical Infrastructure Program--Mission Assurance 
                    Assessment (CIP-MAA)
    Critical Infrastructure Program-Mission Assurance Assessment (CIP-
MAA) teams provide pre-incident facility and/or installation 
vulnerability and capability assessments for all levels of government. 
They also fill an identified gap within the Department of Defense for 
assessments of the Defense Industrial Base. When providing these 
assessments, teams operate in direct support of the Assistant Secretary 
of Defense for Homeland Defense's directive for the Defense Critical 
Infrastructure Program.
            Support to Civil Authorities
    During 2006, the National Guard, again, provided unprecedented 
support to federal, state, and local authorities through Homeland 
Defense and Homeland Security operations. Most notably, the National 
Guard deployed up to 6,000 Soldiers to the Southwest border of the 
United States in support of Operation Jump Start. This operation, due 
to terminate in 2008, was and continues to be an immediate, short-term 
national security effort designed to strengthen border security. 
National Guardsmen and women are assisting the U.S. Border Patrol with 
non-core border activities, thereby allowing the Border Patrol the time 
and manpower needed to hire and train an additional 6,000 agents and to 
implement the Secure Border Initiative. This in turn enables the Border 
Patrol to accomplish its law enforcement and border security mission--
protecting the United States against possible terrorist threats, drug 
trafficking, the import of weapons, and the influx of undocumented 
aliens. The success of Operation Jump Start is quite evident, as more 
than 30,000 alien apprehensions have been made to date.
            Weapons of Mass Destruction Civil Support Teams
    Weapons of Mass Destruction Civil Support Teams (WMD-CST) provide 
the National Guard with the capability to deploy rapidly to assist a 
local incident commander in determining the nature of a chemical, 
biological, radiological, nuclear, and high-yield explosive incident. 
The teams also provide a strategic reconnaissance capability and 
situational awareness by assessing suspected Weapons of Mass 
Destruction (WMD) attack, advising civilian responders on appropriate 
actions through on-site testing and expert consultation, and assisting 
and facilitating in the arrival of follow-on state and federal military 
forces. Currently, there are 55 authorized teams (one per state/
territory/District of Columbia and two in California). The CST program 
is composed of 1,210 full-time AGR Army and Air National Guard members. 
Each team is fully engaged in planning, training and operations to 
support local and state emergency first responders as well as other 
federal agencies.
    Operationally, CST is under the command and control of the state 
Governor through the Adjutant General. The National Guard Bureau 
provides logistical support, standardized operational procedures, and 
operational coordination to facilitate the employment of the teams and 
ensure back-up capability to states currently without a certified Civil 
Support Team.
            Chemical, Biological, Radiological, Nuclear, and High-Yield 
                    Explosive Enhanced Response Force Package
    Chemical, Biological, Radiological, Nuclear, and High-Yield 
Explosive Enhanced Response Force Packages (CERFP) enhance the National 
Guard's ability to quickly respond to chemical, biological, 
radiological, nuclear, and high-yield explosive events. The teams are 
Task Force organized and comprised of existing Army and Air National 
Guard units. These dual-missioned units are provided additional 
equipment and specialized training that prepares them to respond 
rapidly (deployment-ready within six hours) to CBRNE incidents inside 
the United States or, at the request of a Combatant Commander, 
overseas. The National Guard CERFP, in conjunction with the Weapons of 
Mass Destruction (WMD) Civil Support Teams, provides a phased response 
capability. The WMD-CST will detect and identify CBRNE agents/
substances, assess the potential effects of the WMD incident, advise 
the local authorities on managing the effects of the attack and assist 
with appropriate requests for additional support in order to minimize 
the impact on the civilian populace. The teams will provide a follow-on 
capability to locate and extract victims from a contaminated 
environment, perform medical triage and treatment, and perform Mass 
Patient/Casualty Decontamination to support civil first responders or 
military authorities. Currently there are 12 CERFPs that have completed 
external evaluations by 1st and 5th Army. The five additional CERFPs 
that were authorized by Congress in 2006 will be equipped and trained 
by October 2007.
    National Guard Chemical, Biological, Radiological, Nuclear, and 
High-Yield Explosive Enhanced Response Forces will operate within the 
National Incident Management System and, while not the lead agency, 
they will function in a support role when requested through the State's 
Emergency Management System. If federalized, the National Guard CERFP 
operates under the control of the supported Combatant Command. 
Additionally, each CERFP has a regional responsibility to respond to 
major CBRNE incidents anywhere within the 54 states and territories or 
as directed by national command authorities. The CERFPs are located in 
New York, Massachusetts, Pennsylvania, West Virginia, Texas, Florida, 
Colorado, California, Washington, Hawaii, Missouri, Illinois, Ohio, 
Georgia, Virginia, Minnesota, and Nebraska.
            Vigilant Guard Exercises
    Vigilant Guard is a North Atlantic Aerospace Defense Command/U.S. 
Northern Command sponsored exercise series that is focused on Military 
Assistance to Civil Authorities and asymmetric threats. It is designed 
to enhance the preparedness of the National Guard JFHQ-State, JTF-
State, WMD-CSTs, National Guard Reaction Forces, and CBRNE Response 
Force packages to perform roles and responsibilities related to 
Homeland Defense and Defense Support to Civil Authorities.
    The National Guard, in conjunction with interagency, 
intergovernmental, Department of Defense, and state Emergency 
Management Agencies, is afforded the opportunity to test tactics, 
techniques, and procedures. The exercise goal is to increase readiness 
by identifying gaps and seams in planning and operations, making 
corrections, and developing partnerships that cultivate a unified 
effort. To date, the National Guard Bureau has conducted four regional 
Vigilant Guard exercises with 23 participating states. Over 800 
personnel from the National Guard, state Emergency Management Agencies, 
Federal Emergency Management Agency, Department of Homeland Security, 
Federal Bureau of Investigation, U.S. Northern Command, Army North, and 
the Department of Energy have participated. This program bridges a gap 
in the training continuum that neither Department of Homeland Security, 
U.S. Northern Command, nor Federal Emergency Management Agency can 
fill.
            Public Affairs Rapid Reaction Team
    The National Guard has established a joint Public Affairs Rapid 
Reaction Team that has a capability to quickly deploy and augment state 
public affairs capabilities during incidents of national significance 
or other emergencies that exceed local resources. Team members--
equipped with state-of-the-art communications equipment--represent a 
robust strategic communication capability for our National Guard 
forces. These teams allow the National Guard to keep the American 
public fully informed by providing potentially life-saving information 
to citizens in need. Communicating the National Guard message in 
today's high-intensity, 24/7 news environment is more critical than 
ever. This will provide accurate, comprehensive and immediate 
information.
            Joint Worldwide Intelligence Communications System
    The increasing importance of Homeland Defense has blurred the 
distinction between the Guard's traditional warfighting and Homeland 
Security/Disaster Response roles. During crisis and emergency 
situations, access to national-level intelligence and imagery is 
critical. The Joint Worldwide Intelligence Communications System 
(JWICS) provides continuity across the spectrum of required missions. 
It allows time-sensitive intelligence information to be pushed to the 
Governors, Adjutants General and joint force commanders. Senior Guard 
and state officials gain access to important critical, time-sensitive 
information needed for the proper command and control of forces. 
Additionally, decision makers gain a vital, secure communications path 
to senior leadership at national level agencies. End-of-year funding 
paid for JWICS equipment, equipment installation, limited amounts of 
associated, secure carrier lines, and one year of maintenance support 
for each of the 30 JFHQ-State, and the central hub location at National 
Guard Bureau. It is planned that sufficient funding will be available 
to provide JWICS connectivity to the remaining 24 states and program 
maintenance costs for fiscal year 2007 and beyond.

Support the Warfight
            State Partnership Program
    The State Partnership Program directly supports the broad national 
interests and international security cooperation goals of the United 
States by engaging partner nations through military, socio-political, 
and economic conduits at the local, state, and national levels. The 
program's public diplomacy effectiveness lies in its ability to 
leverage the full breadth and depth of U.S. defense and interagency 
capabilities from within the state-country relationship. The goals of 
the program reflect an evolving international affairs mission for the 
National Guard that emphasizes its unique state-federal and civil-
military characteristics to interact with both the active and reserve 
forces of foreign nations, interagency partners, and non-governmental 
organizations.
    States and their partners participate in a broad range of strategic 
security cooperation activities to include homeland defense/security, 
disaster response/mitigation, consequence/crisis management, 
interagency cooperation, border/port/aviation security, combat medical 
exchanges, fellowship-style internships, and bilateral familiarization 
events that lead to training and exercise opportunities. All activities 
are coordinated through the Combatant Commanders, U.S. Ambassadors' 
country teams, and other agencies, as appropriate, to ensure National 
Guard cooperation is tailored to meet the U.S. and international 
partners' objectives. Within the past year, six new partnerships have 
been established--Nigeria/California, Suriname/South Dakota, Indonesia/
Hawaii, Montenegro/Maine, Costa Rica/New Mexico and Caribbean Regional 
Security System countries/Florida. In all, 56 comprehensive 
partnerships have been established.
    In fiscal year 2008 and beyond, rapidly evolving international 
conditions and events will offer both challenge and opportunity. The 
program's expansion into the developing regions of Africa, Central 
Asia, and the Pacific Rim will require new strategies to promote 
political, military and social stability while making the best use of 
National Guard resources. The National Guard will continue to work with 
the military services, Combatant Commanders, Ambassadors and 
international partners to establish and formalize in-country Bilateral 
Affairs Officer positions and training to support mission expansion and 
to ensure long-term effectiveness. Moving forward, the National Guard 
will increase its emphasis on building partnership capacity by 
encouraging greater interagency participation and by developing new 
holistic paradigms to improve international cooperation, peace and 
stability.
            National Guard Family Program
    The National Guard Bureau Family Program is a Joint Force 
initiative that serves as the foundation for support to families of 
Army and Air National Guard members. As the Guard faces an 
unprecedented increase in military activity and extended deployments, 
the highest priority of our program is to provide families with the 
assistance needed to cope with mobilization, deployment, reunion, and 
reintegration, as well as with large-scale evacuations, natural/manmade 
disasters, and national emergencies.
    Not since World War II have so many Guard members been deployed to 
so many places for such extended periods. Beyond the traditional 
deployments and mobilizations, there has also been a steady increase in 
use of the National Guard for domestic missions dealing with natural 
disasters and large-scale evacuations. The role and support of the 
family is critical to success with the full range of military missions.
    The National Guard Family Program has developed an extensive 
infrastructure that supports and assists families during all phases of 
the deployment process and through the many stages of coping with 
disasters. Part of this support infrastructure includes more than 350 
National Guard Family Assistance Centers that are located throughout 
the fifty-four states and territories. These centers provide 
information, referral, and assistance with anything that families 
experience during their military service. Most importantly, the centers 
are available to any military family member from any branch or 
component of the Armed Forces.
    The greatest challenge lies in awareness and communication. The 
feedback we receive indicates that many family members are unaware of 
the many resources available to them during a period of active duty or 
deployment. The goal of our program is to reduce or eliminate service 
member distractions by ensuring the availability of appropriate 
services for eligible family members or affected National Guard members 
at or near their homes. The policies, plans, initiatives and 
partnerships of the program enhance unit cohesion, increase unit and 
family readiness, and support service member effectiveness.
            Veteran's Affairs
    The sustained mobilization of the National Guard since 9/11 has 
resulted in a larger number of Guard members eligible for entitlements 
available through the Department of Veterans Affairs. The Chief, NGB, 
Under Secretary for the Veterans Health Administration and Under 
Secretary for the Veterans Benefit Administration signed a memorandum 
of agreement in May 2005 that outlines support for Guard members.
    Since its inception, significant progress has been made to 
improving the services available to Guard members and their families. A 
permanent liaison has been appointed at both the National Guard Bureau 
and U.S. Department of Veterans Affairs to resolve issues at the 
federal level. Additionally, 54 Transition Assistance Advisors have 
been trained and assigned to the JFHQ-State to act as a liaison between 
members entitled to VA benefits within a state and the local Veterans 
Affairs offices, veterans' service organizations, and community 
representatives. This new program builds upon the strength and success 
of the Guard Family Programs and capitalizes on the services already 
provided by the Department of Defense
            Employer Support of the Guard and Reserve
    Our nation's dependence on her Citizen Soldiers--Americans who 
generally have other civilian careers--will not change. The Employer 
Support of the Guard and Reserve basic mission continues to be gaining 
and maintaining the support of public and private employers for the men 
and women of the National Guard and Reserve.
    A nationwide network of local Employer Support volunteers is 
organized in Employer Support of the Guard and Reserve (ESGR) 
Committees within each state, the District of Columbia, Guam, Puerto 
Rico and the Virgin Islands. In this way, Employer Support programs are 
available to all employers, large and small, in cities and towns 
throughout our country. Today, nearly 4,200 volunteers serve on local 
ESGR Committees. With resources and support provided by the National 
ESGR Office and the National Guard Bureau, these 54 ESGR Committees 
conduct Employer Support and Outreach programs, including information 
opportunities for employers, ombudsman services and recognition of 
employers whose human resource policies support and encourage 
participation in the National Guard and Reserve. In view of the 
importance of Employer Support to the retention of quality men and 
women in the National Guard and Reserve, and recognition of the 
critical contributions of the local ESGR Committees, the National Guard 
Bureau provides full time assistance and liaison support to the Joint 
Forces Headquarters and the ESGR Committees.
            Youth ChalleNGe Program
    The award-winning National Guard Youth ChalleNGe Program is a 
community-based program that leads, trains, and mentors at-risk youth 
to become productive citizens in America's future. As the second 
largest mentoring program in the nation, the ChalleNGe program is 
coeducational and consists of a five-month ``quasi-military'' 
residential phase and a one-year post-residential mentoring phase. 
Cadets must be volunteers, between 16 and 18 years of age, not in 
trouble with the law, drug free, unemployed, and high school dropouts.
    The program has been a national model since 1993 and is offered at 
29 sites in the United States and Puerto Rico. The program has 
graduated over 68,000 young men and women who leave equipped with the 
values, skills, education and self-discipline necessary to succeed as 
adults in American society. Significantly, although many ChalleNGe 
candidates are from at-risk populations, over seventy percent of the 
graduates have attained either a General Equivalency Diploma or high 
school diploma. Furthermore, approximately twenty percent of all 
graduates choose to enter military service upon graduation. The 
ChalleNGe program saves $175 million in juvenile corrections costs, 
while lowering the percentage of youth who are on federal assistance 
from 24 percent to 10 percent. The results are a ChalleNGe program that 
actually makes money for the tax dollars spent. Although the program 
graduation rate is above ninety-four percent and the general 
equivalency diploma attainment is over seventy percent, the National 
Guard seeks greater success in both of these areas.
            The National Guard Counterdrug Program
    For over 17 years, the National Guard Counterdrug program has 
worked with more than 5,000 Law Enforcement Agencies, to protect the 
American homeland from significant national security threats. The Guard 
assists these agencies in their effort to stop illegal drugs from being 
imported, manufactured, and distributed; and supports community based 
drug demand reduction programs that touched nearly 2.6 million people 
in 2006. The Counterdrug Program also provides support to the combatant 
commanders of both U.S. Northern and Southern Commands. Given the 
growing link between drugs and terrorism, the National Guard 
Counterdrug Program continues to complement America's homeland security 
efforts.
    The National Guard Bureau Counterdrug Program, as executed by the 
54 states and territories through their respective Governors' 
Counterdrug Plan, supports the Office of National Drug Control Policy 
strategies. We have embedded this within the six general mission 
categories including: program management; technical support; general 
support; counterdrug related training; reconnaissance/observation; and 
drug demand reduction. In 2006, approximately 2,539 National Guard 
personnel provided counterdrug support to law enforcement agencies 
while remaining ready, reliable, and relevant for their wartime mission 
by actively participating with their unit of assignment at weekend 
training, annual training, and individual Soldier and Airmen 
professional development.
    In fiscal year 2006 (Oct. 1, 2005-Sept. 30, 2006) the National 
Guard support efforts led to 80,843 arrests and assisted law 
enforcement in seizing the following:

------------------------------------------------------------------------

------------------------------------------------------------------------
Cocaine................................  714,670 pounds
Crack Cocaine..........................  8,764 pounds
Marijuana eradicated...................  4,000,734 plants
Marijuana (processed)..................  1,141,946 pounds
Methamphetamines.......................  38,485 pounds
Heroin.................................  3,134 pounds
Ecstasy................................  714,668 pills
Other/Designer Drugs...................  1,866,099 pills
Weapons................................  20,084
Vehicles...............................  11,936
Currency...............................  $209,232,166
------------------------------------------------------------------------

    In addition to counterdrug support operations, Army and Air 
National Guard aviation assets supported HLD and HLS operations along 
the northern and southwest borders. During 2006, counterdrug aviation 
assets flew over 41,000 hours in support of federal, state and local 
law enforcement agencies.
            Counter Narcotic/Counter Narco-Terrorism Expeditionary 
                    Forces
    The National Guard currently fields Counter Narcotic/Counter Narco-
Terrorism Expeditionary Forces (CNNTEF) in twelve states. These teams 
are manned by Soldiers and Airmen on full time duty that have the 
specialized equipment and training to conduct ground reconnaissance, 
criminal analysis, and counter drug civil support operations.
    With a focus on theater security, these teams apply their skills in 
the current environment to develop theater security cooperation, to 
protect against trans-national threats, and to counter the threats of 
trafficking in narcotics and associated narco-terrorism. In an effort 
to ensure and enhance the capabilities of these teams, the National 
Guard Bureau works closely with agencies within the Department of 
Defense, the Department of State, and the Department of Justice, while 
also coordinating with U.S. combatant commands from around the globe.
    The capabilities represented by the CNNTEF can be employed 
domestically (in support of civil authority) or internationally. 
International mobile training teams provide instruction for foreign law 
enforcement or military agencies. In 2006, activities outside the 
United States included a mobile training team to Kyrgyzstan, and both 
counter drug and counter narco-terrorism activities in support of the 
government of the Republic of Columbia.

Transformation for the Future
            Joint Force Headquarters-State
    The Joint Force Headquarters-State were established (provisionally) 
in October, 2003. This was a reorganization of the separate Army and 
Air National Guard Headquarters in each state, territory, the District 
of Columbia and Commonwealth of Puerto Rico to a recognized Joint 
Activity of the Department of Defense that was able to support the 
Governor or President with command and control of all assigned, 
attached or operationally aligned forces.
    During 2006, the Director of the Joint Staff concurred with the 
Chief, NGB Concept and Implementation Plan to transform the existing 
headquarters to make the 54 JFHQ-State a reality. The Director of the 
Joint Staff requested a proposed draft charter for signature by the 
Secretary of Defense to formally recognize the JFHQ-State as Joint 
Activities. Charter development is well underway. JFHQ-State is ground 
breaking in the joint world where everything had been built around the 
Active Component. There remains a tremendous amount of work to modify 
and adapt existing regulations and instructions to accommodate a 
reserve component Joint Activity. This initiative will ensure the 
seamless integration of National Guard forces with the Active Component 
for response to domestic emergencies and availability of National Guard 
capabilities and forces for all contingencies.
    The National Guard Bureau is working with the Joint Staff to 
develop expertise and operational experience in the Joint arena. This 
includes advocating for necessary changes that allow the JFHQ-State to 
contribute essential capabilities to the defense of the homeland, 
especially in the domestic theater of operations and support to civil 
authorities.
    The Joint Force Headquarters must possess the ability to establish 
one or more Joint Task Forces (JTFs) to support homeland defense and 
Defense Support to Civil Authorities (DSCA). Additionally, the 
authority exists to establish a JTF within each state composed of both 
National Guard members in non-federal status and active component 
military personnel. In order to better prepare the National Guard 
Bureau for the challenges of a ``dual status'' JTF Command, the 
National Guard Bureau has developed and implemented a formal training 
program for senior leaders and support staff from all 54 states and 
territories. The dual-status JTF commander is a transformational 
concept that leverages the unique capabilities resident in the total 
force and strengthens unity of effort in support of the homeland 
defense mission and DSCA.
    The overall effort involves two programs, the Joint Task Force 
Commander Course and the Joint Task Force State Staff Course (JSSC). 
The commander's course is a four day in-resident program offered twice 
annually that focuses on presenting senior officers with instruction on 
the most current guidance, policy, directives, and lessons learned 
regarding Joint Task Force command. The JSSC is a one-year blended 
Distance Learning course in conjunction with two in-resident face to 
face sessions concentrating on training the Joint Force Headquarters 
staff in support of the JTF Commander, and providing DSCA.
    The National Guard is responsible for sharing information that is 
timely, relevant and accurate to various federal, state, and 
interagency partners. The advent of the JFHQ-State is the primary means 
to ensure that information is quickly passed from the state level to 
the federal level and consolidated into a comprehensive NGB Common 
Operations Picture. This is then disseminated through the NGB Joint 
Operations Center to external state, federal, and interagency partners. 
In order to ensure that information from the 54 states and territories 
is standardized the NGB is conducting a series of Joint Operation 
Center training classes that will enable NGB to quickly and accurately 
correlate and disseminate information. The National Guard is also 
working to ensure that all 54 states and territories are able to man 
these headquarters on a 24/7 basis. The NGB is also hosting a 
collaborative operating environment known as Joint Information Exchange 
Environment to facilitate accurate and timely information flow.
            Joint Combined State Strategic Plan
    The Joint Combined State Strategic Plan (JCSSP) directly supports 
both Homeland Defense and Transformation for the Future. A strategic 
planning initiative directed by Lieutenant General Blum, the JCSSP is 
designed to categorize, assess and analyze state National Guard 
capabilities in support of Joint Domestic National Guard operations. 
This strategic plan serves both as a strategic and operational planning 
tool for the Governors, the state National Guard, National Guard 
Bureau, and United States Combatant Commands when responding to 
domestic emergencies. The plan also serves as an analytical tool that 
allows National Guard Bureau to determine what units should be added to 
the National Guard force structure during the Transformation process in 
order to maintain or increase domestic response capabilities.
    Currently, there are ten core joint capabilities--Command and 
Control, CBRNE, Maintenance, Aviation/Airlift, Engineer, Medical, 
Communications, Transportation, Security, and Logistics. Each 
capability is assessed for overall response potential and units are 
tracked for their status and availability down to company or flight 
level. Recent Hurricane Katrina Relief efforts highlighted the 
importance of having this information readily available. The National 
Guard was able to identify and mobilize units based on current 
availability and specific functional capability. In addition, 
individual states have used the state based joint combined strategic 
plan to render civil authorities support during life threatening snow 
storms and severe flooding this past winter.
    JCSSP is a dynamic program to which enhancements have been added. 
that allow the states to better assess their response capabilities. One 
such enhancement is the Joint Capabilities Database which was developed 
in the past year to give the states the ability to provide near-real 
time input on unit status and availability in each capability area. 
This database is a web-based application that has been made available 
to each state National Guard, state emergency management office 
personnel and combatant commands. An ability to assess situational 
response capability to specific events has been built into the 
database. Eighteen events are currently monitored, such as hurricanes, 
tornadoes, floods, wildfires, and civil disturbances. This database 
allows the National Guard to meet the requirements of National Defense 
Authorization Act 2007 requiring the Secretary of Defense to maintain a 
database of emergency response capabilities for each state National 
Guard.
    The current ability of the Joint Combined State Strategic Plan and 
its associated Joint Capabilities Database to track individual joint 
core capabilities needed to support Homeland Defense and Homeland 
Security tasks make this program a critical element in the continuing 
transformation of the National Guard and the National Guard's continued 
relevance to the nation.
            Joint Continental United States (CONUS) Communications 
                    Support Environment
    The Joint CONUS Communications Support Environment (JCCSE) is an 
umbrella term for the National Guard's initiative to provide an 
interoperable command, control, and communications (C4) capability for 
National Guard forces in homeland defense or disaster response.
    During the Hurricane Katrina response, we learned that when 
catastrophic events occur, the National Guard from several states will 
likely respond. The National Guard requires a command, control, and 
communications capability that is interoperable with U.S. Northern 
Command, as well as local and state entities in the affected area. 
Therefore, the JCSSE provides this capability for National Guard units 
and their respective Joint Force Headquarters, the Department of 
Homeland Defense, the Federal Emergency Management Agency, along with 
the active component forces that may be employed for the event.
    Since Katrina, NGB has identified gaps in the C4 capability of 
JCSSE and has worked to eliminate them. The National Guard Bureau is 
currently upgrading existing communications equipment and fielding an 
upgraded version of a deployable C4 package in all 54 states and 
territories. These activities will provide improved interoperability 
among participants and will provide ``reach back'' for reporting 
situational awareness to command authorities. Additionally, we work 
closely with U.S. Northern Command to establish Joint Operations 
Centers at the National Guard Bureau and the JFHQ-State. These 
operations centers have the necessary information technology equipment 
and software to share information with federal, local, and state 
partners. We have also recently developed and fielded the Joint 
Information Exchange Environment, a web-based portal application that 
allows the National Guard and the JFHQ-State to better exchange 
information and work from a common operational picture.

                        STATE ADJUTANTS GENERAL

    Alabama--Major General (Ret) Crayton M. Bowen
    Alaska--Major General Craig E. Campbell
    Arizona--Major General David P. Rataczak
    Arkansas--Major General Ronald S. Chastain
    California--Major General William H. Wade, II
    Colorado--Major General Mason C. Whitney
    Connecticut--Major General (CT) Thaddeus J. Martin
    Delaware--Major General Francis D. Vavala
    District of Columbia--Major General David F. Wherley, Jr., 
Commanding General
    Florida--Major General Douglas Burnett
    Georgia--Major General David B. Poythress
    Guam--Major General Donald J. Goldhorn
    Hawaii--Major General Robert G. F. Lee
    Idaho--Major General Lawrence F. Lafrenz
    Illinois--Major General (IL) Randal E. Thomas
    Indiana--Major General R. Martin Umbarger
    Iowa--Major General Ron Dardis
    Kansas--Major General Tod M. Bunting
    Kentucky--Major General Donald C. Storm
    Louisiana--Major General Bennett C. Landreneau
    Maine--Major General John W. Libby
    Maryland--Major General Bruce F. Tuxill
    Massachusetts--Brigadier General (MA) Oliver J. Mason, Jr.
    Michigan--Major General Thomas G. Cutler
    Minnesota--Major General Larry W. Shellito
    Mississippi--Major General Harold A. Cross
    Missouri--Major General (MO) King E. Sidwell
    Montana--Major General Randall D. Mosley
    Nebraska--Major General Roger P. Lempke
    Nevada--Brigadier General Cynthia N. Kirkland
    New Hampshire--Major General Kenneth R. Clark
    New Jersey--Major General Glenn K. Rieth
    New Mexico--Brigadier General (NM) Kenny C. Montoya
    New York--Major General Joseph J. Taluto
    North Carolina--Major General William E. Ingram, Jr.
    North Dakota--Major General David A. Sprynczynatyk
    Ohio--Major General Gregory L. Wayt
    Oklahoma--Major General Harry M. Wyatt, III
    Oregon--Major General Raymond F. Rees
    Pennsylvania--Major General Jessica L. Wright
    Puerto Rico--Colonel (Ret) Act Benjamin Guzman
    Rhode Island--Major General Robert T. Bray
    South Carolina--Major General (Ret) Stanhope S. Spears
    South Dakota--Major General Michael A. Gorman
    Tennessee--Major General Gus L. Hargett, Jr.
    Texas--Major General Charles G. Rodriguez
    Utah--Major General Brian L. Tarbet
    Vermont--Major General (VT) Michael D. Dubie
    Virginia--Major General (VA) Robert B. Newman, Jr.
    Virgin Islands--Brigadier General (VI) Eddy G. L. Charles, Sr.
    Washington--Major General Timothy J. Lowenberg
    West Virginia--Major General Allen E. Tackett
    Wisconsin--Major General Albert H. Wilkening
    Wyoming--Major General Edward L. Wright

    Senator Inouye. General Vaughn.

STATEMENT OF LIEUTENANT GENERAL CLYDE A. VAUGHN, 
            DIRECTOR, AIR NATIONAL GUARD
    General Vaughn. Chairman Inouye, Senator Stevens, 
distinguished members, it's a great privilege to be here again 
with you. I ask that my statement be read in the record and 
I'll try to synopsize this quickly.
    A year ago, we came before you and talked to you about 
strength as the number one piece that we're concerned about. 
Now, I'll draw your attention to the chart on the right. This 
chart on the right hand side shows where we started in 2003. We 
started our skid to the right hand side and started down in 
strength. We bottomed out somewhere around 330,000. As you 
know, our appropriated end strength was supposed to be 350,000. 
A year ago, we were around 335,000 to 336,000. Since that time, 
we have averaged a net gain of over 1,000 a month to our end 
strength. The States have done a magnificent job. These are 
bright, young, and enthusiastic men and women coming forward to 
serve. The States and the Governors have really rolled it out. 
They've done everything that we could have asked, to make a 
commitment to recruiting this force.
    Now, in the last several weeks, of course, our great Chief 
of Staff of the Army has come over several times and testified. 
One of his mantras is don't confuse capability with enthusiasm. 
I will tell you that we have enthusiasm. The capabilities you 
buy. You buy it in terms of training dollars, and you buy it in 
terms of equipment. We need more help with these issues.
    Now, as we talk about those particular pieces, one being 
equipment, the Army has worked very, very hard with us on this. 
As you all know, $36 billion is what's programmed for us inside 
Army accounts between 2008 and 2013.
    If that holds and if we can see that in terms of 
transparency and trust. That is a key word--transparency. We 
have to see the equipment all the way from the appropriations 
to the units. As General Blum talked to you about, in the past 
you have provided dollars and equipment through the National 
Guard and Reserve equipment accounts. We have control and 
visibility over that. We bought anything on the 125 list of the 
342 dual-use items, the things that we said we were going to 
buy, we bought with that money.
    We need $36 billion to hold us all the way through, but it 
does not get us to 100 percent at the end of 2013--we will be 
at 77 percent with that $36 billion to hold us all the way 
through.
    A couple of things have happened lately. One of them has 
been the new pre-mobilization training dialogue that we've 
entered into. As you know, we recently mobilized four more 
BCTs. These units have been ready nearly 1 year early and have 
to have the resources and equipment now, prior to deployment, 
to reach as high level of readiness as we possibly can.
    I ask you to watch closely the personnel accounts. Watch 
closely what happened to us in recruiting--I think it is fairly 
obvious that is referred to as the hook chart. We're on a path 
toward something that we need so that we can take some of this 
heat off the soldiers doing all the deployments. Just like the 
Army, we need to grow.
    Thank you so much for your help. It's been an honor being 
here in front of this subcommittee. We look forward to your 
questions.
    Senator Inouye. I now recognize General McKinley.

STATEMENT OF LIEUTENANT GENERAL CRAIG R. MCKINLEY, 
            DIRECTOR, AIR NATIONAL GUARD
    General McKinley. Thank you, Mr. Chairman, distinguished 
members of the subcommittee. It's indeed an honor to be the 
junior member of General Blum's team here today. I will 
complete 1 year in the job in June. It's been an incredible 
year. I've visited many of your States, many of the units in 
your States. I'm deeply impressed with the spirit and 
professionalism of all the men and women who make up the Air 
National Guard.
    I think my three priorities today are to tell you that your 
Air National Guard is ready to fight today. They are totally 
integrated in the United States Air Force on the global war on 
terror (GWOT). They're fighting the away game very 
professionally in all theatres of the globe and we're also 
providing great support here at home.
    General Blum gave us the opportunity to assist in Operation 
Jump Start. We're now providing over 1,000 airmen along with 
the Army National Guard along our Southwest border, which has 
been a very impressive mission for us.
    I would like to just take one State, maybe one unit and 
give you an example of some of the issues we're facing. Senator 
Dorgan, if you'll indulge me, I'll use the 119th Fighter Wing 
in Fargo.
    As a result of a base realignment and closure (BRAC) 
decision in North Dakota, four major movements have occurred. 
This has happened across all of your States. The 119th Fighter 
Wing is a very distinguished fighter wing in your State, sir, 
with an unparalleled safety record in single seat fighters. As 
a result of BRAC, it lost its F-16 fighters and the decision 
was made to convert them to MQ-1 drones. They've taken on that 
mission exceptionally well, very professionally and they've got 
men and women today fighting in the GWOT with crews ready to 
fight.
    In addition to the unmanned air vehicles in Fargo, there is 
additional unmanned air vehicles scheduled to go to Grand 
Forks, North Dakota. We will integrate the Air National Guard 
men and women in that organization.
    Finally, General Blum made the decision to put the joint 
cargo aircraft, when it is built, in Fargo. We will await the 
decision on that aircraft. When it arrives and in lieu of that 
aircraft arriving now, General Blum and I made the decision to 
bridge that mission, a flying mission, to put Lear jets or C-
21s in there so we don't lose the skills of those airmen and 
those maintenance people waiting for the joint cargo aircraft.
    I'll say there's an incredible amount of churn going on, 
but your airmen are doing an exceptional job. I could go down 
each member of the Air National Guard here today and give you 
similar stories about how capable and how effective they are, 
but these are challenging times. We're integrating well in the 
GWOT. We're taking care of our airmen, and we're participating 
with our United States Air Force in its recapitalization. It's 
extremely important to the Air National Guard that our Air 
Force continues to recapitalize, so that we can transition the 
20th century Air National Guard into a highly effective, 
combat-capable 21st century Air National Guard.
    That, Mr. Chairman, is my brief statement. I look forward 
to your questions and I thank you all very much for your 
support of the Air National Guard.
    Senator Inouye. Thank you very much, General McKinley. 
We'll begin our questioning now. Senator Durbin has advised me 
that he has to be on the floor at 11:15 so please proceed.
    Senator Durbin. I'll wait.
    Senator Inouye. You'll wait? Then I will call on Senator 
Stevens.

             CAPABILITY OF RESPONDING TO NATURAL DISASTERS

    Senator Stevens. Thank you very much. General Blum, there 
is no question that you've responded to the calls that have 
been placed upon the Guard and Reserve. But how has it affected 
the response to disasters at home now? Are the Governors 
complaining about the loss of personnel you mentioned? General 
McKinley mentioned some disruption in North Dakota. Are any 
Governors complaining about the loss of the capability of the 
Guard to meet the contingency at home, such as hurricanes, 
floods, disasters?
    General Blum. Every Governor in our great Nation has that 
concern that they have a National Guard that they can call on 
that's ready and capable. If you look at chart 11, the cube 
please, this is the challenge that we face.
    You can see across the top a little model of a child's 
puzzle that is simple to do. Not really--only about 30 percent 
of the American people can ever solve one of these puzzles, but 
this is the puzzle we have to deal with every day. Across the 
top you can see the recruiting, retention and equipment, 
training, and exercising the unit so it has the capabilities to 
do the missions it's asked to do.
    The missions we're asked to do every day such as 
consequence management, homeland defense, homeland security and 
domestic operations, plus the overseas war fight, and you have 
to balance that all. The Governors have been terrific, 
patriotic, and very, very serious partners in the defense of 
this Nation. After all, they are the commanders in chief of the 
Army and Air National Guard of their States and territories. 
They understand they're going to have to share those 
capabilities and equipment to protect our Nation abroad and 
they have done that.
    What they have asked us to do at the National Guard Bureau 
is to balance the capabilities that are left in the State when 
the unit has to respond to the Federal mission overseas, so 
it's not so disproportionate that any State is left at risk.
    In February 2003, we made a commitment to the Governors of 
this Nation too, in fact, ensure that they always have 50 
percent of their capabilities available to them back at home, 
even while the troops were deployed overseas. We have honored 
that commitment. There is not a single State or territory in 
our great Nation that right now has more than 25 percent of its 
Army and Air National Guard deployed overseas.
    Senator Stevens. Let me ask General Vaughn about that then. 
Is the training of combat taking consideration--this agreement 
of keeping 50 percent at home, that those at home don't need to 
be trained to fight at combat level, they need to be trained 
for disaster and riot and help the security concepts. Are we 
still training that 50 percent to go overseas anyway?
    General Vaughn. Well, what we're up to now, Senator, if you 
think about the pressure that is on the force and you talk 
about going, say once every 5 years, like it is now and the 
fifth year, you'd be deployed. This means that in the fourth 
year and third year, you've got to train for that Federal 
mission. There's no question about it. You've got to be ready 
to get that out of the way so you could deploy on that fifth 
year. Years one and two when you get back and what they call--
years one and two, that should be the focus of what they do.
    I'd go back to exactly what General Blum said. We're saying 
that there has to be so many available in any one year. Years 
one and two--that is truly their focus, because three and four 
it turns into the Federal mission.

              ARNG Equipping Requirements Versus Resources
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                                       ARNG UFR TO REACH 90 PERCENT: $13.1 BILLION
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                         Shortfall
                                                                            Quantities   Quantities   Shortfall   Procurement  Post Fiscal
                                                   Required     On Hand     Delivered      Before       Before      Program     Year 2008-   UFR to S-1
               Equipment Category                 Quantities   Quantities  Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year       13        Floor (90
                                                    (000)        (000)       2007-08      2008-13      2008-13      2008-13     Shortfall   percent) \1\
                                                                              (000)        (000)         ($M)         ($M)         ($M)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Armor-Hvy T/W..................................        15.04         8.58          .59         5.87    $1,949.18    $2,312.76  ...........  ............
AVN............................................        60.58        29.84          .36        30.38   $12,928.15    $3,596.72    $9,331.43     $5,528.87
C2.............................................       189.68        17.02        23.95       148.71    $1,917.63    $2,021.18  ...........  ............
Communicate....................................       589.81       336.90        15.52       237.39    $3,009.98    $1,512.38    $1,497.60       $891.07
Engineer.......................................        30.97        14.42          .79        15.76    $1,655.52      $851.72      $803.80       $478.26
Force Protection...............................       476.50       356.94        20.29        99.27      $996.37      $122.89      $873.48       $519.72
ISR............................................         5.65         2.22          .93         2.50      $381.96      $787.05  ...........  ............
Logistics......................................       588.11       137.45         3.07       447.59    $1,637.92      $648.38      $989.54       $588.78
Maintenance....................................        19.25         3.25         2.29        13.71      $281.19       $36.50      $244.69       $145.59
Medical........................................        25.14        10.24         6.19         8.71       $15.98      $101.67  ...........  ............
Precision Strike...............................        27.51        10.49          .91        16.10    $1,975.81    $2,474.67  ...........  ............
Security.......................................     1,730.86       819.94       135.94       774.97    $3,561.81    $1,543.94    $2,017.87     $1,200.63
Transportation.................................       179.61        51.20        17.61       110.80   $10,163.36    $5,178.90    $4,984.46     $2,965.76
Other..........................................       262.05        72.35  ...........       189.70    $1,451.32  ...........    $1,451.32       $863.54
                                                --------------------------------------------------------------------------------------------------------
      Totals...................................     4,200.75     1,870.85       228.23     2,101.46   $41,926.18   $21,188.76   $22,194.19    $13,182.22
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ In addition to the fall current funds programmed through fiscal year 2013, an additional UFR of $13.18 billion is required to get the ARNG to 90
  percent EOH (S-1). It will take approximately $24 billion to reach 100 percent. All figures are based on fiscal year 2008 Costs and don't include
  ``Grow the Army'' Costs.


                                           FISCAL YEAR 2008 ARNG TOP 25 EQUIPMENT MODERNIZATION SHORTFALL LIST
                                                                  [Dollars in millions]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                 Quantity        Quantity
                                                 Required        Shortage        Shortage       POM 2008-13              APPN               UFR 2008-13
--------------------------------------------------------------------------------------------------------------------------------------------------------
HMMWV.......................................          48,715          18,611          $4,039        $1,647.0  OPA.......................        $2,392.0
Family of Medium Tactical Vehicles..........          37,995          30,140          $7,267        $1,689.9  OPA.......................        $5,577.1
HTV--HEMTT/LHS/PLS..........................          21,180          14,796          $1,652        $1,059.3  OPA.......................          $592.7
M916A3 Light Equipment Transporter..........           1,591             794            $180          $152.4  OPA.......................           $27.6
Tactical Trailers...........................           5,699           2,984            $177           $10.6  OPA.......................          $166.4
M917A2 Dump Truck...........................             544             334             $67  ..............  OPA.......................           $67.0
CH-47F Chinook..............................             159             159          $6,678          $670.6  ACFT......................        $6,007.4
Comm Systems (JNN, SINCGARS, HF)............         143,615          62,613          $3,997          $968.7  OPA.......................        $3,028.3
UAV Systems (Shadow, Raven).................             586             575            $462          $307.1  OPA.......................          $154.9
Small Arms..................................         209,098          99,129            $360          $240.0  OPA.......................          $120.4
ABCS (Suite of Systems).....................           1,399             800            $166           $20.7  OPA.......................          $145.3
Digital Enablers (Log Automation)...........          12,167           7,873            $196  ..............  OPA.......................          $196.0
Movement Tracking System....................          16,711          12,588            $302          $203.4  OPA.......................           $98.6
Night Vision (AN/PAS-13, AN/VAS-5)..........          41,912          33,170            $640          $241.5  OPA.......................          $398.5
Tactical Water Purification System..........             131             128             $61           $38.9  OPA.......................           $22.1
Tactical Quiet Generators...................          19,611          12,748            $324          $118.1  OPA.......................          $205.9
All Terrain Crane (ATEC)....................             174              29              $7  ..............  OPA.......................            $7.0
M9 ACE SLEP.................................             114              90             $80  ..............  OPA.......................           $80.0
Route and Area Clearance Systems............             138             138            $203          $167.8  OPA.......................           $35.2
Horizontal Construction Systems.............             587             332            $141          $111.0  OPA.......................           $30.0
Howitzers (M777A1, M1 19A2).................             498             342          $4,259          $477.4  WTCV......................        $3,781.6
Profiler....................................              65              63             $57           $57.2  OPA.......................  ..............
LLDR........................................           1,099           1,034            $362          $187.5  OPA.......................          $174.5
Gun Laying Positioning System...............             455             208             $20  ..............  OPA.......................           $20.0
Chemical (Detectors, Decon & Shelters)......          65,719          52,433            $669          $107.5  OPA.......................          $561.5
                                             -----------------------------------------------------------------------------------------------------------
      TOTALS................................         629,962         352,111         $32,367        $8,476.5  ..........................       $23,890.1
--------------------------------------------------------------------------------------------------------------------------------------------------------
Quantity Required=Endstate Fiscal Year 2008 ARNG Requirements (MTOE or like AC) to fully modernize the ARNG.
Quantity Shortage=Quantity Required minus On-Hand minus Programmed (2-year Equipment Distribution Plans).
Shortage ($M=Quantity Shortage times Per Unit Cost.
POM 2008-13 ($M)=Total procurement funding stream from FDIIS (dtd 10 JAN 07), by Army Program Element (APE) for respective equipment systems.
APPN=Type of Appropriation (OPA minus Other Procurement Army, ACFT minus Aircraft, WTCV minus Weapons & Tracked Combat Vehicles).
UFR 2008-13 ($M)=Shortage dollar amount minus POM 2008-13 dollar amount.


                                                                      ESSENTIAL 10 KEY ENABLERS: DSCA PRIORITIZED BUY LIST
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                      Item                         Priority 1      Priority 2      Priority 3      Priority 4                                Rationale/justification
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Joint Force Headquarters: Miscellaneous              $5,000,066      $5,000,027      $5,000,126      $5,000,111
 Equipment.
Command and Control (C2):
    Joint Network Nodes (JNN)..................     $33,300,000     $16,650,000     $16,650,000     $16,650,000  Provides the tactical user with an interface to strategic data networks; and
                                                                                                                  interoperability with commercial, joint, combined and coalition communications
                                                                                                                  systems across multiple security levels
    Army Battle Command Systems (ABCS).........      $7,808,500      $7,233,500      $5,638,100      $6,458,800  Provides enhanced situational awareness via a suite of systems that receive and
                                                                                                                  transmit C4ISR information
    Standard Army Management Information System     $25,727,920     $20,550,610     $21,595,610     $15,953,980  Provides logistics management/automation systems and electronic information
     (STAMIS).                                                                                                    exchange capability via both tactical and commercial networks
    Unmanned Aerial Vehicle--SHADOW............     $15,000,000     $15,000,000     $15,000,000     $15,000,000  Without funding the ARNG will be unable to provide commanders superior
                                                                                                                  situational awareness, information flow, and adequate Force Protection in
                                                                                                                  urban and conventional tactical environments
Communications: HF Radios/Equipment............     $16,288,475     $17,445,135     $15,435,815     $18,785,815  Provides secure, long-range voice and data capability
Aviation:
    Helicopters--Hoists/Mounts.................        $953,016      $1,191,270      $1,191,270      $1,191,270  Required to support HLD/HLS, state, domestic and other contingency operations
    Helicopters--NAVSTAR GPS Aviation Sets.....      $1,235,130      $1,235,130      $1,370,130      $1,370,130  Provides modern equipment and interoperability to ARNG aircraft
Civil Support Teams and Force Protection:
    NBC Shelters...............................      $5,502,000      $6,288,000      $7,860,000      $7,860,000  Provides a contamination free and environmentally controlled work area for
                                                                                                                  medical personnel
    NBC--Joint Services Transportable                  $990,000        $990,000      $1,155,000      $1,320,000  Without funding the ARNG will be cascaded outdated and no longer in production
     Decontamination System Small Scale (JSTDS-                                                                   models of the M17 LDS from the Active Component
     SS).
    NBC Radiation/Chemical Detectors...........        $682,160        $682,160        $816,990        $910,740  Provides the capability to monitor and record the exposure of individual
                                                                                                                  personnel to gamma and neutron radiation
Engineer:
    Heavy Construction Equipment--Horizontal        $16,151,889     $11,927,933     $12,579,096     $11,957,388  Replaces overaged systems that are in critical need of modernization and
     (Dumps, Graders, Excavators).                                                                                incapable of full mission support
    Heavy Construction Equipment--Vertical          $19,004,075     $16,755,970     $19,505,970     $22,255,970  Primary container/material handling equipment required to support and sustain
     RTCH, ATLAS).                                                                                                ARNG units
Logistics:
    Generators--Small/Medium...................      $5,348,830      $5,839,690      $5,839,690      $5,783,445  Critical requirement during natural disaster or state emergency. Provides
                                                                                                                  electrical power as needed to support mission requirements
    Liquid Logistics--Water Purification.......      $6,451,500      $8,070,000      $8,047,500     $10,707,500  Replaces existing 600 GPH reverse osmosis water purification systems with a
                                                                                                                  1,500 GPH capability
    Liquid Logistics--Tank Water...............      $4,840,000      $4,840,000      $4,840,000      $5,550,000  Provides a bulk water delivery/distribution/storage systems
Maintenance: STAMIS--Standard Army Maintenance         $967,458        $942,780        $983,910      $1,557,590  Mission critical system required to support unit-level maintenance support
 System (SAMS).                                                                                                   requirements
Medical: HMMWV Ambulance.......................     $13,455,000     $14,490,000     $14,490,000     $13,455,000  Provides patient transport/evacuation capability
Security:
    Small Arms--Shotgun........................        $264,610        $299,860        $332,525        $377,645  Critical for security operations in urban environments
    Night Vision--Driver's Vision Enhancers          $4,926,825      $4,926,825      $5,036,310      $5,474,250  Provides a thermal night vision capability to drivers enabling continuous
     (DVE).                                                                                                       mission operations
Transportation:
    HMMWV--Un Armored..........................    $101,590,000    $107,800,000    $107,800,000    $106,765,000  Critical enabler for the ARNG to perform all mission and support requirements,
                                                                                                                  domestic or combat
    HMMWV--Up Armored..........................     $31,598,000     $38,003,000     $38,003,000     $35,868,000  ...............................................................................
    FMTV--Trucks...............................     $60,451,326     $61,580,790     $60,966,638     $60,451,326  Replaces obsolete, non-deployable trucks. Critical enabler for the ARNG to
                                                                                                                  perform all mission and support requirements
    HTV--HEMTT Tanker/Wrecker/LHS..............     $42,833,720     $52,628,720     $51,203,720     $50,637,440  Provides line and local haul, resupply, and recovery capability to sustain
                                                                                                                  operations
    HTV--PLS Truck/Trailer/Bed/CHU.............     $56,768,600     $56,768,600     $56,768,600     $56,768,600  Primary component of the maneuver-oriented ammunition distribution system. Also
                                                                                                                  performs local-haul, line-haul, unit re-supply and other transportation
                                                                                                                  missions
    MTV--M916A3 Light Equipment Transporter....     $11,350,000     $11,350,000     $11,350,000     $11,350,000  Prime mover for pulling the M870 series trailer and heavy engineer equipment
    MTV--Tactical Trailers.....................     $11,510,000     $11,510,000     $10,540,000     $10,540,000  Required for transport of heavy engineer equipment, ISO containers, and other
                                                                                                                  cargo
                                                ----------------------------------------------------------------
      Total....................................    $500,000,000    $500,000,000    $500,000,000    $500,000,000
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

    Now, if you look at this chart, Senator Stevens, this is 
the model that the Governors of this Nation have worked with 
the National Guard Bureau to develop. They are absolutely 
comfortable--we will deliver on that promise.
    The only place we have fallen short is in the equipment 
piece. There are States in our Nation today that have less than 
50 percent of the equipment that is necessary to do the 
essential 10 functions that you were alluding to. Governors 
must be ready to do these functions tonight, on no notice. 
Logistics, engineers, medical, communications, transportation, 
security and so forth that's listed on the left-hand side.
    This is what is shown by the little purple core. We 
leveraged the joint capabilities of the Army and Air National 
Guard to make that happen. Our goal is that 74 percent of the 
troops are available back in the States but on average, we have 
only about 40 percent of the equipment available. This is the 
challenge and if we go to that Rubik's cube, if you try to 
solve that puzzle without all of the pieces, it's difficult. 
Try doing that puzzle with less than one-half of the pieces to 
the puzzle that you need. That's the reason we're here today.

                        EQUIPPING NATIONAL GUARD

    Senator Stevens. Well, I'm still wondering. You know, you 
have to live through an earthquake like I did and see what 
happened with the Guard and Reserve and the regular forces to 
take on the duties of a massive earthquake, massive hurricane 
or a massive tornado that hits our domestic side. This again, 
they don't need to be trained combat troops, they don't need to 
have Strykers and Humvees. They need disaster equipment. They 
need equipment and the doctors to deal with the problems of 
domestic restoration but they don't need to be trained to be 
urban fighters.
    I'm confused a little bit about the fact that all of these 
people are trying to be combat ready--most of many of them will 
never be dispatched for combat.
    General Blum. I completely understand your line of thought 
and let me try to dispel some of the confusion. All of the 
soldiers and airmen are trained against a wartime task.
    A medic that is trained to save lives, whether that life is 
at risk because of an earthquake, or that life is at risk 
because of a terrorist attack, or that life is at risk because 
of a combat wound, he and she still needs to know how to do 
life saving skills, no matter what produced that.
    Transportation--people need to know how to move troops and 
commodities. It could be medics, or hay for animals that are 
stranded by winter storms, or water to people that are in a 
place that doesn't have any potable water because of a 
hurricane or tsunami. It's a very transferable skill.
    Timing is everything, especially for the Guard and Reserve 
because time is our most precious commodity. We train for the 
high end. We train for our most dangerous and demanding 
mission, and then we leverage that training and apply it in 
what General Vaughn was talking about in the windows of 
availability.
    If you're getting ready to go overseas, your focuses are 
overseas, as it should be. If you're back at home and you're 
not focusing on going overseas for several years, you are 
exactly the unit the Governor is going to go to and count on to 
be able to respond to weapons of mass destruction, to respond 
to consequence management for a natural disaster, to be ready 
for the seasonably predictable hurricanes, to be ready for the 
seasonal predictable flooding and wildfires in the West. We 
leverage all of those capabilities.
    We are in a world of great uncertainty and nobody has a 
perfect crystal ball, at least no one has used it yet. We have 
to be ready for unpredictable, unforeseen contingencies that 
come up because we are no longer a strategic reserve where we 
have years to build up and equip and man our National Guard. 
Those days, unfortunately or fortunately depending on how you 
look at it, are long gone. We have to deal with a very 
dangerous world. We could be called tomorrow to places that we 
haven't even considered and respond. It may not even be ground 
combat. It may be for some tsunami relief out in Indonesia.

                      BASE REALIGNMENT AND CLOSURE

    Senator Stevens. I don't want to take too much time but let 
me ask one question of General McKinley. The BRAC has been 
mentioned in connection with what happened in North Dakota. How 
has the BRAC affected your operations in terms of recruitment 
and in terms of the--really the soldiers you need to maintain a 
viable and vibrant National Guard, Air National Guard?
    General McKinley. Yes, sir. If I could get chart 4 up while 
I answer the question. BRAC obviously was kind of a gut punch 
to us all. We're recovering from BRAC and we are implementing 
BRAC and we've talked to the Adjutants General about how to 
implement BRAC. I think it is very important for us to move 
through the BRAC implementation; do it properly so that those 
airmen out there who are uncertain about their futures can have 
a certainty that they had over the past three or four decades.
    As you can see on this chart, 41 of our units were 
impacted, 32 had no change and actually 15 of our units lost 
aircraft; lost mission. That's a pretty healthy gulp to take 
all in one bite, but what we've done is we've crafted a reset 
strategy. A reset means a lot of different things to different 
people. We are resetting our Air National Guard. We briefed the 
TAGs in December, and we will start our implementation phase 
now.
    As you know up in your State, we'll be moving the C-17 up 
there. We're trying to have this done quickly because one of 
the unintended consequences of BRAC is many of our members are 
trying to make a decision whether they want to stay or leave. 
Retention has been very high. Recruiting has been about trading 
one for another. I think once we get through with our reset, 
once we get our missions set, once we go into some of our total 
force initiatives that the Air Force and the Air National Guard 
are working together, like C-17 in Alaska, we will start 
stabilizing those manning documents and you'll start seeing 
recruiting pick back up, and we'll get back on that even plane. 
There is no doubt that BRAC was a significant impact to the Air 
National Guard.
    General Blum. I'd like to add to that to prep Senator 
Stevens. On our Army National Guard side, BRAC was well 
thought, collaboratively participated in and produced the exact 
outcome that the Congress intended, in our view. On the Air 
Force side, it's not the case. That's the kindest way I can put 
it. The intent of the Congress turning toward tremendously 
different impact in the Air National Guard and it was--there 
was some good in it, but there was also some loss of 
capability, and BRAC was not intended to lose capability. BRAC 
was intended to divest of facilities and infrastructure that we 
didn't want to waste taxpayer's hard-earned money sustaining 
what we didn't need. The business got a little bit high-jacked 
along the way and it produced a bad outcome.
    Now, it's the role in our compliance, the role we will 
execute it as best we can but there are some pieces to this 
that if we execute it, it might cause some to wonder why we 
came up with this outcome.
    The reason is that I thought the BRAC process was frankly 
used for purposes other than what its original intent was. 
Maybe BRAC was quite good. The other Reserve Chiefs will tell 
you how they feel about BRAC in their services but most say 
it's positive. On the Air National Guard side, it was used as a 
blunt instrument and you see the result right there.

                         NATIONAL GUARD FUNDING

    Senator Stevens. Once your units have deployed, are they 
funded out of the emergency funds or do they continue to be 
funded out of funds that we provide directly to your agencies?
    General Blum. They are funded out of the emergency funds 
once they are deployed, sir.
    Senator Stevens. Thank you.
    General McKinley. And that includes Noble Eagle here at 
home, too, Senator Stevens.
    Senator Stevens. Thank you. Thank you very much.
    Senator Inouye. Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman. I--sort of on the 
line of what Senator Stevens was saying and the questions he's 
asking. I understand that General Blum--that even if the Army 
transfers whatever equipment funding that is committed. So 
we're talking about a $1 billion shortfall, is that basically 
right? Trucks, communication gear and so on--I have a list, Mr. 
Chairman that I ask to be included in the record at this point. 
It speaks about the Guard's shortfall. Mr. Chairman, I ask 
consent that it must be part of the record.
    Senator Inouye. I have no objection.
    [The information follows:]

                                           FISCAL YEAR 2008 ARNG TOP 25 EQUIPMENT MODERNIZATION SHORTFALL LIST
                                                                  [Dollars in millions]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                 Quantity        Quantity
                                                 Required        Shortage        Shortage       POM 2008-13              APPN               UFR 2008-13
--------------------------------------------------------------------------------------------------------------------------------------------------------
HMMWV.......................................          48,715          18,611          $4,039        $1,647.0  OPA.......................        $2,392.0
Family of Medium Tactical Vehicles..........          37,995          30,140          $7,267        $1,689.9  OPA.......................        $5,577.1
HTV--HEMTT/LHS/PLS..........................          21,180          14,796          $1,652        $1,059.3  OPA.......................          $592.7
M916A3 Light Equipment Transporter..........           1,591             794            $180          $152.4  OPA.......................           $27.6
Tactical Trailers...........................           5,699           2,984            $177           $10.6  OPA.......................          $166.4
M917A2 Dump Truck...........................             544             334             $67  ..............  OPA.......................           $67.0
CH-47F Chinook..............................             159             159          $6,678          $670.6  ACFT......................        $6,007.4
Comm Systems (JNN, SINCGARS, HF)............         143,615          62,613          $3,997          $968.7  OPA.......................        $3,028.3
UAV Systems (Shadow, Raven).................             586             575            $462          $307.1  OPA.......................          $154.9
Small Arms..................................         209,098          99,129            $360          $240.0  OPA.......................          $120.4
ABCS (Suite of Systems).....................           1,399             800            $166           $20.7  OPA.......................          $145.3
Digital Enablers (Log Automation)...........          12,167           7,873            $196  ..............  OPA.......................          $196.0
Movement Tracking System....................          16,711          12,588            $302          $203.4  OPA.......................           $98.6
Night Vision (AN/PAS-13, AN/VAS-5)..........          41,912          33,170            $640          $241.5  OPA.......................          $398.5
Tactical Water Purification System..........             131             128             $61           $38.9  OPA.......................           $22.1
Tactical Quiet Generators...................          19,611          12,748            $324          $118.1  OPA.......................          $205.9
All Terrain Crane (ATEC)....................             174              29              $7  ..............  OPA.......................            $7.0
M9 ACE SLEP.................................             114              90             $80  ..............  OPA.......................           $80.0
Route and Area Clearance Systems............             138             138            $203          $167.8  OPA.......................           $35.2
Horizontal Construction Systems.............             587             332            $141          $111.0  OPA.......................           $30.0
Howitzers (M777A1, M1 19A2).................             498             342          $4,259          $477.4  WTCV......................        $3,781.6
Profiler....................................              65              63             $57           $57.2  OPA.......................  ..............
LLDR........................................           1,099           1,034            $362          $187.5  OPA.......................          $174.5
Gun Laying Positioning System...............             455             208             $20  ..............  OPA.......................           $20.0
Chemical (Detectors, Decon & Shelters)......          65,719          52,433            $669          $107.5  OPA.......................          $561.5
                                             -----------------------------------------------------------------------------------------------------------
      TOTALS................................         629,962         352,111         $32,367        $8,476.5  ..........................       $23,890.1
--------------------------------------------------------------------------------------------------------------------------------------------------------
Quantity Required=Endstate Fiscal Year 2008 ARNG Requirements (MTOE or like AC) to fully modernize the ARNG.
Quantity Shortage=Quantity Required minus On-Hand minus Programmed (2-year Equipment Distribution Plans).
Shortage ($M=Quantity Shortage times Per Unit Cost.
POM 2008-13 ($M)=Total procurement funding stream from FDIIS (dtd 10 JAN 07), by Army Program Element (APE) for respective equipment systems.
APPN=Type of Appropriation (OPA minus Other Procurement Army, ACFT minus Aircraft, WTCV minus Weapons & Tracked Combat Vehicles).
UFR 2008-13 ($M)=Shortage dollar amount minus POM 2008-13 dollar amount.

                                      United States Senate,
                                 Washington, DC, February 13, 2007.
The Honorable Michael W. Wynne,
Secretary of the Air Force, 1670 Air Force Pentagon, Washington, DC 
        20330.
General T. Michael Moseley,
USAF, Air Force Chief of Staff, 1670 Air Force Pentagon, Washington, DC 
        20330.
    Dear Secretary Wynne and General Moseley: As you are well aware, 
the U.S. Air Force relies on the personnel, capabilities, and 
continuity provided by the Air National Guard. Unfortunately, the 
service is not taking the necessary steps to ensure that the Total 
Force remains strong in the long term by leveraging the Air Guard's 
best attributes. The Air Force has placed on hold crucial initiatives 
to integrate with the Air Guard, which will ensure that the Air Force 
maintains a substantial presence in communities across the United 
States.
    The Air Force announced several transformation proposals during the 
most recent BRAC deliberations. One of the most promising was the 
community basing concept, which melds active duty and Guard personnel 
at stand-alone National Guard bases. Numerous briefings and leadership 
testimony underscored the cost effectiveness of this initiative, 
including the ability to make the best use of scarce resources and 
allow active duty forces to take advantage of the continuity provided 
by reserve units.
    The Air Force has not followed through to expand the community 
basing program beyond an extremely limited test case, and it has 
subsequently dropped mention of community basing--which yielded across-
the-board benefits--as a transformation model. Only two initiatives 
have received any significant attention. One proposal would base Air 
Guard units at active duty stations, and the other locates active 
personnel at Guard bases in close proximity to larger active duty 
bases. We also understand that no substantive force structure planning 
on the Air Guard beyond the five-year Future Years Defense Plan is 
underway or being contemplated.
    We support the notion that the capabilities of the Air Guard must 
reflect those of the larger Air Force, and that the service must 
maintain a substantial presence throughout the country. The old 
approaches to force structure are antiquated and costly, and isolate 
the Air Force from large segments of the population. With insufficient 
aircraft to replace aging airframes one for one, the movement of Guard 
units to active duty bases will leave major segments of the country 
without a substantial Air Force footprint, and further undermine 
homeland defense response capabilities.
    Unfortunately, the current Air Force model has an all too familiar 
active duty centric approach associated with it. We are not surprised, 
but we are disappointed. The Air Force must deal openly with long-term 
force structure issues in tandem with its strategic partner, the Air 
Guard. Postponing discussion and development of community basing only 
threatens the continued vitality of the service and our defense.
            Sincerely,
                                             Patrick Leahy,
                       Co-Chair, U.S. Senate National Guard Caucus.
                                       Christopher S. Bond,
                       Co-Chair, U.S. Senate National Guard Caucus.

    Senator Leahy. For the record, the Senate version of the 
supplemental includes $1 billion to go on the shortfall but 
that's a long way from the $24 billion, I think. And we'll 
continue working on it.
    General Blum. That $24 billion that Senator Leahy referred 
to will be acquired over the next 6 years to bring the National 
Guard up to an operational readiness capability, both overseas 
and here at home. So I just want to be clear about what that 
money does represent.
    The $36 billion is a huge amount of money and it's 
unprecedented in the history of the United States Army to make 
that kind of a commitment to its Reserve component, to equip us 
to that extent.
    But looking at that in isolation, it would make you think 
that it would solve the problem. It does not solve the problem. 
It still leaves us insufficiently resourced to do what we're 
asked to do here at home and to be able to prepare troops for 
the next rotation to go overseas.
    Senator Leahy. Well, that was my feeling and really, 
General Blum and I appreciate you seeing that.

                            COMMUNITY BASING

    General McKinley, we've talked about the Air Guard working 
for the active Air Force on an innovative basing scheme called 
Community Basing. For those of you who are not aware of that, 
it takes a limited number of active personnel based at stand-
alone Guard bases. They train right along side their Guard 
counterparts. Also the active Air Force increases their 
relations with the State, the local communities. The Air Guard 
gets access to some of the latest aircraft. It's kind of a win-
win situation.
    Now the Air Force actually did a successful demonstration 
in Burlington, Vermont where we have a very active Air Guard. 
But they seem to move slowly on continuing that.
    Where do we stand with that? I've had some similar 
questions of the Air Force--but General McKinley, can you tell 
me where we stand on that?
    General McKinley. Thank you, Senator. Community basing is a 
great concept whose time has come. I say that for a variety of 
reasons. Number one, as the Air Force recapitalizes, we're 
getting fewer and fewer platforms. It's just the law of 
economics. We had 750 F-15s, we'll have probably, hopefully 280 
F-22s to replace those.
    We've had almost 2,000 F-16s but we're looking at around 
1,700 F-35s that will replace F-16s that many of you have had 
at your States. So we're getting smaller and smaller numbers. 
So how do we leverage that? How do we become more efficient and 
effective with the facilities that we're retained?
    I was most impressed when I visited Burlington last summer 
to see that 12 airmen who were three and seven level airmen 
were learning how to become nine level maintenance people. 
They're being taught the same as far as maintenance people in 
our United States Air Force.
    The city, the community, the base embrace them. They 
provided housing for them. They welcomed them into the 
community. That's exactly the strategy that I think the 
developers of community basing decided would be most effective. 
It has been deemed a total success.
    Your question directly is what's the future of it? Your 
recent discussions with the Chief of Staff of the Air Force 
have produced some results that I'm happy to report to you 
today that we're going to develop the community basing strategy 
at Burlington further. We're looking for strategies to increase 
the numbers of people because all of this will lead to the fact 
that as the legacy platforms leave our inventory--and that's 
most of the Air National Guard's fighter forces and legacy 
platforms--we'll be able to transition some of those units into 
more and more modern platforms and the time to do that is now.
    I appreciate your question. It spurred a great deal of 
interest in our Air Force. The planners are discussing with me 
how best to do that in your State. The 158th fighter wings are 
the right men to make sure we get this right.
    General Blum. Senator Leahy, I had a follow-on discussion 
with General Moseley on that particular issue and I think it's 
pretty clear in my mind that the strategy to maintain an all-
volunteer force is going to have to be more of this community 
basing methodology.
    Otherwise, our active forces are withdrawing into smaller 
numbers of enclaves further away from American people. Frankly, 
if we are going to be able to maintain the all-volunteer force, 
we are going to have to leverage the National Guard and the 
Reserve component of all the services to keep the connectivity 
with the American people to maintain a volunteer force. So, in 
addition to being a good business model, it is a smart 
strategy. If we're going to stay with an all-volunteer force, 
we must stay tied to the community.
    Senator Leahy. I told members of the subcommittee here 
before about how, after 9/11, it was the F-16s out of 
Burlington that were flying cover around the clock over New 
York City and these were some of the oldest F-16s in the fleet. 
We had one of our key maintenance people that was leaving on 
vacation, heard the news on the radio, did a U-turn on the 
interstate, headed back and no one in his family or anybody 
else saw him for at least 5 days. They finally came in and 
brought him some clothes. He was working around the clock to 
keep them going. And I'll put some material on the record on 
that especially that corresponds with General Moseley, the 
Secretary of the Air Force.
    Yes, General McKinley?
    General McKinley. If I could, Chief, briefly just cover--
those are the active Air Force fighter wings in the United 
States today. As you can see, they've built on substantially 
since Vietnam. Could you put up the Air National Guard ranks?
    As you can see, we are in practically every State, every 
community. How we leverage this into the future, goes back to 
Senator Stevens, his future total force. What's it going to 
look like? How do we do it? We think they have a lot to offer. 
We think community basing is the right answer and we should 
continue to develop it.

                     NATIONAL GUARD FORCE STRUCTURE

    Senator Leahy. Well, thank you. One last question, General 
Blum, as you well know, Senator Bond and I are co-chairs of the 
Guard Caucus. We've been joined by a gentleman who was actually 
on this panel and several members--in pushing the National 
Guard Empowerment Act to improve the quality of National Guard 
issues at the highest level of the Pentagon with the Joint 
Chiefs.
    We--the Army tried to cut Army Guard personnel 
substantially and the Air Force tried to restore Air Guard's 
force structure. I don't see a great deal of change and I see 
the shortfalls we've talked about. I see the mission. The Army 
announced that four more Guard brigade combat teams as 
comprised of about 15,000 soldiers, I believe, are being 
deployed to Iraq. The same morning that was announced, the 
President was visiting Guard troops that were helping to 
improve base security. The President was justified in praising 
them in what they've done but it's just more areas where we are 
seeing our Guard stretched all over the place.
    I think we need a Guard short-term policy and budget 
discussion. Do you agree with that? I hate to put you in the 
hot seat.
    General Blum. If history is the record, the answer is yes, 
sir.
    Senator Leahy. You have to give me some more 
organizational--but some of the raining down proposals we've 
heard but something like the National Guard Empowerment Act. 
You can answer yes if you'd like.
    General Blum. Yes, sir. The issue needs to be addressed. 
The National Guard is a very serious player, both at home and 
abroad. It's an integral part of our ability to defend this 
Nation day to day. It is absolutely required if we're going to 
conduct sustained combat operations abroad. It's time to, as 
the chairman said and Senator Stevens said, to bring some of 
the cold war policy, authorities, and resourcing strategies 
into compliance with today's reality. I mean, that's really 
what we're talking about. It's nothing evil or sinister. It's a 
matter of really setting up the authorities, the resources, and 
the access for the leadership of this organization to be 
effective in today's environment, which is quite a different 
environment than existed even 6 years ago, and certainly 
different than existed 15, 16 years ago.
    Senator Leahy. Thank you, Mr. Chairman. I'll put another 
number of items in the record in connection with this.

                        NATIONAL GUARD EQUIPPING

    Senator Inouye. Senator Domenici.
    Senator Domenici. Thank you very much, Mr. Chairman. It's 
good to be with all of you. Let me just state three facts and 
then talk about them with you for a minute.
    A recent Government Accountability Office (GAO) report 
ranked New Mexico last regarding National Guard equipment 
readiness. With the decision to locate F-22s at Holloman Air 
Force Base, the Air Force and the National Guard Bureau plan to 
base National Guardsmen at Holloman to work with the F-22s.
    Third point--6,000 National Guardsmen were deployed along 
the Southwest border to help Border Patrol agents with 
surveillance, construction, and logistics. Guardsmen are 
building fences as well as manning detection equipment on the 
border and in command centers.
    Now you can see just with the facts I've given you, what a 
tremendous variety of things the Guard and Reserve are asked to 
do and are planning to do. What action is the Department taking 
to ensure that the National Guardsmen have the equipment they 
need to do their missions at home? Could you help me with that 
or are we supposed to assume that they can do their job with 
less equipment compared to everybody else?
    General Blum. No, sir. General Vaughn is balancing the New 
Mexico essential equipment needed to do the job, particularly 
the 10 essential tasks that were shown on the chart that would 
have to respond to the Governor. Certainly the equipment in 
Operation Jump Start is all there. It presents additional 
challenges but we have met those challenges. We have a long way 
to go in the State of New Mexico. You're absolutely correct. 
Today, it is the lowest. It varies. It changes because we're 
always moving equipment and moving resources around, but Fort 
Holloman, New Mexico is the lowest in the Nation and it should 
not be.
    General Vaughn and his logistics people are working on 
that. They didn't get into that situation overnight. They won't 
get out overnight. We won't get out of that situation in any of 
your Senators' home States unless the needed resources come to 
the National Guard, and they are provided in such a way that 
they get to the National Guard.
    This Congress has been very, very good about providing what 
has been asked for to do our mission. If we could improve in 
any one area, I think what we need to do is to build on the 
successful model that was used post-Katrina, where significant 
money was given to the National Guard to buy specific items, 
which would translate into better capabilities to respond the 
next time. Then the Congress looked at what we bought----
    Senator Domenici. General, let's just be realistic with 
reference to New Mexico. Whatever we have done, we couldn't do 
worse in New Mexico. Is that a pretty fair statement?
    General Blum. That's an accurate statement.
    Senator Domenici. Well, how long do you think that's going 
to remain? We haven't been asked for any extra money----
    General Blum. If you look at the chart, Senator Domenici, 
you can see New Mexico is not alone. The States in red are not 
good. The red is not good. The red means they have less than 65 
percent of the equipment they need to do their job at home, and 
this does not even count the equipment that they don't have to 
do their job abroad.
    It says equipment available to Governors to do homeland 
defense and homeland security missions is underequipped in the 
Army National Guard across the Nation. The best in the country 
today is Ohio at 65 percent.
    Senator Domenici. General, when you deploy the National 
Guard and Reserve, do you deploy your soldiers with equipment 
or do you just send over the men?
    General Blum. We send our people with equipment. The 
equipment comes from every State on that map and it comes from 
the home State that the troops are deployed.
    Our problem is exacerbated when that equipment is left 
overseas. Our problem is also exacerbated when that equipment 
is worn out or destroyed in the theatre and not replaced at 
home. We are too slow in replacing equipment that we've cross 
leveled to ensure that no son or daughter from New Mexico or 
any other State goes into harm's way without exactly everything 
they need. The best of everything we can provide.
    The cost of that has depleted our stocks here at home 
dramatically, and that is the reason we put together this card 
and showed you in great detail what our validated requirements 
are. If there is anything on this card that you feel is not 
necessary, strike it out and take it off of the list. That's 
fine. Everything that's on here are Army requirements and Air 
Force requirements of equipment that we must have to be able to 
not only do our job at home for Governor Richardson in New 
Mexico, but also to go overseas as New Mexico troops have done, 
in Iraq and Afghanistan.
    General Vaughn. Senator, let me, if I could, talk to just a 
couple specifics in that last group. When we started putting 
the numbers together--give me the other slide that's got the 
percentage of new and used equipment on there. If New Mexico 
got back all of its equipment, everything that's out there, it 
would have 62 percent of the required equipment on hand that, 
if they got everything back from theatre and that was owed to 
them.
    The plan that we can see right now would deliver, at best, 
2,200 pieces back at the end of 2008. We can see that in the 
pipeline. Only 1,600 pieces of that is the new use equipment 
for homeland missions. We are watching it very closely and New 
Mexico got hit.
    The percentage was too great on a small force that took 
their equipment forward in the first war and it ended up that a 
lot of it didn't come back. They are programmed to receive over 
40 percent of their equipment like the other States by the end 
of 2008. We're looking at in about 16 or 17 months, they'll be 
back.
    General Blum. In the interim, sir, if there is any 
equipment needed for Governor Richardson for a state of 
emergency, that will be flowed to him from neighboring States, 
through the emergency management assistance compact (EMAC) 
arrangements and that is ongoing daily.
    It's not that we're sitting there waiting for 2008 to come 
along.
    Senator Domenici. I understand. General, I don't like what 
I'm seeing but I appreciate what you're saying about 
understanding the issue that you're in.
    I think the chairman and vice chairman know me well enough 
and they know themselves well enough. We can't leave the State 
in this condition very long. It just won't work. And the Senate 
won't support you all doing that so it's got to be on a let's 
get it fixed and I understand what you said.
    General Blum. Well, I appreciate that completely and you 
should not be satisfied with that. No American should be 
satisfied with what those charts represent. It's an 
unsatisfactory condition, pure and simple.
    Just appropriating money will not get it done. Our history 
and experience has shown that really doesn't get it--the money 
doesn't really get where you intended it to go. There's got to 
be some controls on there to be sure that the money that is 
appropriated gets to where the intent of Congress expects it to 
be, so we can give you the serial number and the zip code 
number where that equipment actually ends showing up.
    Senator Inouye. Senator Mikulski.
    Senator Dorgan. Mr. Chairman, before Senator Mikulski asks 
a question, General Blum held up the card. Is that a card that 
we have, that describes what you've requested?
    General Blum. Senator, if you don't have this card, I will 
personally give you mine because I would hope every Member of 
Congress has this card.
    Senator Dorgan. What is this card?
    General Blum. This card is our fiscal year 2008 budget 
card. It lists in very plain language exactly the equipment 
that we need in the Army, and exactly the equipment we need in 
the Air National Guard, and what we think that equipment costs.
    It is to provide total transparency of what we're asking 
for. It has worked very well post-Katrina when you asked us for 
a similar list, and we gave it to you, and you appropriated the 
funds that we needed, and we have much better capabilities 
today to respond to hurricanes like Katrina next time.
    This equipment problem we're talking about exacerbates our 
problem to respond in multiple, simultaneous events around the 
Nation. There is no question about it.
    Senator Inouye. The card will be made part of the record.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Domenici. Mr. Chairman, I was still--still had----
    Senator Inouye. Oh, go ahead.
    Senator Domenici. I just want to say I'm not very 
impressed. I'd be much more impressed if I saw something that 
showed what we were doing. This presentation this morning with 
reference to the adequacy and effectiveness of the National 
Guard and Reserve to be a true partner in this war that we're 
involved in.
    Every time we get a full hearing with the leaders of the 
National Guard and Reserve, the situation is worse, not better. 
The ability that I see of the National Guard to be ready to 
fight in this war--it just gets more and more uncertain in my 
mind. I don't get it. I don't see how we can keep relying on 
the deployment of the National Guard and Reserve people with 
the kind of ineptness that exists in the Guard units 
themselves. I just--if I were the general accepting the 
equipment and manpower that is being deployed, I would really 
be worried about what's coming out of the National Guard. 
Nothing wrong with them. They are terrific people but they are 
not trained and/or equipped in a rationale, reasonable way to 
fight a war. They are being equipped with too many other things 
and it's not going to work much longer. It's not getting better 
in my opinion. Thank you for the time. I apologize for using 
it.
    General Blum. I'd just like to correct the record, if I 
may. The ineptitude lies in one area and that is insufficient 
equipment to do the job that we are organized and required to 
do. We are not inept in the area of quality of the force, with 
the manning of the force, because the commitment of the force, 
the patriotism of the force, the heroism of the force--all of 
the tough stuff we've solved. The easiest problem is equipping 
a force and that can be solved by this body. We need some help.
    Senator Inouye. Thank you very much, General. Senator 
Mikulski.
    Senator Mikulski. Thank you very much, Mr. Chairman. 
General Blum, we're glad to see you today and General Vaughn, 
at the table with the Maryland men, part of the Maryland Guard 
and I think his testimony shows today why we really need to 
pass the National Guard Empowerment Act so that the general is 
at the table when the decisions are made on personnel, budget 
and what we need to continue our role in the world for the 
National Guard and for the soldiers to be as robust as they 
are. Something was said about ineptitude today. That's not a 
word I like to see at this hearing. If there has been 
ineptitude, there's been at the top and it's been in the 
civilian leadership and for that, we apologize. That's why we 
are trying to set a timeline to bring this sorry situation to 
an end. So that's the way I feel about it. I'm sorry the word 
was used. We're concerned--we want to help you be able to 
fulfill your mission that the Nation has asked you to do.
    When we talk about a shortfall in equipment--so that's 
the--term--and we note that in Maryland now, we're going at 
about 35 percent for the Army, 65 percent for the Air Force. 
What kinds of equipment are short? What is the stock or the 
number?
    Forty billion dollars--that's what you said. Am I correct? 
If not $40 billion, then what are we talking about? Are we 
talking about jeeps? Are we talking about airplanes? Are we 
talking about guns? Are we talking about bullets? What do you 
say--when you say you don't have enough equipment, what are you 
talking about? For $40 million, I want examples. Don't talk 
about dollars.
    General Blum. Yes, ma'am. Trucks, radios, medical sets, 
helicopters, night vision devices, individual weapons for 
soldiers, you name it, we are short. This is meat and potatoes, 
basic items. Aviation, command and control, engineers, the 
engineering equipment--I'm talking about dozers, graders, 
loaders, backhoes, dump trucks, logistics. I'm talking about 
all classes of supplies that we're short. Deferred maintenance, 
repair parts, we're short. Medical sets.
    Senator Mikulski. Is the shortfall then due to the fact 
that you had to leave it in Iraq or is the shortfall due to the 
fact that the equipment is wearing out faster than it can be 
replaced? Or is it that it was never budgeted and essentially 
we are hollowing out the National Guard?
    General Blum. All three. Senator, you're exactly correct. 
That's why I'm here. That's why they are showed in red. The 
only thing that is unacceptable is the level of fill in our 
supplies to be able to do what we're asked to do. It's a result 
of all three things that you said. We started a war short. The 
war cost us to send equipment overseas that we had here at 
home. It has depleted our stocks. In other words, as we sent 
the equipment over there as we should have. It was the right 
thing to do and now we find ourselves with our shelf stockage 
so low that it's an unacceptable level in my judgment, here at 
home and it needs to be addressed.
    If I were coming here to present this in any other way, I 
wouldn't be doing my duty as a general officer, as a soldier or 
even a citizen.
    Senator Mikulski. I think the subcommittee really 
appreciates the candor of not only you, General Blum, but your 
ability, your service, your leadership but most of all, your 
candor, so that we can, I think get a best case example and 
General Vaughn, let's go to the fact that for Maryland National 
Guard, we are both RV (radar view) and air. We're in the 
national capital region. We're also in a hurricane zone. You 
lived through Isabel with us.
    We also had sent people down to respond to Katrina on our 
Doctrine of Mutual Aid, which we should but given where we are, 
if Maryland is at 34 percent, how could the Maryland National 
Guard respond to another natural disaster or a terrorist attack 
when we are in the national capital region and a very high risk 
area for which we could be called upon to serve in the District 
of Columbia?
    General Blum. The great men and women of the Maryland 
National Guard, they're going to respond but I'm going to tell 
you, their response will be slower than it needs to be. Time 
will be lost because we don't have all the equipment. Let me 
tell you about it in nonmilitary terms. If your house catches 
on fire and your fire department shows up with less than one-
half the equipment it's supposed to have when it comes to put 
out your house fire, you're not going to be satisfied with the 
result. It's going to take them too long to put the fire out, 
which means you're going to lose your property and you're 
probably going to lose some lives. That is what I want to 
prevent and it's preventable if we can get the Guard resourced 
properly. The people are there. The training is available. All 
we need is the dollars to train the people, and the dollars to 
procure the equipment we need. The magnificent part of it is, 
we've got the people that are willing and able.
    Senator Mikulski [continuing]. And we've got 1,400 men and 
women that are going to leave for Iraq within the next 90 days 
with little bit--we are where we are with the leadership we 
have and my question is, if they are at 34 percent, do they 
take what they've got? What we have here when they go? Or is 
there going to be equipment there when they get there?
    What do they train with if they don't have the equipment 
here, as they get ready to go?
    General Blum. That is exactly the dilemma that General 
Vaughn and I and General McKinley face every day in every 
State.
    Senator Mikulski. Tell me the dilemma when they leave, will 
they take equipment with them?
    General Blum. Yes, ma'am.
    Senator Mikulski. So when they leave, they'll take their 
own equipment--I'm sure the Governor of Maryland is going to 
love to hear this.
    General Blum. Yes--but you're asking me what happens.
    Senator Mikulski. This is not in any way to be tart with 
you. We appreciate the risk. Then while they're here, what are 
they training with? The equipment they'll actually be using in 
Iraq?
    General Blum. Yes and that equipment is usually substituted 
out or substandard items that were not good enough to go to 
war.
    It is quite unacceptable to me because if it's not good 
enough to take to war, why should it be good enough to save 
American lives here--and why shouldn't we have training 
equipment that we're not going to use when we're deployed. We 
should be using exactly the equipment we're going to use in 
theatre and that is exactly why I'm telling you what the 
requirements are in funding and the protections that I think 
need to be put in place so that what is intended to get to us 
actually gets to us for the purposes that were intended. And I 
just want to make sure that everybody understands what the 
question is and what the solution is.

                       NATIONAL GUARD HEALTHCARE

    Senator Mikulski. Mr. Chairman, I think what's been 
presented here amounts to a national crisis. I think this is a 
national crisis when you talk about the shortfall of what the 
Guard has here today to respond to the needs of the American 
people but not to train to be able to be called up and then 
what they take with them when they go to battle.
    But if I could, Mr. Chairman, could I just have time to ask 
one question about healthcare? When they come back, where is 
their healthcare? What happens to the National Guard and the 
Reserves? Do you feel that because as you know, we are working 
on an effort here to make sure that the wounded warriors are 
not being wounded by the system and that they are not being 
wounded by the bureaucracy and they're not, one by one, 
standing in line behind a backlog to get any type of 
compensation that they earned--at war.
    General Blum. That is a great question.
    Senator Mikulski. Are we ready to take care of our--but 
there is one more stepchild in this sorry situation.
    General Blum. I think my perception is my firm commitment--
my feeling is that Secretary Gates says with and sees it very, 
very--with the same passion you do. He has empowered us to go 
out and start up this taking care of our own system that allows 
every citizen soldier, airman, and marine, Coast Guard, sailor, 
you name it, when they come back to the United States, they're 
going to come back to where they live. Where they live may not 
be where they were deployed from or where they were deployed 
to.
    And as General McKinley showed you, there are less and less 
members of military bases coming back to their home State.
    Senator Mikulski. Are they coming back to TRICARE?
    General Blum. They are coming back to their community and 
yes, they're coming back to TRICARE for a period of time that 
has been extended. Frankly, and with the brain injuries, we may 
have to look at that for----
    Senator Mikulski. What is--how does TRICARE--it takes care 
of them for 180 days and what happens to them after that?
    General Blum. They are out of the care system. They are out 
of the system that's provided by the Department of Defense and 
they would have to go back to whatever they had in civilian 
life.
    Senator Mikulski. Well, suppose they had 30 percent or more 
permanent injury?
    General Blum. If they are injured, that is a different 
category. If they are injured, we keep them for the rest of the 
life cycle of their injury. We pass them, in a sense, to DOD 
and the Veterans Administration (VA) right now.
    Senator Mikulski. Don't talk to me about DOD, they----
    General Blum. It's not seamless now but they recognize it, 
and they're committed to trying to make it seamless. What we 
have is, we've set up community-based National Guard 
ombudsmen----
    Senator Mikulski. Is it operational now?
    General Blum. Yes, ma'am. It's operational now but it's 
insufficient to the number of cases that we have.
    Senator Mikulski. General Blum, my time is up. My 
colleagues have to go to the floor. But I would like to have 
a--essentially a memo or a white paper from the Guard Bureau on 
this healthcare issue. I know you're very passionate about it, 
so while we're looking at the equipment so they can go fight a 
war, we really have to be ready to take care of them when they 
come back.
    General Blum. I truly appreciate the fact that you're 
passionate about that. You should be. These kids have put 
everything on the line for us, and we need to take care of them 
if they get hurt and we try to do that in the best way we can. 
And can we improve? You bet. And I'll be happy to send you that 
paper.
    Senator Mikulski. Thank you. And thank you, Mr. Chairman.
    Senator Inouye. Senator Durbin.
    Senator Durbin. Thank you very much, Mr. Chairman and 
members of the subcommittee. First let me thank our witnesses 
and all the men and women in uniform who are serving our 
country. I have a great deal of respect for you, General. We've 
had a chance to meet in my office and had a very good 
conversation. I speak to you this morning having over the last 
10 days, visited five different hospitals, veterans' hospitals 
and others serving our men and women returning wounded from 
combat.
    These are emotional meetings, as you can imagine, sitting 
down with these guardsmen, reservists and regular Army and 
marines who come back with post-traumatic stress disorder and, 
in some very sad situations, with the signature wound in this 
war, traumatic brain injuries.
    I met with them and their families and I've come back with 
a heavy heart about this war. I think it is the biggest--the 
worst--foreign policy mistake we've made in modern time. I 
can't blame you for that. You're doing your duty. You're doing 
everything that's being asked of you. That decision was made by 
Members of Congress and the President.
    The question now is where do we go from here? Whether a 
person is a hawk or a dove--whatever their political party, I 
think the testimony that you have brought before America today 
brings home the reality of the tragedy of this war.

                        NATIONAL GUARD READINESS

    We're now asking members of the Guard and Reserve to return 
to combat and we have to ask ourselves, quite honestly, are 
they ready? The GAO did a study on the readiness of the Guard 
and Reserve. They say that 90 percent of the Army National 
Guard units are rated not ready to deploy. Many of these units 
will be deployed. They lack the training and the equipment and 
the rest that they need to be effective soldiers and to come 
home safely.
    I'd like to ask you a difficult question but one that I 
think many families would want me to ask. How can our Nation, 
in good conscience, continue to send our National Guard and 
Reserve into battle when we know that they don't have the 
equipment, the training or the rest that they need to do their 
best to come home safely?
    General Blum. Sir, I'd be proud to answer that question 
because the answer, I think, will reassure you. Make no mistake 
about this. No soldier, no unit of the National Guard will go 
to war unready. It will not happen. If I know about it, it 
won't happen, if General Vaughn knows about it, it won't 
happen. General McKinley and I just spent some time with a unit 
reassuring ourselves that it was ready and held them up until 
we were sure that they were ready. They will not go without the 
equipment they need. They will not go without the training they 
need. I don't want anything I've said here today to confuse 
anybody and think that we're sending National Guard soldiers 
that are unready to war in an unready status. We make them 
ready. We take the time and we give them what we have to give 
them to make them ready. The problem is, the problems I've just 
described have produced the unreadiness on the other side of 
the coin; back here at home and that needs to be addressed 
because to me, that mission is equally important as the 
overseas mission. Neither one is more important. They are both 
absolutely critically important and neither one is any 
different from the other.
    Senator Durbin. What we have trouble with is this. At home, 
we have 34 percent of the equipment that we need for the Army 
National Guard and over 85 percent of the units have been 
deployed, some for the second time and some serve for the third 
time. You're telling me that the equipment shortfalls not only 
diminish their ability to respond to a domestic crisis, it 
diminishes their ability to train and prepare.
    General Blum. True statement.
    Senator Durbin. So if all of this is true and these 
shortfalls can be documented to say that each of these units is 
ready is to suggest some miraculous change between your 
statistics, which show they don't have the equipment and their 
readiness to go into combat.
    General Blum. It's not a miracle. It's a matter of applying 
resources against time. They're not ready so it takes us time 
to get them ready. If this Nation were to resource them, that 
time could be given back to the civilian families, the civilian 
employer and the citizen soldier would be able to endure his 
contribution.
    Senator Durbin. General, aren't we pushing our Guard and 
Reserve to the absolute limit with these continued 
redeployments into Iraq when we know there are equipment 
shortfalls, when 90 percent of them are not combat ready? We 
keep calling on them and their families to sacrifice again and 
again and again. How can we ask these soldiers and their 
families to risk their lives when our Government knows that we 
need to do more to prepare them for battle?
    General Blum. Without being flippant, I'd like to present 
that back to you in the form of a question. How can we not call 
up the Guard and Reserve? When you call up the Guard and 
Reserve, you call up America and that's exactly what should 
happen when we send men and women into harm's way for this 
Nation. I would advocate that we never should be in a conflict 
without significant participation by the Guard and Reserve 
because they bring the conscience of America to the fight and 
it keeps the Congress----

                         MAINTAINING THE FORCE

    Senator Durbin. General, there are two different things 
we're talking about here. You've just addressed the obvious. 
The courage of these men and women when called to serve--they 
will stand and serve even if in the back of their minds, 
they're wondering about their situation at home? And they're 
going to do it, time and time again. That's what makes them the 
great men and women they are. I'm talking about our 
responsibility as a Government to have them ready for battle, 
to give them the rest they need, the training they need, the 
equipment they need and what we've been told over and over 
again from the testimony is, we're not. We're shortchanging 
them on resources not on their courage. No one is questioning 
their courage.
    General Blum. You're actually absolutely correct there.
    Senator Durbin. That concerns me. Let me also say that I'm 
concerned, too, about the mental status of many of these troops 
and I'd like you to address it because the numbers that are 
coming back here tell us that not only the soldiers but their 
families are under severe mental stress because of these 
continued redeployments under these circumstances.
    We are seeing alarming increases of the rate of alcoholism 
and drug use and the desertions that are involved, the divorces 
that are happening among these military families. Isn't that 
part of our responsibilities to take this into consideration 
when we ask whether a unit is ready?
    General Blum. I'm afraid so. Any time you ask an American 
citizen to go to war, I think the Congress of the United States 
ought to realize it has a responsibility to care for him and if 
he was injured in the war, we ought to try to make him whole 
any way we can. We should do it through the military and if the 
military can't do it, then we have to get other systems, other 
governmental or civilian systems to do it. That's what we owe 
him. I think we owe him that. He puts his life on hold and he 
puts his life at risk. I think we owe him that.
    Senator Durbin. Do you acknowledge, General, that the 
statistics that we're receiving, the information we're 
receiving, the Department of Defense says that the stress is 
starting to show in terms of these repeated deployments of 
soldiers into combat?
    General Blum. No question about it. There's no question 
this is a stressful time. Stress is produced in the most 
experienced combat force--but it also--but it doesn't need to 
be taken for granted. It's on autopilot. You have to watch it 
very carefully. Can the force be broken? Yes. Are we broken 
today? No.
    Senator Durbin. Does there come a time in the decision 
process of this administration whether we're talking about the 
redeployment of the civilian force or the escalation and surge 
force, when you feel duty-bound to report to the Secretary of 
Defense and the President that I'm sorry, we cannot meet your 
numbers? Has that moment ever come?
    General Blum. Yes, sir.
    Senator Durbin. Have you done that?
    General Blum. Yes, sir. So has General Vaughn. I'll give 
you a perfect example. The four brigades that have been called 
up now are my fault and his fault--like an orphan without the 
supervision of a battalion headquarters or a brigade 
headquarters and a support mechanism. When we found out about 
that, we tried to--and said, we're not sending our troops like 
this. We refused to send our forces and deploy them that way. 
The Secretary of Defense supported our decision.
    The Joint Chiefs supported our decision and the Department 
of the Army supported our decision. We're now sending four 
brigades with the right kind of senior leadership and the right 
kind of support, administrative logistics, and operations so 
that these companies can go out there and belong to a parent 
organization and be successful. If I ever get to the point 
where I think we've been asked to do something we cannot do, 
that is the day I'll--that's what they pay me for, is to tell 
them that and if I fail in telling that, I failed you, I've 
failed me and I've failed the Nation.
    Senator Durbin. I'm going to ask one last question. Do you 
know the current state of readiness? The equipment, the 
challenge--the courage and capability of our armed forces. How 
long can we sustain this war under these circumstances?
    General Blum. As long as the American people support the 
American soldier.
    Senator Durbin. General, that doesn't answer the question. 
The American people are behind the American soldiers, there's 
no question about that. The question is, is this Government 
behind these soldiers? Are we providing them everything they 
need to do their job and come home safely and how much longer 
can we continue this?
    General Blum. If we are provided the resources that we're 
asking this subcommittee today, the reason we're asking for 
that is so we can sustain a capable, ready, reliable, and 
accessible volunteer force indefinitely to do whatever this 
Nation needs, either here at home or abroad, to keep this 
Nation safe and to allow it to endure. I don't decide where we 
go.
    I certainly have some input into how many numbers we put 
where and what it can sustain and I will go on record in front 
of this subcommittee as telling you, we can provide and 
maintain what we are doing on the Southwest border and what we 
are asked to do in Afghanistan and Iraq, the Horn of Africa, 
and 40 other countries around the world and at the same time, I 
will deliver and ensure that they have the equipment and the 
plans that they need to be able to respond to the hurricanes 
and that the Governors have what they need to respond to any 
unforeseen contingencies in their States.
    The only thing that I don't have right now are the things 
that are listed on this card and the resources that will make 
that possible. If this were fully funded and got to where it 
was supposed to be going, in the next 6 years, I would stake my 
personal and profesional reputation on the ability of the 
National Guard, Army, and Air to maintain the level of effort 
we have right now at home and abroad and I'm not talking about 
whether we're doing the right thing in the right place or if 
that makes everybody happy. What I'm saying is, can the 
National Guard keep about 18 or 20 percent of its 350,000 
strong force, which is postured to go by the way and I expect 
that we will.
    Senator Inouye and Senator Stevens, we've got to keep going 
because this country needs a larger Guard. So we're going to 
keep doing that as long as we can find the young men and young 
women of quality and right now, our quality is second to no 
one. There is not any other ground force, Active or Reserve, 
that can compete with the Army and Air Guard. It's at an all-
time, historic high.
    The hard thing is maintaining the force, not the people. 
The people are there. They'll do it as long as this Nation 
supports and believes in what they're doing. They're that kind 
of people but they can't do it without the resources and that's 
what I'm addressing today. They've got to have the tools to do 
the job.
    Senator Durbin. Thank you for your testimony.
    General Vaughn. Senator Durbin, do you care if I could add 
something? Just as an insight into the four basic combat 
training that you were talking about. What is going on in 
recruiting business today that we're in and the pride in the 
force and the fact that so many young soldiers want to join. 
Out of 13,000, roughly 8,500 of those soldiers have not 
deployed. We are recruiting 20 percent of the force every year 
now so these are new soldiers. I have real concerns that the 
mid level assignments and officers that are having to start out 
big time careers, and where they move in that pipeline. If 
there is a package of some way to take care of a particular 
group of people, you know, old folks, it's hard to drive them 
out. Young folks, we're tracking them because of what the 
States have done and the way they've appreciated them. When 
they come back, they want to be members of the communities.
    And so, all is not quite so bleak as we're immobilizing 
everybody that is in that unit. We have a 20-percent attrition 
turnover every year--1 out of 5 gets out every year. In 5 
years, roughly 100 percent turns over. Well, obviously the 
leadership doesn't turn over. That's what we've got to watch. 
That's what we've really got to be concerned about.
    We can move equipment. We move equipment big time across 
State lines for training sets. We don't like to do that because 
you know the wrath we incur from the Governors when we do 
something that has to do with the dual purpose types of 
equipment, such as the trucks and transporters and what not 
that are short.
    We've been able to do this to point and there has been 
adequate equipment sent overseas for us to fall into and there 
are some who say we didn't have to take all the equipment. But 
now it's replacing, replenishing equipment back to the depots 
and having to bring equipment back and return it.
    We're seeing a regeneration deal where we have to take more 
equipment over, so where's the balance at? I don't know but we 
do have, through pulling everything across all the States and 
getting a lot of cooperation from the States, we do have some 
equipment sets out there and we train people for that wartime 
mission.
    Senator Durbin. Thank you.
    Senator Inouye. Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you. General--all three 
of you, thank you for being here and you've always been 
straight with us and been willing to answer our questions. We 
very much appreciate that.

                 MINE RESISTANT AMBUSH PROTECTED (MRAP)

    But General Blum, you indicated that we're also calling up 
America when we call up the troops. Recall Colonel Hamas 
talking to us about the Second World War. I think it was in 
Hammerstein's book, ``The Boy and the Dream'', described in the 
last year of the Second World War we produced 50,000 war 
planes. We had Rosie the Riveter. We had manufacturing plants 
just humming--50,000 war planes. We're not mobilized to do 
anything like that. The reason I mention that to you is I asked 
General Schoomaker and the Commandant Marine Corp about the 
MRAP (mine resistant ambush protected).
    The MRAP is listed as one of the top priorities. It's a 
mine resistant ambush protected vehicle. It's one of the top 
priorities of the Commandant of the Marine Corps. It provides 
40 percent increase in occupant survivability over an up-
armored Humvee. They say it would reduce death by two-thirds 
from improvised explosive devices (IED). We're producing 40 a 
month. Forty a month! We're not mobilized.
    And the fact is, my guess is you would prefer to have 
National Guardsmen who are going there to assume equipment 
there to be able to ride in an MRAP but we're producing 40 a 
month. So the fact is, America hasn't gone to war--we're 
sending soldiers to war. We're not mobilized the way we should 
be mobilized in my judgment.
    Let me ask the question--well, first of all, do you agree 
with me with respect to the MRAP and the urgent need to 
mobilize to get the best equipment on the ground?
    General Blum. Absolutely. My son is deployed in Afghanistan 
and the best thing I could think of that he could be riding 
around in right now is a variant of the MRAP.
    Senator Dorgan. Does it bother you that we're manufacturing 
40 a month or 50 a month?
    General Blum. It bothers me that the--when most of the 
Nation is watching ``American Idol'' and ``Dancing with the 
Stars''.
    Senator Dorgan. And shopping. I mean, we send soldiers to 
war, but then go to the mall. Not much has changed.
    Did you have a list of resources that are shortfalls that 
you've identified? The President's supplemental request is for 
$1.78 billion, $1.7 billion for the Guard. That's far short of 
your identified shortfalls. Did you send these requests of 
shortfalls up the line and request that they be funded in the 
emergency supplemental?
    General Blum. Of course, sir. And you know I'm a title 10 
officer and I'm duty-bound to support the President's budget 
and there is some risk assumed in every budget and if the 
Congress wanted to pay down the risk, I've listed risk and I've 
listed the cost. So that's all I can do, Senator.
    Senator Dorgan. I understand, General, that you are duty-
bound to support the budget as it comes to us but I was only 
asking if you identified for us today the substantial 
shortfalls that are similarly identified at the start of the 
budget process and denied and seen those requests denied and 
the budget process?
    General Blum. Yes, sir. I've never seen a budget ever that 
fully funded 100 percent of what everybody thought they needed.
    Senator Dorgan. I understand but the subcommittee has money 
but the subcommittee is one of the subcommittees that routinely 
adds money for the Guard.
    General Blum. This document--I'm sure you can't see it from 
here, but I'd be happy to give it to you. What this shows is 
this is one of the documents we did submit to show what is here 
as opposed to what we're being resourced to. This is why it is 
so important for the Congress to have funds go where they 
intended them to go, to put it in such a way and put it in such 
language that your team gets to where it has the impact you 
intend because money that just comes in is general monies. It 
has a tendency to go other places and then people don't 
understand why they thought they cured this problem and then it 
wasn't cured.
    Senator Dorgan. But General, from our standpoint, when 
something isn't requested but is identified as a serious 
shortfall and then it is added by somebody here, it's called an 
earmark and then scornfully described as an earmark. My only 
point is, if we have shortages, I understand you can't 
necessarily respond to all of them immediately.
    General Blum. This goes into--this is not a complete list 
of everything we would like to have and need to have. These are 
the things we absolutely must have if we're going to be able to 
deliver all the capabilities that are being questioned here by 
this subcommittee this morning.

                           RETURNING SOLDIERS

    Senator Dorgan. And that a requirement of the President and 
the President's budget and it's a requirement of the Congress 
to find ways to address these shortfalls.
    Let me ask, General, about a call I received from a mother 
recently. Her son came back about 1\1/2\ years ago, 18 months 
ago and he was a substance abuser. He could not sleep. He would 
pull the covers over his head and scream at night from 
nightmares and so on.
    They went to the VA system but couldn't get any help. Hired 
private psychiatrists and so on and finally after about 1 year, 
got him in a position where he was back in college and doing 
pretty well and then a couple of weeks ago, got his alert 
notice for June and she called me, crying and wondering, what 
has happened here? We spent a lot of money, a lot of time 
bringing our son back to health. Is he going to be sent to Iraq 
again?
    I don't ask you about that specific case, I only ask you 
about the issue of seeing that this is replicated in many areas 
of the country. Are we able to adequately identify those young 
soldiers who come back with very serious issues, who are not 
getting the help they need in the VA system, whose parents are 
then hiring psychiatrists and so on, nursing them back to 
health and then they get a notice that they're on alert status, 
going to be sent back to Iraq.
    General Blum. That, Senator, I don't have the details of 
exactly what you were describing but if you were to take that 
as a generic scenario, could that be possible around the 
country? Absolutely. Is it possible? Absolutely. I would not 
present in gross numbers.
    There are occasions of that happening and the unit 
commanders have discretion in that regard. We certainly would 
not take a wounded soldier and send him back and what you're 
describing is a very real combat wound and it would be very 
unlikely, I would think, that any prudent commander would even 
want to take a soldier like that while they were still in 
recovery, if they had already sustained injury. If you have 
details on it, pass it to me. I'll make sure that the right 
judgment is placed against the facts of the situation.
    But clearly, we have a system in place that watches that 
and what I've described to Senator Mikulski is that we do need 
to put additional resources against that because our caseload 
grows. The longer this goes on, the numbers don't get smaller, 
they get larger over time and we need to be able to make sure 
to treat these people well. There are people walking around, 
frankly, everybody that has post trauma type injuries that are 
not only the military. We have a lot of the civilian population 
that were witnesses to war that have exactly what you're 
talking about and unfortunately, I don't think they have the 
same safety net that we're providing in the Department of 
Defense. I don't think there is anybody out there that is as 
sensitive to that as we are.
    Senator Dorgan. General I think in response to the question 
asked by Senator Durbin, I think we're stretching the Guard and 
Reserve in a way that was not previously attempted and I have 
enormous gratitude to the men and women who make up the Guard 
and Reserve and these are people who have homes and families 
and jobs. They are citizen soldiers. In most cases, they've 
been taken for 18 months, longer than the active duty soldiers 
and some of that has changed, I know, recently but now with the 
3-month extension.
    This country owes a great debt of gratitude especially to 
all soldiers but to the Guard and Reserve and especially their 
families. So I know you will express that to them from us and I 
know all of us serving here serve on this subcommittee for a 
purpose and we want to provide everything that is needed for 
those soldiers who are ordered into harm's way.
    I want to make one final comment, if I may, to General 
McKinley. Thank you for your work with respect to the Fargo Air 
Guard, who Mr. Chairman has called the Happy Hooligans. I want 
to read two paragraphs before my colleagues are recognized. The 
Happy Hooligans have been the best Air Guard unit in the 
country. They've won the William Tell Award twice, which is the 
award for the best fighter pilots against the Air Force, 
against everybody. So here's something from USA Today, 
describing the Happy Hooligans. Now they lost their fighter 
planes.
    They do have UAVs now but it says, quote: ``Here is the 
bottom middle agers with chiseled faces, people whose other 
jobs happen to be in an insurance office, on the farm or flying 
for Fed Ex, members of the local church, officers of civic 
organizations, yet when you strap one of these senior flyers 
into a cockpit, into an F-16, the younger boys get out of the 
way.'' These are the Godfathers of air superiority. They won 
the William Tell twice as if to emphasize continued--their 
underdog status but one pilot was a lieutenant colonel named 
Peewee. The competition was for F-15s. The F-16s were at a 
distinct disadvantage. It was good see the F-15s this far. 
These guys, the Happy Hooligans, went out and beat them twice 
in the William Tell competition and the same year, won the 
Hughes Trophy for the best air combat unit in the United States 
Air Force. That's in the Air Guard unit in Fargo, North Dakota. 
That's an unbelievable legacy and I first saw it when the 
leader of the Air Guard unit flew over my hometown when I was a 
teenager and his sister-in-law was the neighbor and she was out 
there waving her apron. This was in the late 1950s and he took, 
I'm sure he broke all the rules but he took whatever jet he was 
flying down over a town of 300 people and then he pulled up and 
went straight up into the air in the blue sky.
    I guess maybe I was 10 years old. I stood there with eyes 
the size of dinner plates, first I'd ever seen a jet. He shook 
everything in that small community and I'm sure he broke all 
the rules but we were so proud of having somebody that we knew 
running the best Air Guard unit in the country. That was 
decades ago. And since then--the reason I mentioned this, 
General McKinley, because you specifically mentioned the Happy 
Hooligans and we appreciate very much what you and General Blum 
and others have done for them because that is a terrific unit 
of dedicated soldiers for this country. We appreciate your 
work.
    General McKinley. Thank you, sir.
    Senator Dorgan. They're out there flying F-22s, by the way. 
But that's another subject.
    Senator Inouye. General, if I may, just to follow up on 
Senator Dorgan. The administration requested $1.7 billion to 
make up for shortfalls and this subcommittee added $1 billion. 
I suppose that's an add-on earmark. Senator Murray.
    Senator Murray. Mr. Chairman, thank you. Let me further 
understand this as well. The President asked for $1.7 billion 
and we added $1 billion. Is this in the President's request? 
The card that you've given us? Has he requested this or are you 
asking for this on top on that?
    General Blum. No, this is additional resources. This list 
represents unfunded requirements that we need to buy down the 
risk, to mitigate the risk that is underaddressed.
    Senator Murray. So the President has not requested the 
funds that are needed for the Guard or Reserve to be effective?
    General Blum. I wouldn't say it that way. I would say that 
even though there are considerable funds programmed, probably 
historically, high in numbers, it still does not fully address 
the requirements. I think that if I were asked, how we could 
mitigate the risk that still exists in the budget, I think that 
this card would answer the question.
    Senator Stevens. This is your 6 year figure, isn't it?
    General Blum. Yes, sir.

                            TRICARE COVERAGE

    Senator Murray. Well, I thank you. I thank you for your 
candor today, gentlemen. I really appreciate your candor to 
tell us what you need to make sure that this problem--what this 
country has asked them to do.
    I was at Camp Murray in my home State 2 days ago and I sat 
down with a large crowd of people who were Guard members. Some 
of them had been called up and had returned home. Some of them 
were about to be called up, and some of them were family and 
spouses.
    The stress, and I'd say anger, was at an all-time high. 
I've talked with members of the Reserve and Guard many, many 
times over the last years. You talked about getting our troops 
ready. We've heard a lot about equipment and I know my State is 
one of the red States on your chart. We have earthquakes and 
floods and volcanoes and I'm deeply troubled by that and I 
don't know which State you'd call on to help us when all the 
States beside us are red, too, should something like that 
occur.
    But that's one more issue. The issue of troop readiness is 
much larger than that, and that is about whether or not these 
men and women are physically ready to go back again. The 
brigade that is about to be called up, the last one to be 
called up, haven't gotten their orders yet. I assume they'll 
get it in the next several weeks. I was told specifically that 
a number of them know that they have medical conditions that 
need to be taken care of before they can leave ground here.
    But the fact is, they don't get covered by TRICARE until 
they get those orders. When they get those orders, they'll have 
about 4 weeks, I believe, until they are on duty. And in that 
4-week time span, they'll have to get a medical appointment and 
get whatever issue they know they need taken care of right now.
    I was told, for example, that someone who had an issue 
with, I believe it was a kidney, but had no personal healthcare 
was waiting for his orders. But once he got those orders, he 
needed to call TRICARE right away, which he knew he couldn't 
get in the few weeks' time he had. He was not deployed with his 
unit--because of his loyalty.
    I'm deeply worried about the way that we have structured 
this right now with a lot of these men and women coming home 
with both visible and invisible wounds that are not going to be 
ready when we deploy them because of that condition that I just 
described to you. Are you hearing that?
    General Blum. Yes, I am and that's why I've brought the 
command sergeant major, a senior enlisted advisor, with us. 
That's what they watch out for. It's our obligation and it's 
our duty and responsibility to not take someone who is not 
whole to war. So if someone was to withhold and we cannot 
detect a fault, I guess that could occur----

                            DEPLOYMENT CYCLE

    Senator Murray. I understand we don't have the medical 
capability----
    General Blum. That's not exactly truly accurate and I'm 
trying to make it totally accurate. Secretary Gates has made a 
very courageous decision on January 11. He made a decision that 
we're going to call the Guard and Reserves up for 1 year, start 
to finish and within that 1 year, we would alert them as far 
out forward as we possibly could to give them some 
predictability in their lives.
    When they're enrolled, they get full health benefits 
coverage. We can identify the faults and fix them and the 
Government pays for it, just as if they were mobilized, in the 
past and we've brought them to some help station like Fort 
Lewis and then started working on them. So this will help them 
to stay healthy--healthcare in advance. What it also requires 
is that we train those people and equip those people during 
that period of time, which means that they are only there in a 
significant way and equipment from the past mobilization model 
and give it to General Vaughn to distribute to Washington 
State. It might help so that the year that they are alerted, 
they are working on the equipment they need to work on, the 
more equipment they have their finger on, they're getting the 
healthcare down.
    They're getting training so the time it takes to get them 
ready for partial mobilization is dramatically shortened and 
then they have to be back in 1 year, which means they'll only 
been deployed on the ground hopefully somewhere between 9 to 10 
months out of that year, which to me is a much more reasonable 
time, which is much more considerate of the wear and tear on 
the mind and the mind of the soldier, even if they don't get 
hurt. Better in a hospital environment for 9 months, it has 
wear and tear on the psyche and physical part of it.
    Senator Mikulski. Well, I hope that's actually happening on 
the ground. It wasn't what I----
    General Blum. If you find any evidence that it's not, I 
would welcome you to bring it to my attention because that 
would get fixed immediately. That is not what Secretary Gates 
signed off on the 11th of January. Maybe you're talking about 
what was existing before and maybe not now, but that's where we 
are now. He made a very tough call here. He listened to the 
citizen soldiers and the Guard and Reserve components. He is 
sensitive to the partnership of the other two members of this 
partnership, the civilian employer and the family members and 
he has modified against--against the bureaucracy of the 
Pentagon. He is against that and he has made that decision so I 
have to give him credit for the State--and collaborating with 
the Congress and taking a bold measure to address what has been 
around as a problem for probably decades before he got there.
    Senator Murray. General, I appreciate the answer. I'll just 
tell you that I have some concerns. But I think the original 
comment of post-traumatic stress disorder, traumatic brain 
injury, are particularly troubling. What we're hearing from 
Senator Dorgan is that it's a one-time, one-person injury.
    General Blum. I think it only affects about 7 out of 10 of 
our wounded, frankly.

                         TRAUMATIC BRAIN INJURY

    Senator Murray. The problem is particularly because, as I 
heard them said to me, is that they don't want to be labeled 
with post-traumatic stress syndrome or traumatic brain injury 
(TBI), not because of their service but because of what they do 
outside the service and they don't want it to impact on their 
employment with some kind of a label that will cause them to 
have jeopardy in their lives outside the service.
    General Blum. Absolutely.
    Senator Murray. So I think we have to be especially 
diligent with the invisible wounds of war, with these men and 
women.
    General Blum. I'm really glad you understand and appreciate 
that because we're on the very beginning of even understanding 
how to treat and make those people whole.
    We're just starting to understand what traumatic brain 
injury really is, what it produces and how to effectively treat 
it to bring them back to where they were before the sustaining 
injury. It's not as significant because 7 out of 10 of our 
injured soldiers are first injured by improvised explosive 
devices that go off. They don't kill them. They may look 
absolutely perfect but they have soft tissue brain damage that 
is tough to detect unless you really knew that person extremely 
well.
    Senator Murray. Mr. Chairman, this is a huge issue because 
I had a chance to talk to the doctors there. So one simple 
question you can ask somebody to try and learn if they have 
traumatic brain injury----
    General Blum. They may not even know.
    Senator Murray. They may not even remember the explosion 
and they're telling me that many of the soldiers who return are 
in multiple explosions and they continue to over time to have 
injury. They can't just say, oh, we're in trouble for getting 
something done. They may not even know it.
    But their injury may be in a different part of the brain, 
the other soft tissue of this type of impact that we don't know 
about that will have future implications. So, there is a 
concern with redeployment and not having those--making sure 
that we have really gone above and beyond the call to make sure 
we're covering those injuries.
    That goes to the next question I have, because with all 
those Guard members that I met with, there was a huge level of 
anxiety and stress and I'll even say anger about how they are 
treated when they come home in relation to the regular Army. 
They felt they were constantly being asked, are you in regular 
Army or are you in the Guard and Reserves. And the minute they 
answered that question, they did not get the same treatment. 
Whether it's real or not, it is certainly perceived. As long as 
that perception is there, I think that's a real issue and I'm 
deeply concerned about it.
    General Blum. I couldn't agree more. That is certainly not 
anything the senior leadership of the military wants to exist 
or tolerate. If you--if any member has evidence of that and you 
get it to us, it will immediately be addressed.

                     NATIONAL GUARD EMPOWERMENT HCI

    Senator Murray. Well, in particular, I have concern for the 
group of people I talked to in terms of healthcare. And there 
are people there who have been waiting to get their medical 
evaluation paperwork for well over 1 year, and they were 
fighting with the disability ratings and expect that they are 
not getting granted full disability and having to fight, that 
to get their disability was especially troubling to these 
people because it affects their outside personal employment 
opportunities as well.
    General Blum. If I might, if I could respond to that, I'll 
just give you some perspective on that. I had a meeting with 
Secretary Gates on that very issue. He is very much aware of 
what you just described and he is absolutely committed to not 
tolerating it. He has a commission looking at that right now, 
and he's got a pretty quick turnaround when he wants things 
done. He looks at his watch, not at the calendar. He wants this 
done quickly.
    He wants to find out if this is a cultural thing or is this 
because the Reserve component's medical records are on paper 
and the active duty are electronic. The question is asked, how 
to treat them differently so they can figure out how they're 
going to track the records. This is not as sinister as it 
appears. I will tell you that there is absolutely--
unfortunately, there are people that if they're not watched 
very carefully, you don't know what they may do. They may 
discriminate in their behavior. People like myself and General 
Vaughn and General McKinley and the Sergeant Major are 
committed to making sure that doesn't exist. I will also tell 
you that General Casey and General Schoomaker and General Cody 
are as well.
    If you would get the scout reports from your constituents, 
they are both far more open and far more candid on issues 
sometimes than they will with us, if you can share that with 
us, if you want to take their name or just tell us where the 
facility is, we'll go there and look at it. We're committed to 
making sure that does not exist. There should be one standard; 
one standard of care and treatment.
    Senator Murray. We have a long way to go. I can tell you, 
as an American, I'm very concerned. I'm concerned about the 
indications of our equipment and supplies. I'm concerned about 
how these men and women are being treated. I'm concerned that 
we are sending people back into conflict, especially with 
invisible wounds that they can't identify. The family members 
don't know. Traumatic brain injury is a perfect example--they 
might not even know it.
    And post traumatic stress disorder, because of the labeling 
of that, there's a huge issue, especially for a Guard who--and 
frankly, Mr. Chairman, we are having a hearing tomorrow, a 
joint hearing with the DOD and VA to talk about this whole 
disability rating--but we have a long way to go to make sure 
that these men and women are not given a low disability rating 
that will impact their lives forever. And we shouldn't have 
them sitting in medical halls fighting some kind of bureaucracy 
to get through that. That is ridiculous. They've gone to fight 
a war. They shouldn't be fighting their own country when they 
return.
    So I am very, very concerned about this and Mr. Chairman, 
we've got a lot of work to do on this. I want you to know those 
are brave men and women. They're courageous. They want to fight 
for their country and they want to do what's right. But I am 
deeply concerned that the President is not requesting what we 
need for facilities and we're fighting backwards to try and get 
them what they need and sending them into conflict. That really 
is just not the American way. Thank you, Mr. President.
    Senator Inouye. Thank you. Senator Bond.
    Senator Bond. Thank you very much, Mr. Chairman and General 
Blum and General McKinley, welcome. We honestly appreciate the 
great work that you and the men and women in the Guard do. I 
want to provide a little different slant on some of the things 
that have been suggested. Number one, war is tragedy. Nobody 
ever likes war. Nobody likes to be in a war. But as I recall--
al Qaeda declared war and it wasn't until the tragic events of 
9/11 that it was here in the United States. We're in danger. 
And that's why we have active Guard and Reserves fighting in 
Afghanistan and Iraq and these brave men and women have helped 
keep our Nation free from more attacks. If they were not there, 
they would not forget about us. They would come after us.
    I had the pleasure of visiting with members of the Guard in 
Iraq and Afghanistan and many senior leaders were there and a 
former TAG (tactical airlift group) from Missouri was there. 
These men and women know what they're doing. They understand 
the mission. The only thing that really bothers them is why the 
media and some in the United States Congress don't understand 
that they are there to keep us safe. And that, to me, the fear 
that I hear most often. Now, shortfalls that you've described, 
as I understand, we had what we thought was a peace dividend 
for many years prior to 9/11 and did these shortfalls not--are 
these not a carryover from the short funding in those years?
    General Blum. Senator, they existed before 9/11. They were 
exacerbated by what you just described.
    Senator Bond. Well, as we have discussed here, this 
subcommittee put in for money that was requested in the 
supplemental and I'm pleased that there is $1.5 billon in that 
supplemental for the MRAP vehicles, which I gather is about as 
fast as they can be produced.
    Senator Leahy and I as co-chairs of the National Guard, 
fought to get an additional $1 billion for equipment. I would 
hope this Congress would get about the job of conferencing this 
supplemental, taking out the things that would have 
micromanagement of the war and allow this money to be supplied 
to the Guard or Reserve or the active units so they can do 
their jobs.
    We have had in this subcommittee continually to add dollars 
to the Pentagon request and that's why the National Guard 
Caucus has urged and demanded that we give the Guard a seat at 
the table so when the budgets are being discussed, the 
resources of these are being discussed, the Guard will have a 
seat at the table. And you've described the way that Secretary 
Gates has responded to the request to have the deployments cut 
back to 1 year and I am hoping that we will hear good news from 
Secretary Gates. I don't know what the plan will be but we and 
the Guard Caucus are going to continue to push for it, to push 
to get the Guard a seat at the table and I'm sure that this 
subcommittee with the great leadership that we have with 
Chairman Inouye and Senator Stevens, we'll do as much as we can 
and we're committed to getting you the equipment you need.
    But as I understand it, you have said that no guardsman or 
woman is deployed without being fully resourced and trained. Is 
that accurate?
    General Blum. Yes, sir.

                      NATIONAL GUARD END STRENGTH

    Senator Bond. I would say just for the record, the 
situation that you and I have discussed many times before. I 
know what happened before when the Guard is not adequately 
resourced when Katrina hit. One of Missouri's fighter engineer 
battalions was called up to go to New Orleans. They took their 
equipment down there and did a great job. They got a call from 
Louisiana saying we need another battalion. They said, we're 
sorry. We got the engineers. We've got all the personnel but we 
don't have the equipment. So we gave Louisiana one-half of what 
they needed and we should have been able to provide because we 
had not been adequately resourced at the Guard.
    Now, I also want to touch on Fort Stewart, where several 
years ago, we had a Guard Caucus about poor treatment, 
bureaucracy, medical holds and inadequate facilities. And our 
staff went down there. We had to fight to get that changed and 
we continue to hear of problems of bureaucracy but having 
visited the VA facilities in my State, the DOD facilities, the 
people I've talked to said they get the best healthcare 
available but we have to cut through the medical holds.
    Let me get back to questions. General Blum, you have stated 
that equipment shortages, if they continue to extend a period 
of time, will have an impact on both the wartime and stateside 
nation. Can you give a little better judgment of what would 
happen if these shortfalls continue?
    General Blum. If the shortfalls continue, we will go 
further and further in the hole or we'll get further and 
further--we'll get more and more incapable over time because as 
you can see, this is having a roll-over effect. It's not a 
building effect.
    So we have to overcome the shortfalls if we're going to 
stop this death spiral with capability.
    Senator Bond. I want to ask General Blum this question. 
Some have questioned the ability of the Army National Guard to 
recruit an end strength of 350,000 personnel and to predict 
that we'll probably need to recruit additional personnel. Can 
you give us an update on the Guard's recruitment and retention 
efforts?
    General Blum. We went through 350,000 the last of March. 
We're sitting today around 350,500--we expect at the end of 
April to be at about 351,000.
    Senator Bond. Part and parcel of that is the same question 
that I asked General Vaughn, though. We're going to have to 
equip them because we can't expect folks to come back from 
overseas having trained on the right equipment and we don't 
know what the right equipment looks like--they are not a second 
rate team. They are a first rate team but they needed to be 
treated like that. What kind of capability do we have?
    I take that this nation needs as large a Guard force, 
decentralized as much as possible in as many communities as we 
can around the country, around this United States. I think 
that's our strength and I think 360,000 is very reasonable for 
us to be looking at early next year.
    In fact, as long as someone doesn't turn off the machine, 
as long as we have the resources available to recruit like we 
do now, I think--to be around 356,000 at the end of this year.
    General Blum. Well, thank you, Senator.
    Senator Bond. Knowing the Guardsmen and women who serve in 
my State, I can tell you that they are real fighters. They do 
great work and make a lot of sacrifices and the people who 
serve in the Guard are top flight, as you've already said.

                        AIR NATIONAL GUARD RESET

    Now I have another question for General McKinley. Some of 
us are extremely concerned about the recent decision by the Air 
Force to modernize or reset the Air Guard. General Moseley 
recently wrote to the Guard and Reserve Commissions with some 
suggestions as to how the Air Guard, the National Guard, could 
be improved.
    There are things in that, that really concerned me and I 
would like to know, what's going on?
    General McKinley. Sir, I think that I concur with your 
assessment. I think the best way to explain it is that General 
Blum and General Moseley had a following meeting after those 
letters were written. I was present along with several other 
key members. I watched General Blum put the equity of the 
National Guard on the table. General Moseley spoke candidly 
too, and I think it was a very open and frank discussion.
    As a result of that very negative action, I think something 
positive has come about. I think we're going to be able to 
reset our forces. We've been supplied by you, and we thank you 
for all the support. There are honest differences of opinion in 
this town over how services treat their Reserve components. I 
know from attending that dinner, General Bradley was there from 
the Chief of the Air Force Reserve, that those differences were 
discussed in a collegial environment and all the feelings were 
put out on the table.
    Senator Bond. But knowing General Blum, I can only imagine 
that there was some frank discussion. It's probably best not to 
get into that frank discussion but General Blum, would you like 
to give us just a brief overview?
    General Blum. Sir, it was frank, and it was very candid and 
ultimately, it was very collegial. I think we are in a good 
place with total force right now, with the leadership of the 
Air Force, the Air Force Reserve and the Air National Guard. 
All of us have a more common vision than we had before that 
meeting.
    As a former commander of one State's National Guard, I can 
tell you that we want the Guard to be strong and to be able to 
available for national security missions. We want a TAG with a 
deputy for Air and for Army, and keep the structure that we 
have, and make sure that we can make our home State missions 
our civil defense missions, as well as responding to the 
President and the Secretary of Defense call on the Guard for 
their overseas security efforts. By doing that, I hope you will 
lessen the likelihood that we will need to defend against 
actual terrorist activities here in the United States.
    General McKinley. Sir, I think not only you're right, there 
are 53 concurring Governors in our great Nation of the States 
and territories.
    Senator Bond. Thank you very much for all the work that you 
and all the members of the Guard do. We appreciate it. Mr. 
Chairman, thank you.
    Senator Inouye. Thank you. In the year 2006, we heard much 
negative and positive rhetoric during the campaign cycle. 
Chairman Stevens, who was chair then of the subcommittee at 
that time, felt that it was incumbent upon us to send a message 
to the men and women in uniform that we may disagree on the war 
but we are supportive of them. And I just want to recall once 
again, the last year of the subcommittee unanimously passed the 
largest budget ever. The full committee followed suit with a 
unanimous vote and the full Senate voted 100 to zero, something 
that has never happened before. And we hope to do the same 
thing again.
    I've decided to keep the record open for 2 weeks to give 
all of you an opportunity to provide addendums if you so wish 
in light of the discussions we've had today.
    First of all, I'd like to get a report on the Bureau as to 
what you need today and what you need to maintain 100 percent 
global fully equipped force. How long would that take?
    General Blum. We can have it to you this afternoon, sir.
    Senator Inouye. I'd like to know how long this would take 
and then how much you need to maintain this 100 percent.
    General Blum. Sir?

                  NATIONAL GUARD FUTURE FUNDING NEEDS

    Senator Inouye. Second, I think in your recruiting, you 
should note that in the Army, for example, you spent $770 
million in bonuses for retention and recruiting. My question 
is, do we have to maintain that level indefinitely or is that a 
one-time thing?
    General Blum. There are a couple of variables, Mr. 
Chairman, that play into this. It depends on what level of 
commitment that we have when we deploy our troops overseas; 
what level of commitment that we have here at home. That would 
change some of the demographics of our force and the pressures 
on the retention bonuses. For now, I would say that they 
probably need to be left in place so we don't break the 
contract with these young men and women of America that are out 
there currently. Certainly, I don't see this as something that 
you just put in cruise control. I think it needs to be 
evaluated and checked on from time to time to see if it needs 
an adjustment down or maybe you might even need adjustment up 
in the out-years, I don't know.
    Senator Inouye. How much do you need for the next fiscal 
year? We can do that for the record unless you want to do it 
now.
    General Blum. Sir, we can get that to you this afternoon 
for the record. Is that all right?
    Senator Stevens. Could I add to that, Mr. Chairman? Given 
that it is a 6-year readiness concept in that pamphlet, can you 
add to what the chairman has asked you? How does this phase in? 
You're not asking for the whole thing, for the $34 billion or 
whatever it is, in 1 year, obviously.
    General Blum. No, sir. We can get this for you this 
afternoon.
    Senator Stevens. Well, I'd like to see it beyond what he 
has asked for 1 year. How is this going to phase in over a 
period of years? Thank you.
    Senator Inouye. Now, it's been a long day for the Guard. 
The Reserves are still waiting here. I'd too thank all of you 
for your testimony this morning. We appreciate you being with 
us and the subcommittee would wish to have you go back to the 
men and women under your command, and give them our deepest 
gratitude for their service to our Nation.
    General Blum. Thank you, Mr. Chairman, Senator Stevens and 
now in turn, we'd like to convey our greatest gratitude for 
your concern and your unwavering support for the American 
soldiers, airmen and Coast Guard serving our great Nation. 
Thank you, sir.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Inouye. We'd like to demonstrate our admiration and 
our gratitude by providing you the funds that you need.
    General Blum. Thank you, sir.
    [The following questions were not asked at the hearing, but 
were submitted to the Bureau for response subsequent to the 
hearing:]

        Questions Submitted to Lieutenant General H Steven Blum
            Questions Submitted by Senator Daniel K. Inouye

    Question. General Blum, we've heard that the Stryker Brigades are 
performing well in theater--and that the National Guard may be 
interested in gaining two Stryker Brigades. For example, Governor 
Schwarzenegger recently suggested fielding a Stryker Brigade in 
California; we understand that other states may also be interested. Is 
the National Guard reviewing any proposals along this line--and are you 
considering increasing the number of Stryker Brigades? Are any new 
equipment or mission changes planned for the Guard at this time?
    Answer. The mission of the Stryker was to fulfill an immediate 
requirement in the Army's transformation process to equip a 
strategically and operationally deployable brigade capable of rapid 
movement anywhere in the world in a combat ready configuration. The 
armored wheeled vehicle is designed to enable the Stryker Brigade 
Combat Team (SBCT) to maneuver easily in close and urban terrain while 
providing protection in open terrain.
    The Stryker is an excellent multi-functional platform that is a 
good fit within the Army National Guard (ARNG) brigade structure. 
However, the Army has not validated or programmed any additional 
requirements for the ARNG beyond the one Stryker brigade stationed in 
the Pennsylvania National Guard.
    Currently, all components of the Army have severe equipment 
shortages. The Army is working to alleviate these shortages and has 
programmed $36 billion over the fiscal year 2005 to fiscal year 2013 
period for ARNG equipping priorities. It is imperative that any plan to 
field additional Stryker units to the ARNG not impact funding for other 
systems currently programmed, as these systems are critical for 
training and response to domestic emergencies.
    Question. Are any new equipment or mission changes planned for the 
Guard at this time?
    Answer. I will refer you to the Department of the Army (DA) for a 
more detailed response to this question. The Army National Guard (ARNG) 
works directly with DA on all matters pertaining to missioning and 
equipping of the ARNG. All Army National Guard programs are validated 
by the Department of the Army. The Guard continues to serve admirably 
in its dual federal/state mission as prescribed by the U.S. 
Constitution. While the primary mission of the Guard hasn't changed; 
specific roles, responsibilities and alignments are continually 
analyzed and modified to support the President's National Military 
Strategy.
    Question. General Blum, a recent GAO report found that the National 
Guard is critically short of equipment it needs for its domestic 
response and homeland security missions. What items needed for domestic 
missions are in shortest supply, and what steps are being taken to 
measure and track the Guard's readiness for domestic missions?
    Answer. The Army National Guard (ARNG) is in the process of 
converting from a Strategic Reserve to an Operational Force. As a 
Strategic Reserve, the Army assumed risk when equipping the ARNG 
because there would be sufficient lead-time to equip the deploying 
force. We can no longer afford to take that risk. The Department of the 
Army has shown a commitment to fully equip the ARNG to 100 percent of 
its requirement. The fiscal year 2009-13 POM (Program Objective 
Memorandum) ``fenced'' $21 billion as a down payment on fully equipping 
and modernizing the ARNG. This effort will require Army attention and 
steadfastness for several years after fiscal year 2013 to properly 
equip and modernize the ARNG to be fully interoperable and identical to 
active component units, having the ability to perform any mission in 
support of full spectrum operations.
    In the short term, the ARNG is fully committed to ensure its units 
are sufficiently equipped to perform their Homeland Defense/Defense 
Support to Civil Authorities (HLD/DSCA) mission. The ARNG has 
identified critical dual use items of equipment that are useful for 
both war and HLD/DSCA. These items were vetted through the States and 
the Army G3 and validated as the HLD/DSCA requirement. This list is 
currently under review to ensure that the need capabilities are 
reflected in the equipment list.
    An Army wide effort is underway to provide equipment to the 
hurricane prone States, just as we did last year. Some new equipment is 
being diverted to these States; some depot RESET/Recap equipment is 
being redirected; some equipment is being loaned to the ARNG; and the 
ARNG is cross-leveling some equipment among the States. The ARNG is 
taking great care to ensure that each State has equipment on hand to 
respond to State missions and are ready to move equipment into non-
hurricane States, if required. The States have also negotiated 
Emergency Management Assistance Compacts (EMAC) to provide capabilities 
to each other if requested. Although the Army is strapped for 
equipment, in the short term, all components, working in concert, will 
support the ARNG in its mission of aiding/assisting the States in 
responding to natural disasters or other State missions.
    Question. The National Guard is currently performing important 
missions to assist in securing the southern border, including building 
roads, fences, and vehicle barriers. How much longer do you anticipate 
the mission on the border will continue, and how will this mission be 
funded in light of the absence of a request in the 2008 budget 
submission for that purpose?
    Answer. This mission will be completed in July 2008. Of the $415 
million reprogrammed for OJS we received $191 million for the remainder 
of fiscal year 2007. The $224 million left is being held in the Defense 
Wide Account. All the funding designated for Operation Jump Start (OJS) 
expires at the end of fiscal year 2007. The issue is--OSD needs to 
request transfer authority be forwarded to fiscal year 2008. Therefore, 
the unused fiscal year 2007 funding plus the $224 million can be used 
to support the fiscal year 2008 OJS requirements.
                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd

    Question. Mr. Chairman, at the start of the 20th century, Theodore 
Roosevelt said that ``all of us who give service, and stand ready to 
sacrifice, are the torch-bearers.'' Today, in these early years of this 
new century, the members of our National Guard and Reserve are the 
torchbearers of our times. They wear the uniform of this nation with 
pride, carrying high that torch of freedom. But what do they get in 
return? A system that abuses their pledge of service and jeopardizes 
the safety of their communities here at home?
    I must ask why are the members of our National Guard and Reserves 
being treated so poorly? Why are they being sent back again and again 
to Iraq and yet being shortchanged when it comes to training, 
shortchanged when it comes to replacing equipment, and shortchanged 
when it comes to supporting them and their families?
    Answer. Past resourcing of the National Guard was a direct result 
of the Cold War paradigm of having the National Guard serve as a 
strategic reserve. Only in the past decade have we seen the shift of 
the National Guard to be more of an operational force. The resourcing 
model is still catching up. As an operational force the National Guard 
will be equipped and trained to the same standard as that of the active 
component.
    Currently, the National Guard is at its best level of training and 
equipment ever for the away game overseas, and that's how it should be. 
We will never deploy soldiers or units into combat that are not fully 
trained, equipment and ready for their assigned mission. A soldier's 
well-being to include family support is of the utmost priority.
    Now, the home game that is a different story. We can get our 
mission done, but we are not at our optimum. Past resourcing practices 
combined with today's high operational demand in support of the Global 
War on Terror has left us with a diminished capacity to respond to 
emergencies at home. In this area we still have a way to go.
    Question. General Blum: How are you planning to address all of the 
requirements of the National Guard, including homeland security, 
disaster response at home and combat operations and support, while 
major elements of the Guard are deployed?
    Answer. Currently, when the NG deploys they have the best equipment 
possible, as it should be. With the Congress' help we can equip our 
homeland defense and training missions at home to the level that would 
maximize their effectiveness.
    The National Guard continues to be committed to supporting the War 
on Terrorism in addition to providing sufficient capabilities to 
perform Domestic Operations. The National Guard Bureau's goal is to 
continue to provide a predictable model for operational unit rotations 
while still ensuring that sufficient unit capabilities and equipment 
remain under state control to perform Domestic Operations. Existing 
Army and Air National Guard domestic capabilities could be further 
leveraged by ensuring that dual use line items remain available and 
ready in sufficient quantities.
    Question. General Blum: How much National Guard and Reserve 
equipment has been left in Iraq; how many trucks, humvees, helicopters 
and other equipment? How much will it cost to replace them; and, given 
your current level of funding requests, how long will it take to 
replace them?
    Answer. There is a broad spectrum of equipment and categories of 
equipment that has been left in theater. Between battle losses, normal 
consumption and equipment diverted by the Department of the Army, 
diversions of Army National Guard equipment has had the greatest impact 
upon Guard readiness.
    Currently, we are tracking over 35,000 pieces of diverted ARNG 
equipment valued at over $3 billion. A critical category that has 
greatly impacted Guard capabilities is in Tactical Wheel Vehicles, 
where we have left over 7,000 of our best vehicles, 3,800 of which were 
our newest High Mobility Multipurpose Wheeled Vehicles (HMWWVs).
    Question. Generals Blum, Vaughn and McKinley: Does your budget 
request to this Committee truly reflect all of the requirements 
necessary to accommodate your homeland security role, your disaster 
response role, your equipment needs, and the funding for programs 
necessary to provide quality support to those in the National Guard who 
are being called upon to serve their country, as well as their 
transition back to civilian life? If not, where are the deficiencies 
and why are they not being addressed?
    Answer. The current budget request goes a long way in meeting many 
of our needs. However, there are challenges. The Air National Guard has 
a $1.5 billion shortfall in fiscal year 2008. We have challenges in 
Personnel & Force Sustainment, Total Force Integration, Depot 
Maintenance, and flying hour shortfalls. We have additional challenges 
funding equipment for the ``Essential 10,'' an area tied to bringing 
capability to bear for the states and the governors. Finally, our 
information technology and installation security programs are 
critically under funded for fiscal year 2008.
    While the budget request submitted to the Committee reflects the 
needs of the National Guard to be properly equipped, trained, and 
manned to fulfill its duty to the nation as a strategic reserve, it 
does not fully fund us as an operational force. The table below 
depicts, by year, current funding plus the additional funding needed in 
the National Guard Personnel, Army (NGPA), Operation and Maintenance, 
National Guard (OMNG), and National Guard and Reserve Equipment 
Appropriation (NGREA) accounts to achieve and maintain a 100 percent 
ready force.
  --Current POM funding levels will bring the ARNG to 77 percent 
        equipment on hand by fiscal year 2013.
  --The additional $23.6 billion for equipment in the table would bring 
        this level to 100 percent by fiscal year 2013.
  --The ARNG cannot reach 100 percent readiness until equipping levels 
        reach 100 percent.
  --100 percent equipping levels will provide a robust homeland defense 
        capability, will allow ARNG units to train for their war 
        fighting mission prior to mobilization, and will provide the 
        Nation and the Army with a surge capability, if needed.
  --The ARNG has transitioned from a strategic reserve to an 
        operational force and must be resourced accordingly.

                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                Fiscal year--
                                                           -----------------------------------------------------
                                                              2008     2009     2010     2011     2012     2013
----------------------------------------------------------------------------------------------------------------
NGPA:
    Budget Request ( 65 Percent Readiness Level).........    5,959    6,196    6,464    6,751    6,957    7,167
    Additional Requirement................................    2,011    2,590    3,170    3,749    4,329    4,908
                                                           -----------------------------------------------------
      Budget (100 Percent Readiness Level)................    7,970    8,786    9,634   10,500   11,286   12,075
                                                           =====================================================
OMNG:
    Budget Request ( 65 Percent Readiness Level).........    5,840    6,065    6,021    6,031    6,278    6,382
    Additional Requirement................................    1,322    2,493    3,665    4,836    6,007    7,179
                                                           -----------------------------------------------------
      Budget (100 Percent Readiness Level)................    7,162    8,558    9,686   10,867   12,285   13,561
                                                           =====================================================
ARNG EQUIPMENT: Add'l Requirement (100 Percent Readiness      3,933    3,933    3,933    3,933    3,933    3,933
 Level)...................................................
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
               Question Submitted by Senator Thad Cochran
    Question. This Critical Care team was comprised of soldiers from 
both the 332nd Expeditionary Operational Support Squadron and an 
aircrew from the 172nd Airlift Wing from Jackson, Mississippi. The crew 
diverted from their scheduled mission to help this seriously injured 
soldier. This kind of effort is something of which we can be proud.
    General Blum, could you please share with the committee the 
importance of these Air National Guard teams in these missions? And 
does the budget request before us and the Emergency Supplemental 
provide you the resources necessary to ensure the continued response to 
our soldiers in need?
    Answer. The No. 1 medical advancement seen during this conflict is 
en-route care. In Vietnam, from the time of injury till the patient was 
able to get back to the states averaged 43 days. Today, we're getting 
wounded troops back to the states oftentimes within 48 to 72 hours. 
Critical Care Air Transport Teams (CCATTS) are regionally responsible 
for patient collection, injury stabilization, airborne care en route 
and transfer of care to the next level of medical support. Patients can 
be U.S. service members, coalition forces, civilians or whoever may 
need help. The medical teams care for up to three critical condition 
patients at a time. Each team has a critical care doctor, a critical 
care nurse and a respiratory therapist. When an urgent trauma patient 
is being transported, his or her condition can go bad in a minute. Now 
we have critical care air transport teams that are like an intensive 
care unit in the sky.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici

    Question. With the transition of Holloman Air Force Base to an F-
22A base, the Air Force plans to utilize the National Guard at 
Holloman. How many New Mexico National Guardsmen do you expect to use 
in connecting with the F-22 squadrons at Holloman, when will this 
associate unit be established, and where will recruits for this unit 
come from?
    Answer. The Air Force has a Total Force Integration (TFI) 
initiative to form a classic associate F-22 unit with the New Mexico 
Air National Guard and the 49th Fighter Wing at Holloman AFB, New 
Mexico. This association will begin in fiscal year 2008 with the first 
aircraft arriving during fiscal year 2009. To date, the Implementation 
Plan is still in coordination with Air Combat Command. Final personnel 
numbers have not been determined. We will continue to work with the 
state leadership to facilitate adequate recruiting for the unit.
    Question. As you know, a Government Accountability Office report 
released in January studies National Guard Domestic Equipment 
Requirements and Readiness and indicates that as of November 2006, 
nondeployed Army National Guard forces in New Mexico ranked last in the 
nation regarding equipment readiness, with less than 40 percent of the 
total amount of dual-use equipment they are authorized to have for war-
fighting missions.
    Your budget requests $43 billion to recruit, man, train, operate, 
and equip National Guard and Reserve forces. How will this $43 billion 
funding request be used to address the serious domestic equipment 
shortfalls in New Mexico and many other States, what other actions is 
the Department taking to ensure that New Mexico's National Guard has 
the equipment it needs for missions at home, and how are domestic 
equipment shortages affecting the National Guard's ability to respond 
to disasters and other emergencies?
    Answer. Part of the $43 billion will be used to purchase more 
equipment for the Army National Guard (ARNG.) After it is received, 
this equipment will be issued in accordance with our priorities at that 
time. I am sure that New Mexico, as well as other States will benefit 
from the new equipment. As more units deploy, the National Guard Bureau 
(NGB) will be forced to cross-level equipment out of New Mexico to fix 
the deploying units to ensure that all of our deployed soldiers are 
properly equipped. We cannot afford to allow soldiers to go into battle 
under-equipped, if we have the equipment available in another State. I 
do not believe we should entertain State by State solutions because 
that is not in the best interest of the entire National Guard.
    The ARNG is in the process of converting from a Strategic Reserve 
to an Operational Force. As a Strategic Reserve, the Army assumed risk 
when equipping the ARNG because they knew there would be sufficient 
lead-time to equip the deploying force. We can no longer afford to take 
that risk. The Army is committed to fully equipping the ARNG to 100 
percent of its requirement. In the fiscal year 2009-13 Program 
Objective Memorandum (POM), they are ``fencing'' $21 billion as a down 
payment on fully equipping and modernizing the ARNG. This effort will 
require the Army's attention and steadfastness for several years after 
fiscal year 2013 to properly equip and modernize the ARNG to be fully 
interoperable and identical to active component units, having the 
ability to perform any mission in support of full spectrum operations.
    In the short term, the Army is fully committed to ensure the ARNG 
is sufficiently equipped to perform its Homeland Defense/Defense 
Support to Civil Authorities (HLD/DSCA) mission. The ARNG has 
identified critical dual use items of equipment that are useful for 
both war and HLD/DSCA. These items were vetted through the States and 
the Army G3 and validated as the HLD/DSCA requirement. We are providing 
equipment to the hurricane prone States, just as we did last year. Some 
new equipment is being diverted to these States; some depot RESET/Recap 
equipment is being redirected; some equipment is being loaned to the 
ARNG; and the ARNG is cross-leveling some equipment among the States. 
We are taking great care to ensure that each State has equipment on 
hand to respond to State missions and are ready to move equipment into 
non-hurricane States, if required. The States have also negotiated 
Emergency Management Assistance Compacts (EMAC) to provide capabilities 
to each other if requested. Although the Army is strapped for 
equipment, in the short term, all components, working in concert, will 
support the ARNG in its mission of aiding/assisting the States in 
responding to natural disasters or other State missions.
    Question. Last year the President announced Operation Jump Start, 
an initiative in which 6,000 Guardsmen were sent to the border to 
assist with border patrol operations. I support this initiative and had 
earlier introduced border security legislation that would expand the 
ability of States to use the National Guard in additional border 
security efforts. Can you tell us a little bit about the National 
Guard's work as part of Operation Jump Start and what do they need from 
Congress to continue their worthwhile efforts there?
    Answer. The President sent the National Guard to the Southwest 
Border in May of 2006. We put 6,000 personnel on the border in support 
of Customs and Border Protection (CBP). We have had over 16,000 
personnel that have rotated to work in support of this operation, and 
as you are aware this is an all volunteer force. Our job is to bridge 
the gap until CBP can hire and train enough personnel to take over all 
operations on the border. CBP had 20 different skill sets that they 
needed us to work in. By us working in these positions CBP was able to 
return 586 agents back to the border to perform law enforcement duties. 
We need for Congress to continue the funding for us, and we can provide 
the personnel.
    Question. The 150th Fighter Wing at Kirtland Air Force Base has a 
proud heritage as part of the Air National Guard. The 150th used to fly 
Block 40 F-16s, but gave them to the Active Duty force to assist in 
meeting mission priorities. Now the 150th flies Block 30 F-16s, which 
are at risk as a result of BRAC.
    What are you doing to develop a new mission for Air National Guard 
Units that fly F-16s, are their potential new Air National Guard 
missions at Kirtland, and are there potential National Guard missions 
for Cannon Air Force Base, which will become an Air Force Special 
Operations base in October?
    Answer. The 150th Fighter Wing ``Tacos'' have made great 
contributions to national defense. They have volunteered to participate 
in numerous Air Expeditionary Force (AEF) deployments to support 
wartime taskings. As a result of BRAC 2006, the 150th Fighter Wing 
increased from a 15 Primary Aircraft Authorized (PAA) Block 30 F-16 
unit to an 18 PAA Block 30 F-16 unit. As the Air Force moves from older 
generation aircraft to fifth generation aircraft, the Air Reserve 
Component (ARC) will be a full participant. The current Air Force 
aircraft roadmap has ARC units receiving low time, fourth generation 
fighters and fifth generation fighters to keep the units relevant and 
ready to participate in AEFs.
    At this time, we do not anticipate an Air National Guard mission at 
Cannon Air Force Base; however, as a Total Force partner, we continue 
to work with Air Force and all of the states to consider future 
missions at all locations.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby

    Question. What has been the Guard's experience in establishing a 
Stryker brigade in Pennsylvania?
    Answer. The transformation of the 56th Infantry Brigade (Divisional 
Brigade) to a Stryker Brigade Combat Team (SBCT) is on schedule to 
achieve Initial Operational Capability by September 2008. The keys to 
success for converting a unit to a SBCT are the fully funding of 
requirements, the dedication of the Soldiers and the assistance of the 
active component in the form of the HQDA G-8 Transformation Team. To 
start, the Army programmed $1.5 billion to fully equip this unit, with 
much of the equipment that was programmed already delivered. 
Additionally, the Army also fully funded the facilities, ranges and 
training necessary for the successful transformation of a legacy 
Divisional Brigade to an SBCT. HQDA G-8 provided the Army 
Transformation Team to assist in the transformation of the 56th 
Brigade. This team is chartered, placed and funded to maintain 
oversight of the transformation process. The team also provides the 
direct link between all organizations involved and maintains a position 
to ensure that the transformation process remains on schedule. The 
Pennsylvania Army National Guard received $220 million for facilities 
and ranges to support the 56th Brigade transformation. As for training, 
the Army fully funded the increased training requirements to support 
New Equipment Training as well as collective training. The Unit 
Training Assemblies and the number of Annual Training days performed by 
a Soldier were increased to meet the required training benchmarks. 
Several highly technical skilled positions require large amounts of 
additional training days in addition to the required equipment NET. The 
commitment, understanding and involvement of the leadership are 
imperative for the success of a transition of this magnitude. The extra 
training requirements placed an additional burden on the Soldiers which 
marks their dedication to duty and to their BCT.
    The team work between the National Guard, Active Army, industry and 
others enabled the success of this unit. Numerous formal agreements 
were established to identify responsibilities in support of the 
transformation of the 56th SBCT. These agreements greatly assisted in 
the transformation process.
    Question. Compare the capability of a Stryker brigade for National 
Guard missions to that of an infantry brigade that it replaces, such as 
improved command, control, and communications. Please address the 
Guard's combat mission in support of the active Army, and also the 
State missions of disaster-response and homeland security.
    Answer. The Heavy, Infantry, and Stryker Brigade Combat Teams each 
provide unique but complimentary capabilities across the spectrum of 
military operations. Each Brigade relies on a suite of Command, 
Control, Communications, Computer, Intelligence, Surveillance, and 
Reconnaissance (C4ISR) assets to provide greater situational awareness 
that increases the lethality and survivability of each Brigade Combat 
Team. The Stryker Brigade, as opposed to a Heavy or Infantry Brigade 
Combat Team, has greater tactical agility and is better able to bridge 
the entire spectrum of military operations (i.e., conduct operations in 
support of medium to high intensity conflict [i.e., maneuver warfare] 
and operations in low-intensity conflicts). The wheeled-based chassis 
allows the Brigade to move personnel and equipment over a variety of 
terrain to include improved road networks. The standard family of 
Stryker vehicles can move at speeds of 60 plus miles per hour while 
containing infantry squads and equipment. This capability supports the 
Army National Guard's combat missions as well as disaster response in 
its role of support to civil authorities. The purpose of the Brigade 
Combat Team in Combat operations, regardless of Army Component, is to 
provide a Division Headquarters the ability to conduct full-spectrum 
military operations with organic combat and combat service support 
units all within the command and control of a brigade commander. The 
utility of the Stryker brigade extends to the low-end of military 
operations more suited for the Army National Guard's role in support to 
civil authorities. In a scenario in which the Army National Guard 
initially responds to a natural or man-made disaster, the family of 
Stryker vehicles and the Stryker Brigade's other organic tactical-
wheeled vehicle fleet can easily and rapidly move the entire Brigade's 
personnel and equipment over the interstate highway system to the 
affected area. This provides the States with the crucial capability of 
rapidly responding to the needs of their citizenry thereby serving as a 
confidence building measure and promoting order as a key component to 
the humanitarian response.
    Question. The Committee understands that DOD has committed to 
increase funding over the next 5 years for modernization of the 
National Guard. Is there any reason that a portion of these funds could 
not be used for transformation of National Guard infantry brigades into 
Stryker brigades?
    Answer. Currently the Army National Guard does not have a 
requirement for additional Stryker Brigades. However, if the Department 
of the Army identifies and validates such a requirement, it is critical 
that separate funding be provided to convert current force structure 
into new SBCT structure. It is absolutely imperative that the cost of 
such a conversion not delay the equipping and modernization of the rest 
of the ARNG force.
                                 ______
                                 
       Questions Submitted to Lieutenant General Clyde A. Vaughn
            Questions Submitted by Senator Daniel K. Inouye

    Question. General Vaughn, this past week the Army Guard announced 
the mobilization of four brigades for Iraq. For some of these 
guardsmen, this will be their second deployment in a few years time. A 
recent change in Department policy has made these second deployments 
possible since guardsmen and reservists are no longer limited to a 
total of 24 cumulative months of deployment in support of the war on 
terror. At the same time, the Department is decreasing the length of 
mobilizations for guardsmen and reservists from 18 to 12 months. But 
these deployments also signal a failure by the Department to meet its 
goal of 1 year deployed to 5 years at home for its guard and reserve 
troops. Are you concerned that these changes will hurt recruiting and 
retention? Do you believe that soldiers will prefer 12 month 
deployments, even if it makes the 1 to 5 deployment to dwell ratio all 
that much harder to achieve?
    Answer. Recent changes in the mobilization policy have not hindered 
Army National Guard recruiting. We have recently recruited to an end-
strength of 350,000, and we are moving towards 360,000. Soldiers, 
Families and employers prefer the 1 in 5 deployment ratio because it 
provides predictability. Soldiers prefer a 12-month deployment period. 
While it is certainly true that frequent deployments place stress on 
our force, I can report that recruiting and retention are strong in the 
ARNG. Current operations since the initiation of the Global War on 
Terror have not had a significant impact upon ARNG retention or the 
overall ARNG loss rate. Retention and attrition rates remain consistent 
as a testimony to the dedication and professionalism of our traditional 
Guardsmen. However, survey feedback from ARNG Soldiers and Family 
members indicates that mobilization and the associated factors 
including time away from family and the potential impact on the 
civilian career are considerations that can effect long-term commitment 
to the ARNG if not mitigated through leadership focus and Soldier/
Family focused initiatives and benefits.
    Question. General Vaughn, do you believe that the 1 to 5 deployment 
to dwell ratio is a realistic goal while operations continue in Iraq?
    Answer. The current operational demand, although not exceeding our 
total force capacity, does exceed the available forces for several 
capabilities referred to as high demand units. These high demand units 
are the most likely targets of shortened dwell time, and include 
brigade combat teams, military policy companies, and engineer 
battalions. There are also high demand capabilities that are in short 
supply; these include specialty aviation units, specialty engineer 
units and military intelligence teams. For high demand units and 
special capabilities the cycle must be adjusted by compressing dwell 
time to meet the mission requirements.
    While the operational demands of the current warfight remain 
constant, in both numbers of soldiers deployed and the types of 
capability required, a one in five deployment cycle is most likely not 
a realistic goal for high demand units.
    Question. General Vaughn, the Army National Guard will soon begin 
receiving the Light Utility Helicopter. Has the Guard reviewed its 
aviation requirements to determine whether it is seeking the proper mix 
of Light Utility Helicopters, UH-60 Black Hawks, and CH-47s?
    Answer. The Army establishes aviation organizational units across 
all three components based on the Army's strategic force structure 
requirements. The Army makes the decision as to the proper overall mix 
of rotary wing capability. The Department of the Army works 
collectively with the Army National Guard (ARNG) through the Total Army 
Analysis (TAA) program in establishing the right mix to meet future 
warfight needs. The ARNG currently owns approximately 43 percent of the 
total Army rotary wing aviation structure. At this time, the ARNG's 
number of on hand aircraft is short of the Army requirement. The ARNG 
agrees with the planned mix of aircraft for ARNG and what is currently 
planned.
    Question. General Vaughn, with the increasing demand for Army 
National Guard aviation assets, both overseas and at home, is the 
Guard's helicopter fleet experiencing the same strain seen on other 
National Guard equipment? Has there been a reduction of readiness for 
National Guard helicopters to respond to domestic emergencies?
    Answer. The Army National Guard's (ARNG's) helicopter fleet is not 
strained as much as other National Guard equipment as aviation 
equipment and aircraft are much more intensely managed, scrutinized, 
and maintained. Also there are simply more aircraft to meet the 
requirements. The required ARNG rolling stock on hand is at 
approximately 42 percent, where the aircraft on hand is approximately 
80 percent.
    The ARNG readiness, as a specific maintenance term, has remained 
approximately the same as before OIF, however availability can be an 
issue for States with deploying assets. As of April 2007, the ARNG 
overall Operational Readiness rate was 66.23 percent. States with a 
mixture of airframes are effectively able to manage both deployments 
and domestic emergencies, and predominantly have a mutual assistance 
agreement with another State. For example, Georgia, which is a 
Hurricane State, has OH-58s, UH-1s, UH-60s, CH-47s, and C-23 assets. 
With some aircraft deployed in support of Operation Iraqi Freedom 
(OIF), and some aircraft deployed to the SW Boarder mission, GA still 
has sufficient assets available to assist any state in the region, such 
as what happened during Hurricane Katrina. Aircraft availability 
becomes an issue through deployment because of the long times the 
aircraft are unavailable due to deployment, transit, and RESET. The 
times involved include: a 12 month deployment, approximately 45 days in 
transit to ship the aircraft to or from theater, and then approximately 
9 months of RESET for 25-50 percent of the aircraft post mobilization.
                                 ______
                                 
              Question Submitted by Senator Robert C. Byrd

    Question. That is why the Emergency Supplemental Bill that the 
Senate recently approved includes a $1 billion increase above the 
President's request to equip the National Guard and Reserve.
    Generals Vaughn and McKinley: What plans are you aware of within 
the active components of your respective services to address issues 
relating to the reliance on the National Guard to perform routine 
combat operation activities?
    Answer.
Air National Guard Answer
    For the Air Force, the Air Expeditionary Forces construct has 
worked well for all components (Active Duty, Guard and Reserves). 
Predictability is the key to mitigating the disruptive nature of 
mobilizations. The Air Expeditionary Force construct has helped 
tremendously by making it possible for Total Force members to forecast 
the likelihood of deployments. This affords our members the opportunity 
for advance planning and in many cases we can use volunteerism to 
decrease the number of mobilization requirements.
Army National Guard Answer
    Recognizing the key role of the National Guard in the Army's 
overall capability to perform continuous operations for the long war, 
the active component is making unprecedented strides forward toward 
organizing and equipping National Guard forces in a like manner to the 
Active Component Forces. We are aware of this plan on the part of the 
Active Component and applaud it.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran

    Question. General Vaughn, according to your posture statement the 
Army National Guard has had positive recruiting results this past year 
and a large part of that success is attributed to the Guard Recruiting 
Assistant Program and the Every Soldier a Recruiter Program.
    I have been informed that in the Guard Recruiting Assistance 
Program, the Recruiting Assistants are paid $1,000 when a new soldier 
enlists and another $1,000 when the new soldier departs for basic 
training. It would seem to make more sense for the Recruiting Assistant 
to be paid after the new soldier completes basic training. General 
Vaughn, can you elaborate on these programs and can you tell us if 
these programs are fully funded in the fiscal year 2008 budget request?
    Answer. G-RAP consists of qualified individuals hired and trained 
by a civilian contractor to serve as part time Recruiter Assistants 
(RA). Each RA cultivates quality potential Soldiers from within their 
individual sphere(s) of influence. Once a potential Soldier enlists, 
the RA will receive an initial payment of $1,000. The RA will receive 
an additional payment of $1,000 upon successful shipment to Initial 
Entry Training.
  --At the end of fiscal year 2006, the ARNG had 88,984 Active 
        Recruiting Assistants.
  --The ARNG had 39,902 potential Soldiers in the enlistment process.
  --G-RAP accounted for 15,106 enlistments, 92 percent are TIER I (HSG 
        Grads), and 60 percent Test CAT I-IIIA.
  --In fiscal year 2006, 4,496 accessions became RA's and loaded 1,800 
        Potential Soldiers who turned into 665 accessions.
    The RA's mission is to find potential Soldiers, prescreen them, and 
facilitate a meeting with a recruiter. Once the individual enlists in 
the ARNG, the RA maintains contact with the recruit and has a vested 
interested in ensuring that the recruit ships off to basic training. 
This continued interest and support by the RA and Recruit Sustainment 
Program (RSP) Cadre ensure minimum training pipeline loses. This 
program has been very successful in that Soldiers are supervised 
throughout every step of the process until they ship. Once the recruits 
ship to basic training they are handed over to the Active Duty Cadre 
for training. Currently 9 out of 10 Soldiers who ship to training 
complete basic training and become Military Occupational Skill 
Qualified. Because the RA has no control over whether a recruit gets 
injured or does not complete basic training, the RA is paid when the 
soldier ships to basic training. Currently, the ARNG has the highest 
graduation rate at basic training of 98.5 percent. This is higher than 
the Active Duty and Army Reserve.
    The GRAP program was not validated in the fiscal year 2008-13 POM 
and is not currently funded in the President's Budget (PB). Without 
this program the ARNG cannot make its accession or end-strength 
mission.
    Question. Lieutenant General Vaughn, the Army's fiscal year 2008 
budget request contains $270 million to purchase 126 lightweight 
howitzer systems. I am aware of the 71 system shortfall identified in 
the Army National Guard's fiscal year 2006 financial statement. With 
only 19 of the required 90 systems programmed for the National Guard, 
how does this shortfall impact your ability to provide 7 of 13 Field 
Artillery brigades as called for in the Army modernization plan?
    Answer. The ARNG (Army National Guard), per Command Plan 08, is 
required to have 7 Fire Brigades with one BDE (Brigade) available each 
year of the ARFORGEN (Army Force Generation) cycle. Currently, the ARNG 
has a requirement for 90 M777 howitzers, with only 38 programmed and 
zero on hand. Our first fielding is of 19 howitzers in fiscal year 2008 
that are DA (Department of the Army) earmarked for the 56th SBCT 
(Stryker Brigade Combat Team). In fiscal year 2012 the ARNG will 
receive an additional 19 M777s which will leave the ARNG short 52 from 
the requirement of 90 howitzers. The impact of this critical shortage 
is that the ARNG will have only 2 of 7 Fire Brigades equipped with 
modern M777s.
    Question. Lieutenant General Vaughn, I understand Camp Shelby in 
Mississippi has been integral in preparing National Guard and Reserve 
Soldiers with theatre immersion training to help prepare them for 
conditions they may face when deployed to Iraq and Afghanistan. Would 
you explain to the Subcommittee the importance of the pre-deployment 
training Soldiers are receiving at Camp Shelby? Also, is there 
sufficient funding requested in your fiscal year 2008 budget request 
and the Emergency Supplemental request to conduct the required pre-
deployment training?
    Answer. First, it is absolutely essential to their effective 
preparation for combat operations overseas.
    Second, The Department of Defense recently revised its policy with 
respect to the mobilization of National Guard and Reserve forces for 
service in contingency operations. Previously, ARNG (Army National 
Guard) units would spend 18 months or longer in a mobilized status in 
order to serve approximately 12 months of boots on the ground (BOG) in 
theater. The extra six months, or more, of mobilized time was consumed 
primarily by individual and collective training that took place at the 
mobilization station (Camp Shelby) prior to overseas deployment. The 
policy change now limits the mobilized time to no more than 12 months 
per specific contingency operation. The Army National Guard units doing 
premobilization training in fiscal year 2008 are associated with fiscal 
year 2009/fiscal year 2010 rotations. The basic calculations include 
the additional IDT (Inactive Duty Training)/AT (Annual Training)/ADT 
(Active Duty Training) days plus support tails. These are being 
considered GWOT (Global War on Terror) expenses and the fiscal year 
2008 supplemental is being updated to reflect this.
    The Army supports what is allocated in the fiscal year 2008 
President's Budget. The new mobilization policy was enacted after the 
submission of the President's Budget; therefore, the ARNG pre-
mobilization training requirements were not included. The Army National 
Guard unfunded requirement is $818 million. Current fiscal year 2008 
budget funding levels allow National Guard units to achieve the minimal 
training requirement for a peacetime force. This is a risk that is no 
longer acceptable for an operational force. Resourcing for pre-
mobilization training is essential to ensure trained and ready units 
prior to official mobilization dates.
    The majority of required individual and collective training will 
need to migrate to pre-mobilization, paid from the ARNG appropriations. 
Extra unit mandays, as well as extra OPTEMPO (Operation Tempo) and 
associated operations and maintenance costs, will be needed for these 
requirements. The approximate incremental costs for each ARNG brigade 
will be $68 million. The amount estimated for this new challenge will 
fund pre-mobilization requirements for approximately 12 brigades, the 
number projected to be used in contingency operations in fiscal year 
2008.
    The Army will not deploy a unit that is not fully manned, trained 
and equipped to perform their mission. There is significant risk by not 
addressing this challenge. Without resourcing for pre-mobilization 
training, units will endure increased post-mobilization training 
resulting in decreased boots on the ground (BOG) time performing their 
mission. This will significantly increase the overall stress on the 
force, from all components, by compressing dwell time and accelerating 
units through the Army Force Generation Model.
    Pre-mobilization training for National Guard pay and allowances is 
$543 million, for operation and maintenance for the National Guard is 
$275 million.
    Question. Lieutenant General Vaughn, I want to thank you for a fine 
ceremony in December accepting the first Light Utility--Lakota--
Helicopter at the American Eurocopter facility in Columbus, 
Mississippi. Even with a delay of three months caused by the contract 
award being protested, the program is on schedule and on budget. It 
appears to me that the Army's acquisition strategy of procuring a 
commercial off-the-shelf platform has been successful. Would you 
provide this Subcommittee with a program status update and talk to the 
significance of the Light Utility Helicopter for Army units.
    Answer. The Army National Guard (ARNG) is extremely excited about 
the Lakota aircraft and the capabilities it brings to the Army, our 
formations, and our Adjutants Generals. The ARNG begins fielding the 
Lakota in fiscal year 2008. The ARNG, along with the active Army, are 
fielding the Lakota through the fiscal year 2008-13 POM to complete the 
initial acquisition and emerging requirements. The Lakota will be 
assigned to our Security and Support Aviation Battalions. The aircraft, 
as planned right now, will be located in 45 states and territories. 
This wide distribution offers an added capability to meet many of our 
Domestic Support to Civil Authorities (DSCA) requirements. The Lakota 
with the standard aircraft equipment and the Medical Evacuation 
(MEDEVAC) version will assist The Adjutants General in managing the 
high warfight Operations Tempo (OPTEMPO) and preparing for state and 
domestic contingencies.
    Question. Lieutenant General Vaughn, I have been informed the 
planned production rate for the Light Utility Helicopter is 44 aircraft 
in fiscal year 2008, 44 in fiscal year 2009, and 28, 23, 46, 43, and 54 
aircraft in successive fiscal years. This uneven production schedule 
will likely result in laying-off workers in one fiscal year and 
bringing them back on in subsequent years. There is a high cost to 
conducting business in this manner, and I ask that you and the Army 
leadership consider a more consistent and efficient production 
schedule.
    Answer. As you may know the Army manages the acquisition process. 
The Lakota is competing with ongoing war effort expenditures, other 
Army aviation requirements, and other platform acquisitions. We 
understand that the production rate could be higher and would continue 
to encourage the Army to increase the production rate as monies become 
available.
                                 ______
                                 
      Questions Submitted to Lieutenant General Craig R. McKinley
            Questions Submitted by Senator Daniel K. Inouye

    Question. General McKinley, the Air National Guard has greatly 
increased its operational tempo since 2001, and it continues to fly 
some of the oldest aircraft in our inventory. Are the current plans for 
replacing aging aircraft, such as the C-130E, adequate to meet the 
needs of the Air Guard's domestic and warfighting missions?
    Answer. Yes, like our Air Force, we face a looming modernization 
and recapitalization challenge. We simply possess too many legacy 
platforms. Maintenance on old equipment, fuel consumption, and 
groundings resulting from lack of parts no longer available all degrade 
our readiness. They either impair our ability to train or make us 
unable to enter the fight because our equipment is incompatible. 
Airpower is a hedge to an uncertain future and the foundation of our 
nation's military power. Our people need to be ready and our equipment 
has to be without peer.
    For the foreseeable future, Air National Guard will continue to 
face the challenge of keeping legacy platforms relevant to meet 
Combatant Commander capability needs. The outstanding support Congress 
has given us by way of NGREA funds has been extremely successful in 
assisting us fielding capabilities to meet 21st century challenges such 
as targeting pods, engine modernization, night vision capability, 
defensive systems, etc. For fiscal year 2008, the Air National Guard's 
identified requirements of $500 million for ``Essential 10'' Homeland 
Defense operations, and over $4 billion in modernization needs.
    Question. General McKinley, what is your view of the future of the 
C-5 cargo plane in the Air National Guard?
    Answer. I am on board with the Air Force's modernization and 
recapitalization priorities. They intend to modernize the C-5 Fleet and 
will continue to assess most cost effective solution for meeting 
strategic airlift requirements.
    Question. General, are your highest priority needs--such as 
defensive systems and radios--being met in the current budget?
    Answer. The current budget request goes a long way in meeting many 
of our needs. However, there are challenges. The Air National Guard has 
a $1.5 billion shortfall in fiscal year 2008. We have challenges in 
Personnel & Force Sustainment, Total Force Integration, Depot 
Maintenance and flying hour shortfalls. We have additional challenges 
funding equipment for the ``Essential 10'' an area tied to bringing 
capability to bear for the states and the governors. Finally, our 
information technology and installation security programs are 
critically underfunded for fiscal year 2008.
    Question. General McKinley, we often hear the flying hour program 
described as the ``bread and butter'' of Air Force Reserve and Air 
National Guard operations. Please describe the factors influencing the 
decision to decrease flying hours by 10 percent in fiscal year 2008.
    Answer. With an overriding need to modernize and recapitalize its 
aging fleet, the Air Force was left with few options in a fiscally 
constrained environment. The 10 percent reduction to flying hours is a 
reduction in requirements which the Air Force believes they can 
mitigate through increased simulator time and Distributed Mission 
Operations.
    Question. General McKinley, what are the risks associated with 
decreasing flying hours by this magnitude? Does the Air Guard plan to 
continue funding the program at the lower level for the foreseeable 
future?
    Answer. A 10 percent cut to Air National Guard flying hours 
requirements directly impacts readiness. The 10 percent reduction to 
flying hours is a reduction in requirements which the Air Force 
believes they can mitigate through increased simulator time and 
Distributed Mission Operations. Our pilots receive an average of six 
flights per month versus 10 for AD pilots. The efficiency solutions 
employed by the AD (simulators/Distributed Mission Operations) are not 
readily available to ANG pilots/aviators. It is difficult for the Air 
National Guard to absorb a close to 24,000 hours reduction in Flying 
Hour requirements and expect this to have negative impacts on training 
and readiness. We will continue to work with Air Force to mitigate the 
negative impacts of this cut.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran

    Question. General McKinley, based on the success of the Army Guard 
Recruiting Assistant Program and Every Soldier a Recruiter program, are 
these types of programs being used or considered for use by the Air 
National Guard?
    Answer. Yes, in fiscal year 2006 $3 million was directed toward 
funding for the Guard Recruiting Assistant Program and in fiscal year 
2007 $5.1 million is allocated. We have $2.2 million shortfall in the 
program for fiscal year 2008.
    Question. General McKinley, I understand the RC-26B aircraft is 
presently deployed in support of combat operations and it is also used 
for counter-drug operations here in the United States. Would you 
provide this Subcommittee with an overview of the need for the RC-26B 
aircraft both here and abroad and also provide your thoughts on the 
need to upgrade the aircraft?
    Answer. Due to an urgent, short-term need for Intelligence 
Surveillance and Reconnaissance assets to support our troops engaged in 
the war fight, the National Guard Bureau has moved to deploy several of 
these Air National Guard aircraft and their crews overseas for 
approximately one year.
    To prepare, 5 aircraft are being modified for their new combat 
mission by the ATK company of Fort Worth, TX. Four planes will deploy 
with one remaining stateside to train new crews. Approximately one-
third of the RC-26 crew force will be deployed at any one time, 
rotating through every 60-120 days.
    We're optimistic that when the replacement capability the Special 
Operations Command has planned comes on line, our Guardsmen will have 
again answered our nation's call in a time of need and will resume 
their domestic mission at full capacity.
    Additionally, the National Guard Bureau is in the process of 
modernizing the sensor packages and avionics for the RC-26. We 
anticipate the upgrades will continue into the near future based on 
availability of funds.
    Question. Lieutenant General McKinley, I understand the Air Force 
and Army signed a memorandum of agreement and created a joint program 
office for the Joint Cargo Aircraft last year. I commend the Air Force 
and Army for working together and coming up with a common solution. 
General, can you provide this Subcommittee an update on the status of 
the program and highlight the importance of the joint cargo aircraft to 
the Air National Guard?
    Answer. The JCA offers the potential for additional solutions to 
the Air Force's intra-theater airlift recapitalization strategy. JCA 
will provide a modern mobility platform suited to accessing an array of 
demanding and remote worldwide locations, including short, unimproved, 
and austere airfields. As a multifunctional aircraft, it will be able 
to perform logistical re-supply, casualty evacuation, troop movement, 
airdrop operations, humanitarian assistance, and missions in support of 
Homeland Security.
    The Joint Service Acquisition Review Council met on April 16, 2007 
to review program issues presented at the Overarching Integrated 
Process Team. The Army and Air Force senior leadership endorsed the 
decisions of the Process Team and recommended that the program proceed 
to the Office of the Secretary of Defense in preparation for a 
Milestone C review in May 2007 at which time aircraft selection will 
follow. A Joint Training Business Case Analysis (BCA) is scheduled for 
late fiscal year 2007 and will likely finish in fiscal year 2009. This 
will trigger the decision on training strategy and sites.

                                Reserves

    Senator Inouye. Thank you very much and now I'm going to 
call upon General Stultz, Admiral Cotton, General Bergman, and 
General Bradley to come forward.
    Thank you for waiting. I hope you understand that I felt 
the discussions were necessary and the issues discussed were 
important to us and therefore, we did not place a time limit as 
we usually do. I'd like to once again thank you for joining us. 
I can assure you that your full statements will be made part of 
the record. I'll now call upon General Stultz.

STATEMENT OF LIEUTENANT GENERAL JACK C. STULTZ, CHIEF, 
            ARMY RESERVE
    General Stultz. Senator Inouye, Senator Stevens, it's an 
honor to be here, first of all, just to reiterate what General 
Blum and General Vaughn have all said, we thank you for your 
support of our soldiers. It is my honor to be here representing 
almost 200,000 soldiers and heroes of this Nation who serve in 
the Army Reserve.
    Since 9/11, we have mobilized 168,000 Army Reserve soldiers 
in support of this war. On an ongoing basis, we normally keep 
approximately 25,000 to 30,000 Army Reserve soldiers mobilized, 
deployed in Afghanistan, Iraq, or other nations as well as here 
in the homelands, supporting this Nation.
    We are dependent upon the support of this Nation and the 
support of this Congress for our resources. Many of the issues 
that you've already discussed with General Blum and General 
Vaughn and General McKinley apply also to us. The operational 
tempo that we're under is something that we've never 
experienced before. We are truly an operational force. We are 
not the old strategic Reserve that existed when I joined the 
Army Reserve way back in 1979.
    An example of that is best exemplified in that right now, 
currently two-thirds of the units that I have deployed in Iraq 
and Afghanistan are there for the second time. We have only a 
5-year rotation plan, just as Senator Stevens said, we're 
becoming part of the permanent force.
    We're utilizing new recruits, as General Blum outlined, as 
well as volunteers who have stepped up to the plate to go back 
for a second or third tour. Currently in the Army Reserve, I 
have approximately 42,000 soldiers who have deployed for at 
least the second time. Those 42,000 deployed as volunteers for 
the second tour.
    We're now in the process of trying to get that under 
control as we apply the Secretary of Defense's new policy 
allowing us to manage our force and maintain cohesion with the 
units when we call them up.
    But before I go any further, what I want to do today and 
I'll keep it just very short because I'm very conscious of the 
time, is to at least recognize two of the young citizen 
soldiers that I have.

                 INTRODUCTION OF ARMY RESERVE SOLDIERS

    Just to epitomize what the Army Reserve components brings 
to this Nation, the first soldier I have is First Sergeant 
Karen Henderson. Where is she? There she is. Okay. She is a 
graduate of Virginia Tech with a Bachelor's in Accounting. She 
works with Bright Point as a consultant. She was deployed to 
Iraq with one of our training divisions and because of her 
skills, she became the Associate Director of Communications for 
Iraq and astonishing communications with our country--and 
training Iraq forces on how to set that equipment up and get it 
running.
    But also she epitomizes the dedication of our soldiers 
because she is a combat lifesaver and one specific incident 
when she was traveling with her convoy, they were attacked by, 
hit by a vehicle but that vehicle did not detonate but it hit 
the lead Humvee, the soldier in it was thrown from the turret 
and he was severely injured. She immediately stopped and got 
out and started applying the combat lifesaving skills and 
administered aid to that wounded soldier until they could get a 
medivac in. She went one step further and this is what 
separates our Nation from others. She then turned and started 
administering aid to the driver of the vehicle that rammed 
them, a Syrian driver, and she also took care of him until they 
could evacuate him and get him back to Iraqi authorities for 
processing. That epitomizes what our soldiers bring to this 
war. Dedication, loyalty, civilian skills that take care of not 
only our soldiers but take care of others.
    The other soldier I brought with me, sir, is Staff Sergeant 
Martin Richburg. Sergeant Richburg works in the court systems 
as a supply officer. He is also a managing senior in the 
Reserve. He has been to Iraq where he was also working with the 
Iraqis, helping them to establish maintenance operations, 
helping the Iraqi Army get stood up and servicing them.
    On one occasion when he was in one of their compounds, 
where we are co-occupying with them, there is an Internet cafe 
so the American soldiers over there have an opportunity to stay 
in touch with their families back home. There are 13, I think, 
12 stations in that Internet cafe where 13 soldiers are waiting 
to log in and talk to their families.
    Sergeant Richburg, the NCO, said soldiers lower ranking go 
first. I'll stand outside. While he was standing outside, he 
noticed a suspicious individual that continued to lurk around 
that Internet cafe. Then he noticed that individual place an 
item on the ground and leave. He knew that something was wrong. 
He not only chased down the individual, secured him, found out 
that he was a terrorist, went back to that Internet cafe, 
risking his own safety to get the people out of that cafe. Not 
only did he evacuate 12 American soldiers, he evacuated four or 
five Iraqi soldiers that were in that area at the same time, 
before the bomb detonated, destroying the cafe, saving their 
lives. Again, a great American we have serving our country in 
the Army Reserves.
    So sir, I just wanted to recognize these two soldiers but 
they epitomize the 200,000 that we have in our force that are 
true heroes for this Nation.

                           PREPARED STATEMENT

    I submit my statement for the record and I look forward to 
your questions. Thank you.
    Senator Inouye. We admire you and we thank you for your 
services.
    [The statement follows:]

        Prepared Statement of Lieutenant General Jack C. Stultz

  PURPOSE AND ORGANIZATION OF THE 2007 ARMY RESERVE POSTURE STATEMENT

    The 2007 Army Reserve Posture Statement describes how the Army 
Reserve continues to transform from a strategic reserve to an 
operational force, meeting today's challenges as it better prepares for 
future uncertainties. Focusing on the Army Reserve skill-rich Warrior 
Citizens, equipment and resources needed to support The Army Plan, the 
Posture Statement provides the context to examine Army Reserve 
initiatives, accomplishments and compelling needs. The Posture 
Statement begins with a look at a few of the more than 166,000 Warrior 
Citizens who have mobilized in support of the Global War on Terror. 
Then, the Posture Statement discusses Army Reserve initiatives in the 
following strategies: leading change; providing trained and ready 
units; equipping the Force; and Warrior Citizens sustaining the All-
Volunteer Force. The Posture Statement concludes with a discussion on 
managing risk to underscore the Army Reserve's compelling needs.
    All figures throughout the 2007 Army Reserve Posture Statement are 
current through 22 February unless otherwise noted.

                  MESSAGE FROM THE CHIEF, ARMY RESERVE

    The Army Reserve of the 21st Century is a force facing the 
challenges of transforming from a strategic reserve to an operational, 
expeditionary, and domestic force--a transformation that is being done 
at an unprecedented pace. As never before, the Army Reserve is an 
integral part of the world's best Army. Demand for the authorized 
205,000 Army Reserve Soldiers attests to that integration. Today more 
than 20,000 Army Reserve Soldiers are forward-deployed in Iraq, 
Afghanistan and 18 other countries. An additional 7,000 Army Reserve 
Soldiers are mobilized and are serving here in the United States. In 
the more than five years since September 11th, more than 166,000 Army 
Reserve Soldiers, including 71 general officers who either mobilized or 
deployed in support of the Global War on Terror, have answered the call 
to mobilize in defense of our Nation.
    As a strategic reserve, our Warrior Citizens served one weekend a 
month and two weeks every summer. Due to the demands of this new 
century, and our transformation to an operational force, we are asking 
more of our Soldiers as we prepare them for the challenges they will 
face both overseas and domestically in this new, continuous state of 
mobilization. Our commitment to readiness is driving how we train, 
support, and retain our Warrior Citizens.
    As Chief of the Army Reserve, my mission is to build and sustain 
our operational force into a flexible, responsive and dynamic 
organization that is fully manned, trained, and equipped to support our 
Army and our Nation. To accomplish that, we must provide our Soldiers, 
their families, and their employers with predictability and stability--
to know when they can count on being home, mobilized, or deployed. Our 
goal is to mobilize Soldiers no more than once in a five-year time 
frame. We must also ensure the Army Reserve has the right equipment to 
sustain operations, the manpower to support our operations, and the 
resources to facilitate our operations.
    The recent decisions by the Secretary of Defense to ensure access 
to all components of the force require significant changes that affect 
the Army Reserve--the duration of deployment of our Warrior Citizens 
and the cohesiveness of deploying units. Our Soldiers will now mobilize 
as cohesive units for one year only, rather than eighteen months. This 
new policy is designed to support the total forces with recurrent, 
predictable access to Army Reserve units to meet the sustained global 
demand for Army forces. The benefits of deploying Soldiers who have 
trained together cannot be overstated, even though the short-term 
effect is that some Soldiers, who may have previously deployed with 
other units, will now deploy again earlier than expected.
    The Army Reserve receives resources from Congress through the 
President and the Secretary of Defense. Those resources historically 
allowed the Army Reserve to train as a peacetime strategic reserve, 
with some degree of risk, not as an operational force that supports the 
Global War on Terror and domestic requirements. Although a surge in 
contingency operations funding has prepared Army Reserve Soldiers and 
units for deployment, the discrepancy between past resourcing and 
operational demands has taken a toll. We will work with the Office of 
the Secretary of Defense to ensure that the Army Reserve forces 
required to meet the national security strategy are fully manned, 
trained and equipped to combat current and future persistent 
adversaries in the Global War on Terror, provide Homeland Defense, and 
combat proliferation of Weapons of Mass Destruction.
    To prepare for future uncertainties while implementing new policy 
changes and sustaining the current operational tempo, the Army Reserve 
needs continued support and leadership from Congress to provide full, 
timely and sustained funding; modernized equipment for training and 
deployment; and support to sustain our Warrior Citizens and their 
families. The resources allocated to the Army Reserve in the fiscal 
year 2008 budget, and in supplemental appropriations, are essential for 
the Army Reserve to continue its mission of providing trained and ready 
skill-rich Soldiers to protect the freedoms and values of American 
taxpayers. The bright, talented men and women of the Army Reserve are 
part of the foundation of this century's ``greatest generation'' of 
Americans. It is an honor to serve with the men and women of the Army 
Reserve.

                                   Lt. Gen. Jack C. Stultz,
                                               Chief, Army Reserve.
                     ARMY RESERVE WARRIOR CITIZENS

    The Army Reserve is a community-based institution with a one 
hundred year history of supporting the security needs of the Nation. 
The Army Reserve is serving our Army and our Nation at war.
    Currently deployed in Iraq, Afghanistan and 18 other countries, the 
Army Reserve has transformed from a strategic reserve to an operational 
force of skill-rich Warrior Citizens. Army Reserve Soldiers' skills and 
backgrounds reflect the diversity of America.
    Seventy-seven percent are men; 23 percent are women. They are black 
(23 percent), white (59 percent) and Hispanic (12 percent). They are 
young (46 percent are aged 17-29) and they are mature (46 percent are 
aged 30-49). When mobilized and deployed, they are enlisted Soldiers 
(81 percent), officers (18 percent) and warrant officers (1 percent).
    But, when not serving in uniform, they are doctors, lawyers, 
mechanics, homemakers, accountants, teachers, supply clerks, elected 
officials and journalists, to name a few of the civilian occupations 
represented in the Army Reserve. Army Reserve Soldiers are your 
neighbors; they are the parents of your children's friends, their 
teachers and their coaches. They are employees and employers in our 
towns and communities around the Nation.
    Army Reserve Soldiers are Warrior Citizens with their ``boots on 
the ground'' overseas and across the United States. They can lead a 
platoon, organize a social function, run a campaign, or chair a 
business meeting. They have all answered the call to serve our Nation.
    Here are some of their stories.
    Dr. Frank J. Miskena is a colonel in the 308th Civil Affairs 
Brigade of the Army Reserve. A veterinarian who is fluent in three 
languages, he has deployed to Albania, Kuwait and Iraq where he was 
assigned to the Coalition Provisional Authority. There, he became known 
as the ``Voice of Baghdad,'' following Iraq's liberation. Coalition 
forces looked to him for help communicating curfews and information to 
the Iraqi people. He spoke their language and he understands the price 
of freedom.
    Colonel Miskena was born in Baghdad. He earned his veterinary 
degree in Iraq and was drafted into the Iraqi Army, where he served for 
two years. In 1977 he came to America, where five years later he became 
a U.S. citizen. Colonel Miskena shows allegiance to one flag--the Stars 
and Stripes. He is the highest-ranking Iraqi-American in the U.S. 
military.
    First Sergeant Karen Henderson is a 20-year veteran of the Army 
Reserve. She always knew she could be called on to deploy.
    As a civilian, Karen Henderson is a consultant to one of the 
world's largest providers of management and technology services. Her 
civilian-earned skills came into play when she deployed to Iraq with 
the 80th Division. There, she was assigned to the Iraqi Director 
General of Communications, part of the Ministry of Defense, where she 
worked with Iraqis and the U.S. military to evaluate communications 
needs for the Iraqi military throughout the country.
    First Sergeant Henderson is typical of Army Reserve Soldiers. She 
brought a unique set of civilian-earned skills to her unit. But she 
also acquired skills during training, after she was mobilized. She 
became combat-lifesaver certified, a skill she used when an insurgent 
attacked the convoy in which she was riding. As the combat medic on the 
scene, First Sergeant Henderson treated coalition forces, the Iraqi 
driver and the insurgent while her unit secured the scene.
    Martin K. Richburg likes people. His strong work ethic and easy-
going demeanor are traits he brought to the 142nd Maintenance Company, 
where Staff Sergeant Richburg serves as a heavy-vehicle mechanic. In 
his civilian job, he is the supply clerk for the district court of a 
large city. But unlike many Warrior Citizens who have skills that are 
shared by their civilian and military careers, Staff Sergeant 
Richburg's two careers do not share common skill-sets. So when his 
call-up letter arrived, he looked forward to the intensive training he 
would receive prior to deployment. He knew that training would help him 
identify potentially dangerous situations.
    When his unit was posted to an Iraqi base to provide logistics, 
maintenance and Soldier training to Iraqi Soldiers, some of the Iraqi 
Soldiers welcomed the training and guidance they received from the 
Americans; others did not. On the morning of March 27, 2006, 47 Iraqi 
Soldiers and civilians were attacked as they entered the base to work. 
Thirty died. So later that day, while American Soldiers were inside an 
Internet cafe on the Iraqi base, Staff Sergeant Richburg waited on 
guard outside for a computer terminal to become available.
    His Army Reserve training taught him to observe people, their 
movements, and things that looked out of place. Outside the Internet 
cafe, something unusual caught his eye. He saw a man with a large blue 
bag peer into the cafe, then enter and leave the cafe several times. 
When he dragged a chair to the cafe's air conditioning unit, left the 
bag on the air conditioner, and ran, Staff Sergeant Richburg 
instinctively acted. He chased down the man and learned the blue bag 
contained a bomb that was timed to detonate while the Americans were 
inside the cafe.
    Staff Sergeant Richburg ran back to the cafe, ordered everyone out 
and took cover. When the bomb exploded, no one was killed, but the 
cafe's interior and several small buildings were damaged. Staff 
Sergeant Richburg's actions saved the lives of 12 American Soldiers and 
five Iraqi citizens.
    Kristen King is a college student who is scheduled to graduate in 
May 2008, 18 months after her classmates, with a degree in broadcast 
journalism. While researching a way to help defray her tuition costs, 
she learned about the Army Reserve's education benefits and the 
valuable hands-on broadcast experience she could get in the Army 
Reserve. When she deployed to Iraq, Specialist King learned skills that 
would set her resume apart from other young graduates.
    For the first eight months of her tour, Specialist King was 
assigned to a television unit where she was an anchor, reporter, and 
one of two videographers assigned to Saddam Hussein's trial. During the 
final four months of her tour, Specialist King hosted ``Country 
Convoy,'' a four-hour country music program that aired on 107.7 FM 
Freedom Radio, the only American-run radio station in Baghdad. Her Army 
Reserve broadcast experience exceeded her expectations--it was unlike 
anything she could ever learn in a classroom.
    In 2005, Specialist King was honored as the Army Reserve Broadcast 
Journalist of the Year. Now back at school, she talks about her Army 
Reserve experience with high school and college students. Specialist 
King did not just bring civilian-acquired skills to the Army Reserve; 
she brought enthusiasm and a desire to serve. She is now a Warrior 
Citizen who can apply her Army Reserve-acquired skills to her civilian 
broadcasting career.
    Chief Warrant Officer Bob Louck is a Warrior Citizen who retired 
from the military in 1985. After September 11th, the former instructor 
pilot turned pastry truck driver wanted to return to active duty. As a 
57-year-old Vietnam War veteran, he thought the Army Reserve could use 
his skills and volunteered for retiree recall. He was right, and soon 
found himself at aircraft qualification school with instructors half 
his age.
    As a member of Company B, 7th Battalion, 158th Regiment, he was 
scheduled to deploy to Afghanistan to support coalition operations 
against Taliban fighters. But when an earthquake devastated remote 
mountain villages in Pakistan, the unit was called up to fly medicine, 
food and shelters to earthquake survivors in the region. After several 
months of supporting relief efforts, his unit conducted a phased 
deployment to Afghanistan to assume their original mission.
    Hostile environments are nothing new to Bob. Whether the enemy is 
the Taliban or the Viet Cong, Chief Warrant Officer Louck, who last 
flew a Chinook in 1970, knows that age is not a liability. With 1,000 
hours of Chinook flight experience, this 20-year military retiree is an 
example of the skill-rich Warrior Citizens that make the Army Reserve 
``Army Strong.''
    These are only a few Army Reserve Soldiers' stories; thousands of 
others have similar stories to tell. All are evidence that Army Reserve 
Soldiers possess a broad range of civilian-acquired skills to 
complement their traditional military training and military training to 
complement their civilian careers. They are Warrior Citizens who have 
answered our Nation's call to service.
    In support of the Global War on Terror, 136 Warrior Citizens have 
sacrificed their lives during Operation Enduring Freedom and Operation 
Iraqi Freedom. Additionally, two Warrior Citizens, Staff Sergeant Keith 
``Matt'' Maupin and Specialist Ahmed K. Altaie are currently listed as 
missing and captured.
    The Warrior Citizens of the United States Army Reserve will never 
leave a fallen comrade.

                           STRATEGIC OVERVIEW

    Today's security environment is volatile, complex and uncertain. 
The dynamics of that environment often require the option of a rapid 
military response. Therefore, today's Army Reserve units must be 
prepared and ready to respond rapidly to our Nation's and our Army's 
needs.
    World and national conditions that present a variety of emerging 
challenges to our national security interests include:
Global War on Terror
Rogue states
Budget pressures
Homeland Defense
Adversarial nations and leaders
Treaty obligations
Protracted war
Ethnic and sectarian conflicts
Propensity for military service
Nuclear proliferation
Regional instability
Environmental degradation
Global terrorists and their networks
Ad hoc coalitions
Cyber network attacks
Insurgencies
Globalization
Public focus
Natural disasters
Narco-trafficking
Declining manufacturing base
Failed and failing states
Disaster response/relief Disease
National will

    Within such an environment, the Army Reserve has evolved from a 
strategic reserve to an operational force of skill-rich Warrior 
Citizens that provides unique capabilities to complement Army and 
National Guard partners. The Army Reserve must also complete 
transformation into a more lethal, agile and modular force. Today's 
operational tempo does not allow time for extended post-mobilization 
training. Army Reserve Soldiers and units are expected to be trained 
and ready when our Nation calls. To meet those realities, the Army 
Reserve is making the most dramatic changes to its structure, training 
and readiness since World War II. This transformation is being 
accomplished while Army Reserve Soldiers and units are engaged in 
operations at home and in Iraq, Afghanistan and 18 other countries 
around the globe.

Essential Functions of Army Reserve Transformation
    Reengineer the mobilization process to simplify, streamline and 
automate procedures that are currently time sensitive, paper-based, 
multi-layered and occasionally repetitive.
    Why? To respond quickly to domestic and combatant commanders' 
needs.
    Transform Army Reserve command and control structure to focus 
functional and operational commands on training, leader development, 
unit readiness and shorter mobilization timelines for units within 
their functional scope of expertise.
    Why? To focus on the Army Reserve's core mission of providing 
trained and ready Soldiers and units when needed.
    Restructure units into a flexible and adaptable modular force that 
meets anticipated mission requirements. Divest structure that is not 
able to deploy, is habitually unready, or is too costly to modernize.
    Why? To deliver maximum value and utility for the resources 
expended.
    Improve Human Resources staff, technologies, and business practices 
to assist commanders and leaders at all levels to recruit, develop, 
train, and care for Army Reserve Soldiers, families, civilians and 
contractors.
    Why? To support and sustain an all-volunteer force and ensure it is 
trained and ready when called.
    Implement the Army Force Generation model, realizing that may take 
up to five years to attain, to create stability and predictability for 
Army Reserve forces so a Soldier will deploy only one year out of every 
five. Create additional depth in high demand capabilities.
    Why? To provide stability and predictability to Soldiers, families 
and employers while simultaneously supporting the Global War on Terror, 
major combat operations, domestic operations and contingencies such as 
natural disasters.
    Improve individual support to combatant commanders by increasing 
the number of trained and ready Soldiers in critical military 
occupational specialties available for individual augmentation.
    Why? To meet the Army's demand for individual capabilities without 
cannibalizing existing units for those skills and threatening unit 
readiness.
    Build mutual support between the Army Reserve and employers and 
communities.
    Why? Combine/leverage civilian-acquired skills with leadership, 
maturity and experience gained in the military.

                  LEADING CHANGE AND SHAPING THE FORCE

Accomplishments
    Some of the most significant organizational changes during fiscal 
year 2006 include the accomplishments listed below:
  --Activated two theater signal commands and three expeditionary 
        support commands, one of which will deploy in support of 
        Operation Iraqi Freedom during 2007.
  --Initiated actions to inactivate 10 Regional Readiness Commands and 
        activate four Regional Readiness Sustainment Commands to reduce 
        overhead structure and focus on supporting Army Reserve units 
        on a regional basis.
  --Applied the Army Force Generation (ARFORGEN) model to how Army 
        Reserve units are scheduled and resourced for deployment. In 
        fiscal year 2006, approximately 77 percent of the Army 
        Reserve's mobilized units were from the ARFORGEN model.
  --Aligned 80 percent of Army Reserve forces, to include 58 modular 
        combat support/combat service support brigades and 8 civil 
        affairs brigades into ARFORGEN.
  --Completed the realignment of command and control of the U.S. Army 
        Civil Affairs and Psychological Operations forces from the 
        Army's Special Operations Command to the U.S. Army Reserve 
        Command to improve Civil Affairs/Psychological Operations 
        support to conventional forces.
  --Completed the realignment of the U.S. Army Reserve Command--as a 
        Direct Reporting Unit to the Department of the Army--as part of 
        the Army's efforts to more effectively administer and support 
        its operating forces.
  --Initiated actions to restructure Army Reserve training support 
        divisions and institutional training divisions to support the 
        Army's individual and collective training requirements.
  --Advanced plans to close or realign 176 Army Reserve facilities 
        under BRAC, a higher percentage of real property closures and 
        realignments than any other component of any service, and to 
        build 125 new Armed Forces Reserve Centers to support Army 
        Reserve units and Soldiers more effectively.
  --Completed three Lean Six Sigma business projects with future cost 
        savings and cost avoidance estimated at $47 million over the 
        next seven years.
    Transforming to meet today's demand for Army Reserve forces has led 
to the development of a host of strategic initiatives in support of 
major objectives. Some are complete, while others are still in 
progress. The prioritization of the Army Reserve transformation efforts 
will result in a complementary, operational force that is ready to 
support America's global and domestic commitments. The Army Reserve's 
strategic initiatives, when fully implemented, will accomplish the 
following:
  --Provide the joint force and combatant commanders with ready combat 
        support and combat service support units made up of skill-rich 
        Warrior Citizens.
  --Increase the number of Army Reserve Soldiers in deployable units.
  --Reduce the time needed from mobilization to deployment.
  --Provide predictability to the Army in terms of the capabilities 
        available in the Army Reserve.
  --Provide predictability to Army Reserve Soldiers, families and 
        employers regarding deployments--allowing them to better 
        prepare and plan for mobilization periods.
  --Ensure more focused and efficient administrative management of Army 
        Reserve forces, and increase unit and Soldier readiness.
  --Provide improved facilities and more effective training to Army 
        Reserve Soldiers.
  --Streamline the command and control of Army Reserve forces.
  --Increase the number of Soldiers in specialties needed to support 
        the long war.
  --Improve Army Reserve business, resourcing and acquisition 
        processes.
  --Provide better citizens to America's communities and better 
        employees to America's employers.
            The Army Force Generation Model: Predictability Through 
                    Focused, Efficient Management
    The Army Reserve's wide-ranging transformation is focused on 
providing needed capabilities to combatant commanders as they fight the 
long war. As the Army Reserve continues to transform, it is 
implementing a system that will establish predictability, not only to 
those commanders, but also to Army Reserve Soldiers, their families and 
their employers. That system is called the Army Force Generation 
(ARFORGEN) model.
    ARFORGEN is an Army-wide readiness model to support expeditionary 
deployment on a rotational basis. ARFORGEN consists of the structured 
progression of training, resourcing and unit readiness over time, 
resulting in recurring periods of availability of trained, ready, 
cohesive units that are prepared for an operational deployment, in 
support of civil authorities or combatant commander requirements. 
ARFORGEN is a model driven by operational requirements that facilitates 
assured, predictable access to the Army's active and reserve forces for 
future missions. That model task-organizes forces into expeditionary 
force packages, and manages them to progressively higher levels of 
capability and readiness through sequential force pools. Those pools 
train to corresponding metrics that ultimately provide a tailored force 
capability to meet an Army requirement. Packaging forces in a 
predictable deployment cycle, against specific requirements, will 
improve unit readiness as units progress through the system. 
Additionally, it will eliminate the old, tiered resourcing system, 
which included units resourced insufficiently that were never ready for 
deployment. The ARFORGEN strategy ensures that deploying units will be 
fully-trained--as cohesive units--on the most modern equipment.
    When implemented fully, ARFORGEN will add a rotational depth of 
ready units to the force and spread the operational demand for Army 
Reserve forces over a manageable time period.
            Increasing the Operational Force
    The Army Reserve continues to improve force structure to meet the 
demands of current and future operations. Reorganizing command and 
control structure resulted in more deployable command posts, functional 
commands and sustainment commands that are streamlined and more 
efficient than former command and control organizations. Those 
reorganized units are tailored to provide increased combat support and 
combat service support to the Army expeditionary force packages. In 
total, the Army Reserve converted 78 units with 5,076 spaces of ``non-
deploying'' structure during fiscal year 2006 to deployable 
organizations. Additional reorganizations in fiscal year 2007 are 
expected to yield even larger numbers of operational forces. The 
reorganization process has been carefully managed to maintain a high 
capacity of quality training support services with no diminished 
training capability.
    The Army Reserve is adjusting its Trainees, Transients, Holdees and 
Students (TTHS) account from 20,500 to 12,000. These additional spaces, 
8,500 Soldiers, will be converted to operational force structure, by 
right-sizing the TTHS account, and will be used in support of domestic 
and overseas missions.
    Recent decisions to reduce and streamline the training structure 
and to shift Soldiers from non-deployable units into a deployable force 
structure resulted in a more efficient training base without 
diminishing training capacity or capability. As a result, 5,000 
personnel billets have been reconfigured into the deployable force 
pool.
            Ready Response Reserve Units
    A key operational initiative for the Army Reserve is the 
development of the Ready Response Reserve Units (R3Us). This initiative 
capitalizes on Reserve Component (RC) Soldiers who are willing to 
volunteer to serve on part-time active duty, that is, more than the 39 
days per year, but less than 365 days per year. The Army Reserve seeks 
to leverage these volunteers and match them against the need to fill 
short-notice requirements for combatant commanders and against other 
known requirements with R3Us. Additionally, the ARFORGEN model may 
identify other high-demand, low-density RC units, which may be required 
to rotate faster through the ``Reset, Ready and Available'' pools to 
support combatant commander and/or domestic requirements. Units 
matching those requirements are potential R3U candidates. Those R3Us 
will serve for more than the traditional 39 days per year or may be 
used repetitively as voluntary units in accordance with current laws 
and Department of the Army policy. Units that participate as R3Us may 
not only be short-notice deploying units but may also be used to 
improve the readiness of Army units and Soldiers for deployment. A test 
of the R3U concept has been proposed for fiscal years 2008 and 2009. 
The Assistant Secretary of the Army for Manpower and Reserve Affairs 
(ASA M&RA) and the Army Reserve have identified three categories of 
units to test in the pilot program. The three categories include: Early 
Entry Operations, Known Surge Operations, and Sustainment Operations. 
As the lead for the test, the Army Reserve will develop processes and 
gather ``lessons learned'' that will improve the readiness of the 
entire Army.
            Improved Facilities and Training Support: Realignment and 
                    Closure
    Base Realignment and Closure (BRAC) 2005 will realize significant 
cost efficiencies to the Army Reserve and improve the support the Army 
Reserve will be able to provide its Soldiers. BRAC will require the 
Army Reserve to create joint or multi-functional installations and 
improve readiness of current installations and facilities. It will 
provide the Army Reserve the opportunity to station forces in modern, 
state-of-the-art facilities and to redesign many Cold War facilities 
that no longer reflect current requirements. Under BRAC, the Army 
Reserve will close or realign 176 of its current facilities. That 
represents a higher percentage of real property closures than any other 
component of any service. In turn, Army Reserve units will move from 
those older facilities into 125 new Armed Forces Reserve Centers 
(AFRCs), many of which will be shared with at least one other reserve 
component, enhancing joint relationships and facility use. That 
construction will eliminate duplication of facilities where different 
components of the Armed Forces are in the same areas.
    The new AFRCs will have high-tech, distance-learning and video-
teleconferencing capabilities as well as fitness centers, family 
readiness centers and enhanced maintenance and equipment storage 
facilities. Those dramatic changes, closely coordinated among Army 
Reserve planners and the BRAC agencies, were synchronized with the Army 
Reserve's efforts to reshape its structure and grow war fighting 
forces. The Army Reserve needs support from the President's budget to 
ensure that base operations support and sustainment, restoration, and 
modernization for Army Reserve facilities remain funded to ensure force 
readiness.
            Streamline Command and Control
    The restructuring of the Army Reserve's command and control creates 
a more functionally-aligned force. These efforts were supported by 
BRAC. The Army Reserve reduced the number of administrative commands 
and increased the number of operational commands while maintaining the 
same number of general officer billets, in order to improve support for 
the Army. Seventy-one of the Army Reserve's 143 general officers have 
been mobilized or deployed to support the Army since September 11, 
2001.
    Ten regional readiness commands will be replaced by four more 
efficient regional readiness sustainment commands (RRSCs). Those RRSCs, 
which will be fully operational by the end of fiscal year 2009, will 
provide base operations, personnel, and administrative support to Army 
Reserve units and Soldiers within their geographic regions.
    Two signal commands were converted to theater signal commands in 
2006. One of those commands relocated to Hawaii to provide support to 
U.S. Army Pacific Command on a full-time basis. Additionally, three 
expeditionary sustainment commands were activated to support the Army's 
modular logistics concepts. The commands were activated from older 
structures that were designed for Cold War engagements.
    Another expeditionary sustainment command and a theater aviation 
command will activate during fiscal year 2007. The Army Reserve 
training structure, which supports all Army components, is also 
restructuring to support the growth of more operational forces.
            Increasing Civil Affairs and Psychological Operations 
                    Assets
    Given the global population and urbanization trends, the importance 
of preparing and maintaining trained and ready civil affairs units has 
become increasingly evident. As the Army Reserve continues to support 
military operations in the long war, it is essential that Army Reserve 
forces are knowledgeable about the culture and customs of the people 
they will encounter. To address this and the numerous challenges of 
civil-military operations, the military uses Civil Affairs (CA) units 
that are focused on those operations.
    Today, more than 96 percent of all CA forces are in the U.S. Army 
and 93 percent of those forces are in the Army Reserve. The knowledge, 
skills, abilities and maturity required to operate effectively in the 
civil environment, particularly in areas such as city management, 
banking, and public health administration, overwhelmingly reside in the 
Army Reserve and are maintained by Army Reserve Warrior Citizens. Army 
Reserve CA units and Soldiers are trained and ready to deploy anywhere 
they are needed to plan, coordinate and execute civil-military 
operations. Those Soldiers set the conditions for transition to follow-
on civilian government agencies, international organizations, 
nongovernmental organizations and private sector contractors.
    In the area of psychological operations (PSYOP), the Army Reserve 
also provides key capabilities to the operational environment of this 
century. PSYOP forces help reinforce foreign attitudes and behavior 
favorable to our Nation's goals. More than 63 percent of the Army's 
total PSYOP force resides in the Army Reserve.
    To meet the needs of the 21st century battlefield, over the next 
six years, the Army Reserve will add 904 CA Soldiers and 1,228 PSYOP 
Soldiers. The most significant growth will be the addition of 48 new CA 
companies and 10 new PSYOP companies. That will add critical skill sets 
at the tactical level required by the conventional force to understand, 
interact, and influence foreign populations and institutions.
    To assist the Army Reserve's efforts to create and sustain trained 
and ready CA and PSYOP Forces, the Office of the Secretary of Defense 
approved the transfer of Army Reserve CA and PSYOP forces from U.S. 
Army Special Operations Command to the U.S. Army Reserve Command 
(USARC) last year. That move will integrate Army Reserve CA and PSYOP 
forces into the conventional force, providing the conventional force 
commanders dedicated CA and PSYOP forces consistent with the Army Force 
Generation model.
            Improving Business Practices
    A permanent Business Process Improvement/Lean Six Sigma (BPI/LSS) 
office was established in April 2006 at the U.S. Army Reserve Command 
(USARC). LSS is a business process improvement methodology that focuses 
on speed, efficiency, precision and accuracy. Three BPI/LSS projects 
were completed in fiscal year 2006 with cost savings estimated at $47 
million over the next seven years.
    LSS recognizes the unique skills and certifications Army Reserve 
Soldiers bring to the Force that are not normally found within the 
active components. For example, the Army Reserve has identified several 
Army Reserve Soldiers who are qualified as Lean Six Sigma master black 
belts (MBB), black belts (BB), and green belts (GB). Those Soldiers 
obtained LSS certification through their civilian occupations, 
typically investing over 200 hours in classroom instruction for the 
MBB, 144 classroom hours for the BB and 64 classroom hours for the GB 
in addition to completing projects.
    By optimizing the civilian-acquired skills of our Soldiers, in 
combination with contractor support, the Army Reserve estimates 
obtaining full integration of best business practices by January 2009. 
The cost will be approximately $4 million, which is about 73 percent 
less than the cost of relying exclusively on contractors. As LSS is 
employed throughout the Army Reserve, other commands are recognizing 
the value associated with using Army Reserve Soldiers and are asking 
for assistance. The Army Reserve will continue to assist wherever 
possible.
Compelling Needs for Leading Change and Shaping the Force
    Support the President's fiscal year 2008 budget which includes 
resources for a myriad of Army Reserve initiatives associated with the 
Army Force Generation model to include training, equipping and facility 
requirements during the ``ready'' phase of ARFORGEN.
    Support the fiscal year 2008 budget request for resources for the 
Army Reserve to continue implementing BRAC-legislated projects to close 
installations, construct Armed Forces Reserve Centers and fund 13 Army 
Reserve Military Construction projects. Full, timely and predictable 
funding will enable the Army Reserve to institute necessary force 
structure changes.
    Accelerate momentum established in modernization of the Army 
Reserve with the implementation of Ready Response Reserve Units, 
increased annual training requirements and upgraded facilities to train 
and support Soldiers.

                   PROVIDING TRAINED AND READY UNITS

Accomplishments
    Since 9/11:
  --The Army Reserve had mobilized more than 166,000 Soldiers; more 
        than 42,000 Soldiers have served on multiple deployments.
  --Ninety-eight percent of Army Reserve units have provided mobilized 
        Soldiers or have deployed in support of the Global War on 
        Terror.
    Fiscal year 2006:
  --Expanded rotational force management in support of ARFORGEN and 
        aligned with the Army Campaign Plan.
  --Mobilized 24,303 Warrior Citizens and deployed 13,240 Army Reserve 
        Soldiers.
  --Developed and executed plans to help prepare for the 2006 hurricane 
        season. Those efforts involved regional readiness commands and 
        units in 15 states and required that 1,996 separate items of 
        equipment be prepositioned on the eastern seaboard and the Gulf 
        Coast.
  --Army Reserve mobile training teams developed and executed a program 
        of instruction (POI) to train Afghan National Army 
        noncommissioned officers (NCOs). The course blended Afghan 
        culture and needs with material and standards of the U.S. Army 
        Drill Sergeants School.
  --Army Reserve Soldiers also continued to support the training of 
        Iraqi Security Forces.
  --Implemented the defense readiness reporting system (DRRS) that 
        gives senior leaders knowledge of Army Reserve capabilities to 
        support future combatant commander requirements.
  --Successfully integrated the Army Reserve Training Strategy (ARTS) 
        into the ARFORGEN training model.
  --In 2006, the Army Reserve conducted Patriot Warrior and River 
        Warrior exercises which included two eight day field training 
        events to challenge units' collective responsiveness under 
        stressful, contemporary operating environment conditions. The 
        exercises included Joint and Coalition Forces.
  --Two thousand Army Reserve Soldiers sharpened their technical skills 
        in tactical environments through functional exercises.
  --Sixty-one thousand Army Reserve Soldiers completed 70,000 training 
        courses provided through the Army Reserve Virtual University.
    During the 20th century, Army Reserve recruiters sought men and 
women willing to give up one weekend a month and two weeks every summer 
in return for college tuition, an interesting part-time job and an 
opportunity to serve their country. In return, the Nation got the 
strategic reserve it needed during the Cold War era. That was last 
century.
    This century, the Army Reserve is engaged in operations across the 
globe as an integral part of the world's greatest Army. Army Reserve 
units must be prepared and available to deploy with a full complement 
of trained and equipped Soldiers when the Nation calls. The recent 
decisions by the Secretary of Defense will facilitate the deployment of 
trained and equipped Army Reserve units as whole cohesive units.
            Operations
    At the end of fiscal year 2006, more than 35,000 Army Reserve 
Soldiers were serving on active duty. Approximately 25,000 Army Reserve 
Soldiers served overseas, in Iraq, Afghanistan and 18 other countries, 
while another 10,000 Army Reserve Soldiers supported homeland defense 
missions at training centers, mobilization sites, and medical centers 
in the continental United States.
    The Army Reserve is an integral part of the Army. Army Reserve 
Soldiers provide 88 unique skill sets and bring value-added experience 
and maturity to the joint force with their civilian-acquired 
capabilities. The Army Reserve force of Warrior Citizens includes 
surgeons, fire chiefs, teachers, city planners, waterworks directors, 
and police officers who have skills acquired in their civilian careers 
that aren't resident in the active Army. The wars in Iraq and 
Afghanistan have demonstrated the Nation's need for the critical 
capabilities of the Army Reserve Warrior Citizens.
            Combined, Joint Operations
    From supporting all military branches (running truck convoys of 
food, ammunition, fuel and other items) to conducting combat 
operations, responding to ambushes, and directly engaging the enemy, 
the Army Reserve has been an integral element of U.S. military and 
coalition operations.
    In fiscal year 2006, Army Reserve Soldiers continued to train 
Afghan Security Forces. While the 95th Division (Institutional 
Training) from Oklahoma City, Oklahoma, administered the Afghan Drill 
Sergeant School, the 98th Division (IT) of Rochester, New York (which 
had previously supported the creation and training of Iraqi Security 
Forces), augmented forces standing up the Afghan National Military 
Academy (NMA). Additionally, more than 900 Soldiers from the 108th 
Division (IT) in Charlotte, North Carolina, are supporting the training 
and creation of Iraqi Security Forces throughout Iraq.
            Domestic Operations
    The Army Reserve is the Title 10 first responder to support civil 
authorities during a domestic emergency. Lessons learned from Hurricane 
Katrina relief efforts prompted the Army to ask the Army Reserve to 
support state and local responders during the 2006 hurricane season. In 
March 2006, the Army Reserve developed regional and state Hurricane 
Task Forces to prepare equipment and personnel for hurricane support 
operations required within their regions. Task Force South supported 
Mississippi, Alabama, Georgia and Florida. Task Force North supported 
Tennessee and North and South Carolina. Each task force was headed by a 
brigadier general and operated out of the 81st Regional Readiness 
Command (RRC) in Birmingham, Alabama. The 90th RRC, in North Little 
Rock, Arkansas, stood up state task forces for Louisiana and Texas.
    More than 1,996 separate items of Army Reserve equipment were pre-
positioned along the eastern seaboard and Gulf Coast. By July 2006, the 
equipment and units involved in the contingency planning operations 
provided added capabilities to local authorities in the event of a 
hurricane. The Army Reserve task forces coordinated with U.S. Army 
North (the Army's component of U.S. Northern Command), and state and 
local authorities for support operations. Separate plans were developed 
for support to U.S. territories in the Pacific and Caribbean areas.
    The Army Reserve remains committed to supporting those 
contingencies as the federal first responder, and has elected to keep 
most of the pre-positioned equipment in place for the 2007 hurricane 
season.
    As demonstrated by the Army Reserve's support to Hurricane Katrina 
recovery operations (where the Army Reserve provided all of the CH-47 
aircraft support, two truck companies and over 90 vehicles), the 
relevant and critical capabilities provided by the Army Reserve will be 
needed for future homeland defense and security missions. Resident 
within the Army Reserve structure are skilled medical professionals, 
hazardous material reconnaissance teams, casualty extraction, mass 
casualty decontamination, engineer units, aviation units and water 
purification units that will provide key capabilities support to both 
expeditionary Joint Force and National Guard partners in the United 
States.
    Army Reserve Soldiers who deploy for civil support missions 
frequently do so while in a training status. In the case of Hurricane 
Katrina, Army Reserve support for relief efforts was possible because 
training funds were still available for Army Reserve Soldiers. Access 
to Title 10 first responders in the future cannot depend on 
availability of training days or training funds. Therefore, changes 
should be made to permit the mobilization of Army Reserve capabilities 
in support of domestic operations.
            Army Reserve Training Strategy
    To meet the demands of an operational and expeditionary force, Army 
Reserve units must be trained and ready prior to mobilization as 
cohesive units. The Army Reserve is transitioning to a train-alert-
deploy training model. That training model represents an essential 
element of the ARFORGEN process; implementing ARFORGEN requires a 
fundamental change to the Army's strategy of how to prioritize limited 
resources.
    Historically, Army Reserve units trained during two-day monthly 
battle assemblies and a 14-day annual training event. In support of 
ARFORGEN, the Army Reserve's five-year training cycle calls for an 
increase in unit annual training requirements in the third and fourth 
years. Those additional training requirements will allow units 
approaching their mobilization phase to conduct pre-mobilization 
training and participate in collective training events such as national 
training center exercises.
    The Army Reserve Training Strategy (ARTS) establishes the 
fundamental concepts of the train-alert-deploy model for Army Reserve 
Soldiers. It includes progressive training and readiness cycles, 
priorities for resources, managed readiness levels, and predictable 
training as dictated by the ARFORGEN model. As units advance through a 
series of cumulative and progressively complex training events, each 
training phase improves the level of unit readiness. When ARFORGEN is 
fully matured, units in years one to three (reset/train) will 
reconstitute and train on basic mission-essential task list (METL) 
tasks. While some Soldiers complete professional education and 
individual training, units complete collective training in squad-to-
company-level training in local areas and functional exercises. Units 
complete the reset/train phase of ARFORGEN with a Warrior Exercise--a 
multifunctional, multi-echelon event that improves unit proficiency.
    In the fourth year (ready) immediately before mobilization or 
deployment into a theater of operations, training focuses on collective 
war fighting skills and theater specific mission tasks, and accounts 
for approximately one-third of the total 92 training days per Soldier 
mandated by the five year ARFORGEN model. Upon successful completion of 
a combat training center (CTC), or a comparable event and the 
validation of their combat skills, the unit will move into year five 
(available).
            Warrior Exercises (WAREX)
    Warrior Exercises produce competent, confident, adaptive Soldiers, 
leaders and units that are trained and ready to fight. Focusing on 
collective war fighting skills, these eight day, continuous operation 
field training exercises replicate the process of mobilization, 
deployment and employment in theater.
    Exercises ensure Soldiers can conduct combat support and combat 
service support operations in a contemporary operating environment. The 
training is battle-focused and incorporates basic skills and lessons 
learned from combat zones to enhance battle drill training.
    The demanding, collective training of the Warrior exercises 
provides unit leaders with additional training and prepares Soldiers 
for combat training center exercises or comparable events and 
subsequent deployment for contingency-expeditionary force and domestic 
operations.
            Functional Exercises
    In fiscal year 2006 the Army Reserve conducted 16 functional 
exercises to sharpen Soldiers' skills in a tactical environment. 
Functional exercises are branch specific and are held in the second 
year (reset/train) of the Army Reserve Training Strategy.
    For example, Golden Medic 2006, the U.S. Army Reserve's largest 
medical command and control exercise, drew 2,000 Soldiers from units 
throughout the country, to Camp Parks in Dublin, California, and to 
Fort Gordon in Augusta, Georgia. Soldiers established and administered 
a makeshift medical complex equipped with facilities resident in a U.S. 
hospital, (ventilators, X-ray machines, dental equipment, a pharmacy, a 
laboratory and a triage wing). Golden Medic also tested the ability of 
Army Reserve units to evacuate casualties from the battlefield to a 
hospital outside the region, and to practice the skills they need to 
treat injuries sustained in battlefield conditions, such as blast 
injuries and severed limbs. The exercises prepared Army Reserve 
Soldiers for handling large numbers of patients, which is something 
that most medical professionals do not experience in a civilian 
hospital setting.
    The training Army Reserve field medics receive today, coupled with 
advances in aero-medical evacuation systems and enroute support care, 
has increased casualty survival rates tremendously. With today's 
military medical care system, there is a 97 percent survival rate for 
casualties that are evacuated from the battlefield to the theater 
hospital. Army Reserve Soldiers, who make up 50 percent of the Army's 
medical capacity, are ready and answering their call to duty.
            Combat Support Training Centers
    After BRAC implementation, the Army Reserve will establish combat 
support training centers (CSTCs) at Fort Hunter Liggett, California, 
and at Fort Dix, New Jersey. Those centers will enhance training in the 
following ways:
  --Provide training and maneuver space for technical and field 
        training in austere environments.
  --Allow more rigorous and realistic weapons qualification.
  --Enhance Army Reserve collective training capabilities.
  --Support the Army Reserve's Warrior Exercise program.
    Both centers will support joint, multi-component, interagency, and 
convoy training up to brigade level at Fort Hunter Liggett and up to 
battalion level at Fort Dix.
    When the combat support training centers achieve their full 
operational capability, units in ARFORGEN's fourth year (ready) will 
validate their collective mission tasks in combat training center-like 
rotations. They will help command, plan, prepare, supervise, and 
execute simulation-supported unit pre-mobilization collective training. 
The CSTCs will provide predictable access to state-of-the-art training 
centers that focus on the deployment, training, and redeployment 
experience for Army Reserve units.
            The Army Reserve Leadership Development Campaign Plan
    Updated and executed in 2006, the Army Reserve Leadership 
Development Campaign established requirements and integrated programs 
unique to the Army Reserve. Two significant components are listed 
below:
  --The Senior Leader Training Program.--The Senior Leader Training 
        Program develops the intellectual and strategic thinking skills 
        that senior leaders need to implement change in the Army 
        Reserve. The program focuses on general officer and colonel-
        level leaders with seminars that address organizational change, 
        Army transformation and ethics-based leadership.
  --The Pre-Command Courses.--The Army Reserve Brigade and Battalion 
        Pre-Command Course was upgraded to enhance training that 
        prepares field grade commanders and command sergeants major to 
        lead Army Reserve Soldiers.
    In addition to a company pre-command course for commanders, Army 
Reserve company command teams (commanders, first sergeants, and unit 
administrators) participate in new company team leader development 
courses to better prepare them for the challenges of leadership at the 
company level, which is critical to success.
            Phased Mobilization
    Phased mobilization minimizes unit personnel reassignments, 
enhances Soldier medical and dental readiness, improves unit leadership 
and enhances individual skills and unit collective training before 
deployments.
    Under the phased mobilization concept, selected Soldiers and 
leaders mobilize in intervals before their unit's mobilization to 
perform Soldier leader training, Soldier skill training and unit 
collective training. Phased mobilization allows selected Soldiers and 
leaders to receive individual training according to a planned and 
phased schedule, to ensure they are fully-trained and mission-ready 
prior to deployment.
            Army Reserve Virtual University
    To enable commanders to spend more time with Soldiers for mission-
essential training, the Army Reserve Virtual University (VU) began 
operating in June 2003. Since then, the VU has exceeded 155,000 student 
enrollments.
    The VU hosts web-based training, provides valuable user tools, and 
has real-time reporting features that are essential to commanders. The 
VU is available anytime and anywhere Soldiers, civilian employees and 
family members have Internet access. The site is accessible to anyone 
with an Army Knowledge Online (AKO) system username and password. It 
offers 24/7/365 customer service.
    As of November 2006, the VU offered 49 Internet-based courses, many 
of which meet the Army Reserve's mandatory course requirements, 
including: Information Assurance Awareness, Subversion and Espionage 
Directed against the Army, and Substance Abuse. It also offers course 
discussion threads, chat rooms, electronic libraries, collaborative 
learning environments (CLEs) in the continental United States and 
overseas theaters of operation, individual downloadable transcripts, 
and custom portals for each major command. The CLE provides every major 
subordinate command staff with a video conferencing capability that is 
accessible at home, school, or place of work. No special 
teleconferencing facilities are required.
    The VU is also a place where Soldiers, civilians and family members 
can enhance their personal or professional knowledge about the Army 
Reserve. The VU is an effective and efficient vehicle for providing 
family readiness information and training to Army Reserve families that 
are geographically dispersed and located far from units and 
installations. Included in the online VU package is a Family Readiness 
Library and two Family Readiness courses within the catalog.
Compelling Needs for Providing Trained and Ready Units
    Support the President's fiscal year 2008 budget initiatives for 
Reserve Personnel, Army (RPA) funding levels to support Army Force 
Generation model phased training requirements that include:
  --Equipment training.
  --Improved collective training.
  --Warrior Exercises.
  --Leader education.
    Support the President's fiscal year 2008 budget initiatives for 
Operations and Maintenance, Army Reserve (OMAR) funding levels:
  --To establish combat support training centers at Army Reserve 
        primary installations.
  --To increase emphasis and additional operating tempo for warrior 
        task and drill training; skill reclassification training, 
        convoy live fire training, and additional support.
  --To provide training equipment sets to support Army Reserve Training 
        Centers.
  --To dedicate equipment training sets at centralized locations and 
        training equipment sets for schools and deployable units.
Army Reserve Capabilities That Support Joint, Combined and Interagency 
        Operations
    Many of the skills unique to Army Reserve Soldiers complement 
joint, expeditionary and domestic operations. Examples of Army Reserve 
capabilities that support national objectives include:
            Countering Terrorism
    Highly specialized counterterrorism support to Special Operations 
Command (SOCOM), the U.S. Department of State's Office of the 
Coordinator for Counterterrorism, and other government agencies.
    Units and Soldiers for combatant commands to execute their regional 
war on terror (RWOT) plans.
            Defending the Homeland
    Critical capabilities to commands with significant domestic 
response responsibilities: U.S. Northern Command (USNORTHCOM); U.S. 
Joint Forces Command (USJFCOM); Joint Task Force-Civil Support (JTF-
CS); Joint Forces Command's (JFCOM) Standing Joint Task Force 
Headquarters; and U.S. Army North (ARNORTH).
    Twenty-six Army Reserve chemical companies with specialized 
military and civilian response equipment that can perform mass casualty 
decontamination and chemical, biological, radiological and nuclear 
(CBRN) and hazardous materials (HAZMAT) responder operations.
    Much of the Army's combat and combat service support capability to 
include medical, chemical, transportation, logistics, and civil affairs 
capabilities, all of which are available for homeland defense missions.
    Aviation, Transportation, and Logistics capabilities to include 
1,996 pre-positioned pieces of fully mission-capable equipment with 
identified crews to provide rapid domestic disaster response for the 
2006 hurricane season using programmed funding. Most of those assets 
will remain in place for future domestic response operations.
    One hundred and ninety-four emergency preparedness liaison officers 
(EPLOs) who are embedded in all 10 FEMA regions to support federal and 
state emergency managers for domestic response operations.
    Support to NORTHCOM's Consequence Management Response Forces 1-3, 
which includes chemical, quartermaster, and medical-type units.
            Shaping Choices of Countries at Crossroads
    Units and Soldiers to allow geographic and functional combatant 
commanders to execute their theater security cooperation plans (TSCP) 
to build partner capacity in exercises such as Nuevos Horizontes in 
Guatemala and Cobra Gold in Thailand.
            Preventing Acquisition of Weapons of Mass Destruction (WMD) 
                    by State and Non-State Actors
    Direct support to the 20th Support Command in its lead Department 
of Defense role as the primary responder for CBRN consequence 
management operations. These capabilities are available for use in the 
prevention of acquisition of WMD.
    Chemical units that provide unique capabilities to detect, 
identify, and mitigate selected WMD in support of nonproliferation 
activities.
    While the challenges the Army Reserve faces will evolve, Soldiers 
with ``boots on the ground'' will remain vital to our Nation's 
solutions.

                          EQUIPPING THE FORCE

Accomplishments
    Since 9/11:
  --Cross-leveled more than 300,000 items of equipment (65,000 
        transactions) among Army Reserve units to support ongoing 
        operations.
  --Developed and fielded cutting-edge logistics information management 
        programs to improve situational awareness and support decision-
        making.
  --Developed and implemented innovative and cost-effective methods to 
        improve logistics readiness by centralizing equipment and using 
        centrally managed databases to manage and track equipment.
    Fiscal year 2006:
  --Developed and began implementation of a logistics program that 
        directly supports the Army Force Generation (ARFORGEN) model.
  --Reduced the backlog of equipment, redeployed from Iraq and 
        Afghanistan, for inspection, repair, and/or overhaul from 
        14,000 items to less than 1,500.
  --Achieved a maintenance readiness level of 91 percent for reportable 
        equipment on hand as fully mission-capable.
  --Provided Rapid Fielding Initiative equipment to 62,000 Army Reserve 
        Soldiers.
  --Integrated 7,014 pieces of equipment transferred from the Active 
        Component to the Army Reserve.
  --Inducted 5,337 major end items and 30,725 items for calibration 
        into depot maintenance.
  --Identified $742 million of Army Reserve stay-behind equipment 
        retained in Iraq for replacement (such as HMMWVs, Trucks, 
        Material Handling Equipment and communications equipment).
  --Retired 6,800 M16A1 rifles from Army Reserve units in preparation 
        for M16A2, M16A4, and M4 rifle replacement fielding.
    Meeting future obligations will require the Army Reserve to do much 
more than focus on managing current resources. The continued high pace 
of operations will require additional expenditures to reset the force 
in addition to the costs associated with modernization and modular 
conversions.
            The Army Reserve and the Modular Force Logistics Concept
    The Modular Force Logistics Concept (MFLC) is the Army's redesign 
of logistics business rules, processes, and procedures to support the 
modular force. The MFLC seeks to integrate logistics operations, 
vertically and horizontally, to provide the speed and flexibility 
needed to deploy and sustain the Modular Force in training and combat. 
Vertical integration streamlines logistical support to the warfighter. 
The 143rd Transportation Command (TRANSCOM) based in Orlando, Florida, 
is transitioning to become an Expeditionary Sustainment Command. It 
will then be able to employ the concept of logistical integration for 
easier coordination between units. Horizontal integration consolidates 
material management centers (MMCs) and movement control centers (MCCs) 
into logistics headquarters support operations; logistics at the 
operational level are then focused on theater and brigade combat team 
support.
    As the Army Reserve adapts to those changes and procedures, 
concepts such as the Army Reserve Equipping and Fleet Management 
Strategy (AREFMS) are evolving to integrate and complement MFLC.
            The Army Reserve and GCSS-A/T and SALE
    Central to the implementation of the MFLC is the development of 
Enterprise Resources Planning (ERP) software, which will provide the 
Army with a holistic, fully integrated logistics data warehouse and 
accompanying management and decision making tools. The current concept 
is to build on the development of a Global Combat Support System--Army/
Tactical (GCSS-A/T) and a national level system, which will be replaced 
and integrated at a future date into one enterprise--the Single Army 
Logistics Enterprise (SALE). The Army Reserve is a full partner with 
the Army and defense industry leaders in the development of GCSS-A/T 
and SALE, providing a team to adapt current Army Reserve business 
rules, processes and procedures to the ``best commercial'' practices 
embedded in the ERP.
    Until the new software is completed and fielded, the Army Reserve 
will continue to use and refine its bridging solution, the Logistics 
Data Warehouse (LOGDAT). LOGDAT integrates data from Army Reserve unit 
and command-level logistics systems at the national level. In a single 
warehouse, Army Reserve commanders, staffs and managers can access the 
data, review unit readiness and develop and implement management 
decisions.
            Equipping Units in the ARFORGEN Cycle
    As previously stated, the Army Reserve, as a full participant in 
the ARFORGEN model, is no longer a strategic reserve but an operational 
force. The Army Reserve must train under the same conditions and 
standards as their Active Duty counterparts, including training with 
the same types of equipment they are expected to operate on the 
battlefield. To accomplish the training necessary for units to flow 
through the model, the most modern equipment must be made available to 
Army Reserve units as they move through the pre-mobilization and 
deployment phases of ARFORGEN.
    The Army Reserve has developed a strategy to optimize the use of 
its available equipment, based on the training requirements of units, 
as they move through the ARFORGEN cycles. Army Reserve unit equipment 
will be housed at respective unit home stations, collective training 
sites and individual training sites. That provides equipment for 
individual training as well as small unit training at home stations. 
The unit's collective training will be accomplished at the collective 
training sites and will be evaluated at the unit level. The Army 
Reserve can meet a single large contingency and continue to operate a 
rotational readiness model under ARFORGEN. Although military support to 
civil authorities (MSCA) activities do provide a collective training 
benefit, if there are repeated or significant domestic contingencies, 
such as repeated or long-lasting hurricane responses or additional 
foreign contingencies, collective unit training cycles at collective 
training sites could be delayed or canceled.
    The Army Reserve requires a steady flow of procurement to reach 
equipment and modernization goals. If the right equipment is 
unavailable when needed, mission accomplishment and the survivability, 
safety and morale of Army Reserve Soldiers are jeopardized.
Compelling Needs for Equipping the Force
            Procurement of equipment to support the Global War on 
                    Terror (GWOT) and the Modular Force
    The modernization of light-medium trucks (75 percent are not 
Modular Force compatible or deployable and are not integral to training 
and operational efficiency).
    The modernization of medium line-haul tractors (50 percent do not 
support single-fleet policy and are not integral to training and 
operational efficiency).
    Medical equipment.
    Night vision systems.
    Chemical/biological/radiological detection/alarm systems.
    Modular Force equipment needed to support designated individual and 
collective training locations, including unit level collective training 
in a field environment.
    Communications and automation equipment.
            Sustainment
    Support Army Reserve participation in the development and fielding 
of GCSS-A/T and SALE.
    Support initiatives to ensure depot maintenance funding at 90 
percent or better.
    Support recapitalization of tactical truck inventory.
    Endorse retention of Army Reserve tactical maintenance contract 
labor to reduce mobilization and training equipment backlogs.
          warrior citizens sustaining the all-volunteer force
Accomplishments
    In fiscal year 2006, The Army Reserve achieved over 100 percent of 
its goal for the reenlistment of first-term Soldiers; the first time 
that has been accomplished since 2002.
    The Army Reserve continues to retain its career Soldiers, reaching 
103 percent of the 2006 re-enlistment goal.
    Despite the continued high operational tempo, the Army Reserve 
realized 95 percent of its overall recruiting mission, including the 
U.S. Army Recruiting Command, Human Resource Command-Alexandria, 
Virginia, and Retention-Transition Division missions.
    The Army Reserve is tailoring its incentives program to the 
ARFORGEN model in order to realize maximum results.
    In fiscal year 2006, the Army Reserve began three BRAC military 
construction projects and 13 conventional military construction 
projects that will directly enhance quality of life for more than 4,800 
Soldiers in seven states.
    Since its launch (in early fiscal year 2006), The Army Reserve 
Family Programs web portal (www.arfp.org) has recorded more than one 
million visitors.
    The Army Reserve continues to recognize Soldiers' sacrifices via 
the Army Reserve Welcome Home Warrior Citizen Program. Of the 70,366 
awards delivered (since the program's inception in 2004), 62,359 awards 
have been presented during ceremonies.
    The Army Reserve's mobilization/deployment assistants made 79,913 
successful telephone contacts, received 12,444 incoming emails, sent 
57,027 outgoing emails, and recorded 18,982 in-person contacts in an 
effort to keep Army Reserve Soldiers and their families up to date on 
the latest deployment information.
    The Army Reserve developed the Army Reserve Employer Relations 
(ARER) program, tailored to build relationships with civilian employers 
of Army Reserve Soldiers.
    ``Honor is never off duty'' is now the Army Reserve touchstone. The 
Soldier's Creed and the Warrior Ethos are the bedrock of the United 
States Army Reserve. Warrior Citizens now entering the Army Reserve 
understand that mobilizations and deployments are not 
``possibilities''--they are ``probabilities.''
    Fully appreciative of today's realities, the Army Reserve no longer 
focuses solely on pay and benefits as an incentive to serve. The Army 
Reserve reinforces Army Values and embraces the Soldier's Creed. While 
pay and other incentives are still important, today's focus is now on 
pride in service to community and to the Nation.
    The Army Reserve also continues to ensure that the best quality of 
care for Army Reserve Soldiers and their families is provided and 
constantly works to improve the quality-of-life for Soldiers and their 
families. Army Reserve leadership manages Soldiers through accession 
and assignment, reassignment, training, and retraining or 
reclassification. Additionally, the Army Reserve manages relocation to 
conform to the ARFORGEN model.
            Recruiting
    The success of bringing new Soldiers into the Army Reserve ranks 
reflects the patriotism of this century's ``greatest generation.'' The 
U.S. Army Recruiting Command recruited 25,378 new Soldiers into the 
Army Reserve in fiscal year 2006; an increase of 6,000 new Soldier 
recruits from fiscal year 2005--a 95 percent achievement of the Army 
Reserve's fiscal year 2006 recruiting goal. In fiscal year 2007, the 
Army Reserve remains committed to garnering 100 percent of the needed 
Army Reserve Soldiers.
    Key to meeting that goal is ensuring that filling Active Guard/
Reserve recruiter positions are a top priority. Those recruiters are 
essential to ensure the Army Reserve supports the ARFORGEN model. 
Incentives are also tailored to ensure the right Soldier skills are 
brought into the Army Reserve's ranks for emerging missions.
    Additionally, the plan ensures the maximum return on the Army 
Reserve's investment as part of Lean Six Sigma. The Army Reserve 
realizes the market is very competitive for potential recruits and 
tailors incentives to attract not only the right skills, but the best 
candidates to join the Army Reserve ranks.
            Selected Reserve Incentive Program
    One of the most publicized new programs in the Army Reserve is the 
referral bonus. The program originally offered Soldiers who referred 
applicants who complete their initial military training a $1,000 bonus. 
This bonus was later increased to $2,000 and made available to Active 
and Reserve component retirees.
            Recruitment and Reenlistment
    In addition to the bonus, a host of incentives tailored to attract 
specific audiences (listed below) are now being offered.
  --Non-Prior Service Enlistment Bonus (6 yrs./up to $20,000).
  --Prior Service Enlistment Bonus (3 yrs./$7,500 or 6 yrs./$15,000).
  --Reenlistment Bonus for up to 20 years service (3 yrs./$7,500 or 6 
        yrs./$15,000).
  --Army Civilian Acquired Skills Program (3 or 6 yrs./up to $20,000).
  --Officer/Warrant Officer Accession Bonus (3 yrs./up to $10,000).
  --Officer/Warrant Officer Affiliation Bonus (3 yrs./up to $10,000); 
        given when an officer/warrant officer chooses to serve the 
        remainder of their obligation in a troop-program unit, as 
        opposed to going to the Individual Ready Reserve.
  --Enlisted Affiliation Bonus (3 or 6 yrs./up to $20,000).
    The 103 percent reenlistment rate for fiscal year 2006 highlights 
the success of Army Reserve incentive programs. The programs initiated 
by the Army Reserve during the current operations highlight the Army 
Reserve's dedication to taking care of not only Soldiers, but also 
their families and employers. Army Reserve career counselors who are 
geographically dispersed, including 11 in theater, exceeded their 
annual reenlistment mission by more than 500 reenlistments. This 
enables the Army Reserve to continue to meet the needs of America's 
expeditionary Army.
    Fiscal year 2006 accomplishments highlight the Army Reserve's 
steady retention success in recent years. The Army Reserve reduced 
attrition from 24.7 percent in 2001 to 22.3 percent in 2006; expanding 
the reenlistment window to 12 months with incentives, coupled with 
continued funding, made this success possible.
            Retention Initiatives
    The Army Reserve places a priority on retaining Warrior Citizens 
after their mandatory service obligation (MSO) is fulfilled. The value 
these mature, trained and ready, skill-rich Soldiers bring to the total 
force cannot be overlooked. Resources to fund programs targeted to 
recruit and retain Soldiers are vital for the Army Reserve to support 
the total force. Some incentives to retain Army Reserve leadership and 
fully staff high priority ARFORGEN units are listed below:
  --The Secretary of Defense has authorized Command Responsibility Pay 
        (CRP) bonuses for officers serving in positions of special 
        responsibility. The number of officers eligible for bonuses is 
        capped within each officer grade.
  --ARFORGEN designated unit pay. This is a key incentive to promote 
        retention and stability. Included in the 2006 National Defense 
        Authorization Act, this program allows payment for non-
        obligated Soldiers, in designated critical skills and units, 
        such as Soldiers who belong to ARFORGEN units targeted for 
        deployment, and who make a service commitment to the Army 
        Reserve. The program will likely reduce the need to cross-level 
        Soldiers by increasing volunteerism and retention in high 
        priority Army Reserve units.
  --The Army Reserve is pursuing a Critical Skill Retention Bonus for 
        Soldiers assigned to high priority units. This bonus will be 
        geared toward O-3 and below for Officers, E-7 and below for 
        Enlisted, and W-3 and below for Warrant Officers with critical 
        skills and experience that the Army Reserve must maintain for 
        the war fight.
            Mobilization Within the Army Reserve--Reflecting the 
                    Cultural Change
    The number of Army Reserve Soldiers who mobilized and then 
volunteered for further deployments reflect the experience and 
patriotism of today's Warrior Citizens.
  --More than 166,000 Army Reserve Soldiers have mobilized since 
        September 11, 2001.
  --More than 42,000 Army Reserve Soldiers have mobilized more than 
        once since September 11, 2001 (as of December 31, 2006).
            Full Time Support
    Today's demand for the Army Reserve to meet operational 
requirements quickly with fully-trained Soldiers and units on an 
enduring basis highlights the increased importance of Army Reserve 
full-time support (FTS) personnel. The Active Guard and Reserve (AGR) 
Soldiers, Department of the Army Civilian Employees and Army Reserve 
Military Technicians play a crucial role in preparing Army Reserve 
units for war.
    Full-time support personnel serve in a variety of positions 
throughout the Army Reserve. Operations personnel plan the training 
that will move the unit through the cycles of ARFORGEN. Human resources 
personnel direct the life-cycle management of unit personnel to ensure 
the right Warrior Citizen is in the right place at the right time. 
Human resources personnel coordinate with unit training personnel to 
ensure personnel are scheduled for, and attend, military schooling for 
career competency, progression and enhancement.
    The DOD average FTS manning level in fiscal year 2005--the last 
year data was available--was 21 percent of end strength, while the 
projected fiscal year 2007 manning level for the Army Reserve is 11.7 
percent, the lowest of any component of any service. As the Army 
Reserve transforms to an operational force and the demands for Army 
Reserve Soldiers increase, FTS requirements must be re-evaluated to 
ensure continued unit mobilization readiness.
    The Army is developing new full-time support requirements; 
utilizing the requirements methodology validated by the U.S. Army 
Manpower Analysis Agency (USAMAA) in fiscal year 2006. The Army Reserve 
is currently applying that methodology to its ARFORGEN force structure 
requirements to ensure it has the personnel necessary to carry out the 
day-to-day workload for mobilization readiness. The Army Reserve will 
work with the Office of the Secretary of Defense to ensure that this 
``revalidation'' will allow the Army Reserve to determine the right 
balance of full-time support personnel for an operational force.
            Quality of Life and Well Being of Soldiers and Family 
                    Members
    Quality of life issues directly affect the retention of Soldiers in 
the Army Reserve. The Army Reserve recruits Soldiers and retains their 
families.
    General Peter Pace, Chairman of the Joint Chiefs of Staff, has 
said, ``Taking care of our people is fundamental to the ethos of the 
American Armed Forces. Our men and women in uniform are our most 
precious resource. We must continue to ensure their welfare and that of 
the families who support them.''
            Family Programs
    Support to family programs remains a top Army Reserve priority, 
especially during this time of unprecedented deployments for Army 
Reserve Warrior Citizens. Full funding of programs such as the 
following, are crucial to the Army Reserve's retention goals and to 
sustaining the All-Volunteer Force.
  --Children's programs have been initiated that realize the unique 
        pressures children of reserve component military members face, 
        especially when their parents deploy.
  --A highlight of fiscal year 2006 activities included expansion of 
        Operation Purple Camps. These camps represent a joint effort 
        between the National Military Family Association, the 
        Department of Defense, the National Guard Bureau and local camp 
        providers to help children of deployed Army Reserve Soldiers 
        deal with deployment-related separation issues in a summer camp 
        environment.
            Health Benefits
    Few programs reflect care for Soldiers more directly than health 
care plans. It is crucial that support for those programs continue.
  --Army Reserve Soldiers who are on active duty for less than 30 days 
        are covered for any injury, illness, or disease incurred or 
        aggravated in the line of duty. That includes travel to and 
        from the Soldier's duty station.
  --After 30 consecutive days of active duty service, Soldiers and 
        family members are entitled to comprehensive health care 
        coverage. Dental coverage is also available to Army Reserve 
        Soldiers and family members regardless of their mobilization 
        status.
  --For Army Reserve families, health care benefits begin 90 days prior 
        to the effective date of the Soldier's mobilization orders 
        (early TRICARE). The Soldier's location and selection of a 
        primary care provider determines any possible deductibles and/
        or co-payment.
  --A demobilized Army Reserve Soldier (and his/her family) is eligible 
        for up to 180 days of transitional health care, called 
        Transitional Assistance Medical Program (TAMP). TRICARE 
        coverage ends when they return to their previous employer based 
        health coverage.
  --TRICARE Reserve Select has been fully implemented and is a premium 
        based health insurance program that offers all members of the 
        Selected Reserve an opportunity to purchase comprehensive 
        health coverage similar to TRICARE Standard and TRICARE Extra. 
        It is a three-tiered system of eligibility and cost shares, 
        which also allows those benefits to be purchased by non-
        deployed Reserve Soldiers.
  --Reserve Soldiers who are eligible for TAMP transition benefits may 
        receive dental care at military dental facilities on a space-
        available basis only. Family members are not eligible for 
        dental care at these facilities. Civilian dental care is not a 
        covered benefit for sponsors or family members under the TAMP 
        program. Reserve members and their families may, however, 
        receive dental care by enrolling in the premium based TRICARE 
        Dental Program (TDP).
    Congress has supported and the Reserve community has received 
numerous expanded health benefits over the last year. These programs 
provide for TRICARE coverage options and provide additional benefits 
for those being activated in support of a contingency operation. DOD is 
evaluating the expanded healthcare programs and their impact on 
readiness and retention of Army Reserve Soldiers.
            Well-Being Advisory Council
    The new Well-Being Advisory Council (WBAC) reflects the additional 
support being provided to ensure the proper care for Army Reserve 
Warrior Citizens and their families. The WBAC is responsible to the 
Chief, Army Reserve for providing strategic oversight for a holistic, 
well-being process. Plans are underway to hold the first WBAC meeting 
during the second quarter of fiscal year 2007.
            Child and Youth Services (CYS)
    CYS programs are initiatives designed to reduce the conflict 
between parental responsibilities and Soldier mission requirements. 
When Army Reserve Soldiers are mobilized, their families and children 
become part of the military community. These Army Reserve families 
often do not live near a military installation and may not live in a 
community with a significant military population. Army Reserve 
Soldiers' families do not transfer to a military installation when the 
Soldier mobilizes. The transition from community lifestyle to military 
lifestyle often happens without the benefit of experiences and support 
systems available to Active Army families who often reside on Army 
installations. The Army Reserve recognizes the strain that mobilization 
puts on the Warrior Citizen family, and now has a Child and Youth 
Services Directorate to provide services that support the readiness and 
well-being of families, including those families that are 
geographically dispersed. Programs designed to assist Warrior Citizen 
families include:
  --Operation Military Child Care (OMCC).--OMCC is a program that 
        ``buys down'' the cost of child care for military families. 
        Families of Soldiers who are mobilized or deployed in support 
        of the Global War on Terror receive help locating state-
        licensed or regulated child care services in their communities 
        at reduced rates.
  --Operation Child Care (OCC).--OCC is a nationwide voluntary 
        community based initiative that accesses local child care 
        providers who donate their services to military families. The 
        initiative provides short-term ``respite and reunion care'' for 
        children of service members returning from Operation Iraqi 
        Freedom and Operation Enduring Freedom for their two-week R&R 
        leave.
  --Operation Military Kids (OMK).--OMK focuses on the children of 
        ``suddenly military'' Army Reserve and National Guard personnel 
        who are being mobilized in increasing numbers for extended 
        assignments.
  --Operation Proud Partners.--The goal of this program is to enhance 
        the quality of selected Boys and Girls Clubs of America located 
        in the civilian community. This organization will provide 
        services to military youth who do not live on a military 
        installation.
  --Army Teen Panel (ATP).--The Army Reserve has two seats on the ATP. 
        The ATP was started in 1995 to help young people communicate 
        concerns to the Army's senior leadership. The ATP promotes 
        youth and adult partnerships.
  --Educator Training.--The Military Child Education Coalition (MCEC) 
        has designed training for educators. The ongoing, nationwide 
        training focuses on the issues that Army Reserve and National 
        Guard youth face when a parent is mobilized and deployed.
    Among other activities, CYS will host a Youth Leadership Education 
and Development (YLEAD) conference in Tacoma, Washington, in fiscal 
year 2007. This conference will empower youth to become community 
leaders locally and within the Army Reserve through involvement, action 
planning, and leadership programs.
            Education Benefits
    Education benefits clearly enhance the development of Army Reserve 
Soldiers and retention activities. During fiscal year 2006, Tuition 
Assistance was used by 19,088 Army Reserve Soldiers and degrees were 
earned by 1,021 participants; clear evidence of the desire of Army 
Reserve Soldiers to further their education. An additional advantage 
the Army Reserve brings to our Nation is the induction of college 
students. While some college students, or prospective college students, 
may be reluctant to join the ranks of the active component military, 
many have enlisted in the Army Reserve. The benefits they gain toward 
their college tuition complement the military's desire to retain a 
high-quality pool of knowledgeable Soldiers.
    Army Reserve Voluntary Education Services is a Department of 
Defense-mandated commanders' program that promotes lifelong 
opportunities for Selected Reserve Soldiers through voluntary education 
services that enhance recruiting, retention and readiness of Army 
Reserve Soldiers.
    Some major educational programs are detailed below:
  --The Montgomery GI Bill now has a pilot program allowing Active Army 
        Soldiers in critical skills who reenlist, to transfer up to 18 
        months of their Montgomery GI Bill benefits to their spouses. 
        This benefit is not yet available to Reserve Component 
        Soldiers.
  --The Reserve Educational Assistance Program (REAP) is an educational 
        assistance program paying benefits to Soldiers in the Selected 
        Reserve and to Individual Ready Reserve members who have been 
        ordered to active duty. The allowance is a percentage of the 
        Montgomery GI Bill active duty rate based upon the number of 
        continuous days served on active duty.
  --The Army/American Council on Education Registry Transcript System 
        (AARTS) is a program which translates military job experience 
        and education into college credits. The AARTS staff fills more 
        than 2,000 transcript requests a week. Requests are processed 
        and mailed within three business days to academic institutions, 
        Soldiers, education counselors, and employers worldwide. AARTS 
        transcripts are available free of charge to qualified members 
        of the Army Reserve.
            Welcome Home Warrior Citizen Award Program
    The proper reception for Army Reserve Soldiers returning from 
deployments lets them know, in a direct manner, the Nation's 
appreciation for their sacrifices. The Welcome Home Warrior Citizen 
Award Program was created to publicly recognize the sacrifices that 
Army Reserve Soldiers have made in the long war. As indicated 
previously, of 70,366 awards delivered (since the program's inception 
in fiscal year 2004), 62,359 have been presented to Army Reserve 
Soldiers during ceremonies. The program has been expanded to include 
recognition items for family members and employers.
            Support to Wounded Soldiers
    The Army Wounded Warrior Program (AW2) assists disabled Soldiers 
who suffered severe injuries on or after September 11, 2001, and who 
have been awarded (or are likely to receive) an Army disability rating 
of at least 30 percent. Assistance is provided from initial casualty 
notification through the Soldier's assimilation into civilian community 
services (for up to five years after medical retirement). AW2 
facilitates the linkage between the Army and organizations that stand 
ready to assist those Soldiers and their families, such as the U.S. 
Department of Veterans Affairs.
    Assistance includes:
  --Funding travel for family members to the Soldiers bedside (via 
        Invitational Travel Orders).
  --Resolving pay issues.
  --Providing options for remaining on active duty.
  --Assisting Soldiers with the tools to navigate the medical 
        evaluation board and physical evaluation board process through 
        information and assistance.
    Some of the Soldiers in the AW2 program may be in the process of 
medical retirements, pending other dispositions such as being extended 
on active duty, or enrollment in the Community Based Healthcare 
Initiative. The program allows selected reserve component Soldiers to 
return to their homes and receive medical care in their community based 
on each Soldier's medical needs.
            More Efficient Promotion Management
    To continue efforts to keep experienced Soldiers in Army Reserve 
ranks, promotion policies have been updated. Recent, important changes 
to provide equity and increased quality to the Army Reserve's promotion 
policies include:
  --Acceleration of promotion consideration to captain for the various 
        competitive categories. This accelerated consideration will 
        result in first lieutenants being considered for captain 12 
        months earlier than with previous boards.
  --In 2007, minimum time-in-grade for lieutenant colonels before 
        consideration for promotion increased by one year. This will 
        allow for a greater variety of assignments, military schooling, 
        and command time. The change should also slightly increase the 
        overall selection rate to colonel.
  --A new regulation allows enlisted Soldiers to request waivers to 
        requirements for military schools for promotion consideration. 
        The waivers can be requested for reasons such as deployment, 
        operational requirements, or lack of school seats.
            Enhanced Care for Professional Development
    As the Army Reserve transforms, regional personnel service centers 
(RPSCs) are being structured to provide modernized life-cycle 
management services. Those centers will address issues pertaining to 
Soldiers' career requirements (including schools and assignments) as 
they progress in rank or until they retire or separate. The RPSC will 
actively manage Soldiers' careers even when they transfer into another 
civilian job--the RPSCs will find another Army Reserve unit for the 
Soldier to join.
            Army Reserve Employer Relations
    When Army Reserve Soldiers return from deployment, the experience, 
confidence, and leadership skills they earned on the battlefield give 
them a deeper appreciation for their civilian careers and opportunities 
in America. When Warrior Citizens return to work, employers get better 
employees who have renewed energy, broader perspectives, a desire for 
more responsibility, and are creative problem solvers.
    Forging relationships with civilian employers is fundamentally 
important to the success of the Army Reserve's mission. Without 
civilian employer support it would be difficult, at best, to sustain a 
creditable force of Warrior Citizens; the Army Reserve shares the 
workforce of the civilian business community. In an effort to build 
positive and enduring relationships with civilian employers of Army 
Reserve Soldiers, Army Reserve Employer Relations (ARER) was 
established in 2005.
    Building positive relationships with civilian employers enhances 
Soldier readiness and positively impacts retention. In fiscal year 
2006, the Army Reserve began to focus on enhancing employer support 
through a systemic blending of four major objectives: mitigation, 
mediation, employer outreach and awareness, and Soldier-employer 
relations.
    In fiscal year 2007, the ARER will implement, monitor, and 
participate in the National Committee for Employer Support of the Guard 
and Reserve's (ESGR) ``Pinnacle Advance'' campaign. Additionally, the 
ARER will promote and sponsor the ``Patriot Partner,'' ``Freedom Team 
Salute,'' and other ESGR recognition awards. The ``Patriot Partner'' 
program is the first official Army Reserve-specific recognition for 
employers--acknowledging employer sacrifices and support of Army 
Reserve Soldiers. The ARER will coordinate and sponsor ``Meeting with 
the Boss'' and ``Boss Lift'' for 5-Star employers and Army Reserve 
senior leaders. The Chief of the Army Reserve will engage employers in 
various forums to explore better ways for both the Army Reserve and 
businesses to work together to support Warrior Citizens. In fiscal year 
2007, the ARER will build organizational structure, identify funding 
resources, and develop and implement an AKO e-mail account for the 
program.
Compelling Needs for Sustaining the All-Volunteer Force
    Support initiatives in the President's fiscal year 2008 budget that 
fill FTS positions in priority ARFORGEN units and provide the support 
necessary for an operational force.
    Support the President's proposal to strengthen the military with an 
increase in Army Reserve end strength to 206,000 in fiscal year 2013.
    Support full funding for requests in the President's fiscal year 
2008 budget to provide incentives to recruit and retain Army Reserve 
Soldiers. These incentives allow the Army Reserve to fulfill the 
manning requirements of ARFORGEN and to promote retention and stability 
for ARFORGEN units targeted for deployment.
    Continued support for educational assistance benefits for Soldiers 
and families.
    Fully fund initiatives designed to sustain the propensity for Army 
Reserve Soldiers to serve, and employers to support, hire and retain 
Warrior Citizens.
    Fully fund the Command Responsibility Pay (CRP) program to increase 
retention of officers serving in positions of responsibility.
    Support ARER program initiatives for the ``Patriot Partner'' 
program.
    Support incentives to retain Soldiers who want to extend their AGR 
active duty commitment beyond 20 years of Active Federal Service.

                             MANAGING RISK

    Ongoing operations at home and abroad have dramatically changed the 
way Army Reserve Soldiers think about and view themselves and the Army 
Reserve as an institution. The paradigm has changed. Mobilization is 
not merely a possibility; it is a likelihood that is identified and 
incorporated into a specified timeline.
    Concurrent with Army Reserve Warrior Citizens answering the call to 
serve, is the urgent need to accelerate the procedural and 
administrative changes needed to support training, equipping, manning, 
and mobilization. The Army Reserve strategy directly supports the Army 
Plan of transforming in response to the challenges and demands of this 
century, as detailed in previous chapters. Those profound structural 
changes, occurring while the Army Reserve is simultaneously providing 
Soldiers and units for operations throughout the world, create an 
environment with many risks. Much has been done to mitigate those 
risks, yet more needs to be done. The Army Reserve must balance demands 
with operational and organizational resources. To further mitigate risk 
while building the Army Reserve into a flexible, responsive and dynamic 
organization that is well-equipped to support the Future Force, the 
Army Reserve requires legislative support.
    The Army Reserve's fiscal year 2008 legislative priorities:
Priority: Obtain Full Funding to Sustain the Army Reserve's Global 
        Commitments
    Support for full, timely, and predictable funding of the 
President's fiscal year 2008 budget request is essential for the Army 
Reserve to provide Soldiers and units to combat traditional, irregular, 
catastrophic and disruptive threats; provide adequately for Soldiers, 
families and Army Civilians; accelerate key aspects of Army Reserve 
transformation and maintain the momentum of vital modernization 
programs and stationing initiatives. Failure to provide sustained 
resources jeopardizes the ability of the Army Reserve to respond when 
the Nation calls.
Priority: Recruit and Retain Warrior Citizens to Sustain the Long War
    Invest in the Army Reserve. Support the Army Reserve's goals for 
attracting and retaining high-quality, skill-rich Warrior Citizens. 
Sustained funding will enable the expansion of the Army Reserve's 
operational, deployable force pool. Failure to invest in recruitment 
could jeopardize the All-Volunteer Force.
Priority: Transform the Army Reserve to Sustain the Army Force 
        Generation Model
    By increasing the depth and breadth of its overall capacity, Army 
Reserve transformation is improving the Army Reserve's ability to 
execute and support protracted operational requirements. Sustained 
resources to continue this transformation will improve the readiness of 
non-deployed Army Reserve forces, reduce stress on Army Reserve 
Soldiers, their families and employers and improve the readiness of 
Army Reserve equipment and facilities. Failure to support Army Reserve 
transformation puts the ARFORGEN model at risk and compromises the 
Army's ability to develop relevant capabilities, in sufficient 
quantities to respond to current and future operations.
Priority: Reset the Total Force
    Today's Army Reserve must be prepared and available to optimize all 
its capabilities--both human and materiel--whenever the Nation calls. 
The requirement to reset Army Reserve units requires a sustained, 
predictable commitment of funds for several years beyond major 
deployments in support of the Global War on Terror. Failure to provide 
full resources would jeopardize the Army Reserve's ability to operate 
in a steady state of readiness and to execute projected operational 
deployments.
Priority: Improve Wartime Authorities and Resources
    Earlier this year, the Secretary of Defense initiated actions to 
change policies and authorities on how reserve and active units are 
managed and deployed. While these actions will improve the Army 
Reserve's ability to execute ARFORGEN, changes will take time. Although 
the policies will facilitate the deployment of assured, predictable 
access to whole cohesive Army Reserve units, the effectiveness of the 
Army Reserve depends on a national commitment to Army Reserve Soldiers. 
The Army Reserve must ensure the readiness of our current force and our 
future force with resources that are full, timely, and predictable. 
Expanded authorities are needed to meet operational requirements for 
commanders currently fighting the long war. Additionally, failure to 
sufficiently fund the Army Reserve jeopardizes the current pace of 
operations and the implementation of changes necessary to prepare and 
protect Army Reserve Soldiers. Failure to fully fund Army Reserve 
readiness, in manpower and equipment, puts America at risk in the 
future.

                          THE SOLDIER'S CREED

    I am an American Soldier.
    I am a warrior and a member of a team. I serve the people of the 
United States and live the Army values.
    I will always place the mission first.
    I will never accept defeat.
    I will never quit.
    I will never leave a fallen comrade.
    I am disciplined, physically and mentally tough, trained and 
proficient in my warrior tasks and drills.
    I always maintain my arms, my equipment and myself.
    I am an expert and I am a professional.
    I stand ready to deploy, engage, and destroy the enemies of the 
United States of America in close combat.
    I am a guardian of freedom and the American way of life.
    I am an American Soldier.

    Senator Inouye. I'll now recognize Admiral Cotton.

STATEMENT OF VICE ADMIRAL JOHN G. COTTON, CHIEF, NAVY 
            RESERVE
    Admiral Cotton. Good afternoon, Mr. Chairman and 
distinguished members. Thank you for the opportunity to 
testify. I'll keep my remarks brief because I know you have 
some questions.
    I would say that since we were here, the operability has 
remained steady. It has not steadily increased, especially if--
we need for the current threats. The Navy Reserve is slightly 
under strength but slightly above the requested end strength 
for next year.
    We have three challenges or priorities this year. It's 
manpower, readiness, and operational support. We are more ready 
than we've ever been, 84 percent fully or partially medically 
ready. We've never been more integrated providing operational 
support to the fleet and the combatant commanders. I am 
concerned about where we're going to find the people to man the 
force in the future. I think some of your questions will be 
part of that.
    The Army has been very successful with their finders fees. 
Like I asked last year, I think we're going to have to go 
something like that, too. You also asked about a steady state 
of bonuses and incentives. I think we're all competing with 
each other for the same individuals. In previous testimony, our 
Chief of Naval Personnel has used a number--that of the target 
recruitment operation of 17 to 24 years old, 72 percent are 
ineligible for military service. They don't have the 
qualifications or don't have the preponderancy to serve and 
we're finding this is increasingly tough with higher retention 
for the active. It's tougher to find the folks that will come 
with the Reserve, with the Reserve component.
    Now, the Army Reserve is on the ground--with over 4,000, 
with over 6,000 mobilized today and over 24,000 at some type of 
borders at their support commands.

                           PREPARED STATEMENT

    So we're doing a great job. I look forward to your 
questions. Thank you, sir.
    Senator Inouye. Thank you.
    [The statement follows:]

           Prepared Statement of Vice Admiral John G. Cotton

                              INTRODUCTION

    Chairman Inouye, Senator Stevens, distinguished members of the 
committee, thank you for the opportunity to speak with you today about 
the readiness of the Navy's Reserve component.
    After several years of emphasis on Active Reserve Integration 
(ARI), our Navy Reserve Force is more ready, responsive and relevant, 
and is a full partner in the Total Navy. Alongside Active Component 
(AC) sailors, Reserve Component (RC) sailors provide integrated 
Operational Support (OS) to the fleet, Combatant Commands (COCOMs), and 
other Department of Defense (DOD) agencies. With critical military and 
civilian skill sets and capabilities, mission-ready RC sailors and 
units surge to provide predictable and periodic work across the full 
range of operations from peace to war.
    Since 9/11/2001, over 42,000 Navy reservists have been mobilized in 
support of the global war on terror (GWOT), representing over 80 
percent of the sailors deployed on the ground in theater. On any given 
day, over 20,000 RC sailors are on some type of active duty (AD) or 
inactive duty (ID) orders at their supported commands meeting global 
COCOM requirements. This number includes about 6,000 RC sailors 
mobilized in support of Operations Iraqi and Enduring Freedom, and with 
this steady state requirement, we maintain the capacity to rapidly 
increase contingency support with more than 28,000 additional ready RC 
sailors that have yet to be mobilized.
    Whether supporting combat operations in Iraq or Afghanistan, 
providing Humanitarian Assistance and Disaster Relief (HA/DR) at home 
or abroad, supporting daily Navy missions at every fleet and Combatant 
Command, or providing for Homeland Defense (HD), Navy reservists are 
providing unprecedented levels of OS while continuing to maintain a 
Strategic Reserve capability. We are very proud of their daily 
contributions to the security of our Nation, and are inspired by the 
honor, courage, and commitment with which they serve each and every 
day.
    The Navy Reserve continues to transform to increase effectiveness 
and efficiency at every command, while meeting all GWOT requirements. 
As we respond to emergent asymmetric threats with joint and coalition 
forces, the readiness of RC sailors and units remains most critical. To 
provide sustained combat readiness, the Navy has moved away from rigid 
deployment cycles to a more Flexible Fleet Response Plan (FRP), under 
which a ``Surge Navy'' is able to provide a requirement-based and 
continually ready posture that offers greater warfighting capability at 
reduced cost. As part of the FRP, a fully integrated and ready Navy 
Reserve Force provides an enhanced surge capacity to meet requirements 
with Individual Augmentees (IA) and units. To maintain this posture, 
the Navy Reserve continues to emphasize current readiness as a more 
fully integrated supporting domain of the Navy, capable of engaging 
future geo-political challenges as an effective element of the Total 
Force. This task requires that we address both force readiness and 
family readiness, and recognize the inherent links between the two.
    The Navy Reserve has the capacity to meet current and future 
requirements, and to continue to transform into the right force for 
tomorrow. We will strengthen our culture of continual readiness while 
balancing predictable and periodic mobilizations of individuals and 
units for contingencies, integrated daily OS and a strategic HD surge 
force, all while answering the call to ``be ready.''

                                MANPOWER

    Navy continues its Total Force approach to the workforce of the 
21st century by establishing an enterprise framework and providing 
readiness at an affordable cost. We are improving all processes to 
deliver increased readiness and combat capabilities, provide better 
organizational alignment, refine requirements, and reinvest savings to 
recapitalize our Navy. The Navy Reserve is a full partner of the 
Manpower, Personnel, Training, and Education (MPT&E) enabling domain 
and is working closely with the Chief of Naval Personnel to best 
leverage all Navy resources.
    The mission of the MPT&E is to anticipate Navy warfighting needs, 
identify associated personnel capabilities and recruit, develop, manage 
and deploy those capabilities in an agile, cost-effective manner. 
Through this partnership, we are delivering a more mission-adaptable, 
responsive, cost effective workforce with new skill sets and improved, 
integrated training. We are establishing a ``Sailor for Life'' 
continuum of service that provides for flexibility of service in the 
Total Force, and allows every RC sailor to remain competitive for 
advancement along with their AC counterparts.
    Recruiting.--Commander Navy Recruiting Command (CNRC) is 
responsible for both AC and RC accessions, and in the past 2 years, has 
focused primarily on transitioning Navy veterans (NAVET) to the RC, due 
to their valuable experience and skill sets. With the high cost of 
accessing, training, equipping, and maintaining the workforce, it makes 
good fiscal sense to retain qualified veterans instead of accessing 
many new recruits. Recent DOD data indicates that more than two-thirds 
of the 17-24 year old American youth cohort does not fully meet Navy 
standards, primarily due to medical and physical disqualifications, and 
has an increasing propensity to avoid military service. Thus, every 
veteran becomes more valuable, and must be encouraged to remain in 
service in the Total Force.
    By providing veterans off-ramps to continue their service in the 
RC, we preserve the ability to surge their talents, and realize a much 
higher return on investment for their initial training investment. 
Previous force shaping efforts have been designed to achieve a specific 
end strength or ``fill,'' but our focus has shifted to building a 
competency-based workforce with the right skill sets, or the right 
``fit,'' to more rapidly and effectively meet emergent GWOT 
requirements.
    New programs and incentives have greatly enhanced our ability to 
recruit NAVETs and other highly qualified individuals. The very 
successful National Call to Service (NCS) and New Accession Training 
(NAT) programs have brought many junior sailors with high demand skill 
sets into the Navy Reserve. In addition, the Recruiting Selective 
Conversion and Reenlistment-Reserve program (RESCORE-R) provides 
bonuses to NAVETs who agree to train in high demand GWOT skill sets, 
enabling their extended service and availability for future 
deployments. These programs have been producing very positive results, 
but a larger range of tools are still necessary, including referral 
bonuses and expanded educational incentives.
    A ``Sailor for Life'' Continuum of Service.--An essential element 
of providing this dynamic and capable work force is establishing a 
``continuum of service'' by which a sailor may serve and Reserve over 
the course of a lifetime. This ``sailor for life'' philosophy removes 
administrative and policy impediments, allowing flexibility to move 
between statuses, manage a civilian career, pursue advanced education, 
and account for unique life-circumstances. In other words, we will 
enable sailors to take ``off ramps'' to the RC and ``on ramps'' back to 
the AC with seamless transitions. This framework also provides the 
taxpayer a better return on investment by extending the ability of the 
sailor to serve, thereby taking advantage of military and civilian 
training and experience. Simply stated, a well developed continuum of 
service will create a sailor for life, always ready to surge in support 
of our national interests and defense.
    This concept is critical to developing and maintaining RC sailors 
who are ready to deliver the right capability at the right place at the 
right time. Americans are living longer lives and are more capable to 
serve later in life. In fact, we have had many Total Force personnel 
over the age of 50 or even 60 from all Services continuing to serve in 
the GWOT. The Navy's 21st century workforce demands sailors with more 
highly specialized and less readily available skill sets. Future 
strategies must incentivize a more senior, highly qualified workforce, 
and will be designed to create flexibility for future growth by way of 
discretion in statutory ceilings.
    Navy reservists often serve as trainers for their AC counterparts 
based on their past service, recent GWOT experience, and civilian skill 
sets. Our new reality is that in an environment where the available 
pool of qualified recruits continues to shrink, Navy must recognize the 
value of the experience of more senior sailors, both active and 
reserve. We must provide opportunities and incentives for them to 
continue to serve, and maximize our investment in all essential 
capabilities and skill sets.

                            FORCE READINESS

    Force readiness is comprised of two largely interdependent 
categories, both sailor and family readiness. Sailor readiness is 
defined by the medical, physical and administrative preparedness of the 
sailor, and in many cases, family readiness leads to sailor readiness. 
We must continue to provide better and more responsive service that 
allows families to be prepared for their sailor to serve while 
recognizing the fundamental contribution of the Navy family to overall 
readiness.
    Sailor Readiness.--Measures to increase the medical, physical, and 
administrative readiness of the individual sailor have proven 
successful and we continue to improve upon them as we foster a culture 
of fitness and a willingness to answer the call to serve. Equally 
important is our ability to accurately measure that readiness, and 
expanded efforts in this arena are already delivering more accurate 
metrics.
    Medical Readiness.--Navy Reserve continues to be a leader in 
medical readiness. Full implementation of the Medical Readiness 
Reporting System (MRRS) as a comprehensive tracking system for 
Individual Medical Readiness (IMR) has provided decision-makers an 
accurate and comprehensive web based system to track IMR. The MRRS has 
enabled leaders to identify deficiencies and promptly address them, as 
well as accurately predict medical readiness requirements. This process 
has yielded tremendous success, and the most recent data shows that the 
Navy Reserve IMR rate is 83 percent fully or partially medically ready 
for mobilization.
    The success of MRRS as both a readiness tool and innovative 
Information Technology (IT) solution, able to provide commanders with a 
real-time view of force IMR, was recognized by the DON CIO IM/IT 
Excellence Award for Innovation in 2005. After force-wide fielding of 
MRRS was completed in 2006, Navy adopted it as a Total Force solution 
and is currently implementing it for all sailors.
    In order to provide for even higher levels of medical readiness 
across the Reserve components, we continue to standardize medical 
requirements. Current RC IMR standards do not always meet the 
requirements of the theater to which the reservist is being mobilized. 
As a result, some IAs have been put through multiple medical screenings 
in the mobilization process, only to be informed that their current 
state of medical readiness does not meet the standard of the forward 
deployed unit. Leadership is aware of these challenges and is working 
on solutions. As we become a more integrated Joint Force, standardizing 
medical readiness requirements across DOD will further that progress.
    Navy Reserve is also working within the MPT&E domain to provide 
flexibility of service options for RC medical professionals, who 
continue to be in high demand for the GWOT. Medical personnel are 
critical to our overall readiness, but are often unable to mobilize for 
extended periods due to the requirements of their civilian practices. 
Therefore, we are working to establish a continuum of service that 
provides for shorter but more frequent mobilizations. Feedback from RC 
medical professionals and potential recruits indicates that 90 days is 
optimum, but up to 6 months can be performed with adequate 
notification.
    Physical Readiness.--Navy Reserve continues to participate in Total 
Force solutions to ensure the highest levels of physical readiness 
within the force. We have established a culture of fitness throughout 
the force by emphasizing both individual and command accountability for 
physical readiness. Every Navy unit has a Command Fitness Leader (CFL) 
who is responsible to the Commanding Officer to administer the unit's 
Fitness Enhancement Program (FEP), which emphasizes individual medical 
and physical readiness to every RC sailor. Navy Reserve leadership is 
also held accountable in their annual fitness reports for the readiness 
of their sailors. Commanders have visibility into the physical 
readiness of both individual sailors and larger units via the web based 
Physical Readiness Information Management System (PRIMS), which enables 
each CFL to enter data from Physical Readiness Tests (PRT) for each 
member of their command. Commanders then have the ability to accurately 
assess the unit physical readiness and adjust the FEP as necessary. 
Sailor readiness is also a primary discussion topic during weekly 
Reserve force communications, placing further command emphasis on the 
importance of medical and physical requirements.
    Administrative Readiness.--Essential to sailor readiness is the 
ability to accurately and efficiently measure that readiness. The 
administrative inefficiencies created by multiple electronic pay and 
manpower systems create unnecessary burdens on the sailor and limits 
force readiness. The Navy Reserve has increased administrative 
readiness through the employment of the Type Commander (TYCOM) 
Readiness Management System--Navy Reserve Readiness Module (TRMS-NRRM), 
which provides a scalable view of readiness for the entire Force. 
Commanders can quickly determine readiness information for individuals, 
units, activities, regions, and any other desired capability breakouts. 
This Navy Reserve developed system has served as a prototype for the 
Defense Readiness Reporting System--Navy (DRRS-N), which is currently 
under development by Commander, U.S. Fleet Forces Command (CFFC) for 
use by the Total Force. It will provide a database to collect and 
display readiness data across the force enabling commanders to make 
real-time capability-based assessments and decisions.
    Navy is considering additional options for Total Force systems that 
will reduce administrative burdens and increase readiness. A common AC/
RC pay system is crucial to the success of our sailor for life and 
continuum of service programs. Ideally, manpower transactions will 
someday be accomplished on a laptop with a mouse click, and data will 
be shared through a common data repository with all DOD enterprises. 
Navy fully supports the vision of an integrated set of processes and 
tools to manage all pay and personnel needs for the individual, and 
provide necessary levels of personnel visibility to support joint 
warfighter requirements. These processes and tools should provide the 
ability for a clean financial audit of personnel costs and support 
accurate, agile decision-making at all levels of DOD through a common 
system and standardized data structure. One constraint to these 
initiatives is the RC order writing process. The current system has 
multiple types of orders, including Inactive Duty for Training (IDT), 
Inactive Duty for Training-Travel (IDTT), Annual Training (AT), Active 
Duty for Training (ADT), and Active Duty for Special Work (ADSW). In 
addition to multiple types of orders, the disparate funding processes 
can be equally complex. Navy is currently evaluating options that will 
streamline the system and make support to the fleet more seamless. The 
conversion of ADSW order writing to the Navy Reserve Order Writing 
System (NROWS) has yielded improvements for sailors and the fleet by 
allowing the same order writing system to be used for both AT, ADT and 
ADSW. The consolidation of all RC order writing to NROWS has also been 
a significant evolution in Navy's effort to integrate its Total Force 
capabilities by aligning funding sources and accurately resourcing 
operational support accounts.
    Family Readiness.--Family readiness is a key enabler of sailor 
readiness, and Navy Reserve Force family programs are continually 
improving with the assistance of command ombudsmen and the family 
support program manager. One of our biggest challenges is the wide 
dispersion of RC families throughout all States and territories, often 
without convenient access to the services provided by Navy Fleet and 
family support centers. To extend services to those deserving families, 
the Navy Reserve hired a full-time family support program manager on 
the Commander, Navy Reserve Forces Command (CNRFC) headquarters staff, 
and specific emphasis has been placed on partnering with National Guard 
family assistance centers. This liaison and improved cooperation with 
other Reserve components has greatly increased the availability and 
level of support for all service personnel and their families. Future 
consolidation of separate service facilities, especially in 
geographically isolated areas within CONUS, would yield great cost 
savings and administrative efficiencies. For example, a Navy 
Operational Support Center (NOSC) could easily become a Joint 
Operational Support Center (JOSC), providing support for all service 
personnel with a common pay and benefits system.
    Family days are a vital link in assisting families to be ready. 
NOSCs hold family days to provide ``one stop shopping'' of services and 
support for sailors to get family issues in order, including 
administrative support to update dependency data, SGLI, family member 
ID card processing, legal assistance (simple wills and powers of 
attorney), and presentations on Military OneSource, Tricare and 
American Red Cross representation. Family days give family members a 
much better understanding of the benefits and entitlements available to 
them.
    We have received outstanding feedback from another important 
initiative, returning warrior weekends. Developed in cooperation with 
multiple resources in a Navy region, NOSCs welcome our demobilizing 
sailors and families to provide vital services to enable a smooth 
return to their civilian lives and careers. Specific combat related 
issues such as the identification and treatment of Post Traumatic 
Stress Disorder (PTSD) are addressed with counseling services made 
available to families. Navy is committed to assisting our sailors and 
providing necessary services that enable their families to achieve a 
quality of service second to none. This comprehensive continuum of 
service for our reservists includes the transitions between active and 
inactive service, demobilization, and remobilization, because we are 
all sailors for life.
    Navy Reserve ombudsmen are a vital link between the sailors' 
commands and their families. Ombudsmen attend annual training to 
understand new Navy programs and the importance of confidentiality when 
assisting families. They provide information and referral services on 
various topics, and most importantly act as a command representative 
focusing on effective communication. The web based Military OneSource 
also provides a significant level of assistance, including counseling 
services when requested. In addition, a Navy Reserve family information 
webpage at http://navyreserve.navy.mil provides useful information and 
interactive communications for questions.

                          OPERATIONAL SUPPORT

    The vision of the Navy Reserve is ``support to the fleet . . . 
ready and fully integrated.'' Our overall Navy Reserve Force 
effectiveness is measured by the level of integrated operational 
support it provides to the fleet, COCOMs and other agencies. When RC 
sailors surge predictably and periodically to support Navy missions, 
they are performing integrated OS. While some RC sailors are only able 
to perform the minimum contract of 2 drill days a month and 2 weeks 
active duty each year, over two-thirds of the force are far exceeding 
the minimums, performing valuable OS. Navy has recognized this 
capability and now relies on the RC to surge to many varied 
requirements in their regions or at supported commands. When the work 
is periodic or requires special skill sets, a reservist is often the 
most cost efficient and capable solution. Through a well developed web 
based notification and order writing systems, RC sailors can rapidly 
surge daily to validated OS requirements.
    Fully Integrated.--Active Reserve Integration (ARI) aligns AC and 
RC units to achieve unity of command. It leverages both budgetary and 
administrative efficiencies and ensures that the full weight of Navy 
resources and capabilities are under the authority of a single 
commander. Navy reservists are aligned and fully integrated into their 
AC supported commands, and are often ``flex-drilling,'' putting 
multiple drill periods together to provide longer periods of 
availability when requested. RC sailors enjoy this flexibility as it 
enables them to better balance the schedules and demands of their 
civilian employers and families. The longer periods of Navy training 
and work at the supported commands achieves greater technical 
proficiency, more cohesive units and increased readiness.
    Two very successful examples of ARI are Fleet Response Units (FRU) 
and Squadron Augmentation Units (SAU). These units are directly 
integrated into AC aviation commands, leveraging RC skill sets and 
capabilities to meet Navy mission requirements, and realizing greater 
ROI for taxpayers. FRUs provide fully qualified and experienced 
personnel to rapidly surge to deployed fleet units, and reduce training 
costs by enabling AC and RC sailors to train on, maintain and operate 
the same equipment. SAUs provide experienced maintenance personnel and 
highly qualified flight instructors to work at training command and 
fleet replacement squadrons. These fleet experienced technicians and 
aviators instruct both AC and RC sailors to maintain and fly fleet 
aircraft, providing better instruction, improved training completion 
rates and significant ROI.
    Navy has aligned AC and RC regions under the five CONUS Navy region 
commanders and Naval District Washington. This alignment provides for 
central authority of shore-based infrastructure and significant 
administrative and training efficiencies. Region commanders have 
realized increased Total Force readiness and expanded capacity to 
provide OS, as well as disaster relief and consequence management under 
U.S. Fleet Forces Command as the Maritime Component Commander for 
Northern Command (NORTHCOM). Formerly known as Navy Reserve Readiness 
Commanders (REDCOM), Reserve Component Commanders (RCC) are responsible 
to the region commanders for facilities readiness and RC regional 
support issues. RCCs are integrating into region commanders' staffs, 
merging Total Force resources within their respective regions to better 
capitalize on the RC presence in every State. Navy is now more 
regionally ready to surge as first responders in the event of natural 
or other disasters. Of note, RC Rear Admiral Jon Bayless is recalled to 
active duty as Commander, Navy Region Midwest, further exemplifying the 
Total Navy integration and alignment.
    To facilitate this alignment and clearly delineate the mission of 
the Navy Reserve, we have also renamed Navy Reserve Centers as Navy 
Operational Support Centers (NOSCs). Far beyond a mere name change, 
this transformational shift sends a clear message to each reservist 
that our mission is to meet the requirements of the fleet and COCOMs by 
providing integrated OS to supported commands and in their Navy region. 
The goal of every NOSC commanding officer is to enable RC sailors to 
serve at their supported commands performing Navy work when requested, 
2 days, 1 week, 2 weeks, or longer. We have made significant strides 
toward changing the culture through continuing education and 
commitment, and will continue these efforts by further aligning 
organizations and processes to Chief of Naval Operations strategic 
goals and guidance.
    Fleet Trained and Equipped.--ARI has aligned the Total Force so 
that AC supported commands determine requirements and capabilities for 
their RC personnel and units. We only have Navy requirements that in 
many cases can be met predictably and periodically with RC assets that 
rapidly surge when needed. By combining these roles, Navy achieves 
greater efficiency and ROI from both equipment and manpower by taking a 
comprehensive assessment of the requirements and capabilities resident 
in the Total Force. Both AC and RC sailors maintain, operate and train 
on the same equipment and for the same mission. RC sailors are trained 
to the same standards and at the same facilities as their AC 
counterparts, and their prior experience, skill sets and qualifications 
are equally valued.
    Another excellent example of effective ARI is the newly established 
Navy Expeditionary Combat Command (NECC), which serves as the single 
functional command for Navy's expeditionary forces and as central 
management for their readiness, resources, manning, training and 
equipping. NECC brings Naval Construction Force (NCF) Seabees, Naval 
Coastal Warfare (NCW), Navy Expeditionary Logistics Support Group 
(NAVELSG), Explosive Ordnance Disposal (EOD), Civil Affairs (CA), and 
the new Riverine Force capabilities under one commander, integrating 
all warfighting requirements for expeditionary combat and combat 
support elements. This transformation allows for standardized training, 
manning and equipping of sailors who will participate in global joint 
maritime security operations. It aligns expeditionary warfighting 
capabilities and enables future adaptable force packages comprised of 
sailors and equipment that are rapidly deployable, self-sustainable, 
scalable and agile, to meet the requirements of the COCOMs. Designed to 
fully leverage the Total Force, NECC employs roughly 50 percent RC 
sailors and uses their extensive experience, skill sets and flexibility 
to accomplish its missions. This alignment realizes large economies of 
scale, common processes, and fully integrates RC sailors that flexibly 
serve in every NECC mission area, providing tailored OS for the GWOT 
and HD.
    Surge to requirements.--Current GWOT examples of surge support 
capabilities, whether on Inactive Duty (ID) drills, Annual Training 
(AT), Active Duty for Training (ADT), Active Duty for Special Work 
(ADSW) or mobilization include:
  --Seabees
  --Engineers
  --EOD
  --Supply Corps
  --Coastal Warfare
  --Cargo Handling
  --Customs Inspectors
  --Civil Affairs
  --Chaplains
  --Medicine/Corpsmen
  --Trainers/Instructors
  --JTF Staff Augmentation
  --Intelligence
  --Linguists
  --Public Affairs
  --IT/Network Support
  --Anti-Terrorism/Force-Protection (AT/FP)
  --Law Enforcement
  --Logistics & Logistical Transport/Airlift
    Navy Reserve Seabees comprise 60 percent of the Total Force NCF 
manpower and are organized into 12 RC battalions throughout the country 
that compliment the 9 AC battalions. Effective training at NOSCs and at 
Seabee Centers of Excellence in Gulfport, Mississippi, and Port 
Hueneme, California, ensures that their high demand capabilities are 
ready to surge to support forward deployed marines and regional 
reconstruction efforts. Every Seabee battalion has been mobilized and 
deployed to Iraq or Afghanistan for the GWOT, and they continue to be 
superb examples of effective phased readiness and full integration of 
Navy combat support forces into Joint Force packages.
    Other similar RC support can be found in Embarked Security 
Detachments (ESD) and Provisional Reconstruction Teams (PRT). ESDs 
rapidly surge to provide specialized mobile maritime security 
capabilities to ships especially in vulnerable domains, such as while 
transiting straits or entering foreign ports. Many RC sailors bring 
valuable skill sets gained from civilian careers in law enforcement and 
the shipping industry, and are often the subject matter experts, 
providing significant cost savings as they perform integrated OS while 
training AC sailors. Since their inception, RC sailors have led the way 
in forming and deploying GWOT PRTs. Full-Time Support (FTS) CDR Kim 
Evans was assigned as Officer in Charge (OIC) of one of the original 
teams and her experiences were used to train future PRT OICs, improving 
the training processes, greatly increasing team safety and 
effectiveness.
    Navy medicine greatly values its talented RC doctors, nurses and 
corpsmen, serving on hospital ships performing humanitarian assistance 
and disaster relief, and ashore with the fighting Fleet Marine Forces 
(FMF). RC chaplains are also serving with the marines in forward areas, 
providing much needed spiritual services and support. Navy Reserve 
Intelligence professionals are at work 24/7/365 forward deployed, and 
especially in the 27 CONUS based Joint Reserve Intelligence Centers 
(JRIC) providing real-time imagery analysis and other services to every 
COCOM.

                                SUMMARY

    Our Navy Reserve Force continues to transform to meet all GWOT 
requirements. We are constantly improving our medical, physical, family 
and administrative readiness, while we also evolve as a total Navy 
workforce to provide the necessary joint capabilities to meet emergent 
fleet and COCOM requirements. Navy is better leveraging its Reserve 
Component to provide more effective Operational Support, and has fully 
integrated the Total Force in all warfighting enterprises and enabling 
domains. Experienced reservists continue to volunteer their valuable 
military and civilian skill sets when called to serve and reserve, 
especially in support of humanitarian assistance, disaster response, 
peacekeeping and nation building initiatives.
    I sincerely appreciate the Congress' support for the one Budget 
Authority Navy Reserve Military Personnel budget structure. It 
significantly improves our ability to effectively execute our tight 
manpower budgets in the new operational Reserve environment. I thank 
this committee for its generous and always responsive support as our 
Navy Reserve continues to answer the call to ``be ready.''

    Senator Inoye. May I call on General Bergman?

STATEMENT OF LIEUTENANT GENERAL JOHN W. BERGMAN, 
            COMMANDER, MARINE FORCES RESERVE, UNITED 
            STATES MARINE CORPS RESERVE
    General Bergman. Chairman Inouye, Senator Stevens, thank 
you for your continued leadership. We need it. The 204 Command 
Corp continues to work. Today, it had 5,500 plus Reserve 
marines deployed worldwide. Right now, we've got two battalions 
getting ready to come home after their tour, the 1st Battalion, 
24th Marines, headquartered in Detroit, the 3rd Battalion, 14th 
Marines headquartered in Philadelphia. They'll be back in the 
States within the month. They've done spectacular.
    The New Force Federation model that has been created has 
given us a key essential element for sustainable onboard. Call 
it predictability. This predictability drives everything from 
recruiting to training to equipment to literally development of 
a force structure over a long term, so that you can support, 
whether it's a deployed fight or humanitarian assistance 
disaster relief at home. That is a key driver that is a new 
development within the last 6 months.
    The Marine Corps buys equipment as a title force. The Army 
Reserve component work hand in hand with the active component 
on a daily basis to optimize the flow and the apportionment of 
that equipment. It will always have its challenges but the 
bottom line is, there's a mentality that seeks to balance, 
putting the right equipment in the right hands at the right 
time.
    Speaking of that, we thank you for your very aggressive 
support of MRAP. We need it and we're looking forward to having 
our marines in the MRAP vehicles whatever Guard, as soon as 
possible.
    The MRAP success is all about people. Our deployed marines 
are first in line when it comes to being prepared for the 
fight, for the deployment. They are followed closely by their 
families as we support them and prepare them for the 
separation. And support is just that support--complete, total, 
creative support for our marines and our sailors, their 
families and their employers. I thank you for your continuing 
support and your leadership and I look forward to your 
questions.
    Senator Inouye. Thank you very much.
    [The statement follows:]

        Prepared Statement of Lieutenant General Jack W. Bergman
    Chairman Inouye, Senator Stevens, and distinguished members of the 
committee, it is my honor to report to you on the state of your Marine 
Corps Reserve as a major contributor to the Total Force Marine Corps. 
Your Marine Corps Reserve today is firmly committed to and capable of 
warfighting excellence. On behalf of all our marines and their 
families, I would like to take this opportunity to thank the committee 
for your continuing support. The support of Congress and the American 
people reveal both a commitment to ensure the common defense and a 
genuine concern for the welfare of our marines and their families.

                      TODAY'S MARINE CORPS RESERVE

    Recruiting, retaining, responding; your Marine Corps Reserve is 
steadfast in our commitment to provide Reserve Marines who can stand 
shoulder to shoulder with their active duty counterpart and perform 
equally in all contingencies, from combat on foreign soil to local 
humanitarian needs. As our Nation pushes on in the longest mobilization 
period in our history, we have maintained the pace and will continue to 
sustain that pace for the foreseeable future.
    During this past year, over 3,800 marines from Fourth Marine 
Division have served in Iraq. Included are two infantry battalions, as 
well as armor, reconnaissance, combat engineer, and truck units. Our 
marines have demonstrated dynamic flexibility by performing in non-
traditional roles, including military police, riverine operations, and 
advisory duty with Iraqi security forces. An additional 500 marines 
from Fourth Marine Division have deployed to Djibouti as security 
forces for Joint Task Force Horn of Africa.
    As deployments to Iraq and Afghanistan have reduced the ability of 
the active component to participate in theater engagement exercises, 
Fourth Marine Division has filled the gap. During this past year, 
marines of Fourth Marine Division have conducted exercises in Morocco, 
Kenya, Australia, the Netherlands Antilles, and Brazil. During the 
upcoming year, they will visit Senegal, Mongolia, the Ukraine, Belize, 
Peru, Chile, Ecuador, and Argentina; and will return to Morocco, 
Australia, and the Netherlands Antilles.
    Fourth Marine Aircraft Wing has provided necessary exercise support 
and pre-deployment training as the active component squadrons continued 
supporting deployments to Iraq and Afghanistan. Pre-deployment training 
events such as Mojave Viper and Hawaii Combined Arms Exercise, along 
with bi-lateral exercises Cope Tiger, Foal Eagle, Cobra Gold, Talisman 
Saber and Southern Frontier, have been the foundation upon which our 
Corps prepares for combat. Currently, units from Fourth Marine Aircraft 
Wing are supporting numerous deployments and individual augments for 
the long war. A civil affairs group detachment, provisional security 
detachment and a provisional security company from Marine Air Control 
Group 48 have been mobilized in support of operations in the Horn of 
Africa. Additionally, Marine Wing Support Group 47 has provided an 
engineering detachment and a motor transport detachment in support of 
OIF. Lastly, Marine Transport Squadron Detachment Belle Chasse has 
provided a UC-35 Citation Encore detachment which brings a time-
critical lift capability to the Central Command's area of 
responsibilities.
    From the spring of 2006, the Fourth Marine Logistics Group has 
endeavored to build upon its established history of providing the 
active component with highly skilled, dedicated personnel capable of 
delivering sustained tactical logistics support. During this time 
frame, Fourth Marine Logistics Group contributed over 600 marines and 
sailors from across the spectrum of combat service support for its 
ongoing support of OIF. Included in this population was a large 
dichotomy of occupational specialties to include motor transport, 
landing support, communications, and personnel recovery/processing. In 
addition, Fourth Marine Logistics Group deployed selected individuals 
to serve the commanding officer and nucleus staff for Combat Logistics 
Battalion 5, and to be Chiefs of Staff for the 1st Marine Logistics 
Group, (forward) and (rear). Throughout this period, the marines and 
sailors of the Fourth Marine Logistics Group demonstrated 
responsiveness, flexibility, and an extremely high level of 
professionalism in their seamless integration with the active 
component.
    In addition to ground, aviation, and logistic elements, Marine 
Forces Reserve has provided civil affairs capabilities since the start 
of Operation Iraqi Freedom. Air-Naval Gunfire Liaison Detachments 
(ANGLICO) from Marine Forces Reserve have augmented the supported 
Marine Air Ground Task Forces and adjacent commands with air/ground 
fires liaison elements. Marine Forces Reserve also continues to provide 
intelligence augmentation for Operation Iraqi Freedom, to include human 
exploitation teams, sensor employment teams, and intelligence 
production teams.
    Mobilization command, during the past year, conducted 14 Individual 
Ready Reserve (IRR) administrative musters, screening 6,118 IRR 
marines. Musters were conducted in Phoenix, San Antonio, Marietta, 
Richmond, Baltimore, Brooklyn, Elk Grove, Bellevue, Burlingame, 
Waltham, Newark, Pittsburgh, Miami, and Charlotte. Overall, 
mobilization command updated contact information on over 40,000 IRR 
marines. The Customer Service Center at Mobilization Command answered 
67,300 calls from all marine components, including retirees, dealing 
with disparate issues, while maintaining an average wait time of 28 
seconds per call. The Mobilization Command Maintenance Section performs 
all administrative maintenance on the service records of more than 
60,000 IRR marines with a monthly turnover of approximately 2,100 IRR 
marines. In addition, mobilization command processed 2,643 sets of IRR 
orders that enabled marines to perform missions under active duty 
operational support, Reserve counterpart training, mobilization, 
appropriate and associate duty, and notice of eligibility status.
    Five years into the long war, the Marine Corps Reserve continues to 
serve along side our active component counterparts. Operations Enduring 
Freedom and Iraqi Freedom have required continuous activations of 
Reserve Forces. Moreover, with much of the active component Marine 
Corps below the stated goal of 1:2 dwell ratio, active forces have been 
unavailable to fully support joint and bilateral exercises that are key 
to all regional Combatant Commanders' Theater Security Cooperation 
plans. Consequently, the Marine Corps Reserve has significantly 
increased the level of participation of non-activated units to ensure 
continued Marine Corps support to all regional Combatant Commanders.
    While we continue to support the long war, it is not without a 
cost. Continuing activations and high Reserve operational tempo 
highlights the fact that we have personnel challenges in some areas and 
we are putting additional strain on Reserve equipment. While we remain 
close to achieving our overall end strength goals, we are facing 
critical shortages in high demand/low density military occupational 
specialties as well as in our company grade officers. Equipment 
requirements to support the long war have reduced ``on hand'' equipment 
for training as well as war reserve stocks. As the Marine Corps 
continues to provide warfighting excellence in prosecuting the long 
war, resetting the force is an essential element in sustaining the 
effort.

                            EQUIPMENT STATUS

    The Marine Corps Reserve, like the active component, faces two 
primary equipping challenges: supporting and sustaining our forward 
deployed forces in the long war while simultaneously resetting and 
modernizing the force to prepare for future challenges. Our priorities 
for supporting and sustaining our deployed forces are: First, to 
provide every marine and sailor in a deploying Reserve unit with the 
latest generation of individual combat and protective equipment; 
second, to procure simulation training devices that challenge our 
marines to perform at higher levels and maintain an adaptive training 
environment in preparation for conflict; and third, to provide adequate 
funding to operation and maintenance accounts to sustain training and 
pre-deployment operations. Our priorities in support of resetting and 
modernizing the force include the following: First, to procure 
principal end items necessary to reestablish on hand equipment to the 
level dictated by our training allowance (T/A), which is the amount of 
equipment needed by each unit to conduct home station training; and, 
second, to procure the equipment necessary to maintain our capability 
to augment and reinforce the active component. Modernization efforts 
include the equipping of two new Light Armored Reconnaissance 
Companies, procuring communications equipment shortfalls, and 
adequately funding upgrades to our legacy aircraft.
    As with all we do, our focus is on the individual marine and 
sailor. Our efforts to equip and train this most valued resource have 
resulted in obtaining the latest generation individual combat and 
protective equipment: M4 rifles, Rifle Combat Optic (RCO) scopes, 
helmet pad systems, enhanced Small Arms Protective Insert (SAPI) 
plates, and night vision goggles, to name a few. I am pleased to report 
that every member of Marine Forces Reserve deployed in support of the 
long war is fully equipped with the most current authorized individual 
combat clothing and equipment, and individual protective equipment.
    Deployed unit equipment readiness rates remain high (95 percent). 
Ground equipment readiness (mission capable) rates for non-deployed 
Marine Forces Reserve units average 85 percent based upon training 
allowance. This reduced readiness condition primarily results from 
shortages in home station training allowance equipment due to equipment 
demands in support of the long war. Reserve Force equipment that has 
been sourced to OIF includes communications equipment, crew-served 
weapons, optics, and one Reserve infantry battalion's equipment set. 
These shortages represent an approximate 10 percent readiness shortfall 
across the force for most equipment--more so for certain high demand/
low-density, ``big-box'' type (satellite/long-haul) communication 
equipment sets.
    Reduced supply availability continues to necessitate innovative 
approaches to ensure Reserve Marines can adequately train in 
preparation for deployment, until supplemental funding addresses the 
above issues. Despite ongoing efforts to mitigate shortfalls, delays in 
the procurement timelines and competing priorities for resources will 
continue to challenge the training and equipping of Reserve Forces for 
the long war.
    Your continued support of current budget and procurement-related 
initiatives, such as the President's Budget Submissions, Supplemental 
Requests, and National Guard and Reserve Equipment Appropriations 
(NGREA), will guarantee our ability to properly equip our individual 
marines and sailors. Marine Forces Reserve equipment requirements are 
registered in each Marine Corps President's Budget Request and each 
Supplemental Request as part of the Marine Corps Total Force. In 
addition, we appreciate Congress' continued support of the Marine Corps 
Reserve through NGRE appropriations. Since 2002, NGREA has provided 
$156 million to Marine Forces Reserve. Fiscal year 2007 NGREA 
procurements include tactical command and control communications 
equipment; training simulation systems and devices; and various weapons 
support systems. NGREA has funded almost the entire Marine Forces 
Reserve Simulation Master Plan, enabling the force to obtain Virtual 
Combat Convoy Systems, Indirect Fire Forward Air Control Trainer 
Systems, Medium Tactical Vehicle Replacement Systems, and Deployable 
Virtual Training Environment Systems. Fiscal year 2007 NGREA has also 
funded the following procurements: Logistics Support Wide Area Network 
Packages, Defense Advanced GPS Receivers, Sensor Mobile Monitoring 
Systems, Litening II Targeting Pods and associated modification/
installation kits, KC-130 AN/ARC-210 (V) Multi-Mode Radio Systems, and 
one UC-12 aircraft.

                               FACILITIES

    Marine Forces Reserve is comprised of 184 sites spread across 48 
States, the District of Columbia, and Puerto Rico. Of these sites 32 
are owned, 101 are joint, 47 are tenant, 3 are stand-alone, and 1 is 
leased. Management of these sites requires constant vigilance and 
flexibility in all aspects of facilities operations. Marine Forces 
Reserve remains committed to environmental, natural, and cultural 
resource stewardship. These programs maintain, restore, and improve our 
natural and constructed infrastructure, while preserving the 
environment and historic properties, and protect the health and quality 
of life of our people and nearby communities. We are continually 
reviewing and updating our facilities master plan to ensure all Reserve 
sites are accurately accounted for as to condition and accuracy of 
their readiness status. In accordance with the Marine Corps 
Installation 2020 plan, in order to ensure optimal compliance with 
anti-terrorism and force protection standards and to maximize the 
efficiencies inherent in the sharing of resources between Department of 
Defense (DOD) organizations, we are striving to transition to joint 
sites and locations aboard established military bases by 2020.
    Unlike DOD active component installations, which are often hidden 
from public view behind fences in outlying areas, Reserve facilities 
are often located in the heart of our civilian communities. This 
intimate and dynamic arrangement requires close partnering with State 
and local entities nationwide. As such, the condition and appearance of 
our facilities have a direct effect on the American people's perception 
of the Marine Corps and the Armed Forces in general. In addition to 
impacts on the safety, security and operational capability of the Total 
Force, the condition of Marine Forces Reserve facilities have a direct 
effect on recruitment and retention efforts, especially in attracting 
and retaining highly qualified, loyal Americans. Perception is 
everything. Quality facilities attract quality people.
    Marine Forces Reserve Facilities Sustainment, Restoration, and 
Modernization (FSRM) program funding levels continue to address 
immediate maintenance requirements and longer term improvements to our 
older facilities. Sustainment funding has allowed us to maintain our 
current level of facility readiness without further facility 
degradation. Restoration and Modernization (R&M) funding continues to 
be a challenge, due to its current $16.5 million backlog across the 
Future Years Defense Plan (FYDP) and an overall backlog of $52.6 
million. Currently, 12 of our 32 owned sites are rated C-3 or C-4 under 
the Commanding Officer's Readiness Reporting System (CORRS) for 
facilities. The fiscal year 2008 budget, if approved, will provide 
programmed upgrades for eight sites to C-2 or better, with all sites 
meeting C-2 or better by fiscal year 2010. However, it should be noted 
that POM 2008 does not address the reported backlog created by prior 
years funding shortfalls. To mitigate, we continue to apply internal 
savings to address R&M projects at the end of each fiscal year.
    The movement of FSRM funding into a new ``fenced'' appropriation 
would prevent Marine Forces Reserve's ability to ``buy back'' the 
significant sustainment and R&M backlog from internal savings. This 
would result in an additional increase to the FSRM backlog over the 
Future Years Defense Plan and jeopardize our ability to meet the C-2 or 
better CORRS rating for quality by 2010 as mandated by OSD. 
Additionally, the pending sale of the former Marine Corps Reserve 
Center in San Juan, Puerto Rico will potentially provide funding to 
address nearly 50 percent of the R&M shortfall. As a result of this 
sale, a significant improvement in overall facilities readiness is 
anticipated. Use of Real Property Exchanges (RPX), and other similar 
laws, will be invaluable tools toward addressing shortfalls and 
emerging requirements. Continued support for the FSRM program is 
essential. Funding shortfalls will rapidly result in degradation of 
facilities readiness, jeopardizing the safety and health of our 
marines.
    The Military Construction, Navy Reserve (MCNR) program, including 
Marine Corps exclusive and Navy led projects, is addressing critical 
needs for new facilities to replace older buildings and accommodate 
changes in Marine Corps Reserve force structure. The President's 
proposed fiscal year 2008 budget contains $28.8 million for military 
construction and $829,000 in planning and design funding. Congressional 
approval of this budget provides a new Marine Corps Reserve Center in 
Dayton, Ohio; the Marine Corps share of a new Armed Forces Reserve 
Center in Austin, Texas; Reserve Center additions in Miramar, 
California and Quantico, Virginia; and a new vehicle maintenance 
facility in Selfridge, Michigan. The MCNR program, combined with a 
strong FSRM program, is essential to addressing the aging 
infrastructure of the Marine Corps Reserve. With more than 50 percent 
of our Reserve Centers over 40 years old and 35 percent over 50 years 
old, support for both MCNR and FSRM cannot be overstated.
    The Base Realignment and Closure (BRAC) 2005 is an area of 
increasing concern due to the reduction in fiscal year 2007 funding for 
BRAC military construction projects. The impacts of this reduction (50 
plus percent of the requested Department of the Navy appropriations) 
are still being analyzed. Another concern to the Marine Corps Reserve 
is the secondary impact to our Reserve Centers that are part of Army 
and Navy BRAC actions. Of the 25 BRAC actions for the Marine Corps 
Reserve, 21 are in conjunction with Army and Navy military construction 
projects, reflecting Office of the Secretary of Defense (OSD) policies 
toward shared Joint Reserve Centers. As a result, any funding 
shortfalls experienced by these two services will also negatively 
impact the Marine Corps Reserve. If we continue to operate under the 
Continuing Resolution Authority at fiscal year 2006 funding levels, 
there will not be sufficient funding for fiscal year 2007 and shifted 
impact for fiscal year 2008 military construction projects. The 
ramification is that Marine Forces Reserve will be forced to shift 
projects further into the out years, thus affecting the FSRM budget and 
possibly the MCNR program as well. Though the 2007 Joint Funding 
Resolution may address some of these shortfalls, restoration of funding 
for the entire BRAC program is essential to meeting the statutory 
requirements of the 2005 BRAC Law, within the designated timeframe.

                                TRAINING

    Thus far during the long war, several Marine Corps Reserve units 
have been activated to perform ``in lieu of'' missions. Employment of 
units for missions ``in lieu of'' their primary mission has degraded 
their capability to perform their primary mission. For example, as of 
the summer 2007, all of our artillery batteries will have been 
activated at least once, however, most will have performed Military 
Police duties. A unit will not train to primary mission standards 
during assignment as an ``in lieu of'' force. While ``every marine is a 
rifleman'' and many of the individual combat skills are common to all, 
primary mission occupational specialty and unit training are also 
required. Consequently, employing units as ``in lieu of'' forces 
degrades unit readiness to perform primary missions.
    We continue to capitalize on advances in technology to enhance our 
training and mitigate the downside of performing ``in lieu of'' 
missions. Marine Forces Reserve's ambitious simulation program provides 
realistic training to increase effectiveness of our units and 
survivability of our marines. Simulation capabilities include the 
Virtual Combat Convoy Trainers and Combat Vehicle Training Systems that 
provide training for the M1A1 Main Battle Tank, Assault Amphibian 
Vehicle, and the Light Armored Vehicle. The Virtual Combat Convoy 
Trainer (VCCT) provides tactical training in simulated up-armored High 
Mobility Multi-purpose Wheeled Vehicles (HMMWVs) armed with .50 caliber 
machineguns. The Virtual Combat Convoy Trainer has been vital to the 
pre-deployment training of tactical drivers, who will be operating on 
the most dangerous roads in the world. The VCCT allows the most 
effective training to occur for both drivers and teams. A byproduct of 
utilizing the VCCT is a requirement for a reduced number of CONUS-based 
vehicles designated for training. The Virtual Combat Convoy Trainer 
also allows us to reach our current relatively-high equipment readiness 
rates by reducing maintenance man-hours and parts costs in one area and 
using the resources in other areas. The same holds true for the 
simulators for our family of armored vehicles; quality, realistic 
training is provided while allowing the reallocation of both the time 
for training and maintenance money to other units. In the next year, we 
will be procuring the Indirect Fire--Forward Air Control Trainer to 
provide realistic call-for-fire training at a reduced cost, allowing 
the reallocation of both ammunition and flight hours to increase 
training levels. With your continued support, we will expand our 
simulation programs to also include additional individual weapons and 
vehicle operator trainers, and begin procurement of combined arms 
trainers.

                          PERSONNEL READINESS

    Like the active component, Marine Corps Reserve units primarily 
rely upon a first term enlisted force. Currently, the Marine Corps 
Reserve continues to recruit and retain quality men and women willing 
to manage commitments to their families, their communities, their 
civilian careers, and their Corps. Despite high operational tempo, the 
morale and patriotic spirit of Reserve Marines, their families, and 
employers remain extraordinarily high.
    In fiscal year 2006, the Marine Corps Reserve achieved 100 percent 
of its recruiting goal for non-prior service recruiting (5,880) and 
exceeded its goal for prior service recruiting (3,165). Our Selected 
Reserve population is comprised of Reserve Unit Marines, Active Reserve 
Marines, Individual Mobilization Augmentees, and Reserve Marines in the 
training pipeline. An additional 60,000 marines are included in our 
Individual Ready Reserve, representing a significant pool of trained 
and experienced prior service manpower. Currently, the forecasted 
Selected Reserve end strength for fiscal year 2007 is 39,362, within 
the plus/minus 2 percent limit authorized by Congress. Realizing that 
deployments take a toll on active component marines, causing some to 
transition from active duty because of high personnel tempo, in June 
2006 we instituted the Selected Marine Corps Reserve Affiliation 
Involuntary Activation Deferment policy. This program allows a marine 
who has recently deployed an option for a 2-year deferment from 
involuntary activation if they join a Selected Marine Corps Reserve 
unit. The intent of the 2-year involuntary deferment is to encourage 
good marines to participate and still maintain breathing room to build 
a new civilian career.
    I do anticipate greater numbers of marines from the Reserve 
component will volunteer for full-time active duty with the active 
component throughout fiscal year 2007, as they take advantage of new 
incentives aimed at encouraging marines to return to active duty. These 
incentives support our plan to bolster active component end strength. 
The fact is we need good marines to serve longer, either active or 
Reserve. Our focus is to provide an environment that attracts and 
retains dedicated, high performing individuals. We are developing 
several incentives for enlisted marines to stay in the Selected Marine 
Corps Reserve. A first step will be increasing the initial 3 year re-
enlistment bonus from the current $2,500 level to the maximum allowed 
$7,500. The subsequent re-enlistment bonus will increase from the 
current $2,000 to the maximum allowed $6,000.
    Junior officer recruiting remains the most challenging area. At the 
beginning of fiscal year 2007, the Marine Corps modified an existing 
program and implemented two new Reserve officer commissioning programs 
in order to increase the number of company grade officers within 
deploying Reserve units and address our overall shortage of junior 
officers in our Reserve units. Eligibility for the Reserve Enlisted 
Commissioning Program was expanded to qualified active duty enlisted 
marines. The Meritorious Commissioning Program--Reserve was established 
for qualified enlisted marines, Reserve and active, who possess an 
Associates Degree or equivalent number of semester hours. We are 
expanding Reserve commissioning opportunities for our prior-enlisted 
marines in order to grow some of our own officers from Marine Forces 
Reserve units and are exploring other methods to increase the accession 
and participation of company grade officers in the Selective Marine 
Corps Reserve. Through these initiatives, we estimate that we will fill 
90 percent of our company grade officer billets by the end of fiscal 
year 2011. When coupled with the continued use of the Selected Reserve 
officer affiliation bonus authorized in the fiscal year 2007 National 
Defense Authorization Act, we believe we have the tools necessary to 
sustain robust, ready Selected Marine Corps Reserve units for the long 
war.

                     PREDICTABILITY FOR THE FUTURE

    As we position ourselves for the long war, we recognize the 
challenges facing the individual Reserve Marine who is striving to 
strike a balance between family, civilian career, and service to 
community as well as country and Corps. The most difficult challenge 
thus far has been to provide our individual Marine Reservists with the 
predictability needed to incorporate activations and deployments into 
their long-term life planning. To provide predictability, we have 
developed an integrated Total Force Generation Model that lays out a 
future activation and deployment schedule for marine units. The model 
is based on 1-year activation and includes a 7-month deployment 
(standard for battalion-sized marine units and smaller), followed by at 
least 4 years in a normal drill status. The model provides for 
approximately 6,000 Reserve Marines on active duty at any one time 
(3,000 deployed and 3,000 preparing to deploy or returning from 
deployment). The Total Force Generation Model provides the individual 
marine with the confidence to plan for the future; whether going to 
school, building a civilian career, or making major family decisions. 
Furthermore, the predictability of the model serves as a tool to assist 
in recruiting and retaining quality marines. This is particularly true 
in recruiting company grade officers and junior staff non-commissioned 
officers who are transitioning from active duty and are attempting to 
establish civilian careers, but still have a strong desire to serve 
Corps and country.
    The Force Generation Model also assists Service and Joint Force 
planners. It ensures a consistent flow of manned, equipped, trained, 
and ready Selected Marine Corps Reserve units to support future 
operations in the long war. Providing a predictable Reserve force 
package will also help our active component come closer to achieving 
their stated goal of 1:2 dwell time. The 1 year activation to 4 plus 
years in a non-activated status is both supportable and sustainable. We 
will begin implementing the model during the summer of 2007. As force 
structure increases we will be able to move toward a 1:5 dwell time for 
the Reserve component.

                            QUALITY OF LIFE

    Our future success will continue to rely on your Marine Corps' most 
valuable asset--our marines and their families. We believe that it is 
our obligation to prepare our marines and their families with as much 
information as possible on family readiness and support programs and 
resources available to them.
    Marine Forces Reserve Lifelong Learning Program (MFR LLL) is 
responsible for providing educational information to service members, 
families, retirees, and civilian employees. The majority of the 
educational programs offered are for active duty service members and 
these include United Services Military Apprenticeship Program (USMAP), 
Military Academic Skills Program (MASP), Defense Activity for Non-
Traditional Education Support (DANTES), and Tuition Assistance (TA).
    More than 1,800 Marine Forces Reserve Active Duty (AD), Active 
Reserve (AR), Active Duty Special Work (ADSW), and Mobilized Reserve 
Marines chose to use tuition assistance in fiscal year 2006 in order to 
help finance their education. Tuition assistance paid out in fiscal 
year 2006 totaled more than $4.5 million, funding more than 4,500 
courses. Many of the marines using tuition assistance were deployed to 
Iraq, and took their courses via distance learning. In this way, 
tuition assistance helped to mitigate the financial burden of education 
and marines were able to maintain progress toward their education 
goals.
    Marines and their families are often forced to make difficult 
choices in selecting child care, before, during, and after a marines' 
deployment in support of the long war. The Marine Corps has partnered 
with the Boys and Girls Clubs of America (BGCA) and the National 
Association for Child Care Resources and Referral Agencies (NACCRRA) to 
assist service members and their families. BGCA provides outstanding 
programs for our Reserve Marines' children between the ages of 6 and 18 
after school and on the weekends. Under our agreement with BGCA, 
Reserve families can participate in more than 40 programs at no cost. 
With NACCRRA, we help families of our Reserve Marines locate affordable 
child care that is comparable to high-quality, on-base, military-
operated programs. NACCRRA provides child care subsidies at quality 
child care providers for Reserve Marines deployed in support of the 
long war and for those active duty marines who are stationed in regions 
that are geographically separated from military installations that have 
child care support. We have also partnered with the Early Head Start 
National Resource Center Zero to Three to expand services in support of 
family members of Reservists in isolated and geographically separated 
areas.
    We fully recognize the strategic role our families have in mission 
readiness, particularly mobilization preparedness. We prepare our 
families for day-to-day military life and the deployment cycle (Pre-
Deployment, Deployment, Post-Deployment, and Follow-On) by providing 
educational opportunities at unit family days, pre-deployment briefs, 
return and reunion briefs, post-deployment briefs and through programs 
such as the Key Volunteer Network (KVN) and Lifestyle Insights, 
Networking, Knowledge, and Skills (L.I.N.K.S.). Every Marine Corps 
Reserve unit throughout the country has a KVN program. The KVN is a 
volunteer-based program that serves as the link between the command and 
family members, providing official communication, information, and 
referrals. The KVN provides a means of proactively educating families 
on the military lifestyle and benefits, provides answers for individual 
questions and areas of concerns, and enhances the sense of community 
and camaraderie within the unit.
    These programs play fundamental roles in supporting marine spouses 
and families. L.I.N.K.S. is a training and mentoring program designed 
by marine spouses to help new spouses thrive in the military lifestyle 
and adapt to challenges--including those brought about by deployments. 
Online and CD-ROM versions of L.I.N.K.S make this valuable tool more 
readily accessible to families of Reserve Marines not located near 
Marine Corps installations. We have recently updated and streamlined 
our L.I.N.K.S and KVN training guides to more appropriately address the 
challenges of remote access.
    To better prepare our marines and their families for activation, 
Marine Forces Reserve has developed a proactive approach to provide 
numerous resources and services throughout the deployment cycle. 
Available resources include, but are not limited to, family-related 
publications, on-line volunteer training opportunities, and a family 
readiness/mobilization support toll free number. Services such as 
pastoral care, MCCS One Source, and various mental health services are 
readily available to our Reserve Marines' families.
    Managed Health Network (MHN) is an OSD-contracted support resource 
that provides surge augmentation counselors for our base counseling 
centers and primary support at sites around the country to address 
catastrophic requirements. This unique program is designed to bring 
counselors on-site at reserve training centers to support all phases of 
the deployment cycle. Marine Forces Reserve is incorporating this 
resource into family days, pre-deployment briefs, and return and 
reunion briefs. Follow-up services are scheduled after marines return 
from combat at various intervals to facilitate on-site individual and 
group counseling.
    The Peacetime/Wartime Support Team and the support structure within 
the Inspector-Instructor staffs provide families of activated and 
deployed marines with assistance in developing proactive, prevention-
oriented steps such as family care plans, powers of attorney, family 
financial planning, and enrollment in the dependent eligibility and 
enrollment reporting system. During their homecoming, our marines who 
have deployed consistently cite the positive importance of family 
support programs.
    To strengthen family support programs, we will continue to enhance, 
market, and sustain outreach capabilities. We believe current OSD-level 
oversight, sponsorship, and funding of family support programs properly 
correspond to current requirements. We are particularly supportive of 
Military One Source. Military One Source provides marines and their 
families with an around-the-clock information and referral service via 
toll-free telephone and Internet access for a variety of subjects such 
as parenting, childcare, education, finances, legal issues, elder care, 
health, wellness, deployment, crisis support, and relocation.
    The mission readiness of our Marine Corps Reserve is directly 
impacted by the preparedness of our families--a 24/7 requirement. It is 
imperative that we continue to provide our families robust educational 
opportunities and support services.

               EMPLOYER SUPPORT OF THE GUARD AND RESERVE

    Marine Forces Reserve is acutely aware of the importance of a good 
relationship with the employers of our Reserve Marines. We fully 
support all the initiatives of the ESGR and have been proactive in 
providing the information to our Reserve Marines on the Secretary of 
Defense Employer Support Freedom Awards. This is an excellent way to 
praise the employers that give that extra support to our men and women 
who go into harm's way.

                               CONCLUSION

    As our Commandant has said, ``Our marines and sailors in combat are 
our number one priority.'' Our outstanding young men and women in 
uniform are our greatest asset. Your Marine Corps Reserve has 
consistently met every challenge placed before it. We fight side by 
side with our active counterparts. Your consistent and steadfast 
support of our marines and their families has directly contributed to 
our successes.
    As I've said in past testimony, appearing before congressional 
committees and subcommittees is a great pleasure, as it allows me the 
opportunity to let the American people know what an outstanding 
patriotic group of citizens we have in the Marine Corps Reserve. Thank 
you for your continued support. Semper Fidelis!

    Senator Inouye. May I call upon General Bradley?

STATEMENT OF LIEUTENANT GENERAL JOHN A. BRADLEY, CHIEF, 
            AIR FORCE RESERVE
    General Bradley. Chairman Inouye, Senator Stevens, thank 
you very much for having this hearing today. Thank you for the 
many years of continued support you've given us. Our 76,000 Air 
Force Reserve airmen, who are a vital part of our Air Force are 
proud to serve. They continue to stay with us. Our recruiting 
and retention has been strong. We will face some challenges in 
the future. They continue to serve as our Air Force has 
conducted combat operations for over 16 years.
    Our Air Force Chief of Staff General Moseley and our 
Secretary of the Air Force, Secretary Wynne, both very much 
believe in our efforts, the Air Force Reserve and our Air 
National Guard and they want us involved in every part of every 
mission our Air Force conducts. So we're proud to work for 
leaders who believe in us and want to use us and our airmen are 
proud to be part of an operational Reserve.
    The support that you've given us through your normal 
appropriations and the National Guard and Reserve equipment 
account have helped us immeasurably improve combat capability 
and take care of our airmen as they are employed in combat 
operations. Every dollar you give us in that very important 
account, I can tell you in great detail, if you want, how those 
funds contributed to greater combat capability that helped 
soldiers and marines on the ground in Iraq and Afghanistan 
every day and I thank you for that support and I ask that you 
continue to help us in that regard because we need to continue 
to modernize our fleet of aircraft so that we can continue to 
provide the right kind of close air support for those soldiers 
and marines.
    Thank you very much again for all the support you've given 
us over the years and I look forward to your questions.
    [The statement follows:]

             Prepared Statement of General John A. Bradley

    Mr. Chairman, and distinguished members of the committee, I 
appreciate the opportunity to appear before you today and I certainly 
want to thank you for your continued support of the Air Force Reserve. 
Today our country depends on the Reserve components to an extent 
unprecedented in history. The men and women of the Air Force Reserve 
are making a significant impact to the joint warfighting capability of 
our Nation's defense. The Air Force Reserve is proud to say we stand 
shoulder-to-shoulder with our Total Force partners as we jointly 
execute the global war on terror (GWOT).
    For over 16 years the Air Force has been engaged in combat and the 
Air Force Reserve has been an integral part of our Nation's combat 
efforts. Our participation has demanded sacrifices on the part of our 
families, employers and reservists themselves yet we remain dedicated 
and committed to the same priorities as the Regular Air Force: winning 
the GWOT; developing and caring for our airmen; and recapitalizing and 
modernizing our aging aircraft and equipment.
    As we fight the war on terrorism and implement our transformation 
initiatives we are faced with challenges that could adversely impact 
our overall combat capability. While we are ready today, I stress to 
you the urgent need to ensure we continue to be so. Readiness is the 
strong suit of the total Air Force and it is critical to ensure our 
combat capability is preserved during our transformational efforts and 
recapitalization of our fleets.

                       GWOT MISSION CONTRIBUTIONS

    I am proud to say your Air Force Reserve is playing a vital role in 
the GWOT. We have flown over 104,850 sorties logging more than 448,202 
hours of flying time all in support of the GWOT. The command supported 
the GWOT in most weapons systems, with crews both mobilized and 
performing volunteer tours. Our C-130 units maximized their 
mobilization authority, with the final units demobilizing at the end of 
fiscal year 2006. They continue to support the war effort in volunteer 
status, having already participated in the area of responsibility (AOR) 
a year longer than originally requested or envisioned. Our strategic 
airlift community stepped up with large numbers of volunteers providing 
essential support to the Combatant Commanders. In August 2006, we had 
100 C-17 and C-S crews on long term active duty orders in support of 
the GWOT. Twenty-two Reserve KC-10 crews have been on active duty 
orders supporting the airbridge and other aerial refueling 
requirements. Our Reserve A-10s have also been very heavily involved in 
AOR deployments. Although Base Realignment and Closure Commission 
(BRAC) and Total Force Integration changes across the command disrupt 
our reservists' daily lives, the Air Force Reserve remains a strong 
partner in the Total Force, and will be until the job is done.

                  DEVELOPING AND CARING FOR OUR AIRMEN

    The backbone of the Air Force Reserve is our people because they 
enable our mission accomplishment. These citizen airmen comprised of 
traditional unit reservists, individual mobilization augmentees (IMAs), 
air reserve technicians (ARTs), active guard and reserve (AGRs) and 
civilians continue to dedicate themselves to protecting the freedoms 
and security of the American people. The operations tempo to meet the 
requirements of the Combatant Commanders remains high and is not 
expected to decline significantly in the near future. The coming years 
bring increased opportunities and greater challenges for our dedicated 
airmen. The implementation of BRAC, Total Force Integration, and 
personnel cuts directed in the Air Force Transformation Flight Plan, 
may all have a negative impact on our recruiting and retention. Finding 
airmen to fill our ranks may become increasingly challenging as we 
implement these initiatives. Similarly, retaining our highly trained 
citizen airmen will become more critical than ever.

              OUR PEOPLE: MOBILIZATION VERSUS VOLUNTEERISM

    Our reservists participate in the full spectrum of operations 
around the world at unprecedented rates. A key metric that reflects the 
operations tempo is the number of days our Reserve aircrew members 
perform military duty. The average number of duty days our aircrew 
members serve has increased three-fold since the beginning of the GWOT.
    Having maximized the use of the President's Partial Mobilization 
Authority in some mission areas, the Air Force Reserve relies more 
heavily on volunteerism versus significant additional mobilization to 
meet the continuing Air Force requirements. Several critical 
operational units and military functional areas must have volunteers to 
meet ongoing mission requirements because they have completed their 24-
month mobilization authority. These include C-130, MC-130, B-52, HH-60, 
HC-130, E-3 AWACS, and Security Forces. During calendar year (CY) 2006, 
the Air Force Reserve had 2,702 mobilizations and another 9,866 
volunteer tours. As calendar year 2006 closed, the Air Force Reserve 
had 388 reservists mobilized and 2,308 volunteers supporting the GWOT. 
We expect this mix to become increasingly volunteer-based as combat 
operations continue.
    The key to increasing volunteerism and enabling us to bring more to 
the fight is flexibility. To eliminate barriers to volunteerism, the 
Air Force Reserve has several ongoing initiatives to better match 
volunteers' desires and skill sets to the Combatant Commanders mission 
requirements. We must have the core capability to always match the 
right person to the right job at the right time. Reservists must 
balance the needs of their civilian employers, their families, and 
their obligation to the military. We are incredibly fortunate to have 
reservists who continue to volunteer and who put on the uniform for 
months at a time. Facilitating the reservists' ability to volunteer 
provides more control for the military member, their family, employer 
and commander. In turn, this predictability allows more advanced 
planning, lessens disruptions, and ultimately, enables more volunteer 
opportunities.

                      BASE REALIGNMENT AND CLOSURE

    The 2005 BRAC had a significant impact to the Air Force Reserve. 
BRAC directed the realignment of seven wings and the closure of one 
wing, General Billy Mitchell Field, Milwaukee, Wisconsin. To our 
Reserve airmen, a base realignment, in many cases, is essentially a 
closure. When BRAC recommended the realignment of our wing at Naval Air 
Station New Orleans, our airplanes were distributed to Barksdale AFB, 
Louisiana and Whiteman AFB, Missouri, while the Expeditionary Combat 
Support was sent to Buckley AFB, Colorado. In another example, BRAC 
recommended realigning our wing at Selfridge ANGB, Michigan and directs 
the manpower be moved to MacDill AFB, Florida to associate with the 
Regular Air Force. The commute from New Orleans to Denver and Selfridge 
to Tampa are challenging for even the most dedicated reservist, 
considering we do not have the authority to PCS (permanent change of 
station) personnel or pay for IDT (inactive duty training) travel. 
These are just a few examples of how base realignments impact our 
reservists. In the post-BRAC environment, we continually strive to 
retain the experience of our highly trained personnel. We are working 
closely with the Air Force and the Office of the Secretary of Defense 
on initiatives which encourage those impacted by BRAC decisions to 
continue serving their Nation.

              NEW MISSION AREAS (TOTAL FORCE INTEGRATION)

    Sharing the tip of the total force integration spear, our focus is 
on maximizing warfighter effects by taking on new and emerging missions 
that are consistent with Reserve participation. Reachback capabilities 
enable Reserve forces to train for and execute operational missions 
supporting the Combatant Commander from home station. In many cases, 
this eliminates the need for deployments. The associate unit construct 
will see growth in emerging operational missions such as: Unmanned 
Aerial Systems, Space and Information Operations, Air Operations 
Centers, Battlefield Airmen and Contingency Response Groups. The 
Active/Air Reserve components mix must keep pace with emerging missions 
to allow the Air Force to continue operating seamlessly as a Total 
Force. This concurrent development will provide greater efficiency in 
peacetime and increased capability in wartime.
    The Air Force Reserve continues to transform into a full spectrum 
force for the 21st century by integrating across all roles and missions 
throughout the Air, Space and Cyberspace domains. Our roles and 
missions are mirror images of the regular component. These new mission 
areas provide additional opportunities for our reservists to bring 
their expertise to the warfighting effort. Bringing Air Force front 
line weapon systems to the Reserve allows force unification at both the 
strategic and tactical levels and builds flexibility for a more vibrant 
and viable Air Force team--we train together, work together, and fight 
together; and that's the way it should be.

                       SHAPING THE RESERVE FORCE

    As an equal partner developing the Air Force Transformation Flight 
Plan, the Air Force Reserve plans to realign resources to transform to 
a more lethal, more agile, streamlined force with increased emphasis on 
the warfighter. In this process, we are eliminating redundancies and 
streamlining organizations, creating a more capable force of military, 
civilians, and contractors while freeing up resources for Total Force 
recapitalization.
    The Air Force Reserve programmed a reduction of nearly 7,700 
manpower authorizations beginning in fiscal year 2008. These actions 
affect all categories of Air Force Reservists; IMAs, TRs, ARTs, AGRs 
and civilians. Over the fiscal year defense program the Air Force 
Reserve is planning a reduction from 74,900 authorized personnel in 
fiscal year 2007 to an end strength of 67,800 personnel at the end of 
fiscal year 2011.
    While the Air Force Transformation Flight Plan directed manpower 
reductions, the Air Force Reserve was given latitude to take these 
reductions in a way that minimizes the impact to our wartime mission. 
Where mission requirements still exist, the experience of our 
reservists will be maintained by transitioning members from the 
Selected Reserve into the Participating Individual Ready Reserve.

                        RECRUITING AND RETENTION

    The Air Force Reserve met its recruiting, retention, and end-
strength goals in fiscal year 2006 and is on track to meet all these 
same goals in fiscal year 2007. I am proud of the fact our reservists 
contribute directly to the warfighting effort every day. When our 
Reserve airmen engage in operations that employ their skills and 
training, there is a sense of reward and satisfaction that is not 
quantifiable. I attribute much of the success of our recruiting and 
retention to the meaningful participation of our airmen.
    That being said, the 10-percent reduction in personnel planned over 
the future years defense program (FYDP), coupled with the impact of 
BRAC initiatives, may present significant future recruiting and 
retention challenges for the Air Force Reserve. With personnel 
reductions beginning in fiscal year 2008 and the realignment and 
closure of Reserve installations due to BRAC and Total Force 
Integration, approximately 20 percent of our force will be directly 
impacted through new and emerging missions, and mission adjustments to 
satisfy Air Force requirements. With the Regular Air Force personnel 
reductions already underway, there is an even smaller active force from 
which to draw qualified recruits. In light of all these changes, we 
expect the recruiting and retention environment will be turbulent, 
dynamic and challenging.
    Unlike the Regular Air Force, the Air Force Reserve does not have 
an assignment capability with command-leveling mechanisms that assist 
in the smooth transition of forces from drawdown organizations into 
expanding organizations. In drawdown organizations, our focus is on 
maintaining mission capability until the last day of operations, while 
also retaining as much of the force as possible and placing them in 
other Air Force Reserve organizations. To accomplish this, we need to 
employ force management initiatives that provide our affected units 
with options to retain our highly trained personnel.
    This contrasts greatly with organizations gaining new missions and/
or authorizations. It's important to remember, absent a pipeline 
assignment system, our citizen airmen are primarily a local force, 
living and working in the local community. Air Force Reserve Command 
must now recruit in new locations and for new missions, effectively 
increasing our recruiting requirements. We may face recruiting 
challenges, particularly when considering the availability of 
adequately qualified and trained personnel. As has always been the 
case, we will focus on maximizing prior service accessions. Regular Air 
Force reductions over the fiscal year defense program may provide some 
benefit to our recruiting efforts, but will not be the complete answer, 
since the Regular Air Force critical skills shortages closely match 
those in the Reserve. ``Other prior service'' individuals accessed by 
the Reserve will inevitably require extensive retraining which is 
costly. The bottom line is retaining highly trained individuals is 
paramount. Since 1993, Air Force prior service accessions have 
decreased 32 percent across the board. Only 9.5 percent of the officers 
departing the Regular Air Force join the Air Force Reserve, and of 
those, only 2.7 percent continue service to retirement. Retention must 
be considered from a total force perspective, and any force drawdown 
incentives should include Selected Reserve participation as a viable 
option. It is imperative legislation does not include any language that 
provides a disincentive to Reserve component affiliation. Likewise, any 
legislation regarding separation should encourage or incentivize 
continued active participation in the Reserve components. Experience is 
the strength of the Air Force Reserve, and recruiting and retaining our 
experienced members is the best investment the country can make because 
it ensures a force that is ready, and able to go to war at any time.

    RECAPITALIZING AND MODERNIZING OUR AGING AIRCRAFT AND EQUIPMENT

    The Air Force Reserve stands in total support of Secretary Wynne 
and General Moseley in their efforts to recapitalize and modernize our 
fleet. Weapon systems such as the KC-X, CSAR-X, Space Based Early 
Warning and Communications Satellites and Spacecraft, F-35 Lightning 
II, and the Next Generation Long Range Strike are critical to secure 
the advantage essential to combating future threats. The Air Force 
Reserve will directly benefit from this modernization since in many 
cases we fly the same equipment.
    The Air Force Reserve is assuming risk in Depot Programmed 
Equipment Maintenance (DPEM). Funding for DPEM in fiscal year 2008 is 
81 percent of total requirements, a level determined in coordination 
with the Air Force to be an acceptable level of risk. At this funding 
level, the anticipated impact is in the deferral of Programmed Depot 
Maintenance (PDM) for 9 aircraft and 14 engines.

                         ONE TIER OF READINESS

    We in the Air Force Reserve pride ourselves on our ability to 
respond to any global crisis within 72 hours. In many cases, including 
our response to natural disasters, we respond within 24 hours. We train 
our Selected Reserve to the same standards as the active duty for a 
reason; we are one Air Force in the same fight. A single level of 
readiness in the Selected Reserve enables us to seamlessly operate 
side-by-side with the Regular Air Force and Air National Guard in the 
full spectrum of combat operations. As an equal partner in day-to-day 
combat operations, it is critical we remain ready, resourced, and 
relevant.

         FISCAL YEAR 2007 NATIONAL GUARD AND RESERVE EQUIPMENT

    For the Air Force Reserve, the National Guard and Reserve Equipment 
Account (NGREA) is the lifeblood of our Reserve modernization. I 
appreciate the support provided in the 2007 NGREA. The money you 
provide makes a difference; increasing the capability and safety of our 
airmen, and ultimately the security of our Nation. The fact is Air 
Force Reserve NGREA procurement strategy fulfills shortfall equipment 
requirements. The items we purchase with NGREA are prioritized from the 
airmen in the field up to the Air Force Reserve Command Headquarters 
and vetted through the Air Staff. The cornerstone is innovation and the 
foundation is capabilities-based and has been for many years.
    I am grateful for the National Guard and Reserve Equipment Account 
because it enables us to remain relevant to the fight. It is absolutely 
essential to the modernization of our weapon systems. In fiscal year 
2007, we received a total of $35 million in NGREA appropriations. A 
portion of those dollars is being used to modify all of our A-10 
aircraft, enabling smart weapons employment and dramatically improving 
the precision with which we provide close air support to our joint and 
coalition partners. Another portion of NGREA is being used to procure 
defensive systems for nine of our C-5A aircraft, providing much needed 
protection from infrared threats and increasing the safety and security 
of our strategic airlift crews. These are just a few examples of how 
NGREA is helping us modernize our weapon systems during fiscal year 
2007.
    While NGREA dollars enable us to modernize our critical warfighting 
equipment, the challenge is the $35 million in NGREA in 2007 only 
allows for 4.8 percent of our planned modernization. I genuinely 
appreciate the appropriation because we put every dollar received 
toward combat capability. Continued congressional support is critical 
to ensure we can modernize our force with the necessary upgrades and 
retain the technological edge we've enjoyed in the past.

           TRANSFORMING AND MODERNIZING THE AIR FORCE RESERVE

    Equipment modernization is our key to readiness. The Air Force is 
transitioning to a capabilities-based force structure and the 
combination of aging and heavily used equipment requires across-the-
board recapitalization. The United States military is increasingly 
dependent on the Reserve to conduct operational and support missions 
around the globe. Effective modernization of Reserve assets is vital to 
remaining a relevant and capable combat ready force. The Air Force 
recognizes this fact and has made significant improvement in 
modernizing and equipping the Reserve, yet the reality of fiscal 
constraints still results in accepting risk in our modernization and 
equipage programs. Funding our modernization enhances availability, 
reliability, maintainability, and sustainability of aircraft weapon 
systems and strengthens our ability to ensure the success of our 
warfighting commanders while laying the foundation for tomorrow's 
readiness.

                             RECONSTITUTION

    With a much higher operations tempo over the past 5 years, our 
equipment is aging and wearing out at much faster than projected rates. 
Reconstitution planning is a process to restore units to their full 
combat capability in a short period of time. The GWOT is having a 
significant and long-term impact on the readiness of our Air Force 
Reserve units to train personnel and conduct missions. The goal must be 
to bring our people and equipment back up to full warfighting 
capability.
    The rotational nature of our units precludes shipping equipment and 
vehicles back and forth due to cost and time-constraints, therefore, 
equipment is left in the AOR to allow quick transition of personnel and 
mission effectiveness. However, this impacts the readiness of our 
forces, which return to the United States without the same equipment 
they deployed with. We continue to address these equipment shortfalls 
with the help of the Air Force, the administration, and Congress, but 
challenges remain.
    Investments in new missions and other higher priorities continue to 
impact our ability to recapitalize our built infrastructure. Our 
recapitalization rate over the fiscal year defense program averages 151 
years, falling far short of the 67-year goal. Our $194 million MILCON 
fiscal year defense program includes $22 million in recapitalization 
projects, the remaining dedicated to new missions or correcting 
existing deficiencies. Further challenging our ability to meet mission 
needs are potential shortfalls in BRAC funding; further delays in BRAC 
facility funding may jeopardize our ability to meet statutory deadlines 
for BRAC execution.

                                CLOSING

    On behalf of all Air Force reservists, I thank you for your 
continued interest and strong support of our readiness and combat 
capability. The Air Force Reserve is facing the challenges of the GWOT, 
BRAC, the Air Force Transformation Flight Plan, recapitalization, and 
modernization head on. While we maintain our heritage of providing a 
strategic reserve capability, today and into the future we are your 
operational warfighting Reserve, bringing a lethal, agile, combat 
hardened and ready force to the Combatant Commanders in the daily 
execution of the long war. We are immensely proud of the fact we 
provide the world's best mutual support to the United States Air Force 
and our joint warfighting partners.

    Senator Inouye. Thank you very much. I have a few general 
questions. The record will be kept open. If we may, we'd like 
to submit questions to you. We realize you have some other 
commitments this afternoon.
    I know you cannot answer this but I hope you are clear 
about your support for psychologists or psychiatrists. During 
World War II and thereafter, I don't recall seeing any one of 
my comrades in World War II suffer from symptoms of post-
traumatic stress syndrome. In fact, I don't think the word 
was--that phrase was conjured at that time. Would you ask them 
if there is some significance in that? Because I can't think of 
a single person who had that in World War II.
    I am certain you're having problems with recruiting and 
retention. I'd like to have you submit a paper to us advising 
us what the nature of your problem is and what, if anything, we 
can do legislatively or funding wise to be of assistance.
    And third, I look at this as a subjective question that--
how would you characterize the morale of your troops? Let's go 
down the line.
    General Bradley. Mr. Chairman, I'll tell you, I get out a 
lot. I try to visit all of my units and I'm going tomorrow on a 
trip to visit units. I'm going on another one Saturday to visit 
two other units, two of which are closing, both of whom have 
had significant mobilization. I go to Iraq. I go to 
Afghanistan. I'm headed over again in June and I get out and I 
don't just talk to colonels, I just don't talk to wing 
commanders and I don't just talk to generals. I try to get out 
and talk to airmen. I go out and I hold commanders calls and I 
try to talk to as many people at all levels as I can and I'll 
tell you, sir, our morale is good and I think I can reflect 
that in our retention figures.
    Our retention is about as good as it's ever been in our 
history. Eighty-seven percent of our people are staying with us 
in the enlisted force and 93 percent of our officers are 
staying with us.
    I'm not going to tell you that every single person is happy 
all the time. They are not. But they continue to volunteer for 
us. We try, in the Air Force, to support these combat 
operations through volunteers and not mobilization. We use 
mobilization as a last resort. Let's use volunteers.
    I have F-16 units going next month. My F-16s are going to 
redeploy for the third time to Iraq. My A-10s have been over 
there three times. My C-130s have all been mobilized for 2 
years and people are not leaving us in droves, even though in 
some cases, we're going to shut down some flying in some units 
because of base closure and some other Air Force personnel 
reductions.
    Our people like being in our units. They believe we treat 
them fairly. We tell them thank you for what they've done. We 
tell them--we're going to ask you to continue to do a lot more 
and they're staying with us and they tell us--what they tell me 
is they believe they're doing something important. They're 
contributing to our Air Force and to our Nation.
    So it is not all doom and gloom. I think there are many 
positive things and our people like to serve and will continue 
to serve.
    Senator Inouye. Did you say 87 in this group?
    General Bradley. Yes, sir, 87 percent enlisted and 93 
percent for our officers.
    Senator Inouye. Oh. General Bergman?
    General Bergman. Yes, sir. Retention has been, for the last 
4 years, at all time highs ranging in the 83 to 87 percent 
range. We don't see anything to indicate that that is changing 
because primarily our marines are young and in some cases, not 
so young men and women who joined a Reserve component, joined 
the marines to go to the fight.
    We've been providing them that opportunity. So what I hear 
when I travel is, I'm getting to do what I signed up to do. 
Where we are today, 5\1/2\ years into the global war on terror, 
that predictability piece that has now been added so that those 
who have a preponderancy to continue to serve and are seeking 
more ways to utilize the experiences they've got, can look at a 
year of activation and then plan for 4 or 5 plus years of, if 
you will, training time between the mobilizations, between the 
activations, to allow them to keep their civilian careers and 
aspirations alive and well.
    So what we didn't know at the beginning was how long this 
war was going to last. Now that we have a pretty good idea that 
there is an extended period in sight, we will be utilizing our 
folks. We owe them the idea to plan their lives and they're 
responding to that by staying.
    As far as morale goes, the combatant just returned from 
Iraq yesterday morning and he was talking to us this morning, 
talking about the morale. The marines, as long as they've got 
plenty of what they need to prosecute their mission and they 
see the goodness that comes in very little bits and sometimes 
with one step back when they're going two steps forward, they 
see it. What they're concerned about is the American people and 
all they see is what is coming out of the tube. But their 
morale is high and again, it reflects on our retention rates.
    Senator Inouye. Admiral Cotton.

                           MORALE OF SOLDIERS

    Admiral Cotton. Sir, I'd like to echo what all the generals 
have said and especially General Blum, in that we've never had 
a more experienced and reliable force. The current conflict has 
forced the Navy to come ashore, if you would and we have now 
12,000 sailors ashore, one-half active, one-half Reserve. It's 
forced us to change all our processes, how we get them there 
and how we demobilize them whether they are active or Reserve. 
That's all been very good for us.
    Our morale is very good. Our retention statistics are just 
the same. Again, just funding the--to replace the ones that are 
timing out or losing their service. So I think it is two thumbs 
up. It's good news what we're doing right now and it is 
sustainable. Our requirement each year is about 9,000 
mobilizations. We have 28,000 that have not been to war yet so 
we have the capacity to serve, if you would, sir.
    Senator Inouye. Thank you. General Stultz.
    General Stultz. Senator, I'll start with the question of 
the morale and I echo the comments that have already been made 
here. I think the morale of our Army Reserve soldiers has never 
been higher. I think they are proud of what they are doing. I 
think they feel good about their service to their country. I 
think we've got a lot of great young people in this country 
that are stepping up.
    I had the opportunity to be in Iraq last November to 
promote two electronic maintenance soldiers to E-5. Now, one of 
them was a young man that has a Master's in Public 
Administration. He is a city planner back in North Carolina. 
The other was a young lady who's got a Bachelor's in Molecular 
Biology, working on a Masters. And I asked both of them, I 
said, why are you here? And they said, sir, we're here to serve 
our country. And we plan on staying.
    So the morale is good. And the second item, we are meeting 
our retention goals. Traditionally, we put our retention goals 
on the backs of our career soldiers. They've got 12 to 15 
years. They're going to stay with us to get that 20 year 
retirement. Recently we've made it on the backs of our first-
term soldiers. So they--at about 65 percent of our goals.
    Last year, we re-enlisted over 110 percent of our first-
term goal. This year, we're already at 130 percent. And what 
that tells me is our young soldiers are sticking with us. They 
feel good about what they're doing. They know what they signed 
up for.
    The challenge we've got is what was echoed--or what was 
already said by General Bergman--what our soldiers tell me they 
need is predictability in their lives. They know that they're 
going to have to go back on future deployments but they want to 
be able to set their lifestyle or their employer or their 
family, if they're going to college, to be able to predict 
what's going to happen. So they're telling us, give us some 
predictability. Give us some stability and the other thing 
we've got to give them is continuity.
    What I'm talking about continuity is traditionally you have 
strategic levels of force--2 weeks in the summer and we won't 
have to go to war unless world war III breaks out, when the 
Russians come across the Fulda Gap back in those days. But now 
we're in a different war. It's the war on terror. This is not 
an easy war and with the amount of service support that resides 
in the Army Reserve, this nation cannot go to war without us. 
If we have an option to deploy the Army Reserve, we have to. 
Because we possess all the medical, the transportation, the 
logistics, the military police, and engineer forces. I don't 
have the combat brigades. I have the support brigades.
    So they are never going to be used on a regular basis. So 
that soldier says, okay, I want to serve my country. I feel 
good about what I'm doing. But every time I get called up, 
there is a disruption in my life because one, in some cases, a 
loss of income, when I switch from one job to the other. But 
also a disruption in the life of my family because I have to 
switch from my employers healthcare plan to the military 
healthcare plan and the doctors don't match. So now I've got to 
go tell my spouse, we better go find a different family doctor 
or a different pediatrician. I think one of the things that we 
owe to our forces, we have to figure out how to provide 
continuity so that we can call upon our forces on a regular 
basis without disrupting their lives.
    So that their healthcare system stays in place, their 
income level stays in place and they can go serve their country 
and feel good about what they're doing.
    The biggest challenge I've got right now in maintaining my 
force structure is competing with the Active Army. And the 
Active Army is out trying to gather their own strength and 
they're trying to recruit the same soldiers that we're trying 
to recruit in the Reserves. So we are competing with others.
    The National Guard has got a different model, which is 
working for them, a community base model. We're going to adopt 
that same model. We're going to start doing the same thing 
where we've got our soldiers going out and recruiting their 
buddies to come back and join their unit instead of having the 
recruiting command trying to find a pool and sort out who wants 
to be on active and who wants to be on reserve status. That's 
going to be one of the keys of success of making our end 
strength.
    But the other thing is, we're basically trained and Senator 
Stevens alluded to this early on, when soldiers are trying to 
determine, where am I? Am I in the Reserve or am I in the 
Active Army because it seems like I'm always on active duty. 
And we're seeing more and more Reserve component soldiers going 
back to the active component. I've got a chart, if it's 
available, that illustrates just that.
    This shows starting with fiscal year 2002, if you see the 
green, that's the number of soldiers going from the active to 
the Reserve versus the number going from the Reserve to the 
active and you can see where we're gaining about 2,000 soldiers 
more going into the Reserve components than we are losing from 
the Reserve to the active. You can see where it is now. It's 
going the other direction.
    I'm losing many more soldiers that are going into the 
Reserves and going back to active duty because they're saying, 
that's my continuity. If I stay on active duty, I know I've got 
continuity in healthcare and all of that continuity. In fiscal 
year 2005, I had over 3,500 soldiers going from Reserve status 
back to active duty. This past year, I had 6,000 or more leave 
Reserve. So maintaining my end strength is competing with the 
active Army and that's a good news story for the active Army. 
I'm going to the active Army because I'm pulling soldiers back.
    But I'm doing it because soldiers are sent out and they can 
have that stability and predictability in the Army Reserve. 
That's my challenge. That's why this Army Force Generation 
model that we're building is so critical. Just as Jack Bergman 
said, go and tell a soldier, you're going to deploy for 1 year 
and then I'm going to give you 4 years of stability to come 
back and go back and get your college degree or start your 
civilian career.
    We're not doing that because we've got to rebalance the 
force. We don't have enough CS/CSS (combatant support/combatant 
service support) in the Army. That's part of that peace 
dividend that we're all reaping right now, where we took down a 
lot of that capability and we said that if we ever had to go 
war, it would be a short war. We wouldn't need to sustain that 
for a long period of time. It's a different world now.
    So morale is good. Recruiting is a challenge. We're about 
13 minutes shy of where we should be right now. We're going to 
make that up. We're going to start this community based program 
as soon as I can get a contract in place. I feel confident we 
will make our year end recruiting goals. But there's going to 
be that competition of how do we keep that support at a 
sustained level to that soldier and his family that they 
deserve? Because just as the two of them that I introduced, 
there are 200,000 more of them out there who are sacrificing 
every day and we owe it to them.
    Senator Inouye. Thank you very much. Senator Stevens.
    Senator Stevens. Thank you, Mr. Chairman. I'll submit my 
questions, too. I do have just one or two short questions. Are 
you still accessing the equipment of the regular services for 
your training? That was what it was in the days gone by. Are 
you asking now for a component of equipment for the Reserve 
like we have for the National Guard?
    General Stultz. Sir, we're really using our own equipment. 
Let me just answer that in a couple of different dimensions. I 
was in Iraq and Kuwait for 2 years.
    Senator Stevens. I'm talking about here at home in 
training.

                               EQUIPMENT

    General Stultz. Yes, sir. But we left a lot of our own 
equipment just as the Guard did in that country because we did 
not want to transport it back and forth. So that created 
shortages back home. When it comes to training, we're providing 
our own equipment for our training of our forces for the 
Reserve components. What that forces me to do is, just as 
General Blum and General Vaughn alluded to, I've got to move 
equipment around. I've got to position it to get to the right 
units that need it to train on. I've got the same challenges 
they do. The equipment I've got back here that was left is not 
the modern equipment we need to train on.
    An example I use is the trucks. We have--tactical vehicles 
and we were authorized to have over 4,000 of those. I've only 
got about 1,000 that are the modern ones. I've got almost 3,500 
of the old, M-35 deuce and a halfs, the old trucks that we used 
back in Vietnam.
    Those are not the trucks we need to train on for our 
soldiers because that's not the truck they'll operate in 
theatre. So that--I've got back here, I've got to move around 
to get them to the right location for the unit that is going to 
be going to theatre that is going to operate that.
    Likewise with the Humvees. We're going to upgrade those 
when we get into theatre. Out of 1,000 authorized, right now, 
I've got 23 because all of them are over in theatre. So we try 
to train a soldier back here on how to operate the old one that 
has a different center gravity, that has a different 
visibility, that operates differently, it's very difficult. 
I've got to take what I've got and reposition it. So what is so 
critical for us, just as the Guard would say, to get that 
equipment. It is short. We're short equipment but a lot of 
equipment we have is not the most modern. When I'm authorized 
12,000 radio systems for communication and I've only got about 
one-third of what I need, about--less than 8,000. But of those, 
only about 4,000 or less are the most modern. So I've got 
substitute radios but its not the ones they're going to operate 
in theatre.
    So I'm short equipment and what equipment I've got is not 
the modern equipment I need. That makes it difficult to train. 
But to get back to your initial question, no sir, I don't have 
access to the active Army equipment to train on. I have to 
provide my own equipment to train to them.
    Senator Stevens. Is that the same for all of you?
    Admiral Cotton. Yes, sir. Each one of us has a slightly 
different model. In the Navy, we have a wonderful spectrum of 
missions, all the way from the commissioning of units with 
equipment that we purchase through O&R funds as well as 
National Guard and Reserve equipment appropriations (NGREA), to 
manpower pools that train with their specific equipment to like 
CBs, where they are located and they will also have mini power 
pools that we mobilize to train a group to maybe do a combat 
service support mission in support of the forces ashore. So the 
Navy is really full spectrum. We have our own equipment. We use 
the Navy equipment and we have other people that go other 
places and use other services equipment. So it's really full 
spectrum, sir.
    Senator Stevens. Thank you. Are there any problems for the 
marines, sir? Or the Air Force?
    General Bergman. Sir, as Vice Admiral Cotton said, we all 
vary a little bit because of how we're structured and how we 
deploy our folks, whether they be as units or individuals. I 
would suggest to you that there are certain types of equipment, 
let's say, comm gear, that we need in the Reserve component, to 
have our own, which we do because our marines can deploy either 
individually or as detachments and expected to go right in to 
theatre and operate the gear right away. So they're falling in 
on equipment that they need to be ready to operate.
    Aviation--we're going to deploy a capability--duties, 
covers, C-130s. We take our own, by and large and in some 
cases, we're falling in on equipment that's in theatre. We 
don't need necessarily the most current. We need just to make 
sure that our air crew can operate the aircraft as it was 
designed, if you will, again with a nominal amount of, if you 
will, differences training.
    So as we look at our equipment needs, I would suggest to 
you and listening to everybody talk about equipment, I think 
we're missing potentially a very, very important step with 
technology being the way it is today and that is the simulation 
piece and the way that we can most importantly train all of our 
people on the most current--whether it's touch screens, whether 
it is virtual convoy, combat training, combat trainers, without 
necessarily having to buy all the hardware up front. Because 
the key is, not about the hardware at that point, it's about 
what's in the mind of that young marine or soldier or sailor or 
Coast Guardsman who is operating it.
    We need to put them in a state of mind so that when they 
get into that stressful environment, they do the right thing 
and simulation and increased use of it--there is a lot of work 
being done. I've spent a lot of time down and around looking at 
what is being done right now. That's where we need to focus an 
effort and dollars behind it to increase the mission capability 
and survivability of our youngsters.
    Senator Stevens. Thank you.
    General Bradley. Senator Stevens, for the most part, our 
Air Force Reserve units have their own equipment to train to 
prepare for deployment. When our flying units deploy to Iraq 
and Afghanistan, they take their own equipment, their own 
aircraft and they redeploy them after their tour is up.
    There is a segment of the Air Force, about 5,000 airmen are 
today doing things for the Army. In lieu of Army people, they 
are driving trucks, guarding convoys and performing as prison 
guards. And we retrain for those missions that are not a normal 
Air Force job or mission. We use active equipment to train on 
that mission and the Army provides some training in some cases 
for some of those jobs. So that small bit, in lieu of forces 
where we send airmen over to do some traditional Army jobs, 
then we use active equipment.
    We are standing up an F-22 squadron in Alaska. We already 
have people there and we'll start flying along with the active 
duty in August. But that's the way the organization was set up 
to operate, to share the equipment. It's more cost effective 
and brings a capability. So there are cases in which we do 
share equipment. But we also have our own as well.
    Senator Stevens. Thank you very much. My second question is 
just--answer me if you disagree. We've heard testimony that 
convinced me no one is being deployed unless they are trained 
and properly equipped to go into combat service. Is that true 
for the Reserves, too?
    [Chorus of yes, sir.]
    General Stultz. I brought with me today my senior NCO, a 
Commander Sergeant Major Leon Caffie. We have served together 
in combat and he is the one that I hold ultimately responsible 
as the NCO Chief of Command so I want to make sure every one of 
our soldiers is properly trained, properly equipped before they 
go into combat.
    He and I go out together to go visit those soldiers and 
visit the training, just as told you by some of the other 
commanders before me here. And I can assure you, from my 
Reserve's perspective, we do not deploy any soldier into combat 
without the proper equipment, both individual and unit 
equipment and without the proper training.
    Senator Stevens. Do you back that up, Sergeant Major?
    Mr. Caffie. Yes, sir.
    Senator Stevens. Thank you. Thank you, Mr. Chairman.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Inouye. Thank you very much, General Stultz, 
Admiral Cotton, General Bergman, General Bradley. We thank you 
for your testimony. On behalf of the subcommittee, I thank you 
for your service to our Nation.
    [The following questions were not asked at the hearing, but 
were submitted to the Bureau for response subsequent to the 
hearing:]

        Questions Submitted to Lieutenant General Jack C. Stultz
            Questions Submitted by Senator Daniel K. Inouye

                           RECRUITING MISSION

    Question. General Stultz, the Army Reserve fell short of its fiscal 
year 2006 recruiting goal and is struggling to fulfill this year's 
recruiting mission. Difficulty in recruiting prior-service members is a 
significant reason for the shortfall. What is the Army Reserve doing to 
attract soldiers with prior service experience?
    Answer. Although the Army Reserve is responsible for maintaining a 
congressionally mandated end strength objective, it only controls a 
small portion of the recruiting mission. U.S. Army Recruiting Command 
(USAREC) operates a national based recruiting program and is 
responsible for 100 percent of the non-prior service mission. On the 
other hand, USAREC is responsible for 75 percent of the prior service 
mission, the Human Resources Command has 8 percent of the mission, and 
the Army Reserve has the remaining 17 percent. Additionally, USAREC 
maintains control of all Active Guard Reserve (AGR) Recruiters and 
within the last two years, their numbers increased by 734, for a total 
of 1,774 authorized. Despite this increase in recruiter strength, as of 
March 2007, USAREC achieved only 92 percent of the Army Reserve mission 
compared to 108 percent of the Active Component mission. In contrast, 
the Army Reserve's Retention and Transition Division (RTD) overachieved 
its portion of the prior service mission.
    As a long range solution, the Army Reserve is developing a 
community-based recruiting program whereby recruiters will report 
directly to Army Reserve leadership instead of the Active Component. 
The Army National Guard has operated under this concept for some time 
with great success. This will eliminate the competition between Active 
Component and the Army Reserve within the same recruiting activity, 
allowing tailored and targeted applicant prospecting efforts on behalf 
of both components. The Army Reserve's recruiting program will be unit 
based with focus on the local community.
    As a near term solution, USAREC recruiters will work closely with 
Soldiers from local Army Reserve units to generate leads and referrals 
using the newly established Army Reserve Recruiter Assistance Program 
(AR RAP). This program will improve the Army Reserve's recruiting 
success for both non-prior and prior service applicants by embedding 
recruiters within units to develop unit ownership of recruiting 
programs, supported by local communities. Additionally, the Army 
Reserve Retention and Transition Division (RTD) has reorganized its 
retention force to focus solely on strength-producing missions, 
reenlistments and transitioning Individual Ready Reserve (IRR) 
individuals into Selected Reserve (SELRES) units. As a result, RTD has 
achieved 107 percent of its annual enlisted prior-service mission and 
assumed a new officer mission from Human Resources Command--St. Louis 
(HRC-STL).
    The Army Reserve offers a variety of prior-service enlistment 
bonuses to reinforce a Soldier's decision to serve in a TPU unit, i.e., 
a unit with regular drilling Army Reserve Soldiers. The following 
incentives are currently offered:
    Prior Service Enlistment Bonus.--This bonus is available for 
individuals with up to 16 years of prior service and pays out $15,000 
for a 6 year commitment and $7,500 for a 3 year commitment. This bonus 
was implemented on February 24, 2006 and Soldiers who sign up for this 
bonus have the opportunity to reclassify (change their MOS, or job 
specialty).
    AC to RC Affiliation Bonus.--For prior-service Soldiers who 
transfer from the Active Component or IRR to the Army Reserve, $20,000 
is available for a 6 year commitment and $10,000 is paid out for 3 
years. This incentive was also implemented on February, 24, 2006.
    Question. General Stultz, are you concerned that the decrease in 
prior-service recruits is hurting the overall experience level of Army 
Reservists?
    Answer. The experience level of Army Reservists is at the highest 
level since World War II. As of April 30, 2007, 119,371 Army Reserve 
Soldiers have mobilized in support of the Global War on Terror. This is 
63.9 percent of the current end strength of 186,828. As of April 18th, 
13 percent of the Army Reserve (24,056 Soldiers) was deployed. The Army 
Reserve will continue to provide a key contribution to ongoing wartime 
operations and Army Reserve units will gain from the mission-related 
experience of their Soldiers when they return home.
    We have not seen a reduction in prior service accessions. Since 
2004, yearly missions in sequence were 16,075, 10,310, 16,032, 16,505. 
Bottom line, the Army Reserve is currently at 99.8 percent of our 
mission and expecting to achieve our mission.

                               EQUIPMENT

    Question. General Stultz, we have heard that the Army Reserve is 
faced with a tremendous equipment reset problem--and that almost $1 
billion is needed this year to address the shortfalls due to equipment 
lost in combat and equipment left behind in theater or transferred to 
the active component. How is the Army doing on paying back the Army 
Reserve for equipment? How much has been paid back so far?
    Answer. The Army has budgeted $1.2 billion in the fiscal year 2007 
Supplemental to address Army Reserve equipment retained in theater and 
used in Theater Provided Equipment sets. Funding from the bridge 
supplemental has been released to program managers for procurement of 
systems. Our concern continues to be the long lead time needed by 
industry to produce the equipment. This becomes a training and 
readiness issue. If the right equipment is unavailable when needed, 
mission accomplishment and the survivability and safety of our Soldiers 
are jeopardized.
    The Army Reserve is developing a 1225.6 tracking tool to track 
replacement equipment returning to the Army Reserve for that which was 
retained in theater. To date, the Army Reserve has received a very 
small percentage of the total payback.
    Question. General Stultz, how do you measure equipment shortfalls 
and the impact on unit training and readiness. What systems do you have 
in place to keep track of this situation?
    Answer. The system for accounting and tracking equipment is the 
Army's standard supply system, the Property Book Unit Supply-Enhanced 
(PBUSE). It is a web-based system that has been fielded to all Army 
Reserve units. Additionally, the Army Reserve uses the Reserve End Item 
Management System (REIMS) which provides management tools not available 
in the Army system to manipulate PBUSE data. This system is being 
replaced by a module in the Army Reserve's Logistics Data Warehouse, an 
integrated, multi-functional logistics data warehouse. The Logistics 
Data Warehouse and REIMS allow us to move and account for equipment to 
support training and readiness. Information derived from these systems 
is compared to other Army force structure management systems to 
determine current and projected shortages and older equipment requiring 
replacement. These requirements are used at the Department of the Army 
G8 sponsored Army Equipment Reuse Conferences.
    Question. General, what mechanisms are in place to ensure that the 
replacement of missing or obsolete equipment is considered and funded 
in the annual programming and budgeting cycle?
    Answer. The Army Reserve aggressively participates in the Army 
Equipment Reuse Conferences (AERC) to validate requirements, both for 
shortages, current and projected, and for replacing older, less capable 
and compatible items. While the Army Reserve requirements may be 
validated for the Planning Program Budget and Execution System (PPBES), 
our concern continues to be the diversion of funds and equipment to 
competing Army priorities.

                      COMBAT OPERATION ACTIVITIES

    Question. Generals Stultz, Bergman, Bradley, and Admiral Cotton: 
Other than the recently proposed troop level increases, what plans are 
you aware of in the active components of your respective services to 
address the issues requiring such heavy reliance on the Reserves to 
perform routine combat operation activities?
    Answer. Since the Army Reserve retains its core competency as a 
provider of combat support and combat service support, we expect that 
the heavy reliance on the Army Reserve to support the Global War on 
Terrorism and other strategic missions will continue for the 
foreseeable future. Beyond the proposed troop level increases, which 
you note, and ongoing efforts to rebalance active and reserve forces, 
which endeavor to move high demand skills into the active duty forces, 
we are unaware of any other significant initiatives that might lessen 
the need to rely on the Reserve Components.

                               EQUIPMENT

    Question. Generals Stultz, Bergman, Bradley, and Admiral Cotton: 
Does your request to this Committee truly reflect all of the 
requirements necessary to accommodate your equipment needs and to 
adequately fund the programs necessary to provide quality support to 
those in the Reserve who are being called upon to serve their country? 
If not, where are the deficiencies and why are they not being 
addressed?
    Answer. The Army Reserve identified an equipment shortfall of 
$10.73 billion that was validated in the Army Equipment and Reuse 
Conferences (AERC). Since the last conference, the decision has been 
made to right size the Army Reserve and to convert non-deploying 
support and Generating Force structure to deployable units. This 
additional deployable force structure brings an additional requirement 
of approximately $3.5 billion. These new equipment shortages will be 
addressed by the Army in the Program Budget Review 09-13.

                        POLICY ON MOBILIZATIONS

    Question. Gen. Stultz, the Secretary of Defense has a new policy on 
the length of mobilizations for Reservists. What are the positives of 
this policy for the Army Reserves? What are the negatives?
    Answer. The new mobilization policy represents a significant event 
in the Army Reserve's transformation from a strategic reserve to an 
operational force. Positive impacts for the country include more robust 
military capabilities able to respond to crisis at home and worldwide. 
Army Reserve transformation will provide the best trained citizen 
soldiers in modern history. A negative impact is the Army Reserve will 
be unable to attain a 1:5 force planning objective under the new 12 
month policy, because of the high operation tempo and limited force 
structure for full implementation, the Army Reserves will require 
additional funding to sustain and support these initiatives. We believe 
an increase in the Army Reserve end strength should be considered.
    Among the positives within this new policy is the predictability it 
affords our Soldiers, their Families and their employers. Also, it 
limits the time a mobilization interrupts the civilian lives and 
careers of our Soldiers. This new policy supports our present planning 
on generating our forces for the Long War. The Army Reserve is well 
positioned to implement this policy and to meet current and upcoming 
planned deployments. Obviously multiple deployments place stress on 
Soldiers, their Families, and their employers and is reflected in the 
force as a whole. We will closely monitor this as it relates to our 
recruiting or retention and take necessary action as indicated.
    The new policy provides the Army Reserve a real opportunity to 
maintain unit cohesion, something we have had a real challenge doing 
over the past four years, ultimately we will have ready units to meet 
the requirements.
    The impact to our individual soldiers is significant, potentially 
requiring multiple high-risk deployments over the span of a military 
career. Safeguards and legislation that supports the Soldier, their 
Family, and provides some incentive for civilian employers to hire 
these fine Citizen-Soldier volunteers is paramount in recruiting and 
retaining the Reserves Soldier of the future.
    Our Citizen Soldiers must strike a balance between their civilian 
employment and the time they spend serving their country on active 
duty. Not an easy thing with the demands we place on them. By limiting 
mobilization to a 12 month period, we believe that the Soldier, their 
Families and their employers can plan for possible periods of 
deployment and anticipate the reintegration back in a predictable 
timeframe.
    Previous mobilization policies, Army Reserve Units and Soldiers 
performed a substantial amount of their mission training events after 
mobilization and prior to deployment. Unit post-mobilization/pre-
deployment training periods normally ranged from 75 days to 125 days, 
depending mission requirements. We no longer can afford to retain the 
75-125 day unit post mobilization training periods under the new 12 
month mobilization policy. We are, therefore, working with FORSCOM and 
1st U.S. Army to shift some post-mobilization training tasks to pre-
mobilization training periods. This shift will result in substantial 
requirements for additional training periods, equipment for training, 
and the need for additional training facilities. We will need to bring 
trainers on active duty to train to keep this momentum going. All this 
will require resources and we look to Congress to support these 
requirements.

                   ARMY AND MARINE CORP END-STRENGTH

    Question. Gen. Stultz, can you please give me your assessment on 
how the surge and increase in the Army and the Marine Corps end-
strength will affect your high operational tempo in supporting the 
global war on terror?
    Answer. Surge.--The Army Reserve was tasked to provide 21 combat 
support and combat service support units for the OIF 07-09 surge. 20 of 
the 21 units were previously mobilized for earlier OIF/OEF rotations. 
These units were originally projected to mobilize for OIF/OEF in fiscal 
year 2008 or later. All remobilizing units will mobilize with less than 
the 4 years of dwell time. We understand that there will be some 
Soldier hardship issues, and we are working to address these. We 
anticipate being fully able to provide all 21 units on time and to 
optimum readiness standards. We further expect many of these Soldiers 
will be eligible for a remobilization incentive as specified in the 
Secretary of Defense's January 19, 2007 memorandums to Service 
Secretaries.
    Increase in the Army and the Marine Corps end-strength.--Prior to 
September 11, 2001, our historical experience demonstrated that Active 
Duty Soldiers completed their initial tour and transferred into the 
Army Reserve, providing a significant source of trained and qualified 
Solders into the Army Reserve. Today we are seeing a reverse of this 
pattern; Army Reserve Soldier transferring into active duty side in 
much greater numbers. While good for the Army it requires the Army 
Reserve to recruit and retain greater numbers than before. As you are 
aware the Army Reserve is experiencing a personnel shortage--we are 
17,000 Soldiers short of meeting Authorized End Strength levels. This 
certainly impacts our readiness in our non-mobilized units. Currently 
less than 10 percent of our non-mobilized units meet minimum Defense 
Planning Guidance readiness standards. To address this issue we have 
asked the Army Recruiting Command to increase our recruiting goals. The 
Army Reserve plans to supplement recruiting efforts by implementing the 
U.S. Army Recruiter Assistance Program. We will continue to need 
Congressional support to resource this successful program now and in 
the future. Although we continue to have challenges; our Army Reserve 
continues to exceed its retention goals. Continued funding of our 
retention initiatives (pay, bonuses and benefits) ensures the continued 
success of this program.
    Over the years there has been much discussion surrounding 
retirement reform for reserve component Soldiers. I believe this 
concept need to be looked at closely and placed on the table for 
discussion.

                            RECRUITING GOALS

    Question. Gen. Stultz, the active Army and the Army National Guard 
have exceeded recruiting goals, while the Army Reserve falls just 
short. What strategy do you employ to meet recruiting goals when 
competing with the active Army and the Army National Guard?
    Answer. Although the Army Reserve is responsible for maintaining a 
congressionally mandated end strength objective, it only controls a 
small portion of the recruiting mission. U.S. Army Recruiting Command 
(USAREC) operates a national based recruiting program and is 
responsible for 100 percent of the non-prior service mission. On the 
other hand, USAREC is responsible for 75 percent of the prior service 
mission, the Human Resources Command has 8 percent of the mission, and 
the Army Reserve has the remaining 17 percent. Additionally, USAREC 
maintains control of all Active Guard Reserve (AGR) Recruiters and 
within the last two years, their numbers increased by 734, for a total 
of 1,774 authorized. Despite this increase in recruiter strength, as of 
March 2007, USAREC achieved only 92 percent of the Army Reserve mission 
compared to 108 percent of the Active Component mission. In contrast, 
the Army Reserve's Retention and Transition Division (RTD) surpassed 
its goals for its portion of the prior service mission.
    Despite recruiting challenges, there are positive trends regarding 
Army Reserve retention and attrition. Army Reserve retention was 103 
percent for fiscal year 2006 and Initial Military Training (IMT) 
attrition was reduced from 18 percent (May 2005) to 6.3 percent (August 
2006).
    As a long range solution, the Army Reserve is developing a 
community-based recruiting program whereby recruiters will report 
directly to Army Reserve leadership instead of the Active Component. 
The Army National Guard has operated under this concept for some time 
with great success. This will eliminate the competition between Active 
Component and the Army Reserve within the same recruiting activity, 
allowing tailored and targeted applicant prospecting efforts on behalf 
of both components.
    As a near term solution, USAREC recruiters will work closely with 
Soldiers from local Army Reserve units to generate leads and referrals 
using the newly established Army Reserve Recruiter Assistance Program 
(AR RAP). This program will improve the Army Reserve's recruiting 
success for both non-prior and prior service applicants by embedding 
recruiters within units to develop unit ownership of recruiting 
programs, supported by local communities.
    There are a number of incentives and bonuses designed to improve 
recruiting and retention and help the Army Reserve meet its end 
strength objective (ESO):
    AR-Recruiter Assistance Program (AR-RAP).--The AR-RAP is a 
community based Recruiting initiative that employs and trains 
volunteers from the AR to recruit for local units. This program is 
expected to positively affect AR end strength by at least 3,000 this 
year with much greater increases in future years. Implementation 
initiatives include a strategic communication plan and mandatory 
training and information for AR leadership.
    Delayed Entry Program (DEP) to Delayed Training Program (DTP).--The 
AR changed the method of tracking and managing initial entry Soldiers 
prior to attendance at initial entry training (IET). Under the previous 
DEP, initial entry Soldiers were not counted in the AR end strength and 
were managed by USAREC recruiters until shipment to IET. The DTP 
assigns initial entry Soldiers to AR units immediately which enhances 
Soldier involvement and increases unit cohesion. Additionally, IET 
Soldiers will be accounted for in the AR end strength.
    Critical Skills and High Priority Unit Assignment Retention Bonus 
(CSARB).--The purpose of the CSARB is to retain experienced Soldiers in 
a high priority Troop Program Unit (TPU) in order for the AR to meet 
critical manpower shortages and unit readiness requirements. The CSARB 
is authorized for Soldiers who agree to continue to serve in a high 
priority unit designated on the Army Reserve Selected Reserve 
Incentives Program (SRIP) list for not less than 3 years from the date 
of agreement.
    Reserve-Assignment Incentive Pay.--This program could pay up to $50 
per four-hour unit training assembly ($200/month) to Soldiers in high 
priority ARFORGEN units (those units which are likely to be sourced for 
deployment to man the wartime mission).
    Command Responsibility Pay (CRP).--This program has DOD 
authorization and AR will request required funding through the POM 
process. Based on grade, it pays officers in key leadership positions 
from $50-$150 per month. Although not currently authorized, the AR will 
be pursuing an initiative to pay CRP to NCOs in key leadership 
positions.
    Prior Service Enlistment Bonus.--This bonus is available for 
individuals with up to 16 years of prior service and pays out $15,000 
for a 6 year commitment and $7,500 for a 3 year commitment. This bonus 
was implemented on February 24, 2006 and Soldiers who sign up for this 
bonus have the opportunity to reclassify (change their MOS, or job 
specialty).
    AC to RC Affiliation Bonus.--For prior-service Soldiers, who 
transfer from the Active Component or IRR to the Army Reserve, $20,000 
is available for a 6 year commitment and $10,000 is paid out for 3 
years. This incentive was also implemented on February, 24, 2006.

                          EQUIPMENT SHORTFALLS

    Question. Gen. Stultz, in fiscal year 2007, the Congress 
appropriated $35 million to you to address ongoing equipment 
shortfalls. How have you utilized that money to meet your service's 
needs?
    Answer. The Army Reserve used the funding to fill critical 
shortages to support the Global War on Terror (GWOT) and to enhance 
readiness. Examples of equipment we are procuring are: Family of Medium 
Tactical Vehicles (FMTVs), Truck Tractors, Line haul (M915/M916), Small 
Arms Weapons (M4), Night Vision Goggles, Movement Tracking Systems 
(MTS), Maintenance Support Devices (MSD) and LCU 2000 Command and 
Control systems.

                               EQUIPMENT

    Question. Gen. Stultz, have your units encountered a shortage of 
equipment in the United States for training? What sort of equipment are 
you lacking most?
    Answer. The Army Reserve requires 100 percent of its authorized 
equipment, both on-hand and Modular Force compatible, to meet training, 
mobilization and maintenance requirements. Our top shortages are:

------------------------------------------------------------------------
                        NOMENCLATURE                            SHORT
------------------------------------------------------------------------
FMTV:
    LMTV, (2.5 TON TRK)....................................        5,281
    MTV, (5 TON TRK).......................................        9,141
Truck Tractor Line Haul (M915A3)...........................        2,127
Armored Security Vehicle...................................          256
Multi-band SHF Terminal (Phoenix)..........................           48
HEMTT Load Handling System (LHS)...........................           39
High Frequency Radio.......................................        1,856
Joint Svc Trans Decon System (JSTDSS)......................          842
Movement Tracking System (MTS).............................        5,894
Light Type 1 Yard Loader (2.5 Yard)........................           30
TSEC-Army Key MGT Sys (AKMS)...............................       11,922
Log Automation (SAMS E)....................................        2,586
Log Automation (CAISI).....................................          257
Log Automation (VSAT)......................................           71
Battle Command Sustainment Support System..................          456
Rough Terrain Container Handler 53K........................          198
HEMTT Based Water Tender...................................           42
Trailer Cargo: FMTV W/Dropsides............................        3,540
Light Tactical Trailers: \3/4\ TON.........................        2,476
PLS Trailers...............................................          577
Truck Cargo PLS 1010 (M1075)..............................          283
Truck Dump 20 TON (M917)...................................           90
M4 Carbine (Rifle).........................................       10,005
Small Arms.................................................       13,764
Night Vision Devices.......................................       27,447
Thermal Weapon Sight.......................................           81
High Mobility Engineer Excavator...........................          158
HMMWV......................................................        6,565
Up-Armored HMMWV...........................................        1,584
Tactical Electrical Power (5-60 KW)........................        3,680
Tactical Electrical Power (3 KW) TQG.......................        2,907
Power Dist & Illum System, Electrical......................        4,050
Semi-Trailer 5,000K Gal Fuel Bulk Haul.....................        1,201
Defense Advanced GPS Receiver..............................       10,697
Detecting Set Mine (AN-PSS-14).............................           98
Joint Network Node (JNN)...................................            3
NBC Reconnaissance Vehicle.................................          120
SINCGARS...................................................        8,022
Alarm: Chemical Agent Automatic............................        5,778
Monitoring Chemical Agent..................................        1,492
Decontaminating Apparatus..................................          464
Semi-Trailer Low Bed: 40 TON...............................          422
Central Communications: AN/TSQ-190(3)......................           12
All-Terrain Crane (ATEC) 25 TON............................            9
Truck Transporter Common Bridge (CBT)......................          189
Test Set Radio: AN/USM-626(v)1.............................           22
Detecting System: Countermeasures..........................           24
Central Office: Telephone Automatic........................            8
Radio Set: AN/PSC-5........................................          196
Small Arms Simulation Devices..............................          200
Deployable Medical Systems (DEPMEDS).......................          121
Distributor Water Self-Propelled 2,500 Gal.................            5
Dry Support Bridge (DSB)...................................           12
Tent Expandable Modular (SURGICAL).........................           63
Shelter Tactical Expandable................................          113
------------------------------------------------------------------------

    This equipment shortage list does not include new Army Reserve 
growth in force structure for fiscal year 2009-13 that will produce 
further equipment requirements.
                                 ______
                                 
           Questions Submitted to Vice Admiral John G. Cotton
            Questions Submitted by Senator Daniel K. Inouye

                 RESERVE RECRUITING AND RETENTION GOALS

    Question. Admiral Cotton, in fiscal year 2006, the Naval Reserve 
fell 13 percent short of its recruiting goal for enlisted personnel and 
48 percent short for officers. Attrition rates were also 10 percent 
above targeted levels. Again this year the Reserve is struggling to 
meet recruiting and retention goals. What are you doing to address this 
problem?
    Answer. One factor that played an important role in Navy Reserve 
missing recruiting goal is that the skill sets of Sailors leaving the 
Active Component (AC) do not always match the prior service accession 
requirements for Navy Reserve. This is clearly evident in the limited 
number of AC personnel transitioning to RC career fields that are most 
needed for support of the Global War on Terror (GWOT). Navy is 
analyzing the dynamics of Reserve recruiting and has implemented 
several initiatives to improve recruiting performance:
  --A Fleet-to-NOSC (Navy Operational Support Center) program that 
        streamlines the process for enlisting a Sailor who is leaving 
        the AC into Navy Reserve.
  --Additional flexibility in New Accession Training (NAT) and Prior 
        Service mission to meet critical skill requirements and 
        accelerate Navy Reserve personnel through the training 
        pipeline.
  --Implementation of a pilot to retrain prior service Sailors 
        currently in the AC to obtain skill sets required for Navy 
        Reserve GWOT support.
  --Revitalized the direct procurement enlistment program to take 
        advantage of acquired civilian skills when recruiting Reserve 
        Sailors. This program also offers these individuals entry into 
        the Navy Reserve at an advanced pay grade commensurate with 
        their level of experience.
  --Expanded Reserve enlistment incentives for both officer and 
        enlisted programs.
  --Increased the number of officer recruiters by 22 personnel.
  --Increased recruiting advertising resourcing
    These actions provide increased flexibility and are expected to 
yield higher recruiting numbers in the future. Based on current 
projections, we are cautiously optimistic that these initiatives will 
result in achieving the recruiting goals for enlisted personnel this 
year. Navy Reserve does not expect to reach the officer recruiting 
goals for fiscal year 2007.
    Navy Reserve attrition (loss from pay status) rates have decreased 
over 2 percent for Enlisted personnel and nearly 5 percent for Officers 
compared to the historical average. The latest attrition rates 
(calculated as a 12-month rolling average) reflect an improving trend 
and Navy Reserve is expected to meet its planned attrition level for 
fiscal year 2007. The most recent attrition data is below:

              ATTRITION (LOSS FROM PAY AS OF 1 APRIL, 2007)
                              [In percent]
------------------------------------------------------------------------
                                    Historical      Goal       Achieved
------------------------------------------------------------------------
Enlisted.........................         30.4         22.0         28.2
Officer..........................         19.2         16.0         14.8
------------------------------------------------------------------------

                  FUNDING REQUEST FOR OFFICER BONUSES

    Question. Admiral Cotton, in fiscal year 2006, the Naval Reserve 
fell 48 percent short of its officer recruiting goal and this year has 
only achieved 16 percent to date. The fiscal year 2008 request includes 
$4.8 million for officer bonuses which is the same amount as was 
provided in fiscal year 2007. Considering the ongoing officer shortage, 
why was more funding not requested?
    Answer. In fiscal year 2007, the Navy Reserve has more than doubled 
the number of skill sets eligible for the officer $10,000 affiliation 
bonus, from 5 to 14, to attract a broader spectrum of officers. In 
addition, the Navy Reserve has increased the incentive level for 
bonuses in the Critical Wartime Specialties within the medical 
community from $10,000 to $20,000 for authorized physicians, dentists 
and nurse anesthetists; and from $5,000 to $10,000 for nurses.
    As you know, we are under significant budget pressure across all 
Navy appropriations. Without fiscal constraints, we would have 
increased funding for Officer bonuses and additional operational 
support. But given the current fiscal constraints and prior/predicted 
Recruiting Command success for officer accessions, we believe that this 
will fund our basic requirements.
                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd

                     HEAVY RELIANCE ON THE RESERVES

    Question. Generals Stultz, Bergman, Bradley, and Admiral Cotton: 
Other than the recently proposed troop level increases, what plans are 
you aware of in the active components of your respective services to 
address the issues requiring such heavy reliance on the Reserves to 
perform routine combat operation activities?
    Answer. After several years of emphasis on Active Reserve 
Integration (ARI), our Navy Reserve Force is responsive, relevant, and 
a full partner in the Total Navy. Alongside Active Component (AC) 
Sailors, Reserve Component (RC) Sailors provide integrated Operational 
Support (OS) to the Fleet, Combatant Commands (COCOM), and other 
Department of Defense agencies. With critical military and civilian 
skill sets and capabilities, mission-ready RC Sailors and units surge 
to provide predictable and periodic work across the full range of 
operations from peace to war.
    Since 9/11/2001, over 42,000 Navy Reservists have been mobilized in 
support of the Global War on Terror (GWOT), representing over 80 
percent of the total number of Sailors deployed on the ground in 
theater. On any given day, over 20,000 RC Sailors are on some type of 
Active Duty (AD) or Inactive Duty (ID) orders at their supported 
commands meeting global COCOM requirements. This number includes about 
6,000 RC Sailors mobilized in support of Operations IRAQI FREEDOM and 
ENDURING FREEDOM, and with this steady state requirement, we maintain 
the capacity to rapidly increase contingency support with more than 
28,000 additional RC Sailors that have yet to be mobilized.
    Current operational support provided by the Navy Reserve is at a 
sustainable level due to recent initiatives and changes made to the 
mobilization and deployment policies. Rotations are more periodic and 
predictable, providing our Sailors with the stability and necessary 
dwell time to support the Navy mission while balancing commitments to 
their employers and families. Additionally, the Navy Reserve provides a 
two-year deferment from involuntary mobilization for any Sailor who 
enters the Navy Reserve from the Active Component. These initiatives 
have resulted in improved quality of service for our Sailors as we 
continue to support the Fleet as a fully integrated and relevant Force.

              NAVAL RESERVE EQUIPMENT AND PROGRAM FUNDING

    Question. Generals Stultz, Bergman, Bradley, and Admiral Cotton: 
Does your request to this Committee truly reflect all of the 
requirements necessary to accommodate your equipment needs and to 
adequately fund the programs necessary to provide quality support to 
those in the Reserve who are being called upon to serve their country? 
If not, where are the deficiencies and why are they not being 
addressed?
    Answer. To support hardware procurement, each Navy Warfare 
Enterprise (Air, Surface, Subsurface, Expeditionary, and Networks) 
identifies Reserve Component (RC) requirements for new equipment as 
part of the Navy's resource allocation process. Funding for equipping 
the RC is provided through the Department of the Navy's President's 
Budget request, Congressional Adds, and National Guard and Reserve 
Equipment Appropriation funding. All known deficiencies have been 
addressed through the Navy Warfare Enterprise process. Deficiencies 
have been prioritized and presented to Congress in the form of the 
Chief of Naval Operations Navy Reserve Unfunded Priority List (UPL), 
submitted March 2007 (Table 1, below). This UPL was derived from the 
annual National Guard and Reserve Equipment Report UPL, table 8, 
developed October 2006 and submitted February 2007.
    As of fiscal year 2007, RC major hardware is valued at 
approximately $11.5 billion. More than $485 million has been provided 
in fiscal year 2005-fiscal year 2007 for RC hardware procurement 
through the budget process. This is $50 million more in RC procurement 
than the three previous years fiscal year 2002-fiscal year 2004. The 
Navy is committed to keeping the RC properly equipped.

                         TABLE 1.--FISCAL YEAR 2008 NAVY RESERVE UNFUNDED PRIORITY LIST
                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                     FISCAL YEAR
 APPN         TITLE (Program)            2008                                COMMENTS
----------------------------------------------------------------------------------------------------------------
   APN C-40A                            $332.0  Funds 4 additional C-40 aircraft in fiscal year 2008. Legacy C-
                                                 9 aircraft cannot meet operational requirement for range/
                                                 payload without significant modernization investment.
   OPN Naval Coastal Warfare              11.0  Funds procurement of new Table of Allowance equipment.
        Equipment                                Equipment replacement required due to accelerated wear in OIF/
                                                 OEF. Includes individual support equipment, C4ISR and
                                                 maintenance of all equipment.
   OPN Explosive Ordnance                  4.9  Funds replacement of worn/outdated tactical vehicles and Civil
        Disposal Table of                        Engineering Support Equipment (CESE).
        Allowance Equipment
   OPN Naval Construction Force           16.1  Funds replacement of tactical vehicles, CESE, and
        Equip-  ment                             communications equipment improving operational support of OEF
                                                 and OIF.
   OPN Navy Expeditionary                  6.0  Funds Navy Reserve tactical vehicles, CESE, communications
        Logistics Support Group                  equipment, material handling equipment, and rough-terrain
        Equipment (NAVELSG)                      cargo handling simulators/small arms simulators--all improve
                                                 operational support of OEF and OIF, not covered in
                                                 Supplemental request.
   APN C-130 Upgrades                     33.3  Supports Navy Reserve squadrons. Upgrade required to comply
                                                 with Communication, Navigation and Surveillance (CNS)/Air
                                                 Traffic Management (ATM) International Civil Aviation
                                                 Organization (ICAO) requirements.
   APN C-9 Upgrades                       32.0  Supports Navy Reserve Squadrons. Required to meet
                                                 International Civil Aviation Organization (ICAO) standards
                                                 due to 2009, 2012, and 2014. Includes procurement of kits and
                                                 installation.
   APN C-40A spare parts                   4.2  Supports Navy Reserve squadrons. Funds spare components and
                                                 repair parts to support the deliveries of new production
                                                 aircraft as well as contractor spares and required support
                                                 equipment.
                                  -------------
             Total                       439.5
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
               Questions Submitted by Senator Ted Stevens

        DOD POLICY ON THE LENGTH OF MOBILIZATIONS FOR RESERVISTS

    Question. VADM Cotton, the Secretary of Defense has a new policy on 
the length of mobilizations for Reservists. What are the positives of 
this policy for the Navy Reserves? What are the negatives?
    Answer. The mobilization policy issued by the Secretary of Defense 
stipulates that an involuntary mobilization period may not exceed 12 
months, excluding time for individual skill training and post-
mobilization leave. Mobilizations should also not occur more frequently 
than a 1:5 ratio (one year mobilized: five years demobilized). Navy 
Reserve Sailors mobilized to support Navy or Marine Corps missions have 
historically been mobilized for one year or less. The involuntary 
mobilization periods for Reserve Sailors who support the Army have 
matched the Army's requirement, and in some cases these periods have 
exceeded 12 months. The new Secretary of Defense policy ensures that 
the quality of service for our Sailors remains high as it ensures they 
will have a predictable and periodic deployment schedule. The Secretary 
of Defense's mobilization policy does not have any negative 
consequences for Navy Reserve.

           ARMY AND USMC END-STRENGTH AFFECT ON NAVY RESERVES

    Question. VADM Cotton, can you please give me your assessment on 
how the surge and increase in the Army and the Marine Corps end-
strength will affect your operational tempo in supporting the global 
war on terror?
    Answer. Since 9/11/2001, over 42,000 Navy Reservists have been 
mobilized in support of the Global War on Terror (GWOT), representing 
over 80 percent of the total number of Sailors deployed on the ground 
in theater. This number includes about 6,000 RC Sailors currently 
mobilized in support of Operations IRAQI FREEDOM and ENDURING FREEDOM, 
and with this steady state requirement Navy Reserve maintains the 
capacity to rapidly increase contingency support with more than 28,000 
additional RC Sailors that have yet to be mobilized. With the increase 
in Army and Marine Corps end-strength, operational support provided by 
the Navy Reserve will remain at a sustainable level.
    Recent initiatives and changes made to the mobilization and 
deployment policies will improve the quality of service for Navy 
Reserve Sailors. Deployment rotations are more periodic and 
predictable, providing our Sailors with the stability and necessary 
dwell time to support the Navy mission while balancing commitments to 
their employers and families.

                     NAVY RESERVE RECRUITING GOALS

    Question. VADM Cotton, the Navy Reserve was the only Reserve 
component to not meet their recruiting goal in fiscal year 2006. What 
incentives are you implementing to meet your goals in fiscal year 2007? 
Do you anticipate meeting your goals in fiscal year 2008?
    Answer. One factor that played an important role in Navy Reserve 
missing recruiting goal is that the skill sets of Sailors leaving the 
Active Component (AC) do not always match the prior service accession 
requirements for Navy Reserve. This is clearly evident in the limited 
number of AC personnel transitioning to RC career fields that are most 
needed for support of the Global War on Terror (GWOT). Navy is 
analyzing the dynamics of Reserve recruiting and has implemented 
several initiatives to improve recruiting performance:
  --A Fleet-to-NOSC (Navy Operational Support Center) program that 
        streamlines the process for enlisting a Sailor who is leaving 
        the AC into Navy Reserve.
  --Additional flexibility in New Accession Training (NAT) and Prior 
        Service mission to meet critical skill requirements and 
        accelerate Navy Reserve personnel through the training 
        pipeline.
  --Implementation of a pilot to retrain prior service Sailors 
        currently in the AC to obtain skill sets required for Navy 
        Reserve GWOT support.
  --Revitalized the direct procurement enlistment program to take 
        advantage of acquired civilian skills when recruiting Reserve 
        Sailors. This program also offers these individuals entry into 
        the Navy Reserve at an advanced pay grade commensurate with 
        their level of experience.
  --Expanded Reserve enlistment incentives for both officer and 
        enlisted programs.
  --Increased the number of officer recruiters by 22 personnel.
  --Increased recruiting advertising resourcing.
    These actions provide increased flexibility and are expected to 
yield higher recruiting numbers in the future. Based on current 
projections, we are cautiously optimistic that these initiatives will 
result in achieving the recruiting goals for enlisted personnel this 
year. Navy Reserve does not expect to reach the officer recruiting 
goals for fiscal year 2007.
    Navy Reserve is unable to comment on the potential to attain the 
recruiting goals for fiscal year 2008 since these goals have not been 
determined to date.

                   NAVY RESERVE EQUIPMENT SHORTFALLS

    Question. VADM Cotton, in fiscal year 2007, the Congress 
appropriated $35 million to you to address ongoing equipment 
shortfalls. How have you utilized that money to meet your service's 
needs?
    Answer. To support hardware procurement, each Navy Warfare 
Enterprise (Air, Surface, Subsurface, Expeditionary, and Networks) 
identifies Reserve Component (RC) requirements for new equipment as 
part of the Navy's resource allocation process. All known deficiencies 
have been addressed through the Navy Warfare Enterprise process. 
Deficiencies have been prioritized and presented to Congress in the 
form of the Chief of Naval Operations Navy Reserve Unfunded Equipment 
Program Requirements List (UPL), submitted March 2007. Please see Table 
1 for the UPL list.
    The Navy is committed to keeping the RC properly equipped. The $35 
million National Guard and Reserve Equipment Appropriation (NGREA) is 
being used to address the following RC equipment requirements:

                                             FISCAL YEAR 2007 NGREA
----------------------------------------------------------------------------------------------------------------
                                    # Units      Cost per
                                   Needed in      Unit in      Cumulative
            Program               Fiscal Year   Fiscal Year       Cost                  Justification
                                     2007          2007
----------------------------------------------------------------------------------------------------------------
Naval Coastal Warfare..........  Various.....  Various.....      $5,946,000  Replacement of over-aged tactical
                                                                              vehicles, CESE, and communications
                                                                              equipment are needed to improve
                                                                              operational support of OEF, OIF
                                                                              and Homeland Defense.
Explosive Ordnance Disposal....  Various.....  Various.....      $2,315,000  EOD reserve personnel require dive
                                                                              and protective gear, up armored
                                                                              vehicles, boats and communications
                                                                              gear to improve operational
                                                                              support of OEF, OIF and Homeland
                                                                              Defense.
Naval Construction Force.......  Various.....  Various.....     $12,258,000  Tactical vehicles, CESE and
                                                                              communications equipment are
                                                                              needed to improve operational
                                                                              support to OEF, OIF and Homeland
                                                                              Defense.
Naval Expeditionary Logistics    Various.....  Various.....      $3,223,000  Tactical vehicles and CESE are
 Support Group.                                                               needed to improve operational
                                                                              support to OEF, OIF and Homeland
                                                                              Defense.
C-130/C-9 Upgrades.............  Various.....  Various.....     $11,258,000  Upgrade C-130 and C-9 aircraft to
                                                                              enhance air logistics capability.
                                                            ----------------
      Total....................  ............  ............     $35,000,000
----------------------------------------------------------------------------------------------------------------

  navy reserve equipment shortfalls in the united states for training
    Question. VADM Cotton, have your units encountered a shortage of 
equipment in the United States for training? What sort of equipment are 
you lacking most?
    Answer. The Navy manages Total Force equipment inventories to 
provide the most capable systems to meet mission requirements and 
minimize the effects of equipment shortfalls and incompatibility. Navy 
stresses interoperability as part of the Total Force concept and makes 
no distinction between the Active Component (AC) and the Reserve 
Component (RC). Equipment acquisition, upgrade programs and equipment 
redistribution from the AC to the RC has reduced problems in reserve 
equipment compatibility and capability with both active and joint 
forces.
    The Navy Warfare Enterprises are establishing requirements and 
funding for RC readiness and training in accordance with the Chief of 
Naval Operations (CNO) Strategic Guidance and consolidating AC and RC 
equipment where feasible, enhancing RC equipment training throughout 
the Navy.
    Deficiencies have been prioritized and presented to Congress in the 
form of the CNO's Navy Reserve Unfunded Equipment Program Requirements 
List (UPL), submitted March 2007 (See Table 1), which includes training 
equipment required to meet the Navy's RC mission.
                                 ______
                                 
       Questions Submitted to Lieutenant General Jack W. Bergman
             Questions Submitted by Senator Robert C. Byrd

               RELIANCE ON RESERVES FOR COMBAT OPERATIONS

    Question. Generals Stultz, Bergman, Bradley, and Admiral Cotton: 
Other than the recently proposed troop level increases, what plans are 
you aware of in the active components of your respective services to 
address the issues requiring such heavy reliance on the Reserves to 
perform routine combat operation activities?
    Answer. The USMC considers both Active Component and Reserve 
Component units as part of the Total Force. Under the Total Force 
Concept, there is very little difference in the capabilities or 
deployability of Active and Reserve units. The Marine Corps understands 
there are significant differences in the make-up of both the Active and 
Reserve components. For this reason the Marine Corps has instituted a 
Reserve Force Generation Plan to effectively train and utilize our 
reserve forces while maintaining their readiness for subsequent tasking 
and providing predictability to our Reserve Marines. Under the Reserve 
Force Generation Plan, our Selected Marine Corps Reserve units maintain 
a 1:4 deployment-to-dwell ratio. By comparison the Active component is 
currently experiencing a 1:1 deployment-to-dwell ratio.
    In order to relieve the pressure on both the Active and Reserve 
components, the Marine Corps is seeking to increase our Active 
Component end strength to 202,000 Marines. This will allow the Active 
Component to move towards a 1:2 deployment-to-dwell ratio and the 
Reserve Component to move towards a 1:5 deployment-to-dwell ratio.

                               EQUIPMENT

    Question. Generals Stultz, Bergman, Bradley, and Admiral Cotton: 
Does your request to this Committee truly reflect all of the 
requirements necessary to accommodate your equipment needs and to 
adequately fund the programs necessary to provide quality support to 
those in the Reserve who are being called upon to serve their country? 
If not, where are the deficiencies and why are they not being 
addressed?
    Answer. We believe that all of our Training Allowance deficiencies 
have been identified in our Program Objective Memorandum, fiscal year 
2007 Supplemental request, fiscal year 2007 National Guard & Reserve 
Equipment Appropriations, fiscal year 2007 Unfunded Priorities List, 
and fiscal year 2008 Supplemental request. If funding is both received 
and executed as currently planned for all of these, we believe that all 
of our current Training Allowance deficiencies will be filled. However, 
if new equipment is not fully procured for our reserve component, if 
requirements increase for current equipment and additional equipment is 
not procured for our reserve component, if additional equipment is 
cross-leveled from our reserve component to our active component, or if 
the identified funding is not received or--for whatever reason--is not 
executed the way they are currently planned, then we will still have 
shortfalls in Training Allowance equipment. We will continue to pursue 
procurement of our full Training Allowances within our Total Force 
effort to equip our Total Force Marine Corps. For non-Table of 
Equipment training systems and simulators, we continue to work with our 
active component to define the requirement and identify additional 
funding needs. As of this date, our training systems and simulator 
requirements have been identified and, in conjunction with our active 
component, we are currently pursuing funding.

           PACE OF CONTINUING OPERATIONS AND STRAIN ON FORCE

    Question. General Bergman, the Marine Forces Reserve recently 
called up 1,800 Individual Ready Reserve Marines. In addition, many 
Marines in the selected reserve have already been deployed more than 
once. Are you concerned that the pace of continuing operations is 
straining your force and could hurt retention levels?
    Answer. Our Marine Reserve is an operational force, and our Reserve 
Marines know, and in fact expect, that they will be called upon in time 
of war. That having been said, every leader, from the fire team on up, 
understands that an important part of sustaining and conserving a unit 
is to include time for rest and resupply in operational planning. We 
have done so within Marine Forces Reserve by creating a Force 
Generation Model that will allow our reserve Marines appropriate dwell 
time between activation periods, along with the ability to predict the 
timeframe when their respective units will be activated. This Force 
Generation Model will enhance our ability to continue to sustain the 
current pace of operations, and prevent excessive strain upon our 
force. As of yet, we have not discerned any significant negative trends 
with respect to retention. We remain vigilant and are continually 
monitoring that important benchmark.

                           STRAIN ON FAMILIES

    Question. General Bergman, what is being done to ease the strain on 
families as Marine Reservists are deployed to Iraq and Afghanistan, 
often for the second time?
    Answer. Marine and Family Services Programs are available at all 
Marine Corps Installations and also serve Independent Duty and Reserve 
units within a 100-mile radius surrounding the installation. These 
programs, which include prevention and counseling services and mobility 
support, can be tailored to meet the needs and desires of Marines and 
families at a specific location and have been appropriately updated to 
support Global War on Terror and other deployment requirements. State 
of the art on-line and by telephone information and referral services 
are the cornerstone of Marine and Family Services Programs and the most 
easily accessed touch point for families of Marine Reservists. Military 
OneSource is a free support service with professionally trained 
consultants that can be reached on-line or by telephone 24/7 and 
provides wide-ranging information and referral services, program 
education materials and resources, and counseling services. Moreover, 
Marine Forces Reserve maintains an information and referral telephone 
contact line to facilitate requests for support.
    The Lifestyle Insights, Networking, Knowledge, and Skills 
(L.I.N.K.S.) and Key Volunteer Network (KVN) Programs also play 
fundamental roles in supporting Marine spouses, regardless of duty 
station or residence. L.I.N.K.S. is a training and mentoring program 
designed by Marine spouses to help new spouses adapt to challenges and 
thrive in the military lifestyle. The KVN, with the unit Family 
Readiness Officer, supports the spouses of the unit Marines by 
providing official communication from the Command and disseminating 
important referral information. Our L.I.N.K.S. and KVN training guides 
have been updated and streamlined to more appropriately address remote 
access and the special challenges of Reserve families. Training for 
these programs is available on-line. Reserve unit Key Volunteers can 
contact Military OneSource and request a ``Know Your Neighborhood'' 
report on all available community support resources to be used as part 
of the ``Local Resources'' portion of their KVN education.
    The Marine Corps has also partnered with the Boys and Girls Clubs 
of America (BGCA) and the National Association for Child Care Resources 
and Referral Agencies (NACCRRA). Under our agreement with BGCA, Reserve 
families can participate in programs at no cost. With NACCRRA, we help 
Reserve families locate affordable child care that is comparable to 
high quality on-base, military operated programs. We have also 
partnered with the Early Head Start National Resource Center Zero to 
Three to expand services in support of family members of Reservists in 
isolated and geographically separated areas.

       SURGE AND END STRENGTH INCREASE AFFECT ON OPTEMPO FOR GWOT

    Question. Lt. Gen. Bergman, can you please give me your assessment 
on how the surge and increase in the Army and the Marine Corps end-
strength will affect your high operational tempo in supporting the 
global war on terror?
    Answer. The surge presents no foreseen negative impact to MFR 
operational tempo because we are using the Force Generation Model for 
current and future sourcing of Marine Corps units in the global war on 
terror. Once the Marine Corps end-strength increase is realized, the 
operational tempo of MFR units should begin to taper off due to less 
need for augmentation/reinforcement of the active component.

                      RESERVE MOBILIZATION LENGTH

    Question. Lt. Gen. Bergman, the Secretary of Defense has a new 
policy on the length of mobilizations for Reservists. What are the 
positives of this policy for the Marine Corps Reserve? What are the 
negatives?
    Answer. The positive aspect of the new policy is that it provides a 
concrete timeline and level of predictability for our Marines, their 
families, and employers of what will be expected of their service in 
the Selected Reserve. It also fits in well with our service deployment 
policy/philosophy in relations to 7 months boots on the ground. As a 
service and for the majority of our Reserve units we were already 
activating them for the period of one year to account for pre-
deployment training/prep (approx 3 months), 7 months boots on the 
ground, and then a month or so of deactivation/decompression.
    As for negatives, those remain to be seen. My primary concern was 
creating a policy written with a focus on predictability for Marines in 
war fighting units. The new policy very positively assists in 
recruiting, equipping, training and sustaining our Marine Reserve 
Force.

                           RESERVE EQUIPMENT

    Question. LtGen Bergman, in fiscal year 2007, the Congress 
appropriated $35 million to you to address ongoing equipment 
shortfalls. How have you utilized that money to meet your service's 
needs?
    Answer. In fiscal year 2007, the Marine Corps Reserve received $35 
million in National Guard and Reserve Equipment Appropriations (NGREA). 
For fiscal year 2007, the Marine Corps Reserve was able to procure 
communication upgrades, a variety of simulators to enhance and sustain 
its individual/unit level readiness and survivability, and critical 
aviation equipment.
    A Communications Package [$4,901,050] was procured for those units 
within each of Marine Forces Reserve's Major Subordinate Commands: the 
4th Marine Aircraft Wing (MAW); 4th Marine Logistics Group (MLG); and, 
4th Marine Division (MARDIV). This procurement will ensure MFR units 
receive adequate and effective training on current communications 
technology before deploying for operations. The Communications Package 
includes:
  --Enhanced Communications Equipment [$1,436,050].--This package 
        encompasses the communications requirements for several units 
        within MFR's major subordinate commands (MAW, MLG and MARDIV). 
        Over the past decade the requirements on communications systems 
        have increased significantly. In order to meet these 
        requirements, modernization of current communications equipment 
        is needed. This package will ensure MFR units receive 
        sufficient and valuable training before overseas deployments in 
        support of the GWOT and improve data network storage, 
        information restoration capability, and network speed for 
        critical MLG data networks. Improved storage capabilities 
        enhance hardware and information survivability in extreme 
        environments.
  --Logistics SWAN (LSWAN) Package (MLG units) [$3,465,000].--The LSWAN 
        provides an organic, long haul, over the horizon satellite 
        system providing wideband C4 transmission paths to support 
        internal communications requirements within the MLG's area of 
        operations.
    In comparison with the Active Component, Reserve Component training 
is severely limited by time, geography, and training evolution 
availability.
    Furthermore, Reserve Training Centers are not equipped with the 
hardware assets to allow group and/or non-NMCI compliant computer-based 
training. Successful mitigation of these deficiencies has involved an 
increased investment in simulation. Broad advances in quality of 
simulation technologies combined with live training have proved to be a 
wise course of action. The Simulation Package [$11,895,000] includes:
  --Deployable Virtual Training Environment (DVTE)[$1,170,000].--The 
        DVTE allows deploying units at their home station to take full 
        advantage of the numerous Marine Corps program of record 
        software that is currently non-NMCI compliant as their training 
        schedule permits. The DVTE also provides Marines with access to 
        electronic courseware while they are deployed aboard ship or 
        from remote locations ashore.
  --Virtual Combat Convoy System (VCCS) [$4,900,000].--The VCCS trains 
        Marines in basic and advanced convoy skills using variable 
        terrain and roads in a variety of weather, visibility, and 
        vehicle operational conditions. It incorporates small arms and 
        crew served weapons response training, provides mission 
        preview/mission rehearsal capability, provides training on fire 
        coordination between vehicles, call for fire, close air support 
        coordination, communication, and MedEvac.
  --Basic Indirect Fire and Forward Air Control Trainer (IFACT) 
        [$1,875,000].--The IFACT reduces geographic and training time 
        constraints at a significant cost savings when compared to live 
        fire exercises. Using computer generated video simulation in 
        conjunction with computer simulated aircraft control stations; 
        IFACT provides the capability to train Forward Observers, Naval 
        Gunfire Liaison Officers, Fire Support Planners, Joint Tactical 
        Air Control Operators, and pilots.
  --Medium Tactical Vehicle Replacement--Training System (MTVR-TS) 
        [$3,950,000].--MTVR-TS is a vehicle simulator used for training 
        Marines in the operation of the MTVR. Procurement of this 
        mobile simulator will allow MTVR equipped Reserve units to 
        receive essential training in a safe and controlled 
        environment, regardless of training range availability or 
        weather conditions, thereby better preparing Marines for 
        operating a MTVR in combat conditions.
    Aviation equipment [$17,023,000] was procured to ensure aircraft 
component compatibility with our Active Duty counterparts as well as 
provide a critical upgrade to KC-130T communications systems. The 
Aviation Package includes:
  --Litening II Targeting Pod & modification/installation kits 
        [$7,308,000].--The capability and functionality of the Litening 
        AT/ISR generation Pod provides Air-to-Ground Electro-Optical 
        (EO) and Infrared (IR) Targeting; Air-to-Ground Laser 
        Designation, Ranging, and Marking; Laser Spot Tracker (LST) 
        targeting in support of Forward Air Controller/Airborne (FAC/A) 
        Missions and Laser Guided Weapon Delivery. This purchase will 
        ensure Reserve F/A-18A+ aircraft can effectively and 
        competently support the Litening II mission, when activated.
  --KC-130T AN/ARC-210(V) Multi-mode Radio System [$1,715,000].--The 
        AN/ARC-210(V) multimode integrated communications system is 
        designed to provide multimode voice and data communications in 
        either normal or jam-resistant modes in line-of-sight or 
        satellite communications modes. Procuring this radio system 
        upgrades all 28 Reserve KC-130T assets to a common operational 
        SATCOM configuration.
  --UC-12+ Aircraft [$8,000,000].--The current UC-12 aircraft's 
        shortcomings, such as the inability to carry outsize cargo due 
        to lack of a cargo door, insufficient self protection, and the 
        lack of unprepared landing capability negatively impact short 
        haul Operational Support Airlift (OSA) missions in theater. The 
        purchase of the UC-12+ aircraft will alleviate these 
        shortcomings and provide the required support for urgent intra-
        theater lift.
    Other equipment [$1,180,950] was procured to ensure systems 
compatibility with our Active Duty counterparts as well as provide 
critical systems for SMCR units. The other equipment includes:
  --Defense Advanced GPS Receiver (DAGR) [$280,950].--The DAGR provides 
        real-time position, velocity, navigation, and timing 
        information for the conduct and support of operations by SMCR 
        units.
  --Sensor Mobile Monitoring Systems--2nd Generation (SMMS II) 
        [$900,000].--SMMS II provides our Ground Sensor unit with 
        improved communications capabilities, organic mobility to 
        support maneuver elements, and the ability to monitor sensors 
        while on the move. Procurement of this equipment ensures parity 
        with active component counterpart units, commonality of 
        training, and production of the full range of Ground Sensor 
        unit capabilities.
    The continued appropriation of NGREA dollars allows us to react 
when certain essential equipment requirements fall below the priority 
funding line.

                           RESERVE RECRUITING

    Question. Lt. Gen. Bergman, it was noted that the Marine Corps 
Reserve had exceeded recruiting goals so far this year. What specific 
tools do you believe have been the most effective for recruiting?
    Answer. The Marine Corps sustains success through sound leadership, 
effective training and our most effective asset (``tool'')--THE MARINE 
RECRUITER. Your continued efforts to provide budget support for 
recruiting initiatives also help your Marines win on the recruiting 
battlefield.

                           TRAINING EQUIPMENT

    Question. LtGen Bergman, have your units encountered a shortage of 
equipment in the United States for training? What sort of equipment are 
you lacking most?
    Answer. Due to equipment provided to OIF, we have incurred an 
approximate 10 percent degradation to our Training Allowance across all 
commodity areas. The most critical of these is in communications 
assets. However, some of this will be alleviated with the fielding of 
new communication equipment expected this fall. For aviation assets the 
F/A-18A+ LITENING Pods remain our main concern. fiscal year 2007 NGREA 
dollars have funded three of 10 required.

                          SUBCOMMITTEE RECESS

    Senator Inouye. Our next meeting will be on Wednesday, 
April 25 at 10:30 a.m. At that time, we will receive testimony 
for the fiscal year 2008 budget from the Missile Defense 
Agency. Until then, we stand in recess.
    [Whereupon, at 12:45 p.m., Wednesday, April 11, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
April 25.]

</pre></body></html>
